<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



           
 
                       ENERGY AND WATER DEVELOPMENT
                         APPROPRIATIONS FOR 2018

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                            ____________

              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT,
                          AND RELATED AGENCIES

                   MICHAEL K. SIMPSON, Idaho, Chairman

  KEN CALVERT, California                        MARCY KAPTUR, Ohio
  CHARLES J. FLEISCHMANN, Tennessee              PETER J. VISCLOSKY, Indiana
  JEFF FORTENBERRY, Nebraska                     DEBBIE WASSERMAN SCHULTZ, Florida
  KAY GRANGER, Texas                             PETER AGUILAR, California
  JAIME HERRERA BEUTLER, Washington              JOSE E. SERRANO, New York
  DAVID P. JOYCE, Ohio
  DAN NEWHOUSE, Washington

  
  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

           Donna Shahbaz, Angie Giancarlo, Loraine Heckenberg,
                       Perry Yates, and Amy Murphy
                            Subcommittee Staff

                               ___________

                                  PART 5

                                                                   Page
                                                                   
  Testimony of Interested Members of Congress ....................    1
                                                                      
  Testimony of Interested Individuals and Organizations ..........  121
                                                                   
  U.S. Army Corps of Engineers (Civil Works)
  and Bureau of Reclamation ......................................  323
                
  Department of Energy............................................  409
  
                                                                   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   
                         _________

          Printed for the use of the Committee on Appropriations

                         _________

             U.S. GOVERNMENT PUBLISHING OFFICE

  28-306              WASHINGTON: 2018

                             


                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\             NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama             MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                      PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho               JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas             ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                   DAVID E. PRICE, North Carolina
  KEN CALVERT, California                 LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                      SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida              BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania           BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                     TIM RYAN, Ohio
  KEVIN YODER, Kansas                     C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                  DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska              HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida               CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee       MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington       DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                    MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California            GRACE MENG, New York
  ANDY HARRIS, Maryland                   MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                    KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                  PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus

  
                   Nancy Fox, Clerk and Staff Director

                                   (ii)
                                   
                                   


 ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2018

                              ----------                              


                                          Wednesday, March 8, 2017.

                              MEMBERS' DAY

    Mr. Simpson. The hearing will come to order, and today we 
have a Members' hearing for Members of the Congress to come 
testify before--sorry, I didn't put it on. Today we have a 
Members hearing for Members to come and testify before Congress 
about areas of importance in the Energy and Water Appropriation 
bill, and we are happy to welcome all Members of Congress that 
have comments to make and suggestions for us.
    We are happy to welcome two Members today, Rick Nolan from 
Minnesota, and Francis Rooney from Florida.
    Rick, it is your time to give us our testimony. The floor 
is yours.
                              ----------                             


                                          Wednesday, March 8, 2017.

                                WITNESS

HON. RICHARD M. NOLAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
    Mr. Nolan. Thank you, Mr. Chairman. Thank you, members of 
the committee, and thank you for all the great work you have 
done.
    Mr. Simpson. Turn your mic on, please.
    Mr. Nolan. Thank you, Mr. Chairman, and thank you, members 
of the committee, for hearing from us, and thank you for all 
the great work that this committee has done for this country. 
Much appreciated.
    I wanted to just briefly talk about the Poe Lock at the Soo 
Narrows, and I am sure you are probably familiar with it, but I 
do want to remind you that about a year-and-a-half, 2 years 
ago, Homeland Security did a study, and they found that 13 
percent of the Nation's gross national product goes through the 
locks at the Soo Narrows, and that is how all the mining in 
business and agriculture and industry from Lake Superior gets 
into the Great Lakes and into the Saint Lawrence Seaway. 
Thirteen percent of Nation's gross national product goes 
through those locks.
    And Homeland Security concluded, among other things, that 
if those locks failed us for any reason, it would throw the 
country into a great depression, put as many as 7 to 10 million 
people out of work, and countless businesses out of business, 
not just throughout the midwest, but as far west as California 
and as far east as New York, and as far south as Florida and 
Texas.
    Why? Well, much of that product that goes through there is 
ore from the mines in Minnesota, Wisconsin; and they, of 
course, fuel the steel mills of the Great Lakes which, in turn, 
fund the--or supply the automobile industry and all the 
manufacturing and industries throughout the Great Lakes region. 
It is a very, very powerful part of our country. In fact, the 
study concluded that the economy of the Great Lakes, if it were 
a nation by itself, would be the fourth most powerful economic 
nation in the world.
    So that is why we have military protection at the Soo Locks 
to protect us against some kind of, you know, terrorist or 
asymmetrical military attack. But the simple truth is, the 
locks are becoming very, very obsolete, and badly in need of 
repair. They are not large enough to accommodate the--today's 
most modern Lakers, the ships that haul so much of the grain 
and the iron ore, and they are badly and desperately in need of 
replacement. The price tag is enormous. It is estimated to be 
as much as $600 million to replace that Poe Lock, which is 
falling apart, and to create a redundancy and a support of lock 
to keep that commerce flowing throughout the country.
    I want to applaud this committee for appropriating $1.35 
million to do a cost-and-feasibility analysis so that we could 
get on with repairing this critically important part of our 
national security and our national economy, but bring to the 
attention of the committee the profound need to begin the 
process of funding this new lock, which is so critical to our 
economy, so that we can protect ourselves, continue to protect 
ourselves from a military attack, from natural disaster, or 
something we are totally in control of which is protect 
ourselves against negligence, and not stepping up to do the 
kinds of replacements and repairs that are necessary.
    So beyond that, Mr. Chairman, I won't take a whole lot of 
your time. I want to thank you for the work that you have done 
on invasive species as well. Up in my district in particular, 
we have the Mississippi watershed, we have the St. Louis 
watershed going into the Great Lakes, we have the Rainy Lake 
watershed going up into the boundary waters. We are water rich, 
and among other things, we need to protect that and protect 
ourselves from the multitude of invasive species that threaten 
the health of our fish and wildlife and waters.
    So thank you very much, Mr. Chairman. Be glad to take any 
questions any of you might have, and thank you for the work 
that you do here. It is very important to our country, our 
economy, and I would hope that this could be part of President 
Trump's $1 trillion infrastructure plan. It certainly needs to 
be considered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Simpson. Thank you, Congressman. Does any member have 
any questions? Ms. Kaptur.
    Ms. Kaptur. You know I can't let this moment go by.
    Mr. Simpson. I knew that.
    Ms. Kaptur. Thank you, Mr. Chairman, and thank you, 
Representative Nolan. What an outstanding representative you 
are, including for the Great Lakes, and I just wanted to ask 
you: Obviously, I am a great supporter of the study that is--we 
have funded, but I wondered if you have been privy, as a 
representative from Duluth, of any engineering studies that may 
have been done by the private sector that talk about the future 
of the seaway as a modern seaway. It was built during the 
Eisenhower era. It is over a half century old now.
    In terms of the width of the locks, right now you mention 
in your testimony, 13 Lakers heavily involved in the steel 
industry hauling ore, but what would be the proper width? What 
would be the proper dimension of the seaway from your region on 
down all the way to Messina? Have you seen such an engineering 
study to modernize the seaway?
    Mr. Nolan. Well, I have seen some of them. I can tell you 
right now, that the Lakers are operating at only about 80 
percent of capacity just because there has not been enough 
money put into the necessary dredging programs, and the locks 
are not even capable of handling the larger Lakers or the next 
generation of Lakers, and this is costing our country, oh, my 
gosh, the estimates are, you know, up into the billions of 
economic growth and income to the country.
    So I should know this, but is this committee responsible 
for the Harbor Maintenance Trust Fund?
    Mr. Simpson. Yes.
    Mr. Nolan. Well, that is what I thought, and you know, I 
think there is a balance in there of about $7 billion, and we 
all applaud bipartisanship, and to be sure, we should. I must 
say, there are cases where bipartisanship is not necessarily so 
good, because I think both Democrats and Republicans have 
raided that fund for other purposes.
    So I would strongly urge the committee, when it comes to 
that Harbor Maintenance Trust Fund, to see to it that more of 
those monies, which are paid for by the Lakers, that is a use 
tax, to maintain and upgrade the Great Lakes seaway system, 
which has just fallen terribly far behind, and I would strongly 
urge you to use your authority here to make sure that more of 
those Harbor Maintenance Trust Funds are dedicated to what they 
were established for, which is maintaining the Great Lakes 
seaway system. It is so vital to our economy and our well-being 
and the creation of good-paying jobs in this country.
    Ms. Kaptur. I thank you for making that linkage, and also 
just to say, in closing, that if you have recommendations of 
firms, of studies, of individuals on the engineering side that 
could meet with our Great Lakes task force and provide 
information to this committee, this subcommittee, I think I 
would be very appreciative of that.
    We have our regular big meeting in May coming up, but I 
think we need have a vision of the seaway and where the locks 
you referenced fit. But there is a bigger vision that, I think, 
actually, this committee has not been apprised of and of 
options, and other places in the country are much better 
organized, speaking very frankly, in terms of a vision for how 
to modernize their coastal ports or their regional assets, and 
I think that we need stronger voices, and yours is one of 
those. So I would just urge you to help us pull together that 
information in a coherent manner, and I thank you very much for 
your testimony.
    Thank you, Mr. Chairman, for your indulgence and the 
committee's indulgence.
    Mr. Simpson. Any other members have any question?
    Yeah, and I appreciate your point now. I think it is about 
$9 billion that is in the Harbor Maintenance Trust Fund. We 
haven't used it for anything else. We can't use it within our 
budget, which is kind of weird, because of budget rules and 
what it would do to our overall budget and stuff, so we have 
got to find a way around that.
    The Transportation Committee tried to do that last year and 
was kind of shot down on it, but we are working on it. That is 
something we still need to do, because you shouldn't be 
collecting a tax to address a need and just growing more and 
more money in that if you are not addressing the need. That is 
something this committee recognizes, and we need to get 
Congress to recognize that also. So I appreciate your 
testimony, and thank you for being here today.
    Mr. Nolan. Thank you, Mr. Chairman and members of the 
committee.
    Mr. Simpson. Mr. Rooney.
                              ----------                              --


                                          Wednesday, March 8, 2017.

                                WITNESS

HON. FRANCIS ROONEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Rooney. Yes. Thank you, Mr. Chairman and members of the 
committee for giving me the opportunity to speak today about 
the Everglades as well as for all of the important things you 
have done in the past for the Everglades for so many important 
infrastructure projects in the country.
    The Everglades and Lake Okeechobee watershed include 16 
counties and 164 cities. It has a $2 trillion economic impact 
on the State of Florida, and supports 55 percent, 1.3 trillion 
of the real estate value in Florida. For every dollar invested 
in the Everglades and Okeechobee watershed, $4 of economic 
benefits are produced.
    Due to a century of development, the greater Everglades' 
ecosystem is now less than one-half of its original size. The 
rest of it is Miami and Ft. Lauderdale now, and Lake Okeechobee 
fills up six times faster than it can be drained, which results 
in massive discharges into the adjacent rivers and marshes, and 
sends untreated water down into them.
    It also impacts the delicate balance of fresh and saline 
water in the ecosystem. The Comprehensive Everglades 
Restoration Plan, or CERP, seeks to restore the balance to 
these delicate ecosystems and reduce harmful discharges in the 
Caloosahatchee and St. Lucie estuaries and send clean water 
south into the marshes of the Everglades of Florida Bay.
    CERP was created by the Congress in the State of Florida in 
2000. It includes 68 projects that will combine to create 
storage, treatment, and flow southward into the marshes of the 
Everglades; storage and treatment of water entering into Lake 
Okeechobee from the north, and you all have funded the 
Kissimmee restoration, which is a big part of that; and 
balancing of the flows to control salinity. CERP was set up to 
share the cost 50/50 between the State and the Federal 
Government, and as of December 2016, the State had expended 
about $2.2 billion, and the Federal Government had contributed 
about $1.26 billion, so it is a 63 to 37 percent split instead 
of 50/50, and so we think that the Federal Government has some 
catching up to do if we could get the money.
    In fact, there are three projects that were authorized way 
back in the 19--in the 2007 WRRDA bill, which are still 
incomplete, the site 1 impoundment over by Palm Beach in the 
Loxahatchee Wildlife Refuge, the Picayune Strand project in 
Collier County, and the Indian River Lagoon, or C-44, along the 
St. Lucie Canal. The cost to complete these three projects is 
$3.3 billion, most of which is centered in the C-44 basin.
    Additionally, there are four projects from the 2014 WRRDA 
bill which have not been completed; the C-43 West Storage Basin 
in LaBelle; the C-111 Spreader Canal on the east side of 
Miami--west side of the Miami, and what this will do is keep 
Miami pollution from seeping back into the Everglades from the 
east; the Broward County water preserve area; and the Biscayne 
Bay Coastal Wetlands project. You can see they are all around 
the lake; it is not just centered in one area. Each of these 
projects is essential to completing the whole mosaic of 
restoring the watershed and the Everglades.
    The cost to complete these projects is $1.7 billion, but 
the State of Florida will pay $800 million of that to complete 
C-43. It is worth noting how robust and vibrant is the 
partnership between South Florida Water Management and the U.S. 
Army Corps of Engineers. It is a great example of two areas of 
government working very well together. In the case of C-43, 
there were no Federal appropriations, so the State decided to 
go ahead and do the whole thing, and hopefully the Federal 
Government can catch up on some of these other projects that 
would offset that.
    The 2016 WRRDA bill contained several new CERP 
authorizations, one of which is the Central Everglades Planning 
Project, which is six projects for $1.9 billion, which 
constructs a whole series of projects to bring 210,000-acre 
feet of Lake Okeechobee water down into the Everglades into 
storage treatment basins, and then into the water conservation 
areas and down into the national park.
    The CERP includes several features, including backfilling 
of some canals that impede the flow of the water, and removing 
of some old levees and roads, and construction of a 15,000-acre 
foot Flow Equalization Basin, just west of an existing one that 
was recently built by the State of Florida. The one that was 
built by the State of Florida was taking in water of 400 parts 
per billion of dissolved pollutants, mostly phosphates, and 
turning it out at 10 or 12. So these are very effective 
devices, and so this is a great opportunity to expand that.
    The second WRRDA authorization project is to finish the 
Picayune Strand. That is a 55,000-acre of drained wetlands in 
Collier County, which also has flood control aspects of 
draining several neighborhoods to the north and it is last 133 
million of that.
    So and lastly, in addition to these projects, the Corps is 
responsible for the repair and replacement of the Hoover Dike, 
which was built in the 1930s to prevent some of the terrible 
floods that happened then. And it wasn't constructed all that 
well. Construction back then was done differently than 
constructions done now, and the Corps has done the first 40 
miles, and there is about two-thirds left to complete. That is 
$800 million.
    So basically, the Corps has supplied a high of $120 million 
back in 2010, and we are down to a low of, like, $69 million 
last year, so we are hoping that we can continue to demonstrate 
how important these projects are, and that we try to keep them 
moving forward to the extent that the committee can fit that 
into your, I know, very difficult work schedule and great 
demands for your money, but I appreciate your time today. Thank 
you very much.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Simpson. Thank you. I appreciate you, Congressman 
Rooney. Questions?
    Ms. Kaptur. No questions. I just thank Representative 
Rooney for being such an articulate spokesman for the 
Everglades and for your region. You really fight for her. Your 
constituents are fortunate.
    Ms. Rooney. Thank you, ma'am.
    Mr. Calvert. Thanks for coming down. I am looking forward 
to entertaining you there and check it out.
    Mr. Simpson. This committee has a lot to do with it, too. 
Obviously, from the Interior Subcommittee, so both the 
committee--the Interior Committee have a lot to do with funding 
the restoration of the Everglades and trying to get it back 
into shape, and we will be down there as soon as you get rid of 
those pythons.
    Mr. Rooney. We might have to get you down sooner than that, 
Mr. Simpson.
    Mr. Simpson. Thank you.
    Mr. Rooney. Thank you very much.
    Mr. Joyce. Mr. Chairman.
    Mr. Simpson. Mr. Joyce.
    Mr. Joyce. I would like to point out that I had the 
opportunity to go down and tour with the Everglades Foundation, 
and they have the same algal water problem, algal blooms, that 
we suffer in Lake Erie, and there are a lot of good projects 
that are being done, and so any way we could help Congressman 
Rooney along these lines would be, I am sure, deeply 
appreciated by the people down there.
    It is hard to fathom that they push out a half trillion 
gallons of freshwater into the ocean every year because they 
can't contain it in the Everglades, and as we all know, those 
are nature's kidneys, so the more we can do to help them, the 
better off the Everglades will be.
    Mr. Simpson. Thank you. Thank you. I appreciate you being 
here today, Congressman Rooney.
    Congressman Comer.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. JAMES COMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    KENTUCKY
    Mr. Comer. Thank you. Chairman Simpson, Ranking Member 
Kaptur, thank you for the opportunity to testify regarding the 
fiscal year 2018 Energy and Water Development and Related 
Agencies Appropriations bill. I testify to urge adequate 
funding for two very important projects to the First District 
of Kentucky, the Paducah Department of Energy cleanup site, and 
the Kentucky Lock Addition Project.
    First, I ask this committee to fully fund the Paducah 
Department of Energy cleanup site. As you may know, in 1959, 
the Paducah Gaseous Diffusion Plant opened to support this 
country's nuclear weapons program, and later transitioned to 
produce nuclear fuel for commercial power plants. Because of 
this work, significant amounts of contaminated soil and 
groundwater remain at the site. Deactivation and cleanup work 
began in July 2014, and while much progress has been made, 
there is still much work yet to do.
    Funding closer to the fiscal year 2014 level is imperative 
to allow the Department of Energy to accelerate the C-400 
building cleanout project, which is connected to hazards 
associated with historic groundwater contamination.
    Second, I ask this committee to adequately fund the Army 
Corps of Engineers' construction account to continue the work 
of upgrading our waterways infrastructure. The Kentucky Lock 
Addition Project in my district is an example of a much-needed 
project that would benefit from adequate funding for Corps 
construction.
    The Kentucky Lock Addition Project was authorized in the 
Water Resources Development Act of 1996. This project includes 
design and construction of a new 110-by-1200 lock to be located 
landward of the existing 110-by-600 lock. Products originated--
originating from or designated to 20 States pass through 
Kentucky Lock.
    Since most of the tows are greater than 600 feet in length, 
they must perform a very time-consuming double lockage to 
transit through the existing 600-foot--600-foot long Kentucky 
Lock. As a result, Kentucky Lock has some of the longest 
average delay times of any lock in the inland waterway system, 
with the average delay of over 8 hours.
    Recently, the Inland Waterways User Board learned that the 
total project cost would increase by $380 million to $1.2 
billion due to the uncertainty of sufficient funding. Without 
sufficient funding, the expected completion date of 2024 will 
add at least 5 years.
    Therefore, I respectfully request that the U.S. Army Corps 
of Engineers' construction account receive sufficient funding 
to avoid delays to completion of projects like the Kentucky 
Lock Addition and escalating project prices.
    Thank you for the opportunity to testify today, and if 
anyone has any questions, I will be happy to answer them.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       Mr. Simpson. Thank you for being here today and testifying 
on these programs.
    Are there any questions? Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman. I just wanted to say 
that I appreciate Mr. Comer's bringing to our attention the 
nuclear waste issues that you have in your district. I can 
certainly relate to the challenges and the importance of 
nuclear waste cleanup. We have a similar situation in my own 
district, and I just wanted to thank you for pointing that out, 
and also talking about the urgency of getting that kind of work 
done.
    Mr. Comer. Thank you.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Mr. Simpson. Any further questions? Hearing none, thank you 
for being here today. We appreciate it very much.
    Mr. Comer. Thank you for your hard work.
    Mr. Simpson. We are waiting for our next witnesses that--we 
have some breaks in the schedule as people decided not to 
testify, originally signed up and a few things like that, so we 
are kind of waiting for the next ones to show up here, but let 
me just take a moment to welcome the three new members that are 
here to our subcommittee. Congressman Newhouse from Washington, 
Congressman Joyce, and Congressman Aguilar, thank you for being 
here today, and you will find this is an interesting committee 
when we get into a lot of these different subjects and stuff 
that a lot of people don't know a lot about, so----
    Mr. Newhouse. Thank you.
    Mr. Joyce. Thank you.
    Mr. Simpson. If nothing else, we will take a brief pause--
--
    Mr. Calvert. Have a donut.
    Mr. Simpson. Have a donut--for the others to show up.
    [Recess.]
    Mr. Simpson. Okay. The committee will be back in order. We 
now welcome to--we are now happy to welcome Mr. Panetta from 
California to testify before the committee. The floor is yours 
for 5 minutes.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. JIMMY PANETTA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Panetta. Great. Thank you, Mr. Chairman. I appreciate 
that, Ranking Member Kaptur, other members of the committee. 
Thank you very much for this opportunity. I appreciate it. It 
is an honor to be here, as always.
    As many of you know or may not know, my family, I represent 
California's 20th Congressional District on the central coast. 
My family has deep roots in that area. My grandfather, an 
Italian immigrant, came to that area, my father was raised in 
that area, I was raised in that area, and now it is where my 
wife and I raise our two daughters. I am proud of that area not 
only because it is my home, but because I feel it has the most 
beautiful environment as well as the most bountiful 
agriculture.
    With both those traits, as you can imagine, we are 
constantly trying to find a balance, environmentally, 
economically, obviously politically, and with both those 
qualities, though, we are also trying to find effective water 
infrastructure, which is critical to that area. It ensures the 
environmental protection and it--which facilitates the economic 
activity of that area.
    And so today, I want to bring to your attention an ongoing 
Army Corps of Engineering project that does threaten the safety 
of the residents of a certain area in my district and the 
viability of the agricultural businesses of that same area. It 
is the Pajaro River Project. That consists of a series of 
levees built to protect the cities of Watsonville and Pajaro 
from flooding. Originally, these towns were settled by a large 
Croatian, Japanese, and Italian immigrant communities who came 
there to work the land, and yes, like my grandfather, to live 
the American dream.
    Today, immigrants, mainly of Latino descent, continue to 
come to this area, work in the fields, and yes, contribute to 
our community. The Pajaro River Project was originally 
constructed in 1949 to protect the people of those communities. 
However, the Corps and the community have recognized that that 
project's flood protection has been inadequate. Watsonville 
only has a 25-year flood protection, and the town of Pajaro 
only has a 7-year protection.
    The levees have received a patchwork of repairs over the 
years, but that does not address the necessary flood 
protection, nor does it safeguard the citizens from harm, and 
even the Corps has estimated that there is an 82 percent threat 
of flood in the next decade.
    One of the most glaring examples of this type of threat was 
in 1995, where there was a large flood that dramatically 
impacted the locals in that area. It resulted in over $95 
million in damage to the surrounding communities, and hundreds 
of people were displaced as a result of it.
    One local who was personally impacted by that flood was a 
rose grower named Eugene Tsugi, T-s-u-g-i. His business, 2G 
Roses, was inundated with floodwaters. His home, as well as his 
sister's home, were damaged by floodwater. In fact, the damages 
that he sustained were well over $1 million. He used to joke 
that his son, who was born 2 days after the flood, would go to 
college before the levees in that area were repaired.
    Well, unfortunately, due to a lack of action by the Army 
Corps of Engineers, that prediction was true. His son today is 
now an All American gymnast and a junior at the University of 
Washington near Seattle.
    In 2015, the Pajaro Project was incorporated into the Corps 
3 years SMART planning timeline, with a deadline of March 2018 
for the completion of a feasibility study, and environmental 
impact statement. The Corps has failed to keep the project on 
schedule. Though the locals have fronted 3.2 million to date to 
keep the project moving, the project is still an estimated 18 
months behind schedule. It is an ongoing threat to the 
community. In the last 8 months, the community has spent 1.5 
million on emergency damage response.
    The local non-Federal sponsors would like to keep this 
project moving, but they feel the Corps are not responsive, and 
it continues to be a threat to the safety of its local 
residents. Although last month, I met with Major General 
Jackson from the Army Corps to discuss the delays associated 
with this project, I found him to be very responsive. In fact, 
he is going to be traveling to the district to witness the 
project firsthand, and I hope that he sees the communities 
affected by the flooding, and he gets to hear from individuals 
who have suffered the damages from flooding, either to the 
property, and especially the agricultural businesses.
    So today, I ask the committee for continued funding for 
these water projects. It is an investment in these projects 
that are critical for the communities who rely on them for 
safety and economic prosperity. When making these investments, 
we should ensure that we are holding the Corps accountable to 
their own timelines. I urge the inclusion of report language 
requiring the Corps to provide an update on the current status 
and timeline moving forward of all projects subject to the 3-
year SMART planning criteria within 90 days of the passage of 
this act. This would allow for increased oversight for the 
committee, while also increasing the accountability to local 
non-Federal sponsors.
    To ensure that the value of agriculture land is 
appropriately calculated when conducting cost-benefit analysis, 
more work is needed. Agricultural land in the Pajaro Valley is 
some of the most valuable in the county. When flooding, these 
farms often miss multiple growing seasons as they address 
environmental and flood safety concerns.
    I have heard from locals that they believe that their 
agricultural land has been undervalued because the only value 
of the physical crop damage was accounted for. I also urge the 
inclusion of report language directing the Corps to incorporate 
the full economic value of agricultural land when completing 
its cost-benefit analysis.
    This would make projects in rural communities more 
competitive for adoption into the Corps work plan by more 
accurately valuing the economic impact of agricultural 
production.
    I thank you for your time. I look forward to working with 
you to advance the health, safety, and economic liability of 
our rural communities depending on these investments and our 
water infrastructure. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
       
    Mr. Simpson. Thank you, Congressman. I appreciate you being 
here today and bringing us up to speed on what is happening in 
your area per your request.
    Are there any questions?
    Mr. Aguilar. Congressman, what crops are at risk directly? 
What is the kind of the primary--I know there is a lot, a lot 
there, but can you give us a bit of flavor?
    Mr. Panetta. Of course. Look, in that area, it is the salad 
bowl of the world, as you know, Pete. It is an area that has, 
you name it, we got it. Strawberries are the main crop in that 
area, brussel sprouts, raspberries, artichokes, leafy greens, 
spinach, you know, I can go on and on. There is over--that area 
has over 100 crops. More crops on the central coast are grown 
than any other single State. These are areas that basically 
feed the Nation. It puts these types of crops onto the shelves 
of our stores, and eventually onto the tables that our 
families--so our families can eat it.
    Mr. Aguilar. Thank you
    Mr. Simpson. You had me till you said brussel sprouts. Ken 
and I argue about the value of brussel sprouts all the time. If 
there are no other questions, thank you for being here today. 
We appreciate it appearing before the committee.
    Mr. Newhouse. Mr. Chairman, I just wanted to say that Mr. 
Calvert, I am sure, would lead a trip. This is a very terrible 
place in the world to visit at any given point.
    Mr. Simpson. I understand it is fairly ugly, too.
    Mr. Aguilar. Yes, so it might deserve some more thought.
    Mr. Newhouse. Mr. Chairman, just one short question.
    Mr. Simpson. Mr. Newhouse.
    Mr. Newhouse. I appreciate that. Thank you. First of all, I 
wanted to compliment your constituents' excellent choice of 
looking north for quality education, but in light--and thank 
you for your effort to preserve valuable farmland in the State 
of California. In light of all the precipitation that we have 
gotten in the West Coast this year, is that exacerbating the 
problem as far as the flood concerns are right there in that 
area?
    Mr. Panetta. You know, the obvious answer is yes, there is 
no doubt about that. But it is funny, during last year, you 
know, I went to a meeting where hundreds of community members 
showed up before the rains, and it has been an ongoing issue 
with them. So it is not just the rains that have highlighted 
this issue. This is something that if you live in that area, if 
you work in that area, if you do agriculture in this area, you 
know the risk that it can pose to that area.
    And so, yes, it is obviously highlighted. They had to put 
$1.5 million in damage repair because of the flooding that we 
experienced, but this is going to keep on going and going if it 
is not fixed any time soon.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Mr. Simpson. I will say this, Congressman Farr, your 
predecessor, approached me even a couple of years ago about 
this while it was not all these heavy rains and everything was 
not the issue. It was that there was no water at the time, but 
he still recognized the problem that we had there, so thank you 
for carrying on on that.
    Mr. Panetta. You bet. Thank you. Thank you to the 
committee.
    Mr. Simpson. Thank you for being here.
    Mr. Panetta. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Mast, Congressman Mast, good to have you 
here today.
    Mr. Mast. Good to be here, sir.
    Mr. Simpson. The floor is yours for 5 minutes to testify on 
what you would like to see this committee do.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. BRIAN J. MAST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Mast. I appreciate it, sir. Chairman, Ranking Member 
Kaptur, the rest of you members here, I appreciate you letting 
me address you. I am here to advocate on behalf of robust 
funding to for the U.S. Army Corps of Engineers, basically to 
advance and expand their river and harbor maintenance, flood 
and storm damage reduction, shore protection, and environmental 
restoration missions.
    In my Florida congressional district, which spans St. 
Lucie, Martin, and Palm Beach Counties, the most pressing issue 
that folks face really, there are harmful and unnatural massive 
discharges, sometimes up to 7 million gallons of freshwater per 
minute that are directed by the Corps of Engineers out of Lake 
Okeechobee and into the heart of our coastal saltwater 
community. These discharges, they are imposed by the Federal 
Government, and they turn the St. Lucie River and our 
Nation's--really the Nation's most species-diverse saltwater 
estuary, the Indian River Lagoon, into an algae-infested toxic 
waterway that surrounds hundreds of thousands of residents, and 
the resulting algal blooms, they kill beloved wildlife, like 
manatees and dolphins.
    These toxins that are released by the algal blooms, they 
hurt people through air and water, children can't go swimming 
or play near the water, the elderly residents must stay, you 
know, really inside of their homes if they live near the toxic 
air. These blooms also destroy our economy, because you can't 
sell a house that sits on top of toxic water. Nobody wants to 
go on vacation near toxic water. Nobody wants to go boating or 
fishing or anything like that in a giant stew of algae.
    As a result, local and small businesses, our bars, our 
shops, our restaurants, paddle board companies, outdoor 
recreation stores, gas stations, fishing charters, they are all 
suffering. After fouling our community, the discharged water is 
simply lost out to sea. It is wasted, when it really could have 
been put to important use had it not been discharged in the 
first place.
    Every time the Federal Government imposes these discharges, 
it means that hundreds of millions of gallons of water are less 
for drought reduction, hundreds of millions of gallons less for 
Everglades in Florida Bay, hundreds of millions of gallons less 
to replenish our Florida aquifers, the drinking water source 
for 8 million south Floridians.
    I can tell you these people in the Treasure Coastal of 
Florida, they understand the critical need for flood protection 
in the area and other communities surrounding ours, those south 
of Lake Okeechobee that prompt these discharges. However, my 
constituents back home, they just can't accept that despite a 
scientifically sound and decades'-old action plan, the State of 
Florida is fulfilling its financial responsibilities; the 
Federal attention and resources don't seem to respond to our 
water woes in the same way, regardless of how large the problem 
grows at either end of the Everglades ecosystem.
    The lack of responsiveness from Federal Government on 
Everglades restoration, it stems from one of three different 
places, different processes, all that feed into one another: 
project administration, project authorization, and project 
appropriations, and really delays in any one process. They 
impose further delays on the other processes, and when you are 
talking about more than 60 individual comprehensive Everglades 
ecosystem restoration plan projects, it can really add up in 
the end.
    So administratively, the Army Corps of Engineers is 
reluctant to marry their flood control mission with their Lake 
Okeechobee and ecological restoration mission in the 
Everglades, but coordinating these missions is the key to 
ensuring that more water is directed towards Everglades 
National Park, and away from coastal communities like my own.
    As vice chair of the Water Resources and Environment 
Subcommittee, you can count on it being my priority to pass 
Water Resources Development Act that includes more CERP project 
authorizations, and from an appropriations standpoint, I can 
tell you there is more funding is needed to allow the Corps of 
Engineers to quicken the pace of rehabilitation of Herbert 
Hoover Dike around Lake Okeechobee. You know, just my ask to 
you all, let's get this done. Let's get it off the books, and 
let's get Florida's water system repaired.
    More funding is needed to accelerate the construction of 
these already authorized CERP projects, the Indian River 
Lagoon-South, the Central Everglades Project, among others. 
There is a number of CERP projects that are still awaiting 
authorization in part, because funding and legal limitations on 
the Corps of Engineers with respect to investigations and 
studies.
    I would respectfully ask that the subcommittee consider 
increasing the appropriations for the Army Corps investigations 
and to raise the cap on the number of study starts for 
environmental restoration projects the Secretary of the Army 
can green light in each fiscal year. One a year simply isn't 
sufficient.
    And, finally, I would like to welcome the Chairman, the 
Ranking Member, every member of this subcommittee down to the 
Treasure Coast to witness firsthand the devastating impacts 
that we see around Lake Okeechobee discharges and the harmful 
algal blooms.
    I thank you all for your time and your important efforts to 
craft an Energy and Water Development Appropriations bill that 
reflects the concerns and the priorities of the American 
people. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Mr. Simpson. Thank you. Other questions?
    Mr. Mast. Yes, ma'am.
    Mr. Simpson. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. Representative Mast, 
thank you so much for being here this morning. I wanted to ask 
you, you are in a really important position as vice chair of 
WRRDA, of the Water Resources and Environment Subcommittee and 
Transportation and Infrastructure. Your statement in the 
testimony, reluctant--``Army Corps is reluctant to marry their 
flood control mission at Lake Okeechobee with their ecological 
restoration mission in the Everglades,'' and you specifically 
mention algal blooms, which is a gigantic problem in the lake 
that I represent, Lake Erie in the north.
    I am interested in that dysfunction. Why do you think that 
happens? It is really important that you recognize that in your 
testimony, reluctant to marry their flood control mission with 
their ecological restoration mission? Is there something wrong 
with the authorizing legislation?
    Mr. Mast. Well, you know, when we look at the flood control 
mission, they are taking water that naturally flows south 
towards the Florida Bay, and instead, they are sending it out 
the East Coast and the West Coast of Florida in a very 
unnatural way, and that is in the aim of flood protection, but 
at the same time, that water is, quite literally, needed in the 
Florida Everglades. The Florida Everglades are dry, they are 
drying up. They don't have the water that they need.
    So at one point we are sending freshwater in directions 
where it is not naturally meant to go. The coastal estuaries 
are, by nature, saltwater, and we are releasing freshwater into 
them. So by nature, it is harmful, before you even talk about 
the added nutrients that are in the water, and that is water 
that is actually needed for ecosystem restoration further 
south, which is where we want to see it head to and where all 
of these existing projects, should they be brought to 
completion, they will work towards moving that water south.
    And so unfortunately, when it is not prioritized in that 
way, we end up causing damage to both ecosystems when sending 
water in one direction would really help both ecosystems.
    Ms. Kaptur. Were they badly designed in the beginning?
    Mr. Mast. When you talk about ``badly designed in the 
beginning,'' we are talking about going back, you know, 100-
plus years to when Lake Okeechobee was dammed up to begin with 
because it did used to naturally flow down to the Florida Bay, 
so we are talking about a very, very old problem.
     But in that, yes. It is badly designed in that these 
projects are not being allowed to come to completion. The point 
that I make to people is this often, when you are talking about 
the design of this. The Hoover Dam, not the Herbert Hoover 
Dike, that was the Nation's biggest infrastructure project. 
That was built in 5 years. This project is literally taking 
decades. And when you consider how much smaller it is, that is 
something that should trouble every one of us, especially when 
you are talking about doing that kind of damage to both 
ecosystems.
    We have to prioritize, you know, these projects, get them 
done, you know, in orders, you know, in the order that they 
give, so that we can see one after another after another come 
to completion, and end up not harming both ecosystems in the 
end.
    Ms. Kaptur. And could you describe the source of the algal 
blooms?
    Mr. Mast. Yes.
    Ms. Kaptur. The nutrients?
    Mr. Mast. Yes, ma'am. So during, primarily, the summer 
months, when there is an excess of rain that fills up the 
Florida watersheds, as we know, most water flows south, so when 
you get water north of Lake Okeechobee coming in on the 
Kissimmee River, which is also an issue. It was straightened by 
the Corps of Engineers. It used to run like a snake, but it was 
straightened out, so now the lake fills up something about six 
times faster than what it was originally designed to fill up 
at. That is what causes this need for releasing the water to 
the east and the west, because it can't get that water out of 
there quick enough. So you know, when we get those summer rains 
and it fills up that much, and there is added heat and that 
freshwater comes out into our coastal estuaries, that is how we 
get those algal blooms combined with the additional nutrients 
that are in this water to which I would make this point:
    For the Florida Everglades largely inhabited by snakes, 
turtles, alligators, and fowl, waterfowl, there are water 
standards for 10 parts per billion of phosphorous that can go 
down into the Florida Everglades. For the water that goes out 
to the East Coast and the West Coast of Florida where there are 
hundreds of thousands of residents, there are no water quality 
standards. Now, that is a State issue, but that is something 
that should be very troubling.
    Ms. Kaptur. Does agriculture contribute to the nutrients 
loading?
    Mr. Mast. Without question. When you have agriculture in 
and around, you know, any area that feeds into the watershed, 
absolutely, anything that goes onto those agriculture products 
are going to feed into that watershed.
    Ms. Kaptur. Not knowing your area, is it animal 
agriculture, or is it vegetables or fruits?
    Mr. Mast. So there is a plethora of agriculture. As I said, 
you have a watershed that feeds from, you know, hundreds of 
miles north, from 100 miles north, you know near the Kissimmee 
River, that feeds in, all the agriculture surrounding that 
feeds into Lake Okeechobee, all of the agriculture fields, 
there is an entire area surrounding Lake Okeechobee called the 
Everglades Agricultural Area. It is all farming, and all of 
those areas and what is put on those crops, absolutely, that 
plays a role into what is going into Lake Okeechobee, and what 
is spilling out into the coastal estuaries.
    Ms. Kaptur. I thank the gentleman. I thank the chairman for 
your indulgence because Congressman Joyce and I share a very 
serious issue in Lake Erie, shallows to the Great Lakes that is 
moving toward death right now as we sit here, and it drains the 
largest watershed in the Great Lakes region, and all the 
instrumentalities we have have not put us on pathway to really 
solve that problem fast enough. And, so, I look at your area 
and I am listening and I am saying, huh, there is some 
similarities here in this 21st century.
    We have to look at these watersheds, and we have to have a 
different way of approaching them more quickly, and we don't 
have that mechanism yet that some of our prior witnesses talked 
about the State government having responsibility for certain 
projects, working with the Federal Government, and the Federal 
Government doesn't fund its share, but this is--this is a 21st 
century problem, and we don't have the proper structure to move 
quickly enough. So I appreciate your testimony, and I 
appreciate the----
    Mr. Mast. Can I give you one other point on that?
    Ms. Kaptur [continuing].--Chair's indulgence. Yes.
    Mr. Mast. Just on your point just now. You know, when you 
look at ERDC, energy--rather, Engineering, Resource, and 
Development where they basically do all the testing for 
projects surrounding the Corps of Engineers, they don't have, 
you know, the robust resources to go out there and pursue 
research into ways to fix your algal blooms, my algal blooms, 
those that go on down into Louisiana at the massive level that 
we see them.
    When we are talking about cleaning a fish tank, yeah, that 
is something that we can do, but when we are talking about a 
rate at 7 million gallons a minute, or whatever it is that you 
may experience up there, or whatever it is that they experience 
down, you know, along the Mississippi and other places, I think 
this would be a great place as well to put research in, being 
that it is affecting so many different areas.
    Ms. Kaptur. Your statement, that is what I was interested 
in, ``reluctant to marry their flood control mission with their 
ecological restoration mission.'' That is a very insightful 
contribution to thinking about this. In our area, we have the 
problem that stretches over three States and another--a part of 
another nation, and so we can't get our arms around it, and 
yet, we know it is happening and we are not responding quickly 
enough, so thank you. Thank you, Mr. Chairman
    Mr. Simpson. Thank you. Thank you for being here today. We 
appreciate it.
    Mr. Joyce. Mr. Chairman.----
    Mr. Simpson. Mr. Joyce.
    Mr. Joyce. When you talk about Lake Okeechobee, the 
diversion of the water east and west, is that because of the 
potential failure of the dike?
    Mr. Mast. That is exactly correct, sir. So you have--after 
Hurricane Katrina, the Corps of Engineers went around and 
assessed dikes around the country. The dike around Lake 
Okeechobee was determined to be one of the worst dikes existing 
around the country, and so that is where they determined--based 
on there is a lower schedule, Lake Okeechobee regulation 
schedule that determines the height at which you can keep the 
lake. They decided they had to keep it a lower level, and that 
is where they, you know, really, in a massive scale, started 
distributing water out the East Coast and the West Coast of 
Florida in a very unnatural way.
    Like I said, freshwater, and we all know what a commodity 
freshwater is in many parts of this country, going out, simply 
lost into saltwater estuaries where it is very damaging.
    Mr. Joyce. I am one to believe that is our version of oil, 
freshwater, potable water supply, and the idea that you are 
sending it out east and west. The other problem would be if it 
is--if I heard you correctly, that this is a collection, if you 
will, of agricultural discharge, so therefore, the lake must be 
loaded with phosphates?
    Mr. Mast. That is exactly correct, and that is where, you 
know, I brought about the point as well where you talk about 
there is a requirement for the level of phosphorous that goes 
down to the Florida Everglades where there is, you know, 
largely wildlife habitat, but there is not a requirement for a 
standard that go out towards where people are boating, fishing, 
skiing, playing, jumping in the water out of their backyards, 
you know, where the bulk of the population is, and that is very 
troubling to me.
    Mr. Joyce. You also mentioned that there have been some 
issues with this dike. If the dike should go, all that would be 
then set loose into the Everglades and the damage would be 
permanent?
    Mr. Mast. Should the dike fail, there is also population 
south of Lake Okeechobee, and that is where people recognize 
the need for flood control. Nobody is advocating that we not 
take into consideration the lives that are south of that dike 
in Lake Okeechobee because if that were to fail, there would be 
a massive loss of life, and nobody should overlook that, but 
that is also where it would be very beneficial.
    One of the things that is not being looked at right now is 
that lower schedule, that Lake Okeechobee regulation schedule, 
it is one of the most important things that could be looked at 
because as every one of those 60-plus projects of Everglades 
restoration in Lake Okeechobee, dike restoration come online, 
the Corps of Engineers should be assessing can they take the 
Lake Okeechobee level an inch or 6 inches or a foot higher, 
because when you are talking about the hundreds of miles of 
breadth of Lake Okeechobee, every inch, or every foot that you 
can add to that lake is billions, and sometimes hundreds of 
billions of gallons of water that you no longer have to release 
into unnatural areas, and this is another place where the Corps 
could really work, but we are not seeing a pathway for them to 
adjust that with every instance of them making an improvement 
to the area.
    They are, instead, looking to wait for about 8 years down 
the line and just do one adjustment then, and this is that 
mechanism where you specifically talked about marrying flood 
control and marrying ecosystem restoration. That is--that is, 
in my opinion, one of the biggest things that can be done to 
marry flood control and ecosystem restoration is every time you 
get something online, look at that regulation schedule and say 
we can take this many gallons offline going out the East and 
the West Coast of Florida where it is causing damage.
    Mr. Joyce. Great. Thank you, Mr. Chairman.
    Mr. Mast. Yes, sir.
    Mr. Simpson. Thank you, Mr. Mast. I appreciate you being 
here today and informing the committee on the issues.
    Mr. Mast. Thank you.
    Mr. Simpson. Mr. Gosar.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. PAUL A. GOSAR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARIZONA
    Mr. Gosar. Chairman. Well, thank you very much, Chairman 
Simpson and Ranking Member Kaptur, for the opportunity to 
testify before the subcommittee. I am Congressman Paul Gosar, 
and I represent Arizona's Fourth Congressional District. I am 
also the chairman of the Congressional Western Caucus, the 
chairman of the House Committee on Natural Resources 
Subcommittee on Energy and Mineral Resources, and vice chairman 
of the House Committee on Oversight and Government Reform 
Subcommittee on the Interior.
    Critical programs and oversight activities addressed----
    Mr. Simpson. Paul, could you turn on your mic?
    Mr. Gosar. Critical programs and oversight activities 
addressed by the Energy and Water Development and Related 
Agencies bill fall under the purview as well. I would like to 
take an opportunity to discuss several of these today.
    Last fiscal year's subcommittee bill contained a rider 
prohibiting any changes to Federal jurisdiction under the Clean 
Water Act, effectively preventing funds from being spent to 
implement Waters of the United States, or WOTUS, that rule put 
forth in 2015 by the U.S. Army Corps of Engineers and the 
Environmental Protection Agency. The WOTUS rule attempted to 
assert Clean Water Act jurisdictions over nearly all areas with 
even the slightest of connections to water resources, including 
manmade conveyances.
    Farmers, ranchers, job creators, and private property 
owners would suffer under this overreaching water grab. WOTUS 
contradicts numerous prior Supreme Court decisions and seeks to 
expand agency control over 60 percent of our country's streams 
and millions of acres of wetlands that were previously 
nonjurisdictional.
    WOTUS was slated to go into effect August 28 of 2015, and 
fortunately, the Sixth Circuit issued a nationwide stay that 
has temporarily blocked implementation of this new rule. Even 
more promising, just last week, President Trump signed an 
executive order requiring the EPA and the Corps to rescind and 
revise any aspects of WOTUS inconsistent with Federal law. This 
was great news, and I was honored to join the President in the 
Oval Office for that signing.
    While I have great confidence in President Trump and 
Administrator Pruitt, the review required by the order will 
take some time and there could be subsequent legal proceedings. 
Accordingly, Congress must, once again, take a clear position 
against WOTUS and retain the important provision prohibiting 
the expansion of the Clean Water Act in this fiscal year's 
bill.
    Another important rider from last year's bill that must be 
maintained defunds the Obama administration's social cost of 
carbon models. These flawed metrics can be easily manipulated 
in order to attempt to justify new job-killing regulations.
    For instance, the Obama administration attempted to justify 
the EPA's methane rule utilizing the social cost of carbon, 
stating that the rule would supposedly yield climate benefits 
of $690 million in 2025. Those speculative benefits, that can 
be easily manipulated, supposedly outweigh the $530 million the 
rule is expected to cost businesses and job creators in 2025 
alone.
    The House has passed at least 11 different amendments 
rejecting the social cost of carbon in the last two Congresses 
alone. We must block these flood models once again in this 
year's bill.
    Now, section 507 of the bill last year, last fiscal year, 
contained a provision prohibiting the removal of any Federally 
owned or operated dams in fiscal year 2017. I thank the 
subcommittee for including this important provision, and, once 
again, ask that it be retained.
    In recent years, extremist environmental groups have 
increased efforts to dismantle and remove Federal dams. These 
efforts defy common sense, particularly at a time of major 
water challenges across the west, and with an increasing need 
for clean hydropower. Electricity generated from the Corps and 
reclamation dams--operated dams, is utilized by millions of 
Americans every day. Many of these dams are essential 
components for flood control, strategic water storage, and live 
sustaining irrigation for millions of acres of American 
agriculture. Tens of millions of Americans rely on these dams 
to supply their drinking water and support their livelihoods.
    The vital water energy, economic, and ecological benefits 
provided by the Federally owned and operated dams must be 
protected. I, once again, ask the subcommittee to retain the 
important provision prohibiting the removal of any Federally 
owned and operated dams in fiscal year 2018.
    Finally, I would like to ask that the subcommittee continue 
to provide important resources for the Corps of Engineers' 
construction and investigations budgets. These accounts ensure 
the timely development of critical water and infrastructure 
projects that provide benefits for communities throughout the 
Nation. We must continue to provided adequate resources for the 
important projects funded by these accounts.
    I appreciate the opportunity to testify today. The Western 
Caucus looks forward to coordinating closely with all of you in 
the future, and thank you, Chairman Simpson. With that, I yield 
back.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. Simpson. Thank you, Mr. Gosar. Other questions?
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. I would just like to 
ask Representative Gosar, for your own district, I don't know 
it, how many counties it covers and from where do you obtain 
clean water?
    Mr. Gosar. We obtain clean water within the State 
jurisdiction, which is what I have been talking about is the 
jurisdiction is subsurface water, which is the jurisdiction of 
the State.
    Ms. Kaptur. But I am saying for your district, in 
particular, does it come----
    Mr. Gosar. I am talking to you exactly what the majority of 
my water is from subsurface water within the State of Arizona.
    Ms. Kaptur. Wells?
    Mr. Gosar. Absolutely, and the jurisdiction of the State.
    Ms. Kaptur. Your district is heavily rural?
    Mr. Gosar. Almost all of it.
    Ms. Kaptur. Almost all of it. All right. So you don't--you 
don't receive any of these Federal water projects that exist in 
the west, your district doesn't benefit from any of that?
    Mr. Gosar. We border between Arizona and California, so the 
Colorado always has those infrastructure processes. I have also 
initiated one in the southern part with Mexico on the lower 
Santa Cruz that is federally mandated, absolutely.
    Ms. Kaptur. All right. What percentage of the water that 
your constituents drink actually then comes from subsurface 
water, 80, 90 percent?
    Mr. Gosar. Pretty much.
    Ms. Kaptur. Wow. All right. Thank you very much.
    Mr. Gosar. Thank you.
    Mr. Simpson. Other questions? Hearing none, thank you, Mr. 
Gosar. I appreciate your testimony and----
    Mr. Gosar. Thank you very much.
    Mr. Simpson [continuing]. Giving us your views on this 
upcoming bill.
    Congressman Crist, should I call you Governor? Congressman?
    Mr. Crist. I can't hold a job. Charlie always works, 
though.
    Mr. Simpson. Welcome to the committee.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. CHARLIE CRIST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Crist. Thank you, sir. Thank you very much, Chairman 
Simpson, Ranking Member Kaptur, and members of the 
subcommittee. It is a great honor to appear before you today. 
As you know, this is my first chance to testify before an 
Appropriations subcommittee. For me, it is a special 
opportunity because your former colleague and former chairman 
of the full committee, and someone I hold in the highest 
esteem, the late Congressman Bill Young, who served with you 
for so many years, was my Congressman for decades.
    During his time in Congress and on this committee, he did 
many great things for our Nation, our State and my Pinellas 
County. Many of those projects live on today, and I would like 
to talk to you about a few of them this morning.
    First is the Pinellas County Shore Protection Project. The 
Army Corps of Engineers, the State of Florida, Pinellas County, 
and our local communities, have been tremendous partners in 
maintaining our 20 beautiful miles of beach coastline to 
protect the people and property along it. Much of the support 
of this project was generated by the committee, for which I am 
grateful. I am here to ask for your continued support.
    The funding you provide for the Army Corps is critical in 
delivering the resources Pinellas County needs for our beaches. 
Beach nourishment not only protects public and private 
infrastructure, it is a great economic generator for our 
region.
    A second request I would make of the subcommittee related 
to fiscal year 2017 is to help us finish a project Congressman 
Young started back in 2002. The seven members of our Tampa Bay 
area delegation are sending you a letter asking the committee 
to help us break through a bureaucratic new start deadlock that 
has stalled construction of the Port of Tampa's congressionally 
authorized Big Bend Channel navigation project. This deepening 
and widening project will improve the movement of goods through 
the port of the I-4 corridor, essentially, Florida's fastest 
growing part of the State.
    It will set the standard for public-private partnership by 
turning a mere 20 percent of Federal stake in the project into 
a $55 million economic development initiative that will create 
8,000 jobs for our region. My Tampa Bay colleagues and I are 
not requesting any funding for this project. Instead, we seek 
language for the fiscal year 2017 bill you are finalizing to 
clarify it.
    I want to briefly mention also the Everglades, and I want 
to give credit to my freshman colleague and one of your new 
colleagues from Naples, Florida, Representative Francis Rooney. 
He is championing this effort. He is on the other side of the 
aisle, and I am grateful for what he is doing. I am incredibly 
grateful also for the consistent backing by this subcommittee 
for America's Everglades, and respectfully ask that you 
continue it. Thank you so much for your time. I appreciate it.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Mr. Simpson. Thank you. I appreciate you being here, 
Congressman Crist. Questions for Congressman Crist? Hearing 
none, thanks for--thanks for being here today, and we will take 
those views into consideration as we try to do our 2017 and 
2018 budget.
    Mr. Crist. Right. It will go well.
    Mr. Simpson. It will be a challenge.
    Mr. Crist. Yes, sir, of course. We will do it together.
    Mr. Simpson. Mr. Tipton.
                              ----------                              


                                          Wednesday, March 8, 2017.

                                WITNESS

HON. SCOTT R. TIPTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
    Mr. Tipton. Thank you, Chairman Simpson. I would like to 
also thank Ranking Member Kaptur and members of the committee. 
I welcome this opportunity to be able to appear before you and 
thank you for your interest and priorities of your colleagues 
as you make difficult decisions on infrastructure and program 
and investment, particularly in the area of water resources.
    The Third Congressional District of Colorado has partnered 
with the Bureau of Reclamation for at least seven decades, 
working together to develop hugely important and beneficial 
multi-use projects in southern and western Colorado. These 
projects have provided necessary water supply, which has 
sustained our agricultural, industrial, and recreation 
economies, and continue to help our small communities grow and 
prosper.
    I am distinctly aware that the mission of the Bureau of 
Reclamation is changing, and that the construction of large 
water supply projects with all Federal dollars is likely a 
thing of the past, but the partnership the Bureau has with the 
local water districts and providers remains critical in the 
semi-arid West, where the development and conservation and 
management of this finite resource is absolutely essential.
    The need for this local Federal partnership could not be 
clearer than the pursuit of the Arkansas Valley Conduit, the 
last component of the Fryingpan-Arkansas Project authorized in 
1962. Since an amendment to that original authorization was 
enacted in 2009, this committee has provided funding, which has 
contributed to the completion of the required environmental 
analysis and the ongoing feasibility work. The current schedule 
would likely allow for construction to begin in 2019 or 2020.
    The purpose of my testimony today is to strongly encourage 
you to provide sufficient funds to move this project forward in 
a timely, and, therefore, economical fashion and urge you to 
recognize the interest and responsibility that the Federal 
Government has in building this project. The water supply for 
50,000 people living in the Lower Arkansas Valley is 
contaminated with naturally occurring radionuclides. 
Approximately 40 small water providers face the task of finding 
new water supply or treating the supply they have.
    The Arkansas Valley Conduit, as a regional rather than a 
piecemeal solution, is a more functional and more fiscally 
effective way to meet the challenges for safe drinking water. 
Many of these small providers from the Colorado Department of 
Public Health and Environment, for failing to meet the Federal 
mandated Safe Water Drinking Act standards, should it prove 
necessary, the State of Colorado has approved a $60 million 
loan to move the project forward in a partnership with the 
Bureau of Reclamation.
    The local water providers are paying for administration, 
planning, and environmental compliance through quarterly 
assessments, working closely with the Southwestern Colorado 
Water Conservancy District to move the project forward. I would 
like it noted that under the provisions of the 2009 
legislation, the revenues generated locally can repay the 
entire cost over the project.
    The Fryingpan-Arkansas Project generates revenue by storing 
nonproject water for a price. Water providers enter into long-
term contracts with reclamation to store the water in the 
Pueblo reservoir. That revenue stream for full repayment makes 
this project and its financing unique. It should also be noted 
that the Southeastern District, the State of Colorado, and the 
Colorado Congressional Delegation are fully aware of the fiscal 
constraints we face and of the changing mission of the Bureau.
    To that end, we are working on meaningful cost-saving 
measures, including use of existing facilities for treatment 
and delivery wherever possible, and possibly design-build 
processes. Both of these efforts will save money and deliver 
clean drinking water faster to the communities who desperately 
need it.
    The people of the Lower Arkansas Valley deserve no less 
than that. It is for their health that the Federal Government 
creates water quality standards, and the Federal Government has 
the responsibility to help these communities meet those 
standards.
    Thank you, again, for providing me the opportunity to 
testify today, and I look forward to working with you to ensure 
the dream of completing the Fryingpan-Arkansas Project as it 
becomes a reality, and the Arkansas Valley Conduit is built.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Mr. Simpson. Thank you, Congressman.
    Mr. Tipton. Thank you for your time.
    Mr. Simpson. I appreciate you being here today. Are there 
questions for Congressman Tipton? Ms. Kaptur.
    Ms. Kaptur. I just wanted to ask the Congressman, thank you 
so much for your testimony. What a name for a project, the 
Fryingpan. I just wanted to ask you, these elements, 
radioactive, either radium or uranium, are these new? Or is it 
just that they have discovered this now?
    Mr. Tipton. These are naturally occurring.
    Ms. Kaptur. Uh-huh. Are there elevated levels of cancer in 
that particular part of Colorado?
    Mr. Tipton. You know, I am not sure if there are elevated 
elements, but under the Clean Water Act, it was a 
responsibility that the EPA put forward to be able to provide 
safe, clean drinking water for the communities in the Lower 
Arkansas Valley. This started back in 1962. John Kennedy 
actually visited Pueblo, Colorado, for the initiation of this 
project, so it is long term in coming, and I guess, 
Representative Kaptur, it is really the responsibility of the 
Federal Government through this mandate for clean drinking 
water, which I think we all share and understand it is 
important for our communities to be able to get this project 
off of center, to be able to move this forward, and to be able 
to get it completed.
    Ms. Kaptur. Thank you. We learned--I learned a great deal 
from other members, so I just thank you very much for 
testifying today.
    Mr. Tipton. Thank you.
    Mr. Simpson. Any other questions? 1962 to today is only 55 
years. That is kind of quick for government work, isn't it?
    Mr. Tipton. I didn't speak for the government.
    Mr. Simpson. I appreciate you being here today, and thank 
you for your testimony.
    Mr. Tipton. Thank you, Chairman.
    Mr. Simpson. We are going to take a short break while we 
await the next individuals that are coming to testify, so we 
will be in recess for just a couple of minutes.
    [Recess.]
    Mr. Simpson. The committee will be back in order. We have 
with us Congressman Foster from Illinois. The floor is yours 
for 5 minutes.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. BILL FOSTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Foster. Thank you. Thank you, Chairman Simpson.
    Mr. Simpson. Microphone on?
    Mr. Foster. Thank you, Chairman Simpson, Ranking Member 
Kaptur, for holding this Members' Day, and to all the members 
of the subcommittee for allowing me to testify today. I am here 
to, first of all, thank you for your past support for the 
Department of Energy's Office of Science, and to urge you to 
continue to prioritize and invest in science.
    The United States has been at the forefront of innovation 
and progress, largely due to its investment in scientific 
research. It has helped raise the standard of living for 
millions of Americans in our past and represents the best hope 
for economic progress in our future. But this scientific 
progress requires us to take a long view.
    Discoveries are not made overnight, and the experiments 
need sustained attention and resources for us to learn from 
them. Scientific investments are not like building a road where 
you can cancel it and restart it at the drop of a hat. The 
scientific programs have to be built up over decades, but can 
be destroyed in a single budget cycle by having their project 
underfunded.
    Similarly, our scientific infrastructure requires a long-
term sustained funding to ensure that opportunities are not 
missed. You know, as the only Ph.D. scientist in the United 
States Congress, I serve as a lightning rod for concerns from 
science, from high-tech businesses that depend on that science, 
from academics, and from ordinary citizens who care about the 
future economic and scientific progress in our country.
    And so I have heard from a number of my former colleagues 
in science in the scientific community who are very worried 
about what the incoming administration could mean for 
scientific progress in this country. So I would urge this 
subcommittee to seize the opportunity to put researchers, the 
companies that depend on that research, and, you know, all--
everyone who cares about science in this country, to put them 
at ease by providing funding levels that support the critical 
work for the Department of Energy's Office of Science.
    There are two specific projects that I want to highlight 
here today. Both of these are projects that have to have 
significant construction start money, you know, in the upcoming 
cycle, or the teams that put them together and are prepared to 
make them a reality will dissipate. You cannot--you cannot keep 
projects on hold forever.
    These two projects are Argonne National Labs Advanced 
Photon Source Upgrade, and the Long-Baseline Neutrino Facility, 
and the Deep Underground Neutrino Experiment, so-called LBNF/
DUNE, which represents a collaboration between Fermi National 
Accelerator Laboratory in Illinois, and the Sanford Underground 
Research Facility in South Dakota.
    Starting with Argonne first. The experiments conducted at 
Argonne National Lab's Advanced Photon Source, or APS, support 
both discovery science fundamental research, and also market-
driven research. Its facilities are used by companies that have 
products to develop.
    Pharmaceutical research at the APS has yielded lifesaving 
new drugs for HIV, for melanoma, and for renal cell carcinoma. 
Industry chemists have used the APS to develop energy-saving 
solar shingles, while combustion researchers have developed a 
process that has led to cleaner diesel engines. And research 
conducted at the APS led to a Nobel Prize in chemistry in 2012 
for the work on what are called G-protein coupled receptors, 
which are the mechanism at the heart of the addiction mechanism 
inside people's brain, and so with the heroin epidemic 
ravaging.
    This allows scientists to look at these molecules in 
action, the ones that are at the very heart signaling the 
cells, the neurons that make the decisions that are affected by 
opioids. So this is fundamental research. I am not promising 
that they are going to cure the opioid epidemic this year, but 
you know, it is only this sort of long-term research that 
allows us to actually, dream of a cure for this, as well as 
Nobel Prizes, which as a scientist, I have a certain fondness 
for.
    The APS needs to be upgraded to ensure that the American 
scientists and companies continue to have access to the best 
scientific equipment in the world. The competition in this area 
is fierce with dozens, literally dozens of competing facilities 
under construction, and in operation around the world. But the 
APS upgrade will use next-generation technology to make the APS 
hundreds of times brighter, which opens up a vast array of 
scientific frontiers at the nanoscale that are completely 
inaccessible at any machine anywhere in the world today.
    So this upgrade will leverage the existing infrastructure 
at the Advanced Photon Source valued at about $1.5 billion, 
while applying a new technology to create a world--a world-
leading facility at substantially less cost than building a 
facility from scratch. And with this upgrade, the APS will 
become the ultimate 3-D microscope. Without it, the United 
States will lose its global leadership in X-ray science to 
Europe, Japan, and China.
    Robust funding for the Department of Energy basic energy 
science major items of equipment line will enable the APS 
upgrade to continue and proceed on schedule, and more 
importantly, on budget. A funding delay, I should say, on a 
personal note, that my wife was one of the great 
accomplishments of the Office of Science, was the completion of 
the last photon source, light source on time and under budget. 
My wife was the construction manager for that at Brookhaven 
National Laboratory.
    So, but funding delay will add millions of dollars to the 
total cost of this project. Second critical opportunity where 
this year's funding is particularly important is the LBNF/DUNE 
project, which will be critical to maintaining U.S.'s 
leadership in high energy physics and in fundamental science. 
This facility, part of which is located a Fermi National 
Accelerator Laboratory in Batavia, Illinois, where I worked for 
25 years, and the other part of which is located in the Sanford 
Underground Research Facility in Lead, South Dakota, will be 
the first major international world class facility to be 
hosted--of its kind, to be hosted by the United States.
    So getting foreign money flowing into the U.S., in addition 
to U.S. money flowing to facilities in foreign countries is, to 
my mind, you know, essential, to having a healthy international 
scientific collaboration, you know, just a network of 
scientific collaboration internationally.
    Neutrinos, which will be studied there, are among the most 
abundant particles in the universe and our understanding of 
their nature may provide the key to answering some of the most 
fundamental questions about the nature of our universe. LBNF/
DUNE would be the most powerful tool in the world to study 
these particles, and would help solidify the Department of 
Energy's high energy physics program as a world leader.
    And so, I am hopeful that the project will receive the $55 
million required in fiscal year 2017 to start construction for 
this project. Again, facilities like this are always in a grow-
or-die situation. If you assemble the team and say we are going 
to start construction and then say, well, maybe not this year, 
people leave and they cannot be reassembled. Like I say, it is 
not like just building a highway where you have millions of 
competent contractors happy to bid on any new section of the 
roadway.
    So more than 770 scientists from 150 institutes and 26 
countries stand ready to contribute scientifically and 
economically to the LBNF/DUNE project, if we decide to make it 
go ahead, and I urge the subcommittee to provide full support 
and robust funding for the Department of Energy's high energy 
physics account.
    Investments in these projects, and in our broader 
scientific infrastructure, is really the only way to ensure 
that America remains an international leader in science. You 
know, we are--in testimony to Congress more than a generation 
ago, the guy who started--the guy who started Fermi lab was 
asked, Well, what is all this basic fundamental scientific 
research that you are doing? How does this contribute to 
national defense, which is obviously the competition? And he 
looked back at the committee and said, our research, our 
fundamental research, has nothing to do with national defense, 
except perhaps to make our country more worth defending.
    And that is the heart of the reason that our country should 
invest in fundamental research like that at Argonne Lab, like 
that at Fermi lab. If you look back in history, the reason that 
we respect what the--you know, what the Manichees did in, well, 
hundreds of years ago in Italy. It is not because they won 
their wars against their opponents. It is not because they 
succeeded in economics and commerce. It is because after doing 
all of that, they diverted a significant fraction of their GDP 
to fundamental research by the likes of Leonardo da Vinci, and 
that is why they will remain in the history textbooks forever. 
And so we should have no lower goal for our country. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Simpson. Thank you. I appreciate your testimony. Are 
there questions for the Congressman?
    Mr. Fleischmann. Thank you, Mr. Chairman. Congressman 
Foster, I want to thank you personally. You and I have worked 
together on a number of initiatives. Also, for the benefit of 
the entire subcommittee, the super computing initiative has 
been so critically important to our country and will remain so. 
We are in very dire competition with the Chinese. At one point 
in time, we had the fastest super computers in the world. We 
have now fallen to third, I believe, in that race, from 
petaflops to Exascale. I know Argonne is very involved in that, 
Oakridge as well, but I want to personally thank you for your 
advocacy for the Office of Science. Oakridge is intimately 
involved.
    Mr. Foster. A key collaborator in all of these sort of 
projects. And, you know, there have been a number of Members of 
Congress who have taken a little time off because their 
districts have been hit by tornadoes. Any of you who doubt the 
power of super computers should look at the simulations of 
tornadoes where you see detailed simulations of tornadoes 
trying to understand what affects their formation and how to 
predict and how they will develop.
    And so this is just one of the many examples of where super 
computers at places like Oakridge will really contribute to, 
the lives of so many in ways that are not often in the front 
pages of newspapers.
    Mr. Fleischmann. Congressman, we thank you for your 
advocacy and for your help on these key critical areas. Thank 
you, sir.
    Mr. Simpson. Thank you. Any other questions?
    Ms. Kaptur. Mr. Chairman, I just wanted to thank 
Congressman Foster. It must be--just thinking about your life 
and engagement with all of these very high-level research 
initiatives and you are a Member of Congress, sometimes it must 
feel like a fish out of water being in this body.
    Mr. Foster. I do feel lonely from time to time.
    Ms. Kaptur. But you are a very effective spokesman, and 
someone who can put visions for new science in understandable 
terms, and so your presence is truly appreciated, and you have 
made that transition very nobly for your constituents but also 
for the country. Thank you.
    Mr. Simpson. A fish out of water would be an apt 
description for all of us. Mr. Polis.
    Thank you, Congressman Foster.
                              ----------                              

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. JARED POLIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
    Mr. Polis. Thank you, Chairman Simpson and Ranking Member 
Kaptur. I am coming before a number of the subcommittees to 
suggest some cuts in appropriations. I know that there are 
going to be cuts in most of the lines, so I hope to be 
constructive.
    In the past, I have offered various amendments to cut 
spending on the floor of the House, supported both across-the-
board cuts as well as particular line items cuts, and I have a 
few ideas for you here today for your line item. The first 
major spending line that I would like to recommend a cut for is 
the Fossil Energy Research and Development line item. This is a 
line item with an expiration. It is a dead end in the sense 
that our fossil fuels will be depleted, not only in America and 
around the world. Markets are already turning away from dirty 
fuels, fuels like coal and oil, not just for economic reasons, 
but also for the health and safety of our oceans, our air, and 
our planet. And so, I would hope that the committee would, 
rather than invest in the past, invest in the future.
    The version of this bill that came to the House floor last 
year actually appropriated $300 million more pork for the oil 
and gas industry than even the President requested for the 
fossil research account. I know you have to make some tough 
decisions. I think this will be an excellent line item to cut, 
rather than give more pork to the oil and gas industry. We can 
cut that out and reduce our budget deficit by $645 million. 
That was what the bill included last year. I would encourage 
you to zero out that line item, or, at the very least, cut it 
back significantly.
    If you do cut the $645 million back significantly, while I 
hope that the bulk of it goes to deficit reduction, another 
account that I would--with part of those proceeds, I would 
encourage you plus up would be the Energy Efficiency and 
Renewable Energy Fund, which, actually, invests in the future, 
the future of energy in our country. If we can increase it a 
little bit, it will help fund national labs, like the National 
Renewable Energies Laboratory. From 2009 to 2015, EERE's 
building technology office finalized 40 new or updated 
efficiency standards for more than 45 household and commercial 
products, saving consumers money, so it actually saved 
consumers billions of dollars, reduced carbon pollution, and 
helped generate jobs in our country.
    So I think if you want to use some of those funds that you 
save from zeroing out the Fossil Energy Research and 
Development Fund, that would be a good place to put some of 
those, and, of course, I know you have to make cuts overall, so 
I understand some of those cuts, if not all, would go to the 
bottom line.
    I also want to highlight EERE's work with private companies 
to apply 3-D printing, an additive manufacturing to renewable 
technologies, particularly making blades of wind turbines. With 
additive manufacturing, we can reduce the cost of blades, 
reduce the cost of wind energy, as well as highlight their work 
on plug-in electric vehicles, particularly the Clean Cities 
project, which Colorado has been part of, which developed a 
comprehensive EV and EV supply equipment readiness and 
implementation plan for our State.
    Now, there is another account under fossil fuels that I 
particularly think should be cut, and that is the one that 
works on oil shale formations with less than 50,000 barrels per 
day, and frankly, oil shale is one of the most dirty extraction 
methods out there, and, in fact, the distillation process 
releases pollutants into the air, including sulfur dioxide, 
lead, nitrogen oxides. In addition, it uses enormous amounts of 
water. The BLM reported that mining and distilling oil shale 
requires 2.1 to 5.2 barrels of water for each barrel of oil 
produced. Water is scarce across my home State of Colorado. 
Driving up cost for consumers and farmers is not the answer and 
not something that this committee should invest in making a 
reality.
    Finally, I have another cut. I would like to ask that you 
address the accelerated timeline of the W80-4 nuclear warhead. 
In 2015, I joined with my colleague, Mr. Quigley, to offer an 
amendment that would save $165 million in taxpayer money by 
placing development of the W80-4 nuclear warhead back to its 
original acquisition schedule, simply rather than accelerating 
it.
    The existing air launched cruise missile and warhead isn't 
being phased out until the 2030s. There is no risk of having a 
gap, a capabilities gap. Yet, the 2015 budget sped up the 
development for the warhead by 2 years to 2025. Fitting the 
W80-4 nuclear warhead onto the next generation long-range 
cruise missiles will free up $165 million to put towards 
reducing the definite and cutting your line item. At a time 
when the budgets are tight, that is very important.
    We already have the nuclear scientists disagree on whether 
our nuclear capability is enough to destroy life on the planet 
five or seven times. Frankly, I would advocate even deeper cuts 
in our nuclear capabilities. I would argue that a sufficient 
deterrent should be blowing up the world once. If you really 
want to blow up the world twice to be sure, you can do that, 
but we certainly don't need to blow up the world five to seven 
times. It is really redundant in terms of offering a 
deterrence, so that would be another excellent line item to 
look at cutting as your committee goes about its important work 
to save taxpayer money. I am happy to yield for any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Simpson. Are there any questions for Congressman Polis? 
If not, thank you for your testimony. We appreciate your 
insight into this bill and your recommendations.
    Mr. Polis. Thank you.
    Mr. Simpson. And we will look at those as we try and put 
this bill together. Thank you.
    Mr. Huizenga.
                              ----------                              


                                          Wednesday, March 8, 2017.

                                WITNESS

HON. BILL HUIZENGA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Huizenga. Mr. Chairman, thank you.
    Mr. Simpson. Good to be here. Thank you.
    Mr. Huizenga. It is very good to be here. We are all set.
    Mr. Simpson. Yours for 5 minutes.
    Mr. Huizenga. Well, thank you, Mr. Chairman. I deeply 
appreciate the opportunity to be here in front of you, and 
Ranking Member Kaptur as well, and the rest of the members of 
the committee. This is, I think, a very important issue and why 
I come before you today.
    I have been very grateful for our work together over the 
last number of years in efforts to increase the Army Corps of 
Engineers' harbor maintenance funding, and I think it is 
important to note that the Consolidated Appropriations Act for 
2016 allocated $1.263 billion for harbor maintenance, meeting 
of the congressional target overwhelmingly supported from the 
Water Resources Reform and Development Act of 2014, and I thank 
you for that--that work on that.
    And while I do believe that that is a very strong step in 
the right direction, the funding level will represent only 69 
percent of the harbor maintenance taxes actually collected, and 
I believe that full use of the harbor maintenance trust fund is 
urgently needed to support critical maritime economic activity, 
especially as we are talking about increasing our 
infrastructure needs here in the United States, or addressing 
our infrastructure needs here in the United States. And through 
that glide path that was established in WRRDA, Congress 
committed to achieve full use of the Harbor Maintenance Trust 
Fund through incremental increases over a 10-year period.
    It is in this spirit that I urge the House Appropriations 
Committee to stay on a path to full utilization of the Trust 
Fund and to allocate 1.333 billion for harbor maintenance in 
fiscal year 2018. That figure would represent 74 percent of the 
estimated harbor maintenance taxes collected this past year in 
2017.
    And during my first year in Congress, our ports and 
navigation channels were maintained at just 47 percent of the 
revenue collected through the HMFT, and having a 74 percent 
target, obviously, would show just how far that we have come. 
And by following the authorized glide path, we stopped adding 
to the maintenance dredging backlog. We had had a growing 
backlog of harbors that needed to be maintained; however, much 
more work does need to be done, and I should point that--point 
out that oftentimes, the Great Lakes doesn't think of--isn't 
thought of as coastal, or as shipping, or important, but it is 
a multibillion dollar blue economy that those of us in the 
Great Lakes region experience every day, and we know the vital 
importance of having those ports for the economic vitality not 
only of our States or our region, but frankly, our country and 
our standing throughout the world.
    And it was with great pleasure that I had a chance to work 
with Janice Hahn, previously from Los Angeles on this issue, 
and it was sort of strange bedfellows that had come together on 
that, but we made a good team because we were able to make that 
argument for the entire country.
    Well, tomorrow, the American Society for Civil Engineers 
will issue their infrastructure report card, and their last 
report card gave our water freight movement infrastructure a D 
for navigation channels, and a B for our ports, and tomorrow's 
grade, we anticipate, will frankly show very few improvements. 
The inefficiencies resulting from poorly maintained harbors 
drive up the cost of U.S. exports and imports, which threaten 
U.S. economic growth, and we can't sell more Made-in-America 
products, frankly, if we can't have them leave our harbors.
    And while many transportation infrastructure programs are 
struggling to identify beneficiary paid revenue streams to meet 
those needs, maritime commerce has been paying enough to meet 
the operations and maintenance of all Federally-authorized 
harbors for decades. In fact, this funding is especially vital 
for 140 Federally maintained commercial and recreational ports 
and harbors in the Great Lakes, many of which are facing a 
crisis. In fact, 92 of those harbors have not been Federally 
maintained in years because of a lack of funding directed in 
that area.
    At the same time, the Harbor Maintenance Trust Fund has a 
balance of nearly $10 billion, and I believe that instead of 
increasing the balance of the Trust Fund or spending the money 
elsewhere, I urge you to dedicate our Harbor Maintenance Trust 
Fund tax revenue for its intended purpose, and enough of that 
has been collected, as I had said, that we would be able to 
deal with those harbors throughout the country, ranging from 
the Pacific Northwest to the Gulf Coast to the Port of Long 
Beach to Muskegon, Michigan, which is in my district.
    So Chairman Simpson and Ranking Member Kaptur, and the rest 
of the members, I really do appreciate this opportunity to be 
in front of you today and to make our case. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Mr. Simpson. Thank you for you testimony, Bill, and thank 
you for your past work on the Harbor Maintenance Trust Fund. We 
have had many discussions on this and how we can address it. 
And as you know, I am a supporter of trying to be able to use 
the full breadth of the Harbor Maintenance Trust Fund, and 
somehow relieve it from the budget caps and the weird budgeting 
rules we sometimes create for ourselves, because if you are 
only using 74 percent of it and you still have a need out there 
that means you took 26 percent in the bank----
    Mr. Huizenga. Yeah.
    Mr. Simpson [continuing]. And not using it to address the 
need that you are taxing for us, so it just doesn't make sense. 
But we still have a ways to go into convincing some of our 
colleagues that we need to take it off budget, but still 
subject to appropriation. So I appreciate your work on that.
    Mr. Huizenga. Thank you, Mr. Chairman. I appreciate that, 
and I look forward to working with you and the ranking member 
on this issue continually, so thank you.
    Mr. Simpson. Further questions?
    Ms. Kaptur. Mr. Chairman, I just wanted to thank 
Congressman Huizenga for testifying today and being a very 
strong advocate for proper investment in our ports and 
waterways, and particularly because the waterborne commerce and 
transport is the most cost effective means of moving both cargo 
and people. I guess I have often wondered why we haven't paid 
more attention to that. We seem to figure out, well, at least 
partly, how to do roads and bridges, but when it comes to 
waterborne with our four coasts, we often neglect the Great 
Lakes, in particular, so I just thank you very much for coming 
and testifying today, and I know that our chairman is very open 
to working on both sides of the aisle, and hopefully we will 
make a difference this year on the Harbor Maintenance Trust 
Fund. Thank you.
    Mr. Huizenga. All right. Thank you.
    Mr. Simpson. Thank you for appearing here today. 
Congressman Diaz Barragan. Is that right? Did I pronounce that 
correctly?
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. NANETTE DIAZ BARRAGAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF CALIFORNIA
    Ms. Barragan. Yes.
    Mr. Simpson. Okay. The floor is yours.
    Ms. Barragan. Thank you, Chairman Simpson, Ranking Member 
Kaptur, and members of the Energy and Water Subcommittee. I 
want to thank you for allowing me the opportunity to speak to 
you this morning. I am going to echo some of my colleague that 
we just heard from.
    I represent California's 44th Congressional District. It is 
the seat that used to be held by Janice Hahn. It includes areas 
like San Pedro, Compton, and Watts, and it, most notably, has 
the Port of Los Angeles in the district. It is North America's 
largest seaport by container volume and cargo value, and I am 
proud to have that in my district.
    I am proud to represent the thousands of workers that are 
directly and indirectly associated with the Port of Los 
Angeles. It is the largest economic engine in the region, and 
it touches every single congressional district in this country. 
The San Pedro Bay Ports Complex, which includes both the Port 
of L.A. and Long Beach, accounts for one-quarter of the 
Nation's cargo and supports over 3 million jobs nationwide. As 
we mentioned, the goods that pass through the San Pedro Bay 
Port Complex touch nearly every facet of this country.
    In 2016, the Port of L.A. had its best year in its 110-year 
history. As our economy grows--continues to grow, so do the 
size of vessels and freight volumes. When you couple these 
factors with growing international competition and the fact 
that the American Society of Civil Engineers gave our ports a C 
in their report card, it is apparent that more must be done to 
improve our infrastructure for ports and harbors.
    My message today is simple: I urge this esteemed 
subcommittee to fund the U.S. Army Corps of Engineers' 
navigation program at $2.9 billion for fiscal year 2018 and 
2017. Specifically, I urge you to fund the donor ports at $50 
million, and to hit the Harbor Maintenance Trust Fund 
expenditure targets for both fiscal years 2018 and 2017, so 
that we can remain on the path to utilize 100 percent of the 
Harbor Maintenance Trust Fund revenues by fiscal year 2025 and 
thereafter.
    In June of 2014, the bipartisan Water Resources Reform and 
Development Act, also known as WRRDA, was enacted into law. You 
know, one of the most thoughtful provisions of this law was 
section 2106, which expand the use of the Harbor Maintenance 
Trust Fund for donor ports, for ports such as Los Angeles. As 
you know, in the case of donor ports, Harbor Maintenance Funds 
do not return to the States and harbors where the taxes are 
collected.
    For example, in California, California receives only 15 
percent back of what the shippers at our harbors pay into the 
Harbor Maintenance Trust Fund. The San Pedro Bay Ports Complex 
is among the largest collectors of Harbor Maintenance tax funds 
with an average of $200 million each year, but we receive only 
1 percent back.
    Section 2106 of WRRDA addresses some of these tax fairness 
and donor equity issues. The section also authorized 
appropriations of $50 million for each of the fiscal year's 
2015 through 2018. Donor ports are authorized to use these 
discretionary funds for expanded uses, including berths and 
dredging of contaminated sediments, environmental remediation, 
or payments to importers or shippers transporting cargo through 
that port.
    The section 2101 of WRRDA see targets expenditures from the 
Harbor Maintenance Trust Fund increasing each year so that 
fiscal year 2025 and each thereafter, 100 percent of the taxes 
collected will go towards the intended purpose and operation of 
maintenance activities.
    A full utilization of the Harbor Maintenance tax will only 
occur, however, if the level of appropriations for the Civil 
Works Program of the U.S. Army Corps of Engineers is at the 
fiscal year is increased.
    In fiscal year 2016, Congress appropriated $25 million in 
donor ports, of which slightly over $3 million were allocated 
to the Port of Los Angeles for critical berth maintenance 
dredging. For fiscal year 2017, the Senate bill contained $50 
million for donor ports, while the House bill only contained 
$10 million.
    I urge the subcommittee to help our Nation stay 
internationally competitive by funding donor ports at $50 
million for both fiscal years 2018 and 2017, and to hit the 
Harbor Maintenance Trust Fund expenditure targets. I thank you, 
again, for the opportunity to speak before you today.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr. Simpson. Thank you for your testimony. Are there 
questions? Ken.
    Mr. Calvert. Yeah, I appreciate your coming in and 
testifying. I knew your predecessor quite well. We had those 
discussions often about the Harbor Maintenance account, and 
also about maybe expanding the definition of the Harbor 
Maintenance account to go beyond the port facility because part 
of the problem with a part of--on the part of the Port of L.A./
Long Beach, is getting the freight out and down the Alameda 
corridor, which we never really completed east of Los Angeles 
and down to the--and down and out of the L.A. Basin and through 
the Inland Empire, where we can move that freight out because 
right now, we just have an overload of freight that is backed 
up along the main rail corridors, and a lot of that is grade 
separations and the rest that need to be improved.
    So maybe in the future, Mr. Chairman, we can work together 
on what the Congresswoman brought up, and also about the 
improvements on those rail lines. Mr. Aguilar has the same 
problem in his district, so it is an issue that we need to 
address.
    Mr. Simpson. I appreciate that and would be happy to work 
with you on it. Thank you for you testimony.
    Ms. Barragan. Thank you.
    Mr. Simpson. You bet. Congressman Crawford.
                              ----------                              

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. ERIC A. ``RICK'' CRAWFORD, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF ARKANSAS
    Mr. Crawford. Yes, sir. Chairman Simpson, Ranking Member 
Kaptur, and members of the Energy and Water Subcommittee, thank 
you for allowing me to appear before you today to provide 
testimony on the importance of Army Corps of Engineer project 
funding to the First District of Arkansas.
    As you know, the Mississippi River and Tributaries Project, 
or MR&T, is the largest flood control project in the world. 
MR&T plays an integral role in protecting the Lower Mississippi 
Valley from devastating floods and enables continuous 
navigation along the Mississippi River and its tributaries.
    Since its inception in 1928, taxpayers have received a $46 
return for every dollar invested in this project, while 
preventing $612 billion in flood damages and protecting 4 
million residents of the Lower Mississippi River Valley. MR&T 
also promotes navigation along the river and its tributaries, 
and helps support a vibrant and agriculture economy. Over 500 
million tons of cargo move on the Mississippi River system each 
year, saving billions of dollars in domestic transportation 
costs, and giving U.S. businesses a competitive advantage in 
the global marketplace.
    I appreciate the continued support this subcommittee 
provides for MR&T, and I understand that our current fiscal 
environment forces us to carefully evaluate where each dollar 
goes. For MR&T to meet its current challenges, an increase in 
funding over the current CR funding level of $290 million is 
needed for the program to reach its full capability to protect 
lives, property, and to support commerce.
    To achieve its objectives, MR&T requires funding of 
approximately $500 million. While I recognize the challenging 
environment of fiscal restraint, I believe that Congress must 
prioritize the projects that provide taxpayers the best return 
on their investment. There are few government-funded programs 
that can boast a 46-to-1 return.
    MR&T also supports critical water supply projects needed to 
alleviate the alarming rate of aquifer depletion in the mid-
south region. Examples include the Grand Prairie and Bayou Meto 
surface water projects that are currently under construction in 
my district. These projects are critical infrastructure 
investments designed to address the depletion of the Alluvial 
and Sparta aquifers. The loss of these aquifers would not only 
result in a severe disruption in the agriculture economy of the 
Delta region, but municipal and other industrial water uses 
would also be severely impacted.
    The U.S. Army Corps predicts the Alluvial aquifer will be 
commercially useless in the near future, and as a result, 66 
percent of the Bayou Meto project area will no longer have 
access to irrigation, while 77 percent of the Grand Prairie 
project will no longer be able to irrigate.
    Unless we deal with this problem now, there will be water 
crisis in the future that will strike a severe blow to the 
economy and quality of life in the already distressed Arkansas 
Delta region. I imagine many of the members of the subcommittee 
face groundwater problems in the districts they represent, but 
it is important to note that unlike many Western States, the 
State of Arkansas does not have access to targeted Federal 
groundwater protection programs such as those operated by the 
Bureau of Reclamation.
    Quite simply, there are no viable alternatives available to 
my constituents. While we have not yet seen a detailed fiscal 
year 2018 presidential budget, I am requesting this committee 
work with me and my staff to find ways to provide water 
infrastructure projects and adequate funding stream, including 
potentially revising the report language that authorized 
expenditures for ongoing work under the MR&T budget.
    Last year, the water supply projects in my strict barely 
received enough funding to satisfy existing contractual 
obligations and staffing needs. Hardly any progress was made on 
project construction, and we currently find ourselves in a 
protracted holding pattern with no end in sight. The longer the 
construction process is drawn out, the more costly these 
projects become to the taxpayer. The current rate of progress 
is unsustainable.
    I understand that the Appropriations Committee has limited 
resources available, and I certainly applaud the work you are 
doing to support critical water infrastructure projects. I am 
very grateful for the subcommittee's continued support for the 
Army Corps' vital work in the Lower Mississippi River Valley. 
Please do not hesitate to contact me or my staff as you work 
through the fiscal year 2018 appropriations process, and I 
thank you for allowing me the opportunity to testify.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. Simpson. Thank you for being here today. Questions?
    Ms. Kaptur. I do have a question, Mr. Chairman, of 
Representative Crawford, and that is I am from the State of 
Ohio, and the entire Great Lakes system is threatened by 
something called the Asian carp.
    Mr. Crawford. Yes, ma'am.
    Ms. Kaptur. How do you look upon that issue in your part of 
our country?
    Mr. Crawford. Well, it is actually a very challenging 
issue, and unfortunately, the introduction of the Asian carp 
came about as a result of Fish and Wildlife and a management 
decision they made down in my neck of the woods and without the 
knowledge of what could happen, and now we see them invading 
the Great Lakes. They are a very prolific reproductive species.
    We are looking at potential commercial uses to harvest the 
Asian carp and find some--find a market in China. There is 
actually a market for that fish, and there are other markets 
available, but it is going to continue to be a challenging 
problem for us, not only in the Lower Mississippi, but as you 
have seen, it has migrated north into your area.
    Ms. Kaptur. We have to deal with it in your part of the 
country in order to prevent it spreading north.
    Mr. Crawford. Absolutely.
    Ms. Kaptur. And I know there are different actions being 
undertaken, but it is completely frightening to our maritime--
--
    Mr. Crawford. It absolutely is.
    Ms. Kaptur [continuing]. And recreational activities up in 
the Great Lakes.
    Mr. Crawford. Well, they are dangerous, quite frankly. They 
pose a physical threat. I mean, they can jump into the boat, if 
that is not bad enough, and they do that routinely. But there 
have been documented cases of severe harm and, even death, by 
hitting individuals on boats because they are big and they are 
pretty aggressive feeders.
    Ms. Kaptur. I would hope Representative Crawford and our 
chairman, who has always been open to our concerns, as we look 
at this entire Mississippi River corridor, that we assure the 
various departments and agencies that the State and Federal 
levels are doing a better job because that is really coming 
north.
    Mr. Crawford. I am glad you brought that up because it 
certainly is a challenge for us, and in my geography, and it is 
not stopping there.
    Ms. Kaptur. We almost need an Asian carp task force that--
along the entire length of the Mississippi.
    Mr. Crawford. That is not a bad idea, and I would be 
willing to serve on that if such a task force were stood up.
    Ms. Kaptur. Thank you. You have experienced them first. All 
right. Thank you so very much. Thanks, Mr. Chairman.
    Mr. Simpson. Thank you. Thank you, Mr. Crawford, for being 
here today, and we will certainly look forward to working with 
you and your staff when we start putting this thing together. 
Thank you.
    Mr. Green, welcome.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. GENE GREEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Green. Thank you, Mr. Chairman and ranking member and 
members of the committee. I want----
    Mr. Simpson. Could you turn your microphone on?
    Mr. Green. Because over my years in Congress, we have 
worked together on a lot of issues. I represent a very urban 
district in Houston, but it includes about half of the Port of 
Houston, and I appreciate your consideration over the last 25 
years or so.
    Our district is home to the Port of Houston. I share that 
with Congressman Brian Babin, and the Port of Houston is one 
of--the number one export terminal in the country. Our port is 
the major economic engine for eastern Harris County in Texas, 
responsible for over 56,000 direct jobs, and over $5 billion in 
State and local tax revenue from business related to the port.
    In order for the Port of Houston and other port facilities 
in the United States to grow and support economic activity 
throughout the country, it is critical for Congress to 
significantly increase funding for the maintenance and dredging 
operations for the U.S. Army Corps of Engineers for fiscal year 
2018. Increasing funding to the Corps--Army Corps civil works 
operations and maintenance account is the only way to ensure 
that the Port of Houston is dredged to the authorized depth of 
45 foot, and will be able to accommodate the post-Panamax 
vessels that are larger and are becoming the international norm 
for maritime container shipping. The same is true to ports 
along the Gulf Coast, the Atlantic seaboard, who rely on the 
Army Corps, dredging to keep our terminals open for business.
    The other issue in our district and neighboring communities 
in Harris County surrounding are severely impacted by flooding 
in recent years. In the past 2 years, the greater Houston 
region has suffered from two catastrophic flood events on 
Memorial Day of 2015, and as we call it Tax Day of last year, 
2016, that killed 17 local residents and caused billions of 
dollars in damages.
    In fact, many people in Houston directly affected by the 
2016 Tax Day flood have only recently recovered from the 
previous year's flood. In response to the growing frequency of 
catastrophic flooding in the Houston, Harris County, my 
colleagues, Congressman Al Green, Congressman John Culberson, 
and I, along with 100 other Members of Congress, introduced 
legislation last year to authorize $311 million in emergency 
appropriations for flood control projects. That $311 million, 
or the projects that have been approved by the Corps, but we 
haven't been able to fund, and again, we share 10 Members of 
Congress around the Houston area, and flooding doesn't matter. 
It gets all of us because we are the coastal plain, and I have 
bayous and rivers that go through my area, and we are fortunate 
to have them, although they do silt up our port, too. That is 
why we have to dredge.
    The legislation was not enacted, and--but it showed the 
support, and I would urge the subcommittee to significantly 
increase the Corps of Engineers' Flood Control and Coastal 
Emergencies Account. A robust increase in Corps--Army Corps 
flood projects would greatly benefit communities in Houston and 
along the Gulf Coast who live in constant fear when the next 
flood will strike and save billions of dollars in property 
protected from flood damage.
    And again, I want to thank you for the opportunity to 
testify, and, again, thank you for the relationship our--I have 
had with this subcommittee for many years. I would be glad to 
answer any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Mr. Simpson. Thank you, Congressman. I appreciate you being 
here today, and I know you have got a tough area down there 
with all the floods that has going on lately, and we look 
forward to working with you and the other Members from that 
area to try and address those concerns.
    Mr. Green. Thank you, Mr. Chairman.
    Ms. Kaptur. I just----
    Mr. Simpson. Questions?
    Ms. Kaptur [continuing]. Want to echo the chairman's words 
there. Frankly, Houston has just been battered, your coastline 
over and over. I really congratulate your community, your 
citizenry for their stalwartness in face of all of that, and I 
know we will try to do everything we can to help.
    Mr. Green. Thank you.
    Mr. Simpson. Thank you for being here today.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Carter.
                              ----------                              


                                          Wednesday, March 8, 2017.

                                WITNESS

HON. EARL L. ``BUDDY'' CARTER, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF GEORGIA
    Mr. Carter. Thank you, Mr. Chairman, and it is an honor to 
be with you, and I thank all the committee members. I 
appreciate this opportunity to share my priorities and concerns 
for the First Congressional District of Georgia. It is an honor 
to represent a district that is so geographically diverse and 
rich in water resources. I look forward to working with you, 
Mr. Chairman, and the Energy and Water Subcommittee, to address 
a number of different challenges we are currently facing.
    I would like to start by saying thank you. Thank you for 
your continued commitment to working with us to complete SHEP, 
the Savannah Harbor Expansion Project. As you know, it is the 
most exhaustively studied, deep-draft project in the Nation and 
represents a significant economic opportunity not just for 
coastal Georgia and the surrounding areas, but for the region 
as a whole. Under the Corps of Engineers' original cost 
estimate, the Federal Government's share would need to be 
roughly $100 million annually to keep the project on track and 
on budget.
    It is these major deep-draft navigational projects that 
will be the stimulus for growing our economy. For this reason, 
I am respectfully supporting a funding request that would 
ensure robust funding for the construction of deep-draft 
navigation projects across the country.
    We are also fortunate to have one of the busiest roll-on/
roll-off ports in the Nation. The Port of Brunswick has also 
seen tremendous growth with the majority of their increase 
being roll-on/roll-off in bulk cargo. While this is great news, 
it is not without difficulties. For years, we have worked with 
Corps of Engineers and the Georgia Ports Authority to deepen 
the river to authorize maintenance depth, but the Federal 
funding has been below needed levels.
    In addition, compounding shoaling and natural disasters 
have created additional challenges for the operators of these 
ships. As a result, I am supporting the need for better funding 
for maintenance projects across the Nation. With needed 
attention towards our Nation's operations and maintenance 
needs, we can keep our water-based infrastructure projects on 
track.
    While I have touched on these two major ports, the issue of 
harbor maintenance is a concern that both this subcommittee and 
authorizers have addressed before with the Harbor Maintenance 
Trust Fund. As we seek to grow our economy, we need to have 
ports that can sustain adequate depths as we transition to the 
larger vessels making calls.
    I know, Mr. Chairman, that you remain committed to finding 
a solution to this problem, and I look forward to working with 
you to remedy this situation. In addition to the previously 
mentioned projects, the Tybee Island Shore Protection Project 
is vital to protecting and sustaining the measures needed to 
keep the residents of Tybee Island safe from further severe 
weather events.
    The recent damage caused by Hurricane Matthew was mitigated 
thanks to the dune protections that were in place. Phase 2 of 
the Savannah Channel Impact Study is important to assessing 
erosion along the shoreline, and to determine the steps 
necessary to reduce the impacts of future severe weather 
events.
    I support sufficient funding under Additional Funding, 
Shore Protection Investigations, to ensure that Tybee Island, 
like many other communities, has the protection it needs to 
survive another disaster.
    Mr. Chairman, I am extremely appreciative of the hard work 
that you and your colleagues on the subcommittee do in crafting 
the Energy and Waters Appropriations bill as we discuss 
infrastructure development and ways to stimulate our economy, 
and we need to look no further than the water-based 
infrastructure stimulating global trade. I deeply appreciate 
your attention to these matters, and thank you for the 
opportunity to provide this input.
    Again, Mr. Chairman, I thank all of you for your work, you 
and your committee members for your work. These deep-draft 
navigational ports are extremely important, as you know, and I 
am not exaggerating when I say that SHEP, the Savannah Harbor 
Expansion Project, is the most, without question, the most 
investigated project that we have ever had. It is the most 
exhaustively studied deep water project that we have had. We 
have been doing this now for going on 20 years, and still 
haven't completed that project.
    This is funding that we desperately need, not for the First 
District of Georgia, not only for the State of Georgia but for 
the whole southeast United States. This is an impact that we 
can have on the whole southeastern portion of the United 
States. I thank you, Mr. Chairman, and thank all of the 
committee members.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Simpson. Thank you for being here today, Mr. Carter. We 
appreciate it very much. Other questions?
    Ms. Kaptur. Mr. Chairman, I would just like to ask 
Congressman Carter--thank you for your excellent testimony.
    Mr. Carter. Sure.
    Ms. Kaptur. Could you just explain to us who don't come 
from your part of the country, how the changing nature of the 
ecosystem, the weather and everything has impacted your area? 
You talked about shoaling up, you talked about silting up, what 
is going on? In a bigger sense rather than just the port, the 
deep water port, what is happening in the region?
    Mr. Carter. Well, keep in mind where we are. If you know 
the geography of the United States, Savannah is somewhat 
inland. Remember that the--Florida comes up and then it kind of 
shifts east and goes--and the eastern shoreline goes up, so 
Savannah is accessible to more areas within the southeast, just 
because of our location on the coast.
    We are more inland than the outer ports are, and that 
causes some problems, in and of itself, when you talk about 
some of the geographical problems that we have and some of the 
changes that we have, and particularly in the weather. It is 
both advantageous, and, at the same time, it can be a hindrance 
to us. It is advantageous because it makes us closer to a lot 
of the geographical areas and a lot of cities along the eastern 
seaboard, along the eastern United States. We don't have to 
travel as far to get there, but at the same time, it does cause 
a lot of silting and a lot of filling in of our ports, and we 
have to have a lot more maintenance.
    Ms. Kaptur. Is there more wave action, or what is 
happening?
    Mr. Carter. There is. Our tide shift in this particular 
area is more than just about anywhere else in the United 
States. We have alternating tides. We have tide shifts of 7, 8 
feet at times, and that is just unheard of in other areas in 
the country.
    Ms. Kaptur. Thank you. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. If there are no other questions, 
thank you, Mr. Carter. We appreciate it. We look forward to 
working with you on your----
    Mr. Carter. Thank you, Mr. Chairman. I appreciate you 
especially, and your help on this and all the committee 
members.
    Mr. Simpson. You bet. Mr. Johnson, thank you for being here 
today.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. MIKE JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Johnson. Thank you, Chairman Simpson, and Ranking 
Member Kaptur, and my colleagues and distinguished members of 
the subcommittee. I want to thank you for this opportunity to 
testify in front of the Energy and Water Development 
Subcommittee on the importance of developing and maintaining 
Louisiana and the Nation's water infrastructure needs.
    Today, I ask the committee to help fund dredging needs that 
will provide much-needed resources related to flooding and 
navigation benefit, and not forget the tremendous benefit that 
shallow draft waterways and ports have in bringing jobs back to 
the United States.
    The role our inland waterway systems play is an integral 
part of our Nation's maritime system, and it is critically 
important to our prosperity as a country. In my district, 
Louisiana's Fourth District, some our biggest challenges and 
yet some of our greatest opportunities revolve around port 
infrastructure and further development of the navigation of our 
rivers.
    We have four shallow draft port authorities which service 
485 miles of navigable waterways and shallow draft river miles. 
As many of you are aware, the Red River in northwest Louisiana 
experienced an historic flood, even in June of 2015, which 
affected 21 of our parishes. This flood, along with a series of 
other recent flooding events, have significantly damaged our 
navigation structures, and they are currently threatening the 
maintenance of the channel and the safety of our residents.
    An immediate issue that was identified was how far off the 
actual river's flood stage crest was from the projected crest, 
which is based on a 1990 flood of record. The flood crest in 
2015 was significantly higher than the flood crest in 1990, 
with less volume of water measured at the Shreveport gauge, 
which is our primary gauge there. The higher flood stage caused 
significant damage to homes and agricultural land and 
businesses, our oil and gas industry, and our public 
infrastructures.
    In order to determine the reasons for these discrepancies, 
a sedimentation survey and hydraulic model from the Army Corps 
of Engineers is necessary. The $1.5 million study is authorized 
under the existing J. Bennett Johnson Waterway Project, 
Construction's General Account. Unfortunately, only $250,000 
was allocated in fiscal year 2016. Robust funding is 
desperately needed to help projects such as this come to 
fruition.
    If this survey and the model are not completed and 
analyzed, the 350,000 acres, and approximately 58,000 residents 
of the area, will continue to suffer from future flood events. 
It is imminent.
    A second major issue concerns the protection of our major 
infrastructure. River levels have come within feet of entering 
many structures in Bossier City on the other side of the river 
from Shreveport. Due to the damaged river profile, it is highly 
likely that levees need to be raised and flood walls 
constructed to protect existing infrastructure.
    FEMA has stated that the Federal methods used to regulate 
development of the special flood hazard areas would have to be 
reevaluated due to ongoing discrepancies, which were on full 
display during the 2015 flood event. However, in true-to-form 
fashion, FEMA cannot provide a final base flood elevation, or 
BFE, or a flood insurance rate map, FIRM, it can't do those 
updates without the Corps' sedimentation study and the 
hydraulic model.
    Funding the sedimentation survey would allow FEMA to do 
their job, and, thus, further protect the people of Louisiana 
by completing updates to the BFE and the FIRM. In addition to 
these studies, the Red River has several other immediate items 
which were in need of Federal action and funding. I ask the 
committee to continue to work with me on the ongoing needs 
related to dredging so that river navigation for a 24/7 
industry can be maintained.
    These funding priorities will not only help protect 
constituents, but it will improve business development for 
opportunities not only for Louisiana, but also Texas and 
Arkansas. Navigation funds through the Corps are truly needed 
to ensure and maintain a 9-by-200 foot channel. Without this, 
businesses will not only take elsewhere to invest, those that 
already have invested in north Louisiana will probably leave.
    The planned goal is to get a 12-foot river depth to ensure 
adequate competition with nearby rivers, such as the 
Mississippi and Arkansas Rivers. A request for an investigation 
to change the authorized depth from a 9-foot to a 12-foot 
channel has been initiated. Repair for damaged buoys, locks, 
and levees along the Red River are also needed.
    The construction features of the J. Bennett Johnston 
Waterway Project are only 93 percent complete. The Alexandria 
Front Dike Reinforcement Construction project and the J.H. 
Overton Lock & Dam 2 Lower Approach project are examples of two 
that can compete for funding with the construction general 
account resources for these projects, and those will help to 
aid in completion of the J. Bennett Johnston Waterway.
    A final example of where navigation funds are needed is the 
Ouchita-Black Rivers Navigation project. Previously, the fiscal 
year 2017 budget request for the navigation project was 8.5 
million, and additional maintenance account funds will allow 
this project to compete for the additional funds necessary to 
keep the waterway open for commercial navigation in the next 
year.
    I am out of time. I just want to strongly urge this 
subcommittee to invest in our ports and waterways so that our 
local communities can continue to build vibrant economies, and 
I stand ready to work with each of you and the administration 
in developing meaningful solutions to better maintain and 
enhance our Nations's vast water infrastructure system. And I 
am grateful for your time and your diligence on all these 
important needs.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Mr. Simpson. Thank you, Mr. Johnson. I appreciate you being 
here today.
    Mr. Johnson. Yes, sir.
    Mr. Simpson. Other questions?
    Ms. Kaptur. Mr. Chairman, I gather we don't have another 
witness right away, so I am just going to take 30 seconds to--
--
    Mr. Simpson. Okay.
    Ms. Kaptur [continuing]. Thank Congressman Johnson very 
much but to ask you if you have any theories about why the 
flood crest in 2015 was significantly higher than the flood 
crest in 1990. What is happening in your part of North America?
    Mr. Johnson. It is an excellent question, and the subject 
of much conjecture in our district. The prevailing theory seems 
to be that sedimentation has settled on the bed of the river, 
and that the Army Corps did not take that into account when 
they set that flood level, and so it is a substantial rise.
    We have lots of sedimentation on the Red River, and it has 
just built up over time, and so it was just something no one 
factored in apparently, as crazy as that sounds, and it was a 
gross underestimation. The--combine this flood with the flood 
that we had in south Louisiana several months later, we had the 
fourth most costly flood crises in American history in our 
State, and we are struggling to recover so----
    Ms. Kaptur. Are you getting more rainfall?
    Mr. Johnson. Let's hope not catastrophic levels.
    Ms. Kaptur. I guess what I am saying, are you getting more 
rainfall in shorter periods of time or larger volumes of 
rainfall? Is that contributing to the problem or not?
    Mr. Johnson. I don't know that that has been assessed to be 
the problem. I know there was an historic rainfall event in 
States just to our north, and, of course, it flowed down to us. 
And so it wasn't even really the rainfall levels in northwest 
Louisiana that caught us; it was rainfall in Missouri and 
Oklahoma and other areas, and it just came to us.
    We are doing our best to prepare for future events, and we 
are deeply concerned, pun not intended, that we could have a 
catastrophic event if these things happen again, so----
    Ms. Kaptur. Thank you. Thank you very much, Mr. Chairman
    Mr. Simpson. Thank you. Thank you for being here today. We 
appreciate your testimony, and we look forward to working with 
you and your staff.
    Mr. Johnson. Thank you so much.
    Mr. Simpson. You bet. We are going to be in recess for just 
a few minutes. We have three more people that are here to 
testify, and they should be here shortly. We should be done in 
the next 25 minutes or so when they get here, so we will take a 
brief recess until they come.
    [Recess.]
    Mr. Simpson. The committee will be back in order. Thank 
you, Mr. Wilson, for being here. We look forward to your 
testimony today. The floor is yours.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. JOE WILSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH 
    CAROLINA
    Mr. Wilson. Mr. Chairman, thank you, and with Ranking 
Member Kaptur, what an honor to be here with both of you. This 
is kind of a show of bright faces here. Thank you. And then, 
excuse me, Congressman Fleischmann, too. I was not anticipating 
such extraordinary people, so thank you very much. I appreciate 
the opportunity to meet with you today.
    First, I would like to thank Chairman Mike Simpson for his 
leadership as chairman of the House Appropriation Subcommittee 
on Energy and Water. I am grateful to represent South 
Carolina's Second Congressional District, a diverse and 
thriving community that is home to vital national security 
environmental cleanup missions.
    Today, I will specifically address the necessity of fully 
resourcing the very positive and proven missions at the 
Savannah River site and the Aiken-Barnwell community that I 
represent adjacent to Augusta, Georgia. The Savannah River site 
is home to the mixed oxide fuel fabrication facility, MOX 
facility, a valuable part of our nonproliferation and nuclear 
security. The MOX facility is currently 70 percent completed, 
and when completed, will be the Nation's only facility that can 
convert weapons grade plutonium into green fuel. The--and bring 
the United States back in compliance with our international 
nonproliferation agreements.
    I am confident that after examining MOX with clear unbiased 
data, it will be apparent that completing MOX is in the best 
interest of our national security. The Savannah River National 
Laboratory conducts cutting edge research supporting our 
Nation's ability to produce tritium, to monitor and detect 
capabilities for nuclear nonproliferation, and to conduct 
nuclear forensics. It researches and provides improved 
technologies for safely storing and transporting high-level 
radioactive waste.
    Additionally, the laboratory continues to make advancements 
in electrical grid security, studying electromagnetic pulses, 
EMPs. The Savannah River site is home to other critical 
Department of Energy nuclear security and environmental cleanup 
missions as it safely processes Cold War era nuclear materials 
into stable materials that can be stored for later disposal.
    Last year, the site completed construction of the salt 
waste processing facility, greatly enhancing the speed and 
efficiency of the remediation of high-level waste. Other 
critical facilities include H-Canyon, the Nation's only 
production scale nuclear chemical separations plant, and both K 
and L areas where--which safely store nuclear materials.
    Now, all the missions at the Savannah River site are vital 
to bolstering our national security capability and safe 
environmental stewardship.
    Since 1952, the Savannah River site has played a critical 
role in processing and disposing of high-level defense waste. 
However, the Savannah River site was never intended to be a 
long-term option for high-level waste. It lacks the ability to 
serve as a permanent repository. The only viable permanent 
repository is Yucca Mountain, which is environmentally secure.
    I strongly urge the Appropriations Committee to allocate 
funding specifically for the completion of Yucca Mountain 
license application. Abandoning Yucca Mountain in favor of a 
nonexistent alternative would leave the communities across the 
United States, including the South Carolina-Georgia Central 
Savannah River region to bear the burden of storing nuclear 
waste the Federal Government has promised to remove.
    Additionally, American ratepayers have put enormous 
resources to completing the nuclear storage facility at Yucca 
Mountain, including $1.5 billion from the ratepayers of South 
Carolina. I believe that the completion of the license 
application will highlight the technical merits and alleviate 
any environmental concerns for its neighbors.
    I appreciate the difficult decisions the committee must 
make as we begin the appropriations process for fiscal year 
2018. Thank you for your time. I urge you to continue 
supporting the vital missions at the Savannah River site and at 
Yucca Mountain. Thank you and would be happy to answer any 
questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Mr. Simpson. Thank you, Congressman Wilson.
    Mr. Fleischmann.
    Mr. Fleischmann. Yes. Congressman Wilson, I want to thank 
you for your advocacy today, and also, to let everyone here 
know, the EM mission nationally is so critically important. I 
know Savannah River has a project, Idaho has a project, 
Oakridge has literally decades worth of work, Hanford. We can 
literally look all across the country, and I would like to 
urge, as you have done, participation in our bipartisan nuclear 
cleanup caucus. It is one of the fastest growing caucuses in 
Congress. Ben Ray Lujan is my cochairman. We work very well 
together to advocate, and when a particular site has either had 
a deficiency or has a need, we have been able to address that 
in a very effective way.
    So thank you for your advocacy. Savannah River is a 
critically important site as is Oakridge, and I appreciate your 
testimony here today, sir.
    Mr. Wilson. Thank you very much. And indeed, it is so 
positive to me to see the working relationships between the 
various sites across the Nation. It is really inspiring to see 
how positive it is and look forward to working with Congressman 
Lujan, too. I have worked with him on a number of issues, and 
this can be bipartisan and positive for the national security 
of the people of the United States.
    Mr. Simpson. Thank you, Mr. Wilson.
    Ms. Kaptur.
    Ms. Kaptur. Thank you. I just wanted also to thank 
Congressman Wilson for testifying today and bringing forward 
the importance of waste--nuclear waste disposal. I am hoping 
that in any new infrastructure bill that is proposed that the 
cleanup issues will be also considered for inclusion and both 
for the types of waste that you specify in your testimony as 
well as spent ordinance, which is a big problem in many places 
in the country and other ingredients that have been a part of 
our defense and nuclear complex.
    I think this could be a job creator. It is work that we 
have had backlogged on our accounts for years and years and 
years, and I think you could be an important voice in that. So 
along with the rest of us. So I just thank you very much for 
testifying this morning. I thank you, Mr. Chairman, for the 
time.
    Mr. Simpson. Thank you, Mr. Wilson. Thanks for your 
testimony, and we look forward to working with you on this 
year's budget.
    Mr. Wilson. Again, what leadership here. I am just honored 
to be in your presence. Thank you very much.
    Mr. Simpson. Thank you. Again we will be in brief recess 
until our next witness comes.
    [Recess.]
    Mr. Simpson. The committee will be back in order. We are 
happy to have the Honorable Sheila Jackson Lee with us today. I 
look forward to your testimony. The floor is yours.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Ms. Jackson Lee. Thank you very much to Mr. Simpson and Ms. 
Kaptur. Thank you to this committee for its work that I think 
strikes an enormously bipartisan and nonpartisan cord, because 
all of us are concerned about major elements of clean water, 
clean air, and certainly energy for this Nation. So I wish to 
highlight the energy, water, and U.S. Army Corps of Engineers 
programs, which warrant the committee's continued attention and 
support. I will speak quickly about some initial ones so that I 
can focus on something that I think you have seen me on the 
floor confronting, and that is the flooding in Houston, Harris 
County, and, certainly, flooding that we have seen over the 
last couple years around the country.
    First of all, I support the $1.26 billion for Harbor 
Maintenance Trust Fund. Particularly, Houston Port is a manmade 
port. We face these issues of continuing to have to maintain 
the port so that it is viable for the major vessels that come 
in. As you well know, through the opening of the Panama Canal 
in its full force, the Houston Port will become busier than 
ever, and the dredging that is necessary is crucial. We 
continue to debate the question of how much money we send to 
the United States and how much money we receive, but I support 
the $1.26 billion for the importance, if you will, the 
importance of helping not only the Houston Port, but around the 
Nation. I support the $230 million for the Weatherization 
Assistance Program. WAP helps low income seniors, and I support 
that greatly as it relates to their energy efficiency. I 
support $2 million for the U.S.-Israel Energy Cooperation 
Program, robust funding for the DOE's Wind Energy Program in 
the State of Texas. We have taken wings, if I might say that.
    The wind program is unbelievable to both the chairman and 
the ranking member. It is particularly outside of our urban 
centers. It is in our rural communities. Our farmers are 
welcoming the windmills and asking, how many more can be placed 
on my land while I continue to do my--the commitment to the 
agriculture business that I have? So I am really supportive of 
expanding this program as a continuing substitute, or 
complement, to energy needs in the United States.
    I support $2.9 billion for energy efficiency; $5.672 
billion for DOE Office of Science, in particular, working with 
the NIH and the President BRAIN Initiative, we will develop the 
next generation tools and technology to support research into 
the brain. I support $84 million for the National Network for 
Manufacturing; support $70 million for the State Energy 
Program.
    And now to the U.S. Army Corps of Engineers. This is a 
lifeline in Harris County. We have the Harris County Flood 
Control District. We just had a report assessing that some of 
the work that we have done may have helped, or may be helping a 
neighborhood that has suffered flooding almost two years 
straight, with loss of life. And that is really striking in an 
urban area. This is a residential area where people were lost 
by their vehicles, either flooding into the bayou, which is 
what we have, or they themselves flooding into the bayou.
    One particularly sad incident was firefighters who rescued 
two seniors and another individual. These seniors had just from 
come the graduation of their granddaughter, and because the 
storms were so bad, the family said, why don't you head home, 
not wait till the program is over, and they, unfortunately, got 
flooded out, I think even as they were getting out of their 
car. They were rescued by firefighters, but the boat toppled 
over, and they--both of them lost their lives.
    So this is in the urban area of Houston. And so the Army 
Corps of Engineers does vital work. The appropriations funds 
studies to determine the need, engineering feasibility, and 
economic and environmental return to the Nation of potential 
solutions to water and related land-resource problems, pre-
construction engineering and design, and related data 
collection, interagency coordination research are very, very 
important. The Army Corps of Engineers plays a critical role, 
and it certainly is important to us.
    I was pleased that the fiscal year 2017 energy and water 
spending bill provided that the Secretary of the Army may 
initiate up to six new studies, and that five of those studies 
should be in areas where the majority of benefits are derived. 
I am optimistic that these provisions will be retained in 
fiscal year 2018, and that one of these new studies selected 
will be the Houston Regional Watershed Assessment Flood Risk 
and Management Feasibility Study that I have advocated for. 
Such a study is certainly needed to give the frequency and 
severity of historic level flood events in recent years in and 
around the historic Houston metropolitan area. I have asked for 
this for $3 million. We have never had a study of whether--how 
the bayous work together, and whether our improvements really 
work, and so this would be a great necessity.
    Let me quickly try to conclude by noting on April 15, 2016, 
an estimated 240 billion gallons of water fell in the Houston 
area over a 12-hour period, which resulted in several areas 
exceeding the 100- to 500-year flood area. The May 2015 Houston 
flood destroyed 3,015 homes, left eight persons dead. The 
economic damage caused by the 2015 Houston flood is estimated 
at $3 billion. The damage from 2016 is estimated at above $2 
billion. Not a hurricane; just rain. And our city is filled 
with bayous.
    So, Mr. Chairman and Ranking Member, minimizing the risk of 
flood damage to the Houston and Harris County metropolitan 
area, the Nation's fourth largest, is a matter of national 
significance, because the region is one of the Nation's major 
technology, energy, and financial report--export, and medical 
centers.
    So I support $2.8 billion for operation and maintenance; $6 
billion for coastal ocean data system; but, particularly, 
advocate for the study that I hope we can receive and so that 
we can assess the effectiveness of the tax dollars that we have 
received, the tax dollars that we hope to receive, and the 
effectiveness of making sure that we could be even a model for 
how you address the question of urban flooding in a location 
that is 50 feet below sea level, even though we are a few miles 
in from the Gulf.
    So I thank you all very much for the work that you do and 
ask your consideration. Thank you so very much.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Mr. Simpson. Thank you, Representative Jackson Lee. We 
appreciate you being here today. And Marcy, do you have 
anything?
    Ms. Kaptur. I just want to thank Congresswoman Jackson Lee 
for her excellent work and her indefatigability--Is that a 
word? Did I say it properly there? --on many fronts. And I have 
to say, all of the members of this committee, or the 
subcommittee, are very concerned about Houston and what has 
happened to you, the stalwartness it has taken for your people 
to come through the flooding, and wondering, you know, what the 
proper solutions are for--the proper engineering solutions are 
for an area like yours. We have also heard from witnesses from 
Georgia, Louisiana, and Florida, all along the southern part of 
the United States, the silting up of ports, the severity of 
storms, and now you are here as one of our final witnesses 
today. So it does make us wonder how to prepare our country for 
the future in this century, and so your information is very 
valuable to us.
    And I only have one question. In addition to that general 
concern about what is happening to our general weather patterns 
and environmental security along the southern part of our 
country, the entire question of your deep water port at Houston 
and how what is happening in the Panama Canal is impacting you? 
Could you expound on that just a little bit for it record, 
please?
    Ms. Jackson Lee. I would be delighted. And I would say it 
is a positive impact, and that is because of the new potential 
direction of the ships getting through much faster. Our port, 
which is now very close to the Panama's new route, so the 
Panama Canal's new routes that allow these ships to come 
through coming from the west and the east. We are seeing an 
increased use and higher tonnage coming into the Houston Port, 
which is a very large port, we are 10th in the world, but we 
are a manmade port, and we have to have dredging on a regular 
basis. And in order to maintain the viability of those ships 
and the income that comes in there, and also to be a 
contributor to the Nation's economy, because we do, we need to 
have the kind of maintenance that is intense and we need 
funding for that intense maintenance.
    So what I was saying is that it is a positive impact, but 
we are not a natural port, and that means we have to work at 
maintaining the port. And the port leaves the larger waters and 
comes into us up a 50-mile run that we have drudged to create 
the port, which is really right almost inside Houston, Texas, 
so inside city limits; our port comes into the city limits of 
Houston, and surrounding neighborhoods are there as well.
    So we have had a number of other issues that we have dealt 
with with the port being there, but the surrounding residential 
neighborhood has accepted the port, the port has tried to be a 
good neighbor, but all those concerns face us as a manmade 
port.
    Ms. Kaptur. Thank you very much.
    Mr. Simpson. Thank you. We appreciate your testimony and 
look forward to working with you as we put this budget 
together.
    Ms. Jackson Lee. I thank you, Chairman. Might I have a 
special appreciation to Ranking Member Kaptur, who took note 
the $3 million study in the last debate on the floor and her 
staff was very helpful to our office, and we are most grateful 
to you and for your leadership here, and to the chairman, for 
both of you working so well together. Thank you.
    Mr. Simpson. Thank you.
    Ms. Jackson Lee. I yield back.
    Mr. Simpson. And, again, we will be in recess for a couple 
minutes as we are waiting for our last individual to come and 
testify.
    [Recess.]
    Mr. Simpson. The committee is back in order, and will 
receive testimony from Congresswoman Watson Coleman. The floor 
is yours.
                              ----------                                
      

                                          Wednesday, March 8, 2017.

                                WITNESS

HON. BONNIE WATSON COLEMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW JERSEY
    Mrs. Watson Coleman. Thank you so much, Chairman. And thank 
you, Ranking Member Kaptur. I want to thank you for this 
opportunity to testify today on the agencies and programs under 
the jurisdiction of the Energy and Water Development 
Appropriations Subcommittee.
    The Army Corps' Civil Works Program covers a wide range of 
water resources activities that are essential to the public 
health and safety. I appreciate the important work this 
subcommittee has done in ensuring adequate funding for the Army 
Corps programs in previous years, which has benefited many of 
our communities and constituents. In past years, groups like 
the Greenbrook Flood Commission have used targeted Federal 
investments under the Civil Works Program to improve quality of 
life by expanding on water resource development activities like 
recreation and flood risk management. The Civil Works Program 
has also allowed the U.S. Army Corps of Engineers to strengthen 
its relationship with our communities through its projects that 
have enhanced quality of life for thousands of people.
    The Greenbrook Flood Commission, which supports 13 
different municipalities in my district, has already provided 
rejuvenation and relief to residents by completion of 
components of the Greenbrook sub-basin project through flood 
control programs. This project encompasses an area that has 
been ravaged by extreme flooding, which has caused extensive 
property damage, and even the loss of life.
    Over the course of nearly 40 years, the U.S. Army Corps of 
Engineers project manager for this project has worked to 
ameliorate the extreme flooding conditions through the 
construction of extensive levees, flood walls, and pump 
stations. In fiscal year 2016, the Army Corps Civil Works 
Program received approximately $6 billion in funding. Providing 
the Corps with the sufficient funding for fiscal year 2017 and 
2018, it is critical to keeping projects like this moving 
forward, especially knowing that certain projects like this one 
have previously languished due to a lack of funding.
    Projects like this one also help build a stronger and safer 
America by constructing durable and sustainable infrastructure 
that prioritizes the protection of life and property. They also 
help modernize our communities and reduce the risk of damage 
from natural resources, while promoting job creation and 
environmental stewardship.
    So, again, I want to thank the chairman and the ranking 
member for this opportunity to testify, and hope that Congress 
will continue to support the robust funding for such critical 
programs. And with that, I yield back.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Mr. Simpson. Thank you. We appreciate your testimony today.
    Questions, Ms. Kaptur?
    Ms. Kaptur. No, Mr. Chairman, but I do want to thank 
Congresswoman Watson Coleman for testifying today and for your 
support of the Corps. As we move forward here this year, we are 
expecting something on infrastructure from the administration, 
completion of many of these projects, augmentation around the 
country of work already underway could be a part of that 
measure, so I just wanted to put that on the table as we accept 
your excellent testimony.
    Mrs. Watson Coleman. Thank you very much.
    And, Mr. Chairman and Madam Ranking Member, I just--I want 
to apologize for being a bit late. I was testifying downstairs. 
It is just one of those days.
    Mr. Simpson. It is one of those days. We appreciate it. You 
weren't late, actually.
    Mrs. Watson Coleman. Oh, good. Thank you.
    Mr. Simpson. But we appreciate you coming. We appreciate 
all the members that came to testify today. Their comments will 
be included in the record.
    And I would also remind members that might be listening 
that our member request day is closed on April--database closes 
on April 6, so have the individual member requests in to the 
subcommittee so they can start working on them.
    But thank you very much, Bonnie----
    Mrs. Watson Coleman. Thank you.
    Mr. Simpson [continuing]. For coming here today and 
testifying before us. And we look forward to working with you 
and your staff as we put this bill together.
    Mrs. Watson Coleman. Thank you.
    Mr. Simpson. Thank you.
    Mrs. Watson Coleman. Appreciate it very much.
    Mr. Simpson. The hearing is adjourned.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              --
--------

                                            Wednesday, May 3, 2017.

                          CITY OF TYBEE ISLAND

                                WITNESS

JASON BUELTERMAN, MAYOR, CITY OF TYBEE ISLAND
    Mr.  Simpson. The hearing will come to order. Thank you, 
all of you, for being here today. This is the first time this 
Committee, I think, at least in my memory, and I have been on 
it for a long time, has had public witnesses. And I think it is 
a good idea and we have--also, because we have had the time 
this year, because we have not been able to have any other 
witnesses because we have not got a budget yet and probably 
will not until the end of this month, so we thought it was a 
good time to have the public witness hearing and hear what all 
of you thought is important in this bill and things we ought to 
be considering as we draft this bill.
    I would like to welcome everyone to the Energy and Water 
public witness hearing. This morning members of the public will 
testify on issues that are important to them under the 
jurisdiction of this subcommittee.
    Each witness will have 5 minutes to present their 
testimony. Remember that your full testimony, the written 
statement, will appear in the hearing record. Members of the 
subcommittee may ask questions of the witnesses, but we would 
have a better chance of staying on schedule if we all work to 
keep this moving. We have to be done at 12:30 and we have 27 
witnesses it looks like, so I am going to keep to the 5-minute 
rule.
    So, would Ms. Kaptur have an opening statement?
    Ms.  Kaptur. Thank you, Mr. Chairman. I am just so happy we 
can all be together this morning. I want to thank you for your 
leadership and for this public witness day. I welcome these 
days in particular, of the testimony that will come before us, 
and they are both valuable and I would say quite motivating for 
those of us on this subcommittee. I look forward to hearing 
from all of the interested parties today on what you believe 
important to be in our bill. And with that, I will close my 
remarks.
    And thank you, Mr. Chairman, for arranging this important 
opportunity for all of us to work together on behalf of the 
Nation's best interest.
    Mr.  Simpson. Thank you. Our first panel is Mayor Jason--
pronounce your last name for me.
    Mr.  Buelterman. Buelterman.
    Mr.  Simpson. Buelterman, kind of throws my tongue in the 
middle, Buelterman, okay. Mayor and Derek Brockbank, welcome to 
the committee and the time is yours. Mayor, first.
    Mr.  Buelterman. Thank you very much. Good morning. I want 
to start by thanking Subcommittee Chairman----
    Mr.  Simpson. Is the microphone on?
    Mr.  Buelterman. I want to start by thanking you all for 
the opportunity to present before you today. My appearance 
before you is to underscore the need for increased 
appropriations to the U.S. Army Corps of Engineers 
investigations account, specifically additional funding for 
shore protection investigations that the committee has provided 
in the past.
    I want to use an example for my own city of Tybee Island, 
Georgia, to demonstrate what I believe is a pressing need for 
these funds across many coastal regions of the country. For 
those who may not be aware, Tybee is a barrier island located 
about 18 miles east of Savannah, Georgia.
    It is the eastern most point in the State of Georgia and is 
known for being a popular recreational destination for the 
region, as well as a vacation spot among tourists from outside 
the Savannah metropolitan area and is also home to about 3,000 
full-time residents.
    The sandy shoreline of Tybee is of significant value. While 
it is important to the city and region as a recreational venue, 
its primary purpose, the beach that is and the dunes, is to 
provide protection against damages caused by storms and coastal 
flooding.
    Recently my community suffered significant damage due to 
Hurricane Matthew. The total damage to Tybee amounted to at 
least $3.4 million. Those damages would have been far greater 
had our Federal Shore Protection Project not been in place.
    The Tybee Island Shore Protection Project was authorized by 
Section 201 of the Flood Control Act of 1965. It provides 
periodic renourishments estimated to be every 7 years until the 
end of the 50-year project life, which expires in 2024.
    The City of Tybee is working to extend the project's 
authorization and bolster its dune system. The Savannah 
district office of the Corps, at the request of our city, made 
a funding request for the President's fiscal year 2018 budget 
to fund what is called Phase II of the Savannah Channel Impact 
Study.
    Phase I of this study determined that approximately 73 
percent of the erosion of Tybee shelf and shoreline is caused 
by impacts from the manmade federally authorized Savannah 
harbor shipping channel.
    Under law, the Federal Government is responsible for 
mitigating damages caused by its own navigation projects.
    Phase II of this study, which is one of the reasons I am 
here, will determine what measures will be recommended to 
address the erosion. The study will be all encompassing, 
including assessing adding dunes to the existing Federal Shore 
Protection Project and assessing the severe erosion that has 
occurred along the shoreline of the northern end of our island.
    This portion of our island, although it is adjacent to the 
shipping channel, is not part of the current Federal Shore 
Protection Project and has been severely impacted by shipping 
traffic using the Savannah channel and will face even greater 
erosional impacts due to the channel's ongoing deepening.
    I urge the House Committee on Appropriations to provide 
sufficient funding to enable the funding of the Phase II study.
    I also want to highlight another issue that I respectfully 
ask the subcommittee to keep in mind as you determine future 
funding needs for shore protection projects.
    One of the major lessons of Hurricane Matthew and 
Superstorm Sandy was a massive amount of money that did not 
need to be spent in Federal post-disaster and flood insurance 
costs due to the existence of manmade dunes.
    I have given all a one-page--two pictures here on one sheet 
of paper. These two photos you have before you illustrate my 
point. The top photo of is of a beach town right up the coast 
from the second photo at the bottom of a town called Harvey 
Cedars, New Jersey.
    Both aerial shots were taken right after Superstorm Sandy. 
The town in the top photo, and I am not going to identify which 
one that is, did not have manmade dunes. The bottom photo is of 
a town that wisely did have manmade dunes.
    These dunes were built as part of a newer Federal Shore 
Protection Project by the Army Corps of Engineers. It is 
estimated that about $1.3 billion in Sandy-related damages were 
saved by the existence of Federal Shore Protection Projects in 
New York and New Jersey alone.
    Dunes are not part, however, of many older Federal Shore 
Protection Projects, such as the one on Tybee. Because of the 
time of the creation of projects, dunes were not considered in 
the 1970s to be a big deal and to be essential for protection 
for coastal communities.
    I urge the subcommittee to consider adding additional 
shoreline protection funding with the appropriate report 
language, noting that a portion of the additional money is to 
be used to expedite adding a dune element to older projects 
using the existing cost-sharing percentages for those projects.
    If the Corps is required to produce a straight forward 
report on those projects designed prior to 1986 where dunes 
were not included in the project design, you will see that 
Tybee Island is not alone.
    Thank you again for the opportunity to appear before you 
today.
    So the slow erosion of our beach is caused by the fact that 
sand that would otherwise drift to our beach naturally, gets 
stuck in the manmade shipping channel. Whereas the immediate 
impact from Hurricane Matthew had a very significant one-time 
event.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr.  Simpson. Mr. Brockbank.
               ----------                              


                                            Wednesday, May 3, 2017.

           AMERICAN SHORE AND BEACH PRESERVATION ASSOCIATION


                                WITNESS

DEREK BROCKBANK, EXECUTIVE DIRECTOR, AMERICAN SHORE AND BEACH 
    PRESERVATION ASSOCIATION
    Mr.  Brockbank. Thank you. Thank you for having me. My name 
is Derek Brockbank. I am the executive director of the American 
Shore and Beach Preservation Association. Founded in 1926, 
ASBPA is dedicated to preserving, protecting, and enhancing our 
coast by emerging science and public policy.
    We represent the Nation's coastal practitioners--the 
industry, the local government officials, and academics who 
build, restore, and maintain our Nation's coastline. The City 
of Tybee Island has been a member for many years now.
    I am here today also to speak for natural coastal 
infrastructure, why beaches, high vegetative dunes, and vibrant 
wetlands protect communities from coastal flooding and storms, 
saving lives, protecting property, and reducing disruptions to 
the local economy.
    Simply put, natural coastal infrastructure is a wise fiscal 
investment, saving the Federal Government money by reducing 
post-disaster recovery costs.
    As you heard from the mayor, the Army Corps of Engineers 
has estimated that investment in shore protection saved $1.3 
billion of damage in New York and New Jersey and $1.9 billion 
in damage total during Hurricane Sandy.
    Coastal protection is also a jobs bonanza. In addition to 
construction jobs, restoring and maintaining coastal 
infrastructure supports lifeguards, fishermen, hotel workers, 
waiters, and the plumbers and technicians who work in coastal 
towns.
    So what needs to be funded? To protect our coastal 
communities and support coastal economies, the United States 
needs to, A, construct coastal protection and restoration 
projects; B, manage sediment as a resource, not a waste 
product; and, C, collect data and do coastal research to ensure 
that coastal projects will protect the people and assets they 
were designed to protect.
    To meet long-term funding needs, Congress should invest $5 
billion over 10 years in beaches, dunes, and wetlands as part 
of a national infrastructure package. But to maintain existing 
capacity, we respectfully request that the fiscal year 2018 
Energy and Water Appropriation includes the following:
    One, provide at least $75 million to the Army Corps for 
shore protection. Shore protection or coastal flood risk 
management are the funds the Corps uses to construct and 
renourish beach and dune systems that protect vulnerable 
coastal communities.
    While the administration's budget has consistently left 
shore protection unfunded, Congress has reliably added funding 
to this critical Corps mission. After steady declines in shore 
protection appropriations, we were pleased to see a slight 
increase to 50 million in the fiscal year 2017 omnibus.
    However, with our Nation's coastal communities increasingly 
vulnerable to severe coastal storms and the inevitability of 
the next major hurricane, we ask that you return shore 
protection funding levels to at least that of fiscal year 2014.
    The current Army Corps capacity for shore protection is 
$165 million annually, which was requested in a Dear Colleague 
letter led by Representative Wasserman Schultz as well as 
Congresswoman Frankel and fully supported by ASBPA.
    Our request of at least $75 million is less than half what 
the Army Corps could accomplish and should be the minimum 
appropriated.
    Two, provide $5 million for implementation of the 
beneficial use of dredge material pilot program that was 
authorized in the WIND Act and provides $6 million increase to 
regional sediment management to develop sediment management 
strategies for the South Atlantic Coastal Study also authorized 
in the WIND Act.
    The WIND Act was a major bipartisan success last December 
and authorized a number of good coastal programs that require 
the Corps to manage sand and sediment, which are the building 
blocks of coastal protection projects as a resource, not a 
waste product.
    The Beneficial Use of Dredge Material Pilot Program 
authorizes 10 projects around the country to innovatively use 
sediment dredged from navigation channels for coastal 
protection and/or environmental restoration.
    ASBPA has heard that Corps districts have submitted more 
than a hundred projects for this new program. Clearly the 
interest is there. What the program lacks is funding. We 
request $5 million for the full implementation of Beneficial 
Use of Dredge Material Pilot Program.
    This South Atlantic Coastal Study covers one of the most 
vulnerable regions in the world for hurricanes from North 
Carolina, to Mississippi, and the Caribbean Islands. The full 
cost of the study is estimated to be 10 to $14 million, but an 
initial Federal investment of $6 million to the Corps' Regional 
Sediment Management Program would allow parts of this study 
that were previously authorized to begin in earnest and cut the 
cost of the study in half.
    Finally, we request that you maintain funding for coastal 
data collection, including coastal ocean data systems, national 
coastal mapping programs, and Coastal Field Data Collection 
Program. Without good coastal data, Federal projects and even 
local projects cannot be properly designed.
    Given the Federal jurisdiction over the ocean and coast, 
this data acquisition must be via Federal agencies. So we ask 
you to at least maintain current funding levels for these key 
programs.
    ASBPA is grateful to your subcommittee and Congress for 
funding the Coastal Flood Risk Management Mission of the Corps. 
Of course these programs are but a few small pieces of a much 
larger investment needed to prepare our coastal communities for 
increasingly intense coastal storms and hazards.
    Improved coastal resilience will take coordination across 
multiple Federal, State, and Local authorities. It will also 
take a large-scale dedicated funding investment in coastal 
infrastructure. However, a good first step in protecting 
coastal communities is ensuring all shore protection, regional 
sediment management, and coastal data acquisition are 
appropriately funded. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr.  Simpson. Thank you.
    Ms. Kaptur.
    Ms.  Kaptur. Yes. I want to thank Mr. Brockbank for your 
excellent testimony. I really agree with you on beneficial 
reuse, but I have a question.
    On page 5 of your testimony, you mentioned the Atlantic, 
the Gulf, and the Pacific coasts. Why did you not include the 
Great Lakes in the Coastal Data Information Program request?
    Mr.  Brockbank. Pure error and I apologize.
    Ms.  Kaptur. I just wondered. That is really important.
    Mr.  Brockbank. You are absolutely right and I apologize 
for that.
    Ms.  Kaptur. Thank you. Thank you, Mr. Chairman.
    Mr.  Simpson. Thank you. Thank you for your testimony. We 
look forward to working with you.
    Mr. Pete Rahn, the Maryland Department of Transportation.
                              ----------                              --
--------

                                            Wednesday, May 3, 2017.

                 MARYLAND DEPARTMENT OF TRANSPORTATION


                                WITNESS

HON. PETE RAHN, SECRETARY, MARYLAND DEPARTMENT OF TRANSPORTATION
    Mr.  Rahn. Good morning, Mr. Chairman, Ranking Member, 
members of the committee. Thank you for inviting me--sorry. 
Thank you for inviting me to discuss the importance of the U.S. 
Army Corps Engineers Civil Works funding to the Helen Delich 
Bentley Port of Baltimore, an economic engine not just for 
Maryland and the region, but for our Nation.
    Ports are the key links to U.S. access, to the global 
transportation network, and Federal navigation channels provide 
access to these facilities.
    I thank the Committee for continuing to invest in maritime 
infrastructure and commerce, especially with respect to 
essential dredging projects that keep our shipping channels, 
our maritime highways safe and open for business.
    This is a high priority for the Hogan administration, which 
is why the Maryland Department of Transportation requests that 
Congress ensure adequate funding in the fiscal year 2018 
budget, including $75 million for the Poplar Island and its 
expansion, $800,000 to initiate design for the Mid-Chesapeake 
Bay Island Project, $30.4 million in operations and maintenance 
funds for dredging the Baltimore harbor and channel's 50-foot 
project, and $12 million to maintain a depth of 35 feet in the 
C&D Canal and approach channels.
    The Port of Baltimore generates about 13,000 direct jobs 
and about 128,000 jobs linked to port activities. It is 
noteworthy that the average income for a port direct job is 16 
percent higher than the average Maryland salary.
    The Port of Baltimore was just recognized for the third 
consecutive year as the most efficient U.S. container port. We 
handle more cars in roll on, roll off, heavy farm, and 
construction machinery than any other U.S. port.
    The Port of Baltimore ranks first among all national ports 
in handling many commodities that are essential to our economy, 
such as aluminum, sugar, gypsum, cars, trucks, and equipment. 
We are ranked second in the Nation for exporting coal.
    Out of 190 major U.S. ports, Baltimore ranks 9th in the 
value of foreign cargo and 14th in foreign cargo tonnage. Our 
public-private partnership agreement with Ports America 
Chesapeake and the availability of a 50-foot deep container 
berth has positioned the Port of Baltimore to attract cargo 
growth associated with last year's Panama Canal expansion.
    Our tonnage increased 9.3 percent in the first 8 months 
since the Canal opened. The port's coal business has also 
increased significantly over the same period, as these ships 
need deep water, too.
    It is critical that the Port of Baltimore deliver 
sufficient long-term dredge material placement capacity to 
support maintenance of a 50-foot deep channel in terms of both 
depth and width to capitalize on that anticipated growth and 
maintain our existing business.
    If the Port of Baltimore is the economic heart of Maryland, 
our shipping channels are the arteries. With more than 130 
miles of dredged channels, we work with the Corps of Engineers 
to keep our channel system open.
    Maintaining the shipping channels is critical to the 
continued success of the port. Approximately 4.3 million cubic 
yards of sediment must be removed annually to maintain Federal 
channels and anchorages at their authorized depths and widths.
    Keeping the main Chesapeake Bay channels open for shipping 
relies on placement of dredge material at Poplar Island and its 
expansion as well as construction of the Mid-Chesapeake Bay 
Island Project. The Paul S. Sarbanes Ecosystem Restoration 
Project at Poplar Island will provide an additional 28 million 
cubic yards of dredge material placement.
    The Mid-Chesapeake Bay Island Project is critical, because 
it will provide 40-plus years of capacity. Federal funding is 
essential to enable Mid-Bay Project at the time it is needed 
and to avoid deauthorization in calendar year 2021.
    Federal funding for Corps dredging has been constrained 
over the last several years, and continued constraints will 
negatively impact the port. We believe that $25 million per 
year is needed to fully dredge the channels to Baltimore.
    The C&D Canal is also an essential part of the port's 
shipping channel system providing the shortest route to open 
water for vessels traveling between Baltimore and points north.
    Maryland remains fully committed to working with our 
Federal partners to deliver safe, efficient, and cost-effective 
maritime commerce infrastructure in Maryland.
    Thank you again for the opportunity to testify. I would be 
happy to answer any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr.  Simpson. Thank you, Mr. Rahn. I appreciate you being 
here today and this is not the first time, or the last time, I 
suspect I will hear about port--harbor maintenance and 
dredging.
    Mr.  Rahn. I would suspect not, Mr. Chairman.
    Mr.  Simpson. Thank you.
    Mr.  Rahn. All right. Thank you.
    Ms.  Kaptur. Mr. Chairman? Might I just say that the fact 
that you have named your port in memory of our dear 
Congresswoman Helen Delich Bentley gets my attention. She was 
one of my closest friends during my congressional service and I 
congratulate you for that. So my eyes are wide open on your 
request.
    I wanted to ask you, what do you do with your dredge 
material?
    Mr.  Rahn. If I may first comment on your first comment 
about Helen and having the port named after her, she was 
actually alive for the last 12 years that it has been named 
after her. So she was able to actually know the honor that had 
been bestowed upon her for her huge activity in developing the 
Port of Baltimore. She was an amazing woman with an amazing 
vocabulary.
    The question where we put it, so we have two sites, or 
three, for the Feds, for Federal placement? Three.
    So we have three sites for Federal placement, but for the 
Corps, and then we have two additional sites that we use for 
the harbor dredging that we do as a State to keep the harbor 
open.
    Ms.  Kaptur. Do you use it or do you just store?
    Mr.  Rahn. Right now we are storing it, but we are looking 
for ways to reuse it. In fact, our State Highway Administration 
is changing their regulations to allow the placement of the 
dredge material into highway projects.
    Thank you, Mr. Chairman.
    Mr.  Simpson. Thank you. Mr. Frazier.
                              ----------                              

                                            Wednesday, May 3, 2017.

               SOUTHEASTERN FEDERAL POWER CUSTOMERS, INC.


                                WITNESS

MICHAEL FRAZIER, SECRETARY, SOUTHEASTERN FEDERAL POWER CUSTOMERS, INC.
    Mr.  Frazier. Thank you, Chairman Simpson, Ranking Member 
Kaptur, and members of the subcommittee. My name is Michael 
Frazier and I am appearing today on behalf of the Southeastern 
Federal Power Customers in support of funding for Southeastern 
Power Administration, also known as SEPA, and the hydropower 
program administered by the U.S. Army Corps of Engineers in the 
Southeast.
    The Southeastern Federal Power Customers is a not-for-
profit corporation that was formed over 25 years ago to support 
the interest of electric taxpayers that received the benefit of 
the Federal Power Program in the Southeast.
    The members of the Southeastern Federal Power Customers are 
customer-owned municipal utilities and rural electric co-op 
that purchased the Federal resources provided by the Army Corps 
hydropower projects and use that hydropower with other 
generation to keep electric rates as low as possible.
    As you are aware, the power generated by the Army Corps 
hydropower projects in the Southeast is marketed by a separate 
agency under the umbrella of the Department of Energy. That 
agency, Southeastern Power Administration, SEPA, markets, 
sells, and arranges transmission for the power that the Army 
Corps projects provide.
    Our request to the subcommittee today is straightforward. 
The Southeastern Federal Power Customers are asking the 
subcommittee to authorize the use of receipts of at least $6 
million to allow SEPA to continue to meet its statutory mission 
of providing the power in the southeast to consumer-owned 
utilities at the lowest possible rate consistent with sound 
business principals.
    This request to the subcommittee can be easily met, because 
of the authorization for SEPA to use its receipts is considered 
neutral from a scoring proposition. In other words, funding 
this organization does not cost the subcommittee in terms of 
allocated dollars.
    Funding SEPA makes sense from a number of other 
perspectives as well. Authorizing SEPA to use receipts for 
program direction leverages revenues for the U.S. Treasury. 
Over the past four years SEPA has returned over $1 billion to 
the U.S. Treasury.
    Over the same period of time, it has been authorized to use 
roughly 28 million for program direction. It is a program that 
works for the Federal taxpayers. The program also includes 
other components such as the authorization to use receipts to 
wield the power and firm up power supply contracts.
    The subcommittee approves funding for these activities 
through the authorization to use receipts for purchase power 
and wielding activities.
    Like program direction, this funding authorization is also 
neutral from a scoring prospective, because the receipts or 
payments for these activities are received in the same year in 
which the expenditures are made.
    The payments for these activities are typically passed 
through charges on a customer's bill, which means that the 
expenditures are reimbursed rather than absorbed by SEPA.
    Let me emphasize an important point about the Federal power 
program that SEPA administers. The cost of the Federal power 
program are recouped and paid for by the ultimate 
beneficiaries. There are too few Federal programs that can make 
that point.
    For those of us that endeavor to keep the electric rates as 
low as possible for our taxpayers, our rate payers, we truly 
appreciate the support that this subcommittee has traditionally 
given to SEPA.
    We are also grateful for the support that this subcommittee 
has provided to the Army Corps hydropower program in the 
Southeast. As I mentioned earlier, the power market by SEPA 
comes from the Army Corps projects.
    The Army Corps' costs associated with hydropower are 
recovered in the rates charged by SEPA. However, Congress must 
still appropriate the funding for the Army Corps' operations 
and maintenance programs in the first instance to keep the 
power plants running.
    Although these expenditures are not treated the same as 
SEPA's direct program authorizations for scoring purposes, the 
subcommittee should be aware that the appropriations for the 
Army Corps hydropower program come back to the U.S. Treasury 
and the receipts paid for by the hydropower customers in the 
southeast.
    Every dollar put into the hydropower projects is returned 
to U.S. Treasury over time. In fact, I would encourage the 
members of the subcommittee to consider that funding the Army 
Corps hydropower program facilitates the payments to the 
Treasury, because the hydropower--if the hydropower equipment 
is not maintained, SEPA cannot sell the power which generates 
the revenues that I mentioned earlier.
    In conclusion, we ask that the subcommittee support SEPA's 
direct program, be it no less than $6 million, no less than $80 
million for purchase power and wielding activities, and no less 
than $75 million for the Army Corps hydropower programs to be 
used in the Southeast.
    Thank you for listening and I will be happy to answer any 
questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr.  Simpson. Thank you. We look forward to working with 
you and the other PMAs in trying to get some power that 
actually works. Thank you for your testimony today.
    Ms.  Kaptur. Thank you, Mr. Frazier. Could I just ask over 
how many States does your authority exist, just Georgia?
    Mr.  Frazier. The Southeastern Federal Power Customers, 
we--all the States that the SEPA covers, so North Carolina, 
South Carolina, Georgia, Alabama. There is probably a couple 
more.
    Ms.  Kaptur. All right. Thank you.
    Mr.  Simpson. Thank you.
    Mr. Bean, welcome to the committee. It is good to see you 
again. Time is yours.
                              ----------                              

                                            Wednesday, May 3, 2017.

                   PUYALLUP TRIBE OF WASHINGTON STATE


                                WITNESS

DAVID BEAN, COUNCILMAN, PUYALLUP TRIBE OF WASHINGTON STATE
    Mr.  Bean. [Speaking native language.] Good day, honorable 
relatives and friends. My name is David Bean. I am from the 
Puyallup Tribal Indians. I am here today on behalf of my 
chairman, Mr. Bill Sterud.
    We appreciate the opportunity to testify regarding the 
fiscal year 2018 U.S. Army Corps of Engineers Civil Waterworks 
Resources Construction Budget. We especially want to thank Mr. 
Chairman Simpson for your continuing support of Indian Country, 
both in your capacity here on this committee as well as your 
former capacity as chair of the Interior Appropriations 
Committee.
    We are continuously taught by our late uncle, Billy Frank, 
to tell your story. I am here today to tell you our story about 
our treaty right and the resource. We are also taught by his 
father, Billy Frank, Sr., that all natural things, our brothers 
and sisters, we have a responsibility to take care of them. If 
they take care of the fish, the fish will take care of us.
    In particular we ask the subcommittee's support for the 
Army Corps' work to replace the Buckley Diversion Dam and 
Buckley fish trap on the White River in Washington State. This 
work is necessary, so the United States can honor our treaty 
rights and meet its obligations under the Endangered Species 
Act.
    The estimated cost of this work right now is 50- to $100 
million. In addition to funding, we request report language to 
direct the Army Corps not to consider this project a new start 
construction project.
    This is necessary, because right now even if the Corps 
received the funding, there is a current directive by OMB not 
to engage in any new start projects.
    This seems ridiculous to us, since the planning and design 
for this project has been ongoing for more than a decade. To 
put this into perspective, Mr. Chairman, we started this 
process with your former colleague, Congressman Norm Dicks.
    In addition to the existing facility, 77 years old, far 
exceeding its intended service life and replacement structures 
would be more accurately referenced as updates.
    Since time immemorial, my Tribe has fished for salmon in 
the White River and the Puyallup River. My family has fished on 
these rivers for generations. We continue to do so this very 
day as treaties guarantee our right to fish from these rivers. 
My Tribe relies on salmon for subsistence, ceremonial and 
cultural purposes, as well as an economic resource. Now, three 
species of salmon are listed under the Endangered Species Act. 
They include the spring chinook, bull trout, and steelhead.
    Putting our treaty right in jeopardy, if there are no fish, 
simply there are no rights to exercise. Together the Buckley 
fish trap and Buckley Diversion Dam compose one facility 
located on the White River, which empties into the Puyallup 
River farther downstream.
    Since the dam completely obstructs the salmon's migration 
to their spawning grounds, the Corps installed the fish trap in 
a hold facility to serve as a pathway for the fish to prevent 
their extinction. Now the fish trap is 77 years old. It is 
completely outdated.
    It was never designed to accommodate the runs of pink and 
coho salmon, which quickly overwhelmed its limited handling 
capacity. The limited fish handling capacity often creates 
delays where fish are backed up for a mile or more at the 
facility. This causes stress, delay, injury, and ultimately 
spawning mortality for all the fish, including those on the 
endangered species list.
    It is long past time to replace the facility and several 
studies and biological opinions agree. Pursuant to the most 
recent National Marine Fisheries Service biological opinion, 
the Corps is required to replace the Buckley Diversion Dam and 
fish trap by 2020. If funding is not provided to continue the 
planning and construction of this project, this simply will not 
happen.
    Because of the state of this facility, fishing season on 
both Puyallup and White Rivers was almost entirely closed to 
both Tribal and sports fishing last year. Thus, the impact of 
the Corps' failure to do its job, honor its trust 
responsibility to try to end Endangered Species Act, not only 
directly impacts Tribes' guaranteed treaty right, but the 
sports fishing industry in Washington State as well.
    Fishing is a multimillion-dollar industry in the region and 
the health of these runs is critical, not only to the Tribes, 
but to the economy of the Northwest. One thing we are taught by 
elders that what affects one of us, affects all of us.
    We respectfully request that Congress include funding in 
the fiscal year 2018 Army Corps of Engineer civil works budget 
for the Buckley Diversion Dam and fish trap by 2020 sufficient 
to ensure that construction of this facility is complete by 
2020. This is necessary to ensure the Puyallup Tribes treaty 
rights are protected.
    With that, I want to close by saying thank you. We are 
appraisingly thankful to you for this opportunity to talk with 
you here today.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
       
    Mr.  Simpson. Thank you, David. It is always good to see 
you again and hear your testimony.
    Any questions?
    Ms.  Kaptur. I have no questions, but thank you very much 
for being here today.
    Mr.  Simpson. Thank you. We look forward to working with 
you on this.
    Joseph Pavel.
                              ----------                              

                                            Wednesday, May 3, 2017.

                SKOKOMISH TRIBE OF THE WASHINGTON STATE


                                WITNESS

JOSEPH PAVEL, TRIBAL NATURAL RESOURCE DIRECTOR, SKOKOMISH TRIBE OF THE 
    WASHINGTON STATE
    Mr.  Pavel. Good morning, good afternoon. I am Joseph 
Pavel, natural resources director for the Skokomish Indian 
Tribe. Thank you, Chairman Simpson, Ranking Member Kaptur, for 
this opportunity to testify on behalf of Army Corps of 
Engineers' appropriation in the amount of $13,168,000.
    This is the result of the development of an Ecosystem 
Restoration Project, one of three that was approved and 
authorized by Congress, and the recent Watershed Improvements 
Infrastructure Nations Act--Improvements for the Nation Act, 
that is as much as I am going to read.
    I would like to stress that this particular project 
addresses issues in the Skokomish River, the most frequently 
flooded river in Washington State, if not the Nation. You may 
have observed, or noticed, this is the river famous for the 
salmon swimming across the road. You have seen it. It is true 
and it is real and it is often.
    So we signed on with the Army Corps in 2006, a cooperative 
financing arrangement with our partner, Mason County, and let 
me stress, this is a cooperation between Tribal government and 
local government of Mason County of Washington State, so I 
believe I could speak on their behalf in support of the project 
as well.
    Then in 2012, we kind of got the first results of that that 
it would not be practical as a flood control project, but we 
could continue to develop the feasibility as an ecosystem 
restoration project.
    As I mentioned, we started in 2006. These Army Corps 
general investigation studies have a reputation to tend to run 
long and over cost, so this particular general investigation is 
the first one that was completed under a new edict of 3 by 3 by 
3: $3 million, 3 years, 3-inch binder. So this is the poster 
child of the new and improved and efficient Army Corps of 
Engineers.
    As far as I am aware, this is the farthest any of these 
ecosystem restoration projects has gotten. We are just looking 
to get this funding. The local school sponsors are responsible 
for a matching cost share. We have developed the resources to 
meet that obligation. Timing is of the essence, though. We have 
built momentum. We need to keep this moving. We need to get 
this project done.
    I would like to also mention that the Tribe, the county, 
and others have made significant investments in the watershed 
most notably. The city of Tacoma is a hydro project. We did an 
FERC relicensing of those. It is quite well known.
    But we were able to secure significant contributions from 
the city of Tacoma. This watershed has been worked really hard. 
We hold that the United States, the Federal Government, 
sanctioned the actions of the city of Tacoma and they have some 
responsibilities to step up and assist with the remediation and 
the restoration of this watershed, as well as that hydro 
project.
    The upper watershed has logged 90 percent clear-cut dense 
roads, very heavily impacted environmental from Federal 
Department of Agriculture lands. So there is some 
accountability there.
    Great wealth has been obstructed from this watershed and 
has supported the industry of the city of Tacoma, their tax 
base, supported the industry, the forced products industry, and 
that has generated a great tax base. So it is time to return 
some of that wealth, put some of that wealth back to work on 
behalf of the resources that the Skokomish Indian Tribe depends 
on, essential to our recovery of Chinook, summer trim salmon, 
bull trout, steelhead.
    The Skokomish River is a significant contributor to Puget 
Sound recovery. We will not ever have a recovery of our 
endangered species at Puget Sound until we can address these 
recovery efforts in the Skokomish River. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr.  Simpson. Thank you, Joseph.
    You going to ask him?
    Ms.  Kaptur. As I listened to the testimony this morning, 
including Mr. Pavel, I just have to say how important I believe 
an infrastructure bill is to this country. I will be one of the 
chief advocates for the backed-up projects for the Corps across 
this country. It could be one of the greatest job creators we 
could have. Let us hope we can move the country toward that 
point. Thank you.
    Mr.  Simpson. Thank you. Jackson Brossy?
                              ----------                              

                                            Wednesday, May 3, 2017.

                    NAVAJO NATION WASHINGTON OFFICE


                                WITNESS

JACKSON BROSSY, EXECUTIVE DIRECTOR, NAVAJO NATION WASHINGTON OFFICE
    Mr.  Brossy. Hello. My name is Jackson Brossy and I am the 
executive director of the Navajo Nation Washington Office. 
Thank you for this time to be here. I think it is important 
that we are here. Energy and water are two of the biggest 
issues facing the Navajo Nation today, so thank you.
    I want to address four different areas that impact the 
Navajo Nation, and this committee can help us grow our economic 
infrastructure. First, we see an area for the Bureau of 
Reclamation to help us out to support funding for an economic 
transition in light of the closing Navajo Generating Station. 
Second, we see an opportunity for the Bureau of Reclamation to 
support us in existing and building out new water 
infrastructure. Third, we see an opportunity for the U.S. Army 
Corps of Engineers' water programs to assist in further 
expanding our water infrastructure. And finally, the U.S. Army 
Corps of Engineers can help us with abandoned mine remediation. 
So I will start with the Navajo Generating Station.
    The generating station is a public-private partnership of 
coal-powered electrical generation on the Navajo Nation. And 
Congress was involved in creating this public-private 
partnership. And the reason we are here before you is the 
United States Government is an owner in this public-private 
partnership through the Bureau of Reclamation.
    However, less than a year ago, these non-Navajo owners 
decided that they wanted to divest and shut down this plant. So 
closure of this plant would be devastating. A recent Arizona 
State study estimated that closure would--the impact could be 
$18 billion over a span of 30 years. So any investment in this 
project has the potential to save billions of dollars in an 
area where there is an untenable 40 percent unemployment rate.
    So we seek a number of different proactive areas, including 
building out a railroad that will give us access to outside 
markets. We seek assistance with training for potential job 
losses in the thousands. And Congress is uniquely positioned to 
help us in this issue.
    I would like to transition into water infrastructure, 
another problem we have. There are about 15,000 homes in the 
Navajo Nation or about 30 percent in the Navajo Nation live 
without access to running water. That situation is absolutely 
untenable in 2017. And the Navajo Nation has been and continues 
to do everything we can to address this.
    We look at several different funding sources, including our 
own, and we put our money where our mouth is. And recently, 
this Congress passed--well, two Congresses ago passed the 
Navajo-Gallup Water Settlement. We ask for continued funding of 
the Navajo-Gallup Water Settlement in fiscal year 2018, and we 
also ask that the expired Rural Water Act of 2016 be 
reauthorized, so that we can work with the Bureau of 
Reclamation on different projects, including a 990,000 
agreement we have with the Bureau of Reclamation to connect 
with other existing water sources, so that we can get access to 
water for these folks on the Navajo Nation that do not have 
access to running water.
    The Navajo Nation also requests funding for the Bureau of 
Reclamation Native American Affairs Office. The Navajo Tribe, 
as well as other Tribes, take advantage of this office, and 
they help plan and coordinate and assist in a variety of 
projects.
    Transitioning to the U.S. Army Corps, Section 205 of the 
Flood Control Act of 1986 authorizes the Corps to assist local 
communities in reducing flood risk through their Small Flood 
Risk Management Program. We support reauthorization and funding 
for that program.
    The Navajo Nation also requests funding for Section 520 of 
the Water Resource Development Act for the Navajo Nation flood 
plain mapping. There are currently unspent Navajo Nation funds 
tied to this authority, so are our own funds, that the U.S. 
Army Corps of Engineers cannot spend without additional 
appropriations. The Navajo Nation requests that $500,000 be 
appropriated into this authority to match Navajo Nation funds 
that we are already planning on investing.
    And finally, transitioning to mining, there are a number of 
abandoned mines in the Navajo Nation that were created during 
the Cold War. Some of these mines were not properly 
decommissioned and some of them are still open today. This has 
created a tremendous health crisis on the Navajo Nation and we 
ask that the abandoned mines reclamation program be fully 
funded so that we can build out a database.
    Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
           
    Mr.  Simpson. Are these mostly uranium mines?
    Mr.  Brossy. There are more than--there are about 500 
uranium mines in the Navajo Nation and about half of them have 
not been remediated. And the United States was the sole 
customer of these, and so, obviously, the Federal Government 
has the responsibility to clean this up.
    Mr.  Simpson. Thank you.
    Mr.  Brossy. Yeah.
    Ms.  Kaptur. Mr. Chairman, I want to thank the gentleman 
for testifying and just ask, could you repeat the number of 
homes on the Navajo Reservation that lack access? What 
percentage of the individual----
    Mr.  Brossy. Fifteen thousand homes, about 30 percent of 
the homes in the Navajo Nation.
    Ms.  Kaptur. A third?
    Mr.  Brossy. Yep.
    Ms.  Kaptur. Thank you.
    Mr.  Brossy. It is an untenable problem, and we are putting 
our money where our mouth is, but we asked for additional help 
from every single source possible.
    Mr.  Simpson. Yeah, we saw that firsthand when we were out 
there.
    Mr.  Brossy. Yeah.
    Mr.  Simpson. What was it, the year before last, I guess?
    Mr.  Brossy. Yeah, you rode on our dirt roads and----
    Mr.  Simpson. Yes, I did.
    Mr.  Brossy [continuing]. Last year.
    Mr.  Simpson. Yes.
    Mr.  Azure. How are the mines secured currently? How are 
the abandoned mines secured currently?
    Mr.  Brossy. Many of them are not secured. Some of the 
larger ones are covered. I am not, obviously, an engineer in 
the space, but there are mines that our Navajo Nation president 
saw last year that were wide open. They had doors that had been 
broken and people and kids and animals could go in there.
    Mr.  Azure. Thank you.
    Mr.  Simpson. Thank you, Mr. Jackson. Mr. Floyd Azure.
                              ----------                              --
--------

                                            Wednesday, May 3, 2017.

       ASSINIBOINE AND SIOUX TRIBES OF THE FORT PECK RESERVATION


                                WITNESS

FLOYD AZURE, CHAIRMAN, ASSINIBOINE AND SIOUX TRIBES OF THE FORT PECK 
    RESERVATION
    Mr.  Azure. Thank you. Thank you for allowing me to be 
here. Good afternoon, Chairman Simpson, Ranking Member Kaptur, 
and the members of the subcommittee. My name is Floyd Azure. I 
am twice-elected chairman of the Assiniboine and Sioux Tribes 
of the Fort Peck Reservation, located in northeast Montana. 
Please continue to do the good work you have done in the past 
years to finance the completion of the Fort Peck Reservation 
Rural Water System. The project is a joint Tribal/non-Indian 
rural water project, which Congress authorized in 2000 with 
enactment of Public Law 106-382. The legislature authorized the 
construction of a rural water system to ensure a safe and 
adequate supply of municipal, rural, and industrial water for 
some 10,000 residents of the Fort Peck Indian Reservation, and 
the citizens of Roosevelt County, Sheridan County, Daniels 
County, and Valley County, which border our reservation. At 
full build-out, the project is estimated to serve 30,000 
Montanans.
    For fiscal year 2018, we seek approximately $27 million, 
with $14.7 million of those dollars for the Tribal portion of 
the water system, and $12.2 million for the Dry Prairie part. 
We hope that you will act favorably on our request, even though 
we do not have a congressman. Our congressman, Mr. Ryan Zinke, 
you will have his back and we will look out for his Montana 
constituents while he serves the entire country as Secretary of 
Interior.
    Mr.  Simpson. That is somebody more important.
    Mr.  Azure. To fund our request for fiscal year 2018, I ask 
the subcommittee to support an appropriations of $50 million 
for additional funding for ongoing rural water projects, a 
modest $3 million increase above the level this subcommittee 
recommended fiscal year 2017. This fund would supplement the 
specific funding for the Fort Peck Dry Prairie Rural Water 
system that is included in the President's annual budgets. This 
project grew out of necessity. Harmful levels of sulfates, 
irons, and brine contaminated our groundwater. We needed an 
alternate water source. We operate the water intake located in 
the Missouri River pumping station, a 3,000 square foot water 
treatment plant, and hundreds of miles of pipeline. Our two 
systems are interconnected and pump through our treatment 
plant. We are making our Tribal water rights available to 
Indian and non-Indian communities as our contribution to this 
effort. If our fiscal year 2017 construction funding is close 
to the $16 million we received for the project in fiscal year 
2016, we will be two-thirds complete with the $300 million 
project, with 16 years of Federal appropriations totaling just 
over $2 million.
    We learned last month that our project is now ranked second 
by the ABOR among the Tribal rural projects. I ask that you do 
not abandon your work to complete the construction. We have 
completed two of the three main trunks of the rural water 
system connecting the Dry Prairie on the west and the east of 
our reservation, and continue to lay hundreds of miles of water 
lines to serve our new communities.
    As appropriators, you know that any delay in completing a 
project such as this only increases the cost to American 
taxpayers. It makes no sense to cut Federal spending for 
authorized rural water projects when the president, States, and 
union Tribes are all calling for infrastructure projects to be 
completed to help create American jobs and promote economic 
development, especially in rural communities. Safe and reliable 
water is essential to our communities' health and economy.
    In conclusion, I urge this subcommittee to reject the 
administration's request to cut fiscal year 2018 appropriations 
for Bureau of Reclamation rural water projects and other 
nondefense agency appropriations critical to rural America. 
Federal appropriations are required to finance the completion 
of this important rural infrastructure project. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr.  Simpson. Thank you, and if any of the committee 
members that--the last two people to testify, if you have not 
been out on some of the Reservations and seen the needs in 
terms of water and so forth, it is amazing what is going on. I 
have been very involved in trying to get the Cheyenne River 
Sioux Eagle Butte Water System completed out there that have a 
dire need, but it is throughout Indian country that we need to 
make sure that we maintain--it is amazing, in today's age, that 
people do not have access to fresh water, which is just 
incredible. So it is not only us, it is the Interior Committee 
also that has been working on it and stuff, so appreciate it. 
Thank you.
    Ms.  Kaptur. Mr. Chairman, I just say for all of the Tribal 
representatives who are here today, I would urge you to work 
together and invite the President of the United States to your 
Reservations and to make sure that the infrastructure bill that 
they are considering over there--and it is a new 
administration, so they got a lot of issues--but that they see 
you, and, you know, you might get him to come.
    Mr.  Azure. Thank you.
    Mr.  Simpson. Thank you, Floyd. Dr. Elmer Guy.
    Mr.  Guy. Thank you. Thank you, Mr. Chairman. I am Elmer 
Guy, president of Navajo Technical University.
    Mr.  Simpson. Is your microphone on?
                              ----------                              --
--------

                                            Wednesday, May 3, 2017.

                      NAVAJO TECHNICAL UNIVERSITY


                                WITNESS

DR. ELMER GUY, PRESIDENT, NAVAJO TECHNICAL UNIVERSITY
    Mr.  Guy. Thank you, Mr. Chairman. I am Elmer Guy, 
president of Navajo Technical University in Crownpoint, New 
Mexico, on the Navajo Nation. I ask that my full statement be 
included in the record of this hearing, Mr. Chairman. On behalf 
of the Nation's 37 Tribally and Federally chartered colleges 
and universities, that collectively are the American Indian 
Higher Education Consortium, or AIHEC, thank you for this 
opportunity to address your subcommittee.
    Mr. Chairman, I want to thank you for your past support of 
Tribal colleges. I would also like to thank the subcommittee 
for your longstanding support for the MSI partnership program 
operated by the Department of Energy's National Nuclear 
Security Administration. I am here today with a modest request 
for a small program with enormous potential. I respectfully 
request $5 million in the fiscal year 2018 Energy and Water 
Development Appropriations bill to continue and expand the new 
Tribal college initiative, which is part of the Department of 
Energy's NNSA/MSI partnership program. Tribal colleges first 
joined the MSI partnership consortia program about 2 years ago. 
Already, it has made a significant impact in our small 
institutions and the rural communities we serve.
    Tribal colleges are place-based institutions located in 16 
States. We focus on Tribal Indian Nation-building through 
programs that sustain our Tribal cultures, languages, lands, 
and people. We are working to grow the country's Native 
workforce, and even more important, to create jobs in Indian 
Country to help address the deep-seated poverty that plagues 
our communities. Through AIHEC, Tribal colleges are 
implementing a long-term systemic plan to transition Native 
communities from local economies that perpetuate cycles of 
dependency and poverty into dynamic, innovation-driven 
economies, creating jobs and business opportunities.
    A key part of our plan is to work with new and emerging 
manufacturing technologies and methods to build jobs that 
Native Americans need and thereby to expand opportunity and 
leadership for all Americans. With seed funding from NNSA, we 
launched an advanced manufacturing program involving a pilot 
cohort of five Tribal colleges. This program will prepare a 
well-trained Native workforce in advanced manufacturing and 
create economic opportunities through the design and 
manufacture of products that are responsive to industry needs 
in these targeted technology areas.
    For example, the Center of Digital Technology at my 
institution, Navajo Technical University, has established a 
rapid growing advanced manufacturing program. Funded in part by 
the NNSA program and the National Science Foundation, NTU has 
developed a state-of-the-art facility, including 3D printers, 
computer numerical control machines, validation 
instrumentation, including metrology, that allows students to 
acquire knowledge and skills in design engineering, 
manufacturing processes, and performance analysis.
    Through this program, NTU is poised to become a leader, 
both in advanced manufacturing and the promotion of innovation 
and competitiveness through our own Center for Inspection 
Standards and Calibration. In fact, the Navajo Nation is 
contemplating investing in our college program, is helping 
recruit industry partners for research, development, and 
manufacturing projects involving faculty and students. Los 
Alamos National Laboratory is working with us to strengthen our 
metrology program simply because they lack metrologists.
    This is one example of how Tribal colleges are creating 
models for small, under-resourced, and rural institutions to 
successfully participate in an advanced technology-supported 
economic growth area, while providing students, both male and 
female, with hands-on training that leads to careers.
    Mr. Chairman, to ensure that the vital NNSA/TCU advanced 
manufacturing network initiative can continue, and more 
important, to help us accelerate the transformative power of 
relevant, job-producing higher education, we request your 
support for $5 million for the Tribal college initiative within 
the NNSA/MSI partnership program. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Mr.  Simpson. Thank you. Thank you for being here today. We 
look forward to working with you on this.
    Maria Korsnick from the Nuclear Energy Institute?
                              ----------                             


                                            Wednesday, May 3, 2017.

                        NUCLEAR ENERGY INSTITUTE


                                WITNESS

MARIA KORSNICK, CEO AND PRESIDENT, NUCLEAR ENERGY INSTITUTE
    Ms.  Korsnick. All right, thank you very much. I am very 
pleased to be here today and share with you the nuclear energy 
industry's view on the fiscal year 2018 budget. My comments 
today are going to cover four main areas. First, the NRC's 
outdated and costly regulatory regime needs to be updated. 
Second, accident-tolerant fuel and advanced reactors require 
urgent review and action. Third, that the Federal R&D efforts 
that promote new technologies and innovation are essential. And 
fourth, the licensing of the proposed Yucca Mountain repository 
must proceed according to the law and in parallel with the 
pursuit of consolidated interim storage. I will summarize those 
four key points.
    First, with the NRC, while our reactor fleet relies on a 
focused, efficient, and technically expert NRC, we believe that 
the agency's regulatory regime needs to evolve. Thanks to your 
oversight on this subcommittee, you have created additional 
attention and focus on the NRC's processing of licensing 
actions, its readiness to review second license renewal 
applications, digital instrumentation and controls, the backfit 
rule, and advanced nuclear fuels. We appreciate that, however, 
the NRC's work here is not yet done. Congressionally directed, 
independent assessments emphasize the need for NRC to continue 
improving the efficiency and transparency of its regulatory 
processes and operations, consistent with its own good 
principles of good regulation. As NRC rebalances its 
priorities, consistent with leaner budgets, we would ask them 
to integrate preparation for accident-tolerant fuel and reactor 
applications as part of its funding program. The NRC's own 
Project Aim 2020 report recommends shifting resources away from 
disciplines that are less in demand towards these activities to 
maintain the efficiency of the current fleet regulation.
    Second, by 2030, the United States could experience 
electricity shortages if a significant number of reactors are 
retired, as currently projected. To avoid this outcome, the 
industry is preparing a path to enable the renewal of the 
operating licenses of nuclear plants a second time, and that 
would be for an additional 20 years. Two plants have already 
announced plans to do so. While DOE's work in this area has 
been critical, additional work is still necessary through the 
Light Water Reactor Sustainability Project. That R&D can reduce 
the operating cost of the existing fleet. This includes work in 
advanced instrumentation and controls and the accident-tolerant 
fuel program. Increasing funding for the accident-tolerant fuel 
program will actually allow the R&D to be accelerated ahead of 
its current schedule.
    Congress should also continue funding for the Energy 
Innovation Hub for Modeling and Simulation. That project 
sponsors CASL, which is the Consortium for Advanced Simulation 
of Light Water Reactors. That initiative is successfully 
developing tools that help us optimize our fuel performance, 
support approval of new designs, and also support plant life 
extension.
    Turning now to small modular reactors, the SMR licensing 
and technical support program we think has been a success. The 
new scale design, a certification application, has recently 
been docketed by the NRC, and TVA's early site permit 
application was docketed last year. The SMR/LTS program should 
be expanded to support first-of-a-kind engineering, and 
continued investment by the Federal government as a cost-
sharing partner is necessary to ensure that these first SMRs 
are deployed in the mid-2020 timeframe.
    Developing this technology is going to help U.S. companies 
capture an international market as well for smaller and more 
versatile carbon-free energy sources. So here at home, SMRs 
will complement the large, passively safe reactors that you 
know we are building in Georgia and in South Carolina. And 
given the benefits for domestic job creation, expansion of 
income and export income and clean electricity, we think 
Federal support for the SMR technology is a sound investment in 
our Nation's future.
    Third, the ability of the nuclear industry to continue to 
innovate depends on the Federal Government supporting 
demonstration projects and encouraging advanced research. NEI 
supports the programs managed by DOE's Office of Nuclear 
Energy, and they seek to accelerate the commercial use of new 
nonlight water reactor technologies. The Gateway For 
Accelerated Innovation in Nuclear, or the GAIN program, has 
expanded access to the U.S. national labs. The small business 
voucher program implemented last year was, in fact, very 
successful, and a second round of awards was announced earlier 
this year. We think this program should be expanded.
    The advanced reactor industry has formed three technology 
working groups now. There is molten salt reactors, fast 
reactors, and high-temperature gas reactors, and this focuses 
the R&D needs, also interfaces with this GAIN program to inform 
the DOE Research and Development. Continued and increased 
funding for DOE advanced reactor program is essential to foster 
the ongoing and timely development and commercialization of 
advanced reactors, and also, in the continuation of funding for 
the industry cost-sharing awards that support the development 
of two advanced reactor concepts. Although the United States 
has a world-leading national lab program, it, in fact, lacks a 
fast neutron test reactor facility. Building an American 
facility would enable companies to accelerate the 
commercialization and eliminate our need to rely on a Russian 
research reactor, as we do today. We support the establishment 
of an independent U.S. facility in no less than 10 years.
    Lastly, with respect to used nuclear fuel management, NEI 
supports funding for DOE and NRC to complete the licensing of 
the Yucca Mountain repository in parallel with the development 
of consolidated storage. We encourage Congress to restructure 
the funding and spending mechanisms of the Nuclear Waste Fund 
to provide for dependable access to the Nuclear Waste Fund 
while maintaining congressional oversight. Such action is 
essential to ensuring that the Federal Government can meet its 
statutory and contractual commitments.
    Thank you, Chairman Simpson, Ranking Member Kaptur, and the 
members of the subcommittee. I am happy to take any questions 
you may have.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Mr.  Fleischmann. Thank you, Ms. Korsnick, good to see you. 
Melissa, great to see you again. For the benefit of everybody 
on this subcommittee I just want to thank you all for the 
outstanding work that NEI does.
    On a personal level, your support for the Nuclear Cleanup 
Caucus and all that we do in sites from Oakridge to a little 
place called Idaho, and across a great United States, thank 
you. Beautiful little place. Yeah, that is right. I have been 
once.
    If I may, I have two quick questions. Castle, you touched 
on Castle which is very important to us. Can you please, again, 
tell us how Castle has helped the current fleet in terms of 
nuclear power and how we can improve the economics of nuclear 
power using Castle?
    Ms.  Korsnick. I can give you a couple of examples. Watts 
Bar 2 is a plant that recently started up, and I know they used 
the Castle simulation program as part of that plant startup, as 
an example.
    I mentioned a recent SMR, small modular reactor, program 
NuScale is a company that is involved with SMRs, and I know 
they are using the Castle program as they are providing input, 
as they are finalizing their design and getting regulatory 
approval. And so the Castle program is being used in that.
    And we are looking at using the Castle program, as well, in 
support of the life extension as well as accident-tolerant 
fuels, and they are two very key programs for the current 
fleet.
    Mr.  Fleischmann. Thank you. And one further question. Does 
NEI support the Department of Energy reestablishing a domestic 
uranium enrichment capacity for national security purposes in 
the near term and why?
    Ms.  Korsnick. Yes, I would say from an NEI perspective we 
do think that it is important that the United States has the 
ability to enrich uranium.
    Mr.  Fleischmann. Thank you, Mr. Chairman, I yield back.
    Ms.  Kaptur. Thank you very much and we appreciate your 
testimony this morning, Ms. Korsnick. I wanted to ask you a 
difficult question you did not completely reference in your 
testimony. You probably have been here this morning, you heard 
about the Southeast Power Marking Authority and some of the 
other energy umbrellas that exist across the United States.
    In the region of the country that I represent nuclear 
energy is undergoing particular market pressure right now 
because of, I do not know whether one would call it an anomaly 
in the marketplace, but because of the movement of natural gas 
into our energy production, and the severe impact that has had 
on the nuclear industry. For the plants I represent and in the 
general Great Lakes region we have no such umbrellas across our 
region.
    Do you have any recommendations or thoughts you could 
provide now or to the record how we can deal with these 
companies? It is my understanding 25 percent to a third are 
heavily impacted currently. That could allow them to continue 
to function, but they may not be able to meet that test in the 
individual States in which they exist because energy pricing is 
really global in nature and we face the threat of a loss of 
many of our nuclear power plants in the commercial sector. Do 
you have any comments on that or could you providing 
information to the record on a range of solutions that you 
might suggest as head of your institute?
    Ms.  Korsnick. Certainly. I will provide a few comments 
here, but I will add more to the record, if that is okay. I 
would characterize the challenge that is facing the fleet today 
is, in fact, the low price of natural gas or the glut, if you 
will, of natural gas has put significant pressure on the 
operating fleet.
    I know that we have been working with the Federal Energy 
Regulatory Commission. And they have just, in fact, had a 
technical conference this week, and one of those items is to 
look at the value that nuclear brings to the marketplace, and 
the fact that all of that value is not being realized, in fact, 
in the market. So it is a significant challenge. You are right. 
We have closed six plants in the last few years, seven 
additional plants have announced, and there are more that are 
threatened.
    So I do think that this is a significant challenge. I would 
step back. I would say right now the solutions are playing out 
in individual States, so there was success in New York. There 
was success in Illinois, but there will be other individual 
State conversations. But I do think it is very important for us 
as a Nation to step back and look at what we have in nuclear 
power and appreciate the importance that nuclear power brings.
    There are 60 reactors being built around the world today, 
two-thirds of those are Chinese and Russian design. The United 
States needs to be in that conversation. We do not get in that 
conversation by letting our fleet at home atrophy. We need to 
take this very seriously. We should look at it as a national 
security issue, and that is something that we are working very 
much to create that conversation. I am happy to add more for 
the record.
    Ms.  Kaptur. All right. Thank you very much. And, Mr. 
Chairman, this is such a significant issue in the Great Lakes 
because when our nuclear power plants were built we actually 
function in the commercial marketplace. We have nothing like 
the Tennessee Valley Authority or the Bureau of Reclamation or 
the Southeast Power Market Authority. It simply does not exist.
    And these companies are really enduring hardship. I really, 
personally, I think we need a bridge financing package. The 
industry has not really asked for that. Right now they are sort 
of hostage at the State level, but this is an issue for this 
subcommittee, and also for the authorizing committee, I think. 
And I just do not, I am sorry to say, I just do not think our 
States are up for the task of meeting a national challenge. So 
I just wanted to put that on the record and we would welcome 
any additional comments you wish to make.
    Mr.  Simpson. Thank you.
                              ----------                              --
--------

                                            Wednesday, May 3, 2017.

                              E4THEFUTURE


                                WITNESS

STEPHEN COWELL, PRESIDENT, E4THEFUTURE
    Mr.  Cowell. Hi. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify today. And I will be testifying, we have 
submitted testimony on behalf of myself, EForTheFuture, but 
also Home Performance Coalition. My partner, Brian Castelli, 
will be also talking about it.
    So my goal is really to talk through about how energy 
efficiency, and specifically the work that is being done by DEO 
in the very critical role of working collaboratively with 
States is absolutely critical. Just a little bit about 
EForTheFuture. We used to be called Conservation Services Group 
and we ran the residential energy efficiency in 23 States, 
including Tennessee, Ohio, New York, New Jersey, California, 
Oregon, Washington, Massachusetts, and a few other States.
    But we were able to assist, our nonprofit was able to 
assist over 3.5 million American U.S. households reduce their 
energy consumption over the last 20 years. That was our work.
    We recently sold our business work to a Texas company, 
Clear Result, and they are going to continue doing that. We are 
going to continue focusing on research, education, and 
innovation to really drive our energy economy for the future 
which is what we have to do. And so one of the things, really 
the specific points--and I would like to thank the House, 
specifically. Your continuing resolution continues the work 
that I am going to talk about, and so thank you very much, 
which I think you are going to vote on today, later today. I 
think it was a leadership effort, so thank you very much.
    Specifically, the Building Technology's Office at DOE does 
tremendous work around helping all of us in the energy 
efficient world, which energy efficiency is the least 
expensive. It is the most reliable and it is the most 
beneficial. Brian will be talking about the jobs impact 
analysis that we did in terms of how many jobs and its impact.
    But the Building Technology Office, part of EERE, is really 
critical to helping provide the background and the 
underpinnings for all the efforts in each State. The State 
energy programs provides the support to the State energy 
offices because this country, we have delegated managing and 
running our energy economy to the States. It is a critical 
partnership between State and Federal. If we do not have a 
strong energy economy we will not keep going as a country, so 
we really need to put all the pieces together.
    So we really strongly support that and the weatherization 
systems program, helping low-income people try to avoid energy 
poverty, and that is really critical as well. There has been 
great work over the years of the weatherization assistance.
    As a matter of fact, CSE EForTheFuture started as a result 
of learning from the weatherization program in 1979. So a long 
history of tremendous innovation and others will be talking 
about the weatherization assistance program and its critical 
nature.
    We did put together a letter, which we have submitted, with 
almost 2,500 names, including names and businesses from every 
State, all of your States in terms of Ohio, Tennessee. 
Tennessee we had 135 different businesses submit a letter 
asking for support, continued support for those programs that I 
mentioned because they really are critical for a lot of 
reasons.
    So that letter was put together really with reaching out to 
all the people that we work with and talking about the value 
and the benefit that they bring. And one of those benefits, we 
did another report on the issue of the health impacts, 
predominantly low-income. And what we identified, we worked 
with DOE as well as several others, that, in fact, residential 
energy efficiency reduces healthcare costs, particularly 
Medicare, right? And it reduces asthma. It reduces a variety of 
health impacts, so it really produces benefits that we really 
had not even calculated before, and that ought to be, you know, 
recognized in the discussion, in the deliberation.
    Really, in closing, it is really critical to recognize that 
volatility of our energy prices is an absolute critical concern 
for our economy. In several cases, one of the things I did, I 
helped draft and put together the Stimulus Bill in 2008. I was 
asked to assist with that, and one of the research projects 
that we did was looking at the relationship between energy 
prices and home mortgage failure. They were directly related to 
each other.
    Between 2003 and 2008, the average American family lost 15 
percent of their disposable income. And any homeowner who was 
on the edge was pushed over the edge. I presented this 
information to all the Senate staff, Energy staff and there was 
a gasp, like, oh, we did not realize that. The banks may have 
put the gasoline, but the match was energy costs. Right? So 
volatile energy costs have a tremendous negative impact on our 
economy, and energy efficiency is the way that we can stabilize 
those.
    So thank you very much. Appreciate the work that everyone 
is doing. We need to continue things like weatherization 
assistance, the State energy program collaboration really is a 
collaboration between State and Federal. You guys cannot walk 
away. You have got to work with each of the States in helping 
craft the energy policy.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Mr.  Simpson. Thank you.
    Mr.  Cowell. So thank you very much.
    Mr.  Simpson. Thank you for being here. Thank you for 
mentioning all of those important States, but you left out the 
State. So other than that I am, you know, I am not going to 
say.
    Mr.  Cowell. I know. I know. We did not work in Oklahoma. I 
am very sorry.
    Mr.  Simpson. It is like the Ohio University, right?
    Mr.  Cowell. All the rest of you.
    Mr.  Simpson. Any questions?
    Ms.  Kaptur. I welcome your testimony so much. You have 
found very receptive ears on this panel, but especially with 
this member. And I am hoping that an organization like your own 
will consider as part of the infrastructure bill to work with 
other colleagues and institutes and organizations on the 
outside to have a housing component to the infrastructure bill 
that may or may not be coming forward in this administration, 
this new administration.
    I represent hundreds, if not thousands, of constituents who 
cannot afford to put a new roof on their homes. Many of them 
are seniors. What is happening in a State like Ohio, because of 
the difficulty with our nuclear power plants in the northern 
part of Ohio, which gets very cold, by the way, energy bills, 
if the State gets its way are going to go up more for people 
who are elderly, too.
    They cannot afford windows. They cannot afford insulation. 
They cannot afford weatherization. They get sicker, just what 
you say. And I just think we need a massive roofing program 
across this country, roofing, windows, insulation as a part of 
an infrastructure bill. And it ought to affect millions of 
people, not thousands because it is desperately needed. It 
could be a job training program as well.
    So I thank you for your testimony. I am so glad you came 
today and thank you for the programs that you support at the 
Department of Energy.
    Mr.  Cowell. Well, thank you.
    Ms.  Kaptur. Thank you, Mr. Chairman.
    Mr.  Cowell. From a product's point of view, we have looked 
at, and I actually worked with Home Depot together and they did 
an analysis of where the products that go into energy 
efficiency improvement in homes and over 75 percent must be 
made in America because they cannot be made anywhere else, 
insulation is too light. Heating and cooling equipment is too 
heavy to transport. Glass, windows are too fragile. Right? I 
mean, these are products that are made in America and every job 
has to be an American. You cannot take a house and move it 
overseas and fix it and bring it back. That is a little 
difficult to do.
    Mr.  Simpson. Thank you.
    Mr.  Cowell. Thank you.
    Mr.  Simpson. Thank you for being here today. Brian?
                              ----------                              --
--------

                                            Wednesday, May 3, 2017.

                       HOME PERFORMANCE COALITION


                                WITNESS

BRIAN T. CASTELLI, PRESIDENT AND CEO, HOME PERFORMANCE COALITION
    Mr.  Castelli. Thank you, Chairman Simpson, and thank you 
for the invitation here, Ranking Member Kaptur. My name is 
Brian Castelli. I am with the Home Performance Coalition and we 
are a nonprofit organization that advances the residential 
energy efficiency market through research, education, and 
policy analysis. We also hold the premier national and regional 
conferences on home performance, both the policy arena, as well 
as the best practices for installing energy efficiency majors 
in the home.
    We work with all stakeholders in the industry, from the 
installers themselves to the manufacturers of the products. I 
am here to talk today about support for three of the Department 
of Energy's programs. One in the residential energy efficiency 
program and the other two in the weatherization and 
intergovernmental affairs office.
    Specifically, we would like to see the subcommittee support 
$200.5 million for building technology offices which develops 
the critical technologies, tools, and solutions to increase 
energy efficiency in homes and buildings. We would also like to 
see $23 million of that number focused on the residential 
building integration. Integrating all the different parts of 
the efficiency office that deals with homes.
    This has been a missing piece in the portfolio of programs 
that DOE has had, and we think this is now the time to get that 
program up and running. We would also like to support a $50 
appropriation for the State energy program. It supports the 
State and local efforts to develop and implement cost effective 
energy efficiency projects and leverage private sector 
innovations.
    Now, as a former director of the State energy office for 
Pennsylvania, and also as the Washington D.C. liaison for the 
California Energy Commission I would like to tell you, these 
are some of the most important infrastructure we have in the 
States are the State energy offices. They are where the rubber 
meets the road. They work with the companies, the corporations, 
and the individuals in those States to make sure that energy 
efficiency plays a major role in the energy programs of that 
State.
    It is where innovation happens. That is where we really 
have a lot of the innovation, both on the policy side as well 
as the technology side. Many years ago when I was with the 
Pennsylvania Energy Office we teamed with both the Texas Energy 
Office as well as State Energy Conservation Office, as well as 
companies in Ohio, Columbia Gas of Ohio to do a community 
project in low-income weatherization where we did the first, 
the seminal work, in plug load monitoring both for electricity 
and natural gas. And that now has become an industry in and of 
itself, so I am very strong on supporting.
    However, I notice that a good friend of mine, Doug Taylor 
is in here today. He is here now and he is going to speak later 
and he will tell you a lot about the State energy offices.
    The third program that I want to talk about is the 
weatherization assistance program. We would like to have you 
support a $225 million appropriation for that program. Steve 
talked a lot about the weatherization program. It helps low-
income, rural families, seniors, and individuals with 
disabilities to make lasting energy efficiency improvements in 
their homes.
    Oakridge National Lab has provided a lot of good data on 
this program, and it has shown that every dollar that is 
invested by the Federal government $2 to $4 returns in 
benefits, both to society, as well as the home owners. This is 
a critical program. It helps the most vulnerable, and I know 
that everyone in this room does not want to make the vulnerable 
more vulnerable or the poor poor.
    This is a program that helps these people. By lowering 
their energy costs they are able to use that money, which may 
have gone to a utility, but they can use it for food. They can 
use it for health. They can use it for a lot of things. So we 
are very strong on this program. They return a significant ROI 
and they deserve the support of the United States on this.
    Jobs, Steve said I would mention jobs, this is a report 
that the E4 Foundation funded and supported. Done by an 
outside, objective consultant group that does these surveys.
    And it is one of the most effective ways to save consumers 
and businesses money on their utility bills. There are two 
recent reports out. One came from E4, followed two weeks late 
by a report from DEO. Very similar results. The E4 report shows 
that over 1.9 million Americans are employed in the energy 
efficiency industry. It is kind of a stealth program, energy 
efficiency. Nobody knows about it. Do not understand how many 
jobs that there are there.
    The most recent report from DOE which was done with data 
from a year later showed 2.2 million full and part time jobs in 
energy efficiency. They are well-paying, diverse, and they are 
found in every State in the country. Again, these jobs are in 
the residential sector, 40 percent of them, and they involved 
the insulation of energy efficiency products.
    The contractors are the boots on the ground. They are the 
people who install these products in the homes, who do the 
installation, the windows, the roofs. And let me tell you, 
those jobs cannot be exported. They are indigenous jobs, not 
only to your State, to your country, to your local community.
    And the most interesting thing about this is there are over 
165,000 U.S. companies that are small businesses, fewer than 
ten employees in this part of the energy efficiency sector.
    Just for some information here, you might be interested to 
know in the State of Washington there are over 38,000 energy 
efficiency jobs. In Ohio over 78,000 energy efficiency jobs. 
You probably, even though you know your State better than 
anybody, you probably do not realize how many jobs there are.
    In Idaho, nearly 3,000 jobs and these are important jobs. 
They are critical to the efficiency industry. They are critical 
to your State's economy, and we believe in them. And this is a 
good program.
    So we believe that energy efficiency is vital to the 
economic growth. The industry supports millions of these well-
paying jobs, and we urge the subcommittee to preserve at least 
level funding for the DOE programs I mentioned earlier, and 
outlined in the written testimony we provided earlier.
    I want to thank you, again, for the opportunity to provide 
this testimony. Thank you.
    Mr.  Simpson. Thank you. And I will just announce for the 
committee's sake that we are so far 25 minutes behind schedule, 
and not quite half way through yet, so everybody speak quickly.
    Mr.  Castelli. I am happy to answer quick questions.
    Mr.  Simpson. Ken.
                              ----------                              --
--------

                                            Wednesday, May 3, 2017.

               SOUTH CENTRAL COMMUNITY ACTION PARTNERSHIP


                                WITNESS

KEN J. ROBINETTE, EXECUTIVE DIRECTOR, SOUTH CENTRAL COMMUNITY ACTION 
    PARTNERSHIP
    Mr.  Robinette. Good morning, Chairman Simpson, ranking 
member Kaptur and committee members. I am the CEO of the South 
Central Community Action Partnership in Twin Falls, Idaho. I am 
pleased to submit testimony today to support the Department of 
Energy's Weatherization Assistance Program referred to as WAP. 
I would also like to thank the two presenters that just came 
before us that talked about WAP to set me up for this 
presentation. So thank you.
    With the Department of Energy's Weatherization Assistance 
Program I would respectfully urge this committee to fund the 
Weatherization Assistance Program in fiscal year 2018 at a 
level of 230. That is a little bit above what they had 
recommended but we are deeply concerned about the 
administration's proposal to eliminate WAP and I believe that 
this funding level is essential in continuing and improving the 
outstanding results of the program. The WAP celebrated its 40th 
anniversary in 2016. Today I want to highlight the impact that 
the WAP has nationwide as well as demonstrate what the program 
makes a difference in my State of Idaho.
    The WAP is a proven, cost effective and successful model of 
a Federal, State and local partnership. WAP services are 
delivered by more than 900 organizations, many of which are 
community action agencies like mine. WAP operates in every 
corner of the Nation making a difference in both urban and 
rural communities in all 50 States and the District of 
Columbia, U.S. Territories, and Native American Tribes. Since 
its inception in 1976 over 7.4 million homes have been 
weatherized by WAP. That is 7.4 million families with extra 
money in their pocket and living in a safer, healthier more 
comfortable home. It is widely known that the families with low 
income pays a larger portion of their income towards home 
energy costs and their higher income counterparts about 16 
percent of income versus just three percent according to 
Oakridge National Laboratory. Weatherization helps alleviate 
this high energy burden through cost effective, energy 
efficiency improvements such as insulation, air sealing, HVAC 
systems, lighting and appliances.
    According to DOE, in cold weather States like Idaho WAP can 
reduce heating costs by as much as 30 percent and families in 
weatherized homes save at least $283 each year on their energy 
costs. This income can be used to pay for goods like food, 
medicine and education.
    According to a commonest at the Home Energy Affordable Gap 
Project, Idaho households with incomes below 50 percent of the 
Federal poverty level pay a staggering 21 percent of their 
annual income simply for their home energy bills. Idaho has six 
WAP providers that serve all 44 counties and weatherize 
approximately 975 homes annually for families and individuals 
that are economically disadvantaged. Of those homes weatherized 
each year more than 2,400 individuals many of which are 
elderly, disabled and young children now live in a more energy 
efficient and safer home. Many of our families submit letters 
of thanks for assistance they received.
    I would like to share one of those letters from a family 
who owns a home in small farming community of Hazelton, Idaho. 
This family where dad and mom are both working with one small 
child who is disabled writes we are so grateful and could not 
thank you all enough of everything. I was so amazed how 
professional all the guys were. Our home used one third of the 
electricity and a lot less coal. The proof is in out reduction 
of our power bill. Also my son has only had one minor cold. 
Last year he had several because the cold drafts and 
fluctuation of temperature.
    In addition to providing substantial emergency savings for 
hard working American families, the WAP also makes homes 
healthier and safer. For every dollar invested in 
weatherization, $2.78 cents were generated in health and safety 
benefits. Weatherization measures generally improve 
ventilation, mitigate mold, and improve indoor air quality. As 
a result, residents of weatherized homes experience fewer 
asthma and allergy symptoms as well as fewer hospitalizations. 
Children in weatherized homes missed fewer days of school and 
their parents missed fewer days of work.
    In the Oakridge National Laboratory study of WAP residents 
reported paying an average of $514 less out-of-pocket medical 
expenses after weatherization. Not only does WAP make a 
necessary, needed improvement to our national aging housing 
stock, but it also helps American workers and American 
businesses. The WAP directly supports more than 8,500 jobs and 
indirectly supports thousands more in related business. The WAP 
has provided training and workforce development to thousands of 
low-income and middle-income workers allowing them to secure 
stable employment across the entire State or across the entire 
supply chain from WAP crews, material suppliers, tech 
companies, and more.
    Idaho is also a great example of another key success of WAP 
with a strong record of leveraging and additional funds to 
supplement the Federal dollars. The main method of leveraging 
is through partnerships with utility companies. Many of which 
depend upon the WAP delivery network to carry out low-income 
residential efficiency incentives. In 2015, increasing--excuse 
me, let me back that up. At least 21 States were able to 
leverage additional funds from utilities in 2015, increasing 
the impact of the WAP in those States. This leveraging activity 
is only possible with the critical base money from DOE as well 
as DOE's reputation and high quality standards. In Idaho, we 
have had a longstanding partnership with three of our largest 
utility companies. Over the past 5 years, they have contributed 
more than $11.8 million that were invested in approximately 
2,200 households throughout the State.
    In closing, I would like to extend my gratitude to all of 
you for your hard work and continued support of WAP over the 
years. I again respectfully urge the subcommittee to find or 
fund the WAP at $230 million for fiscal year 2018, the funding 
level necessary we believe to sustain a national program to 
serve low-income families in all local communities. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr.  Simpson. Thank you, Ken. Ray.
                              ----------                              -


                                            Wednesday, May 3, 2017.

       NATIONAL ASSOCIATION FOR STATE COMMUNITY SERVICES PROGRAMS


                                WITNESS

RAY JUDY, ENERGY SERVICES DIRECTOR, NATIONAL ASSOCIATION FOR STATE 
    COMMUNITY SERVICES PROGRAMS
    Mr.  Judy. All right, thank you. My name is Ray Judy and I 
am the energy services director for the National Association 
for State Community Services Programs and I appreciate the 
opportunity to come and speak to you today mainly regarding the 
Weatherization Assistance Program, which is near and dear to my 
heart. So I am pleased to submit testimony in support of the 
Weatherization Assistance Program and State Energy Program.
    As some of the numbers that you have already heard we are 
seeking an fiscal year 2018 appropriations level of $230 
million for the Weatherization Assistance Program and $70 
million for the State Energy Program. NASCAP is a member 
organization representing the weatherization grantees and the 
directors in all 50 States, D.C., and five U.S. territories on 
all the issues related to WAP.
    The State office is represented by organization. We would 
like to thank this community for its support of the WAP and SEP 
through the years. Additionally, we would like to share our 
appreciation for the increase in WAP funding contained within 
the omnibus for the fiscal year 2017 funding. I have been 
working in the weatherization program for over 29 years with 
the first 28 years of that being spent in Indiana's 
weatherization program and have witnessed throughout that time 
firsthand the impact that the WAP has on the most vulnerable 
households in this country.
    Weatherization provides a foundation for residential clean 
energy investments that sustain jobs and save families money 
through improved energy efficiency. In its 40-year history the 
WAP has weatherized over 7.4 million homes, helping hard-
working American families, particularly those that are elderly, 
disabled, and families with children.
    The need for weatherization services is significant. DOE 
estimates that 20 to 30 million families are eligible for WAP 
each year. This represents an incredible opportunity for energy 
savings that cannot be obtained without the WAP.
    Weatherization managers like insulation, air ceiling, high-
efficiency HVAC systems are investments that pay off for the 
life of the home reducing energy waste and saving families 
money month after month and year after year. With lower energy 
bills these families can increase their usable income and buy 
essentials like food, clothing, medicine, and health care.
    In addition to delivering savings to families, the WAP 
plays a significant role in supporting jobs in workforce 
development and we will repeat the number again that WAP 
supports at least 8,500 jobs in weatherization and thousands 
more across the supply chain and material suppliers, vendors, 
and manufacturers. It is also important to highlight that the 
work performed under WAP meets extremely high quality standards 
set forth by DOE. In recent years, DOE has developed and 
implemented standard work specifications that ensure all homes 
receive the highest quality weatherization services.
    As of 2016, there are over 1,600 building performance 
institute-certified quality control inspectors. This workforce 
of QCIs ensures that 100 percent of the units weatherized with 
DOE funds are inspected for quality. And in addition that 
number, the WAP grantees inspect 5 percent of those units in 
sharing another layer of review during their time in 
monitoring.
    Another critical benefit of the WAP is its positive impact 
on the health and safety of families. You have heard this 
again, but it really bears the repeating these numbers and this 
information. It makes sense that in a home that is cold and 
drafty or full of mold and excess moisture there is an 
increased risk of recurring illnesses.
    What we have learned over the years is that the nonenergy 
benefits of weatherization results in a healthier living 
environment. This was confirmed by the Oakridge National 
Laboratory evaluation which found that residents of weatherized 
homes experience fewer asthma, allergy, and cold symptoms. 
Weatherization mitigates factors that can trigger an asthma 
attack resulting in fewer emergency room visits and 
hospitalizations. WAP measures can also prevent other life-
threatening events such as carbon monoxide poisoning and fires 
from unsafe heating sources.
    After weatherization families have homes that are safer and 
more livable, resulting in fewer missed days of work and 
school. These outcomes pay off. Again, every weatherization 
dollar spent returns $2.78 in health and safety benefits.
    These economic benefits are even more significant when 
viewed in light of our Nation's staggering healthcare costs. 
According to the Green and Healthy Homes Initiative, $82.4 
billion in healthcare costs are lost each year due to 
inefficient and unhealthy housing. That is 3 percent of the 
total U.S. healthcare costs. The CDC estimates that asthma 
alone costs the United States $56 billion per year.
    Despite the wide range of benefits and proven cost 
effectiveness of the Weatherization Assistance Program and the 
State Energy Program, the administration's fiscal year 2018 
budget blueprint zeroed out both programs, citing a need, ``to 
reduce Federal intervention in State-level energy policy and 
implementation''. However, WAP and SEP are models of success; 
successful Federal, State, and local partnership, not Federal 
intervention. Elimination of these programs will result in loss 
of jobs as well as decreased investment in local businesses, 
which will harm the financial stability, health, and safety of 
families across the Nation.
    NASCAP respectfully urges the subcommittee to fund the WAP 
and not less than $230 million for fiscal year 2018 and the 
funding level necessary to sustain the national program. NASCAP 
also supports the appropriation of 70 million in fiscal year 
2018 for the State Energy Program. And NASCAP also looks 
forward to working with committee members in the future to 
ensure that these programs continue to deliver cost-effective 
results that support our economy and make a difference in the 
lives of the most vulnerable in our communities.
    And to end, we just really appreciate the opportunity to be 
here today and to speak to the benefits of this program.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Ms.  Kaptur. Mr. Chairman, I want to take just 5 seconds to 
ask the prior witness, Mr. Robinette, and yourself if you could 
submit from that Oakridge study to each of the members up here 
by their State from the inception of the program how many units 
have been weatherized and then the State-by-State achievements 
over that period of time and what remains to be done. I think 
that that would be very--to take the one example you provided 
for Idaho and to extend that to other States, that might be 
very--we have a lot of new members on this subcommittee. Thank 
you.
    Mr.  Robinette. Absolutely, be glad to.
    Mr.  Simpson. Thank you, Ray. Daniel.
                              ----------                              


                                            Wednesday, May 3, 2017.

               NORTHERN MANHATTAN IMPROVEMENT CORPORATION


                                WITNESS

DANIEL RIEBER, WEATHERIZATION DIRECTOR, NORTHERN MANHATTAN IMPROVEMENT 
    CORPORATION
    Mr.  Rieber. Good afternoon, Mr. Chairman. My name is 
Daniel Reiber and I am the weatherization director at the 
Northern Manhattan Improvement Corporation in New York City, or 
NMIC as we say. I am here today before this committee to submit 
testimony in support of the Department of Energy's 
Weatherization Assistance Program, or WAP. I respectfully 
request that the Weatherization Assistance Program (WAP) be 
kept whole and funded nationally at $230 million for fiscal 
year 2018.
    At NMIC we integrate numerous crises innovation services 
under one roof. With their crises resolved our clients move 
seamlessly to capacity building services through our holistic 
programs designed to support individuals and families as they 
develop the tools to transition from crises to self-
sufficiency. Our weatherization program is a critical piece of 
our mission to serve as a catalyst for positive change in the 
lives of people in our community on their paths to a secure and 
prosperous future.
    The WAP is the largest energy efficiency retrofit program 
in the Nation. The local community action agencies and 
community-based organizations that implement the program are 
skilled, highly trained, and held to higher standards that are 
often required in the commercial marketplace for equivalent 
work. For 40 years the WAP has led the charge for energy 
efficiency and used building science to properly evaluate, 
diagnose, and retrofit houses and buildings so they may become 
more energy efficient and safe. The WAP workforce sustains 
almost 9,000 jobs nationwide. Additionally, thousands of jobs 
are sustained through related industries and the hiring of 
small business contractors.
    NMIC utilizes subcontractors throughout the program year to 
provide windows, boilers, insulation, and ventilation upgrades. 
This workforce can consist of up to 100 works from 8 different 
small business contractors. Over the past several years we have 
seen the availability of affordable apartments become very 
scarce in Manhattan. Accordion to the National Low-Income 
Housing Coalition in the State of New York there are just 35 
affordable units available for every 100 low-income renters.
    As low-income tenants struggle to live in our great city, 
the weatherization program is more important today in helping 
to preserve affordable housing for low-income families, 
especially children, seniors, and individuals with 
disabilities. Most of the buildings we have served in the last 
grant period were extremely inefficient and in desperate need 
of energy conservation measures, causing residents to pay 
significantly more than necessary towards energy costs. 
Additionally, the need for these services is staggering. Our 
organization alone has 800 units in over 20 buildings on our 
waiting list.
    NMIC works with building owners who are committed to 
preserving affordable housing while still running a profitable 
business. Many properties were neglected over time and are in 
great need of assistance. Such things as boilers, pipe and roof 
installation, roof repairs, and windows. WAP helps keep low-
income people in affordable, safe, energy-efficient, and 
healthy homes.
    Furthermore, weatherization dollars are key to helping low-
income, tenant-owned buildings survive. These HDFC, or Housing 
Development Fund Corporations as they are known, typically have 
poor cash flow and high energy burden. By assisting these 
buildings, the WAP helps preserve the essence of affordable 
housing in low-income neighborhoods and, at the same time, 
improves the quality of life in our various communities. The 
DOE weatherization program is critical because it provides the 
critical base with which to leverage and combine other funding. 
We utilize a mix of program, owner, utility, and State energy 
office, NYSERDA in this case, dollars to weatherize buildings, 
make them sustainable, safe places to live.
    One thing is certain, should the Federal funds for WAP be 
significantly reduced or zeroed out, the impact would be 
devastating to our community. Building owners will seek out 
repairs and pass that cost on to tenants. This upward pressure 
on rent will force people out of their homes, thus creating a 
vicious cycle of displacement and uprooting of families and the 
elderly. The stress of losing your home through no fault of 
your own is the kind no one should have to endure.
    Furthermore, the nonprofits in support of housing agencies 
that rely on WAP for their clients will most likely defer 
maintenance until they are able to make repairs, endangering 
the health and safety of their residents.
    I will just highlight in my testimony our two case studies 
which show energy-saving reductions in two buildings of 42 
percent and 47 percent, respectively. In both cases the low-
income residents were direct beneficiaries of an affordable, 
safer, more comfortable home with no fear of a rent increase. 
Founded in 1979, the staff of two with the goal of assisting 
immigrants in northern Manhattan who were at risk of being 
evicted, Northern Manhattan Improvement Corporation has grown 
to be one of New York City's most trusted, innovative, and 
effective poverty fighting organizations. Our programs include 
legal services, social services, education and career services, 
weatherization, and community organizing. The loss of the 
weatherization program would impact our ability to achieve our 
mission as we would no longer be able to provide the 
comprehensive services that makes a difference in the lives of 
the most vulnerable in our community.
    In closing, I urge the subcommittee to fund the WAP at no 
less than 230 million for fiscal year 2018, the funding level 
necessary to sustain a national program. This is a program that 
has proved its worth and effectiveness over 40 years. The WAP 
plays a critical role in providing and preserving affordable 
housing in our community and helps hard-working families across 
the entire country. I thank you and also want to thank you for 
adding 13 million to the FYI 17 Omnibus Bill. We appreciate 
that very much.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr.  Simpson. Thank you. David.
                              ----------                              

                                             Wednesday, May 3, 2017

               ASSOCIATION FOR ENERGY AFFORDABILITY, INC.


                                WITNESS

DAVID HEPINSTALL, EXECUTIVE DIRECTOR, ASSOCIATION FOR ENERGY 
    AFFORDABILITY, INC.
    Mr.  Hepinstall. Good morning. As the executive director of 
the Association for Energy Affordability, AEA, I represent and 
serve a network of not-for-profit community-based organizations 
that provide weatherization services to low-income households 
throughout downstate New York. AEA is a national weatherization 
training center and a WAP-funded technical services provider as 
well as a direct services subgrantee in New York City.
    In the last 10 years AEA itself has weatherized 9,000 
housing units and completed investment grade energy audits of 
2,400 buildings with over 112,000 units in New York, while also 
every year having trained hundreds of program staff, 
contractors, and building operators in New York and nationally. 
I am here today to urge you to fund the Department of Energy's 
Weatherization Assistance Program at least 230 million and 
DOE's State Energy Program for 50 million for fiscal year 2018. 
Funding at this level is needed to retain the expertise in 
infrastructure that enables weatherization to deliver its 
essential services to low-income households throughout the 
United States and supports State energy programs that work 
collaboratively with weatherization.
    Weatherization employs energy auditors, retrofit 
installers, quality control inspectors, and project managers 
with deep expertise in whole building energy efficiency. In New 
York State alone 736 persons are fully or partly employed 
directly by weatherization and yet even more work is performed 
by local heating, plumbing, electrical, and ceiling contractors 
hired and overseen by weatherization. These local agency and 
contractor jobs affect the local economy. They cannot be 
outsourced.
    WAP also supports accredited training programs conducted by 
training centers like AEA to prepare workers for BPI 
certifications and help program staff and contractors deliver 
deep energy savings. Weatherization in New York also leverages 
substantial private resources from building owners and 
utilities to complete its energy efficiency upgrades helping to 
preserve affordable housing and make a lasting impact on low-
income communities. Cost-effective, whole house weatherization 
saves money and energy and improves occupant health, safety, 
and comfort for years to come.
    Weatherization enables low-income families to meet more of 
their basic needs despite limited incomes simply by reducing 
energy waste in their homes. Yet the very program that makes 
all of this possible, that has spawned valuable technology 
improvements along the way, that is celebrating 40 years of 
bipartisan support today, finds itself on the chopping block. 
Passing the current CR is a start, but having at least 230 
million in the 2018 budget is the key. If the weatherization 
program were to be defunded or there were major cuts in fiscal 
year 2018 funding, both program staff and contractors would 
experience job loss, many moving on to other types of work. 
This would be a huge loss to their communities and not easily 
reversed if the infrastructure of WAP were dismantled.
    In New York City, only 16 percent of low-income households 
own their own homes compared to 42 percent nationally. Most are 
renters living in older, multifamily buildings. Preserving the 
affordability of their housing requires more than a few low-
cost measures in their units. Energy-efficient heating, hot 
water, and ventilation systems are needed to control building 
and operating costs.
    Seventy-one percent of low-income households in New York 
City are severely rent burdened, meaning they pay over 50 
percent of their income for rent and utilities. This places 
them at a high risk of becoming homeless. WAP policies and best 
practices in New York contribute to economic and social 
stability of low-income families and neighborhoods by reducing 
the energy and maintenance costs that may otherwise lead to 
rent increases and displace many families from their homes.
    The positive effects of WAP in New York City multifamily 
buildings begin even before retrofits begin because owners must 
ensure code violations and other hazardous conditions 
identified in the building audit before weatherization work can 
even begin. Weatherization helps by simulating owners to invest 
in low-income communities that have suffered from 
disinvestment. Weatherization measures contribute to the health 
and safety of building residents, improving indoor quality and 
removing conditions that trigger asthma symptoms.
    DOE rules permit energy efficiency upgrades to central 
systems in multifamily buildings when the required percentage 
of households in the building is income eligible. This allows 
local weatherization subgrades in New York City to take a whole 
building approach to energy efficiency that helps to maintain 
housing affordability.
    Multifamily weatherization in New York protects low-income 
residents in housing affordability by requiring building owner 
investment of at least 25 percent of the cost of the building-
wide energy upgrades, prohibiting owners from increasing rents 
based on capital improvements, co-funded by weatherization, and 
preventing displacement of low-income tenants by requiring any 
apartment vacated by a low-income resident to be rented to 
another low-income household for at least 5 years after 
weatherization upgrades have been completed.
    Those are things that have been developed in New York 
specifically coming from below, from subgrantees, and it is 
possible because of DOE regulations as well.
    So I really want to thank you for the opportunity to 
testify today and say I have been in this for 27 years and gone 
to a lot of buildings in New York City, and I remain to this 
day deeply moved by the positive impacts on so many households. 
We have pictures of before and after. We have movies, frankly, 
of that as well, and the impact on households and buildings and 
whole neighborhoods would be far-reaching, adverse, unintended 
consequences if this essential program were to end or be 
crippled by deep funding cuts. Please do not let this happen.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Mr.  Simpson. Thank you, David, for being here today. We 
appreciate it very much. Dr. Maria Spiropulu
                              ----------                              

                                             Wednesday, May 3, 2017

                   CALIFORNIA INSTITUTE OF TECHNOLOGY


                                WITNESS

DR. MARIA SPIROPULU, PROFESSOR OF PHYSICS, CALIFORNIA INSTITUTE OF 
    TECHNOLOGY
    Ms.  Spiropulu. It is Greek. Chairman Simpson, Ranking 
Member Kaptur, and distinguished members of the subcommittee, I 
want to thank you for the opportunity to testify today. I am 
here to discuss the importance of the United States in 
leadership in high-energy physics funded by the Department of 
Energy of the Office of Science, and why sustained government 
investment is needed to continue making world-changing 
discoveries.
    The major reasons why we need to sustain our excellence in 
particle physics are, for one, the basic research to understand 
and explain the universe. Secondly, our international 
leadership, our workforce development, and our technology 
breakthroughs. These accomplishments have only been possible 
through the support of your committee.
    In fact, you are the sole sponsor of this curiosity-driven 
research. So, I want to thank you for providing just recently 
$825 million for HEP for fiscal year 2017, and I ask you to 
consider providing the $868 million for fiscal year 2018, to 
advance our ongoing critical research and infrastructure 
projects.
    I have been a particle physicist for 24 years, and I am now 
a professor at Cal-Tech. Back then, we were building for 
discovery, and discovery we did, and Building For Discovery is 
the title and the name of the report that laid out a 10-year 
strategic vision for the U.S. particle physics by what is 
called the Particle Physics Project Prioritization Panel, P5 
for short, which you have heard from before.
    It took the high-energy physics community a good 2 years to 
come up with this P5 plan, and sacrifices were made. We are now 
in the midway of its execution, and I am very glad to report 
that all projects are on time and budget.
    The highest priority in the P5 report is continuing our 
collaboration with CERN, the leading European laboratory, and 
meeting our commitments to the Large Hadron Collider, and the 
associated more than 2,000 American researchers, physicists, 
technicians, students. This will happen by funding the 
upgrades, the upgrade detectors.
    Now, mind you, with the LHC we found a unique particle that 
is necessary to complete our particle physics model of the 
universe, the blueprint of the universe.
    The highest medium-term P5 priority is the Long-Baseline 
Neutrino Facility, or LBNF. Fermilab will host LBNF and lead 
the world's accelerator-based Neutrino Research Program, 
studying the least understood, the most puzzling, and the 
highest abundant matter particles in the universe than 
neutrinos. LBNF will be the largest U.S.-based international 
science facility and the largest research program Neutrino has 
ever undertaken worldwide.
    As part of the detector, which is called the Deep 
Underground Neutrino Experiment, DUNE, Fermilab will shoot 
neutrinos 800 miles from Illinois all the way to South Dakota 
at the Sanford Underground Research Facility where we are 
building four massive detectors that are a mile underground. 
LBNF and DUNE will be for neutrinos what the LHC is for the 
Higgs, namely the mothership of deep exploration and discovery.
    And, very importantly, this international project continues 
to gain financial contributions from many other nations. In 
fact, following a cooperative agreement signed 2 years ago 
here, CERN, our closest collaborator, for the first time 
decided to invest outside Europe and invest on LBNF in South 
Dakota--Fermilab in South Dakota. And as of yesterday, 
additional protocols and agreements were signed at CERN, and 
CERN engineers and technicians started working at Fermilab 
starting already yesterday.
    Now, my testimony comes at a very crucial time for the U.S. 
Particle Physics Program. LBNF and DUNE received approval to 
start construction, and with the Omnibus Bill we can now 
provide sufficient funding for construction. Cessation in 
funding will lead to increased costs and delays and curtailing 
of the current momentum. Sustained funding will signal, in 
fact, to our partners across the wall, that the United States 
is absolutely determined and prepared to lead in science and 
make the case for the future, that science leadership, 
discovery, and innovation are essential aspects of our Nation's 
technological and economical growth.
    And I will take my last minute to talk a little bit about 
technology and workforce development after mentioning that the 
U.S., the United States, in this area, in the frontier of the 
cosmic--what we call in this area--we are already leaders, and 
we are doing dark matter and dark energy exploration and we 
will continue with sustained funding doing so. Dark matter is 
important, because it is the gravitational scaffolding of the 
universe. Without dark matter, galaxies and stars would fly 
away. We must understand what it is.
    Going to the technology, fundamental research is crucially 
dependent on advanced technology. We are adapting right now 
what technology has developed for quantum computers essential 
for these dark matter searches, pushing farther the advancement 
of these technologies, important applications of particle 
physics-spun areas of manufacturing, computation, medicine, and 
national security.
    Particle physics detectors improve homeland security using 
advanced technology and providing new techniques for monitoring 
the core of nuclear reactors. And when the motivation to 
generate new technology lies within deeper scientific 
questions, it is then that we make unprecedented leaps in 
technology and in the domain sciences.
    Finally, particle physics--you probably know it from the 
many times we come in front of you--we are the source of the 
biggest, absolute biggest data, and absolute biggest and more 
complex data architectures. This, as a consequence, that our 
particle physics students and the young researchers today are 
expertly versed in all these artificial intelligence methods 
and tools for science, for basic science.
    I would like to highlight one example of a recent graduate 
of mine, Alex Mott. He received his Ph.D. in 2015 from Cal-
Tech, and he was handpicked by the Tesla model Autopilot team, 
and he developed from Version 0 to Version 9 now the Autopilot 
for Tesla Motors. This is happening with our students. This is 
just one example. This is happening with our students all over.
    So, in closing, I want to just remind everybody that 
particle physics is the physics of understanding and explaining 
the universe end to end and in its core, and it is curiosity-
driven and basic science, but we are preparing technology 
advancements and technology breakthroughs in workforce 
development that it is unprecedented.
    And I want to thank you for the opportunity to testify and 
for your continued support to this science.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr.  Simpson. Thank you, Doctor. There are a lot of 
questions that I would like to ask you, but I am just not smart 
enough. It is pretty deep stuff. But thank you for being here--
--
    Ms. Spiropulu. Thank you.
    Mr. Simpson [continuing]. And testifying on the importance 
of the program.
    Ms. Spiropulu. Thank you.
    Mr. Simpson. Morry Markowitz.
                              ----------                              


                                            Wednesday, May 3, 2017.

               FUEL CELL AND HYDROGEN ENERGY ASSOCIATION


                                WITNESS

MORRY MARKOWITZ, PRESIDENT, FUEL CELL AND HYDROGEN ENERGY ASSOCIATION
    Mr.  Markowitz. I want to thank the Chair and the Ranking 
Member for giving me this opportunity to discuss our industry's 
priorities for fiscal year 2018 funding for the Department of 
Energy. My name is Morry Markowitz. I am president of the Fuel 
Cell and Hydrogen Energy Association.
    I previously submitted written testimony to the committee, 
but I would like to have this opportunity to have a 
conversation with you.
    The member companies that make up the Fuel Cell and 
Hydrogen Energy Association range in size from some of the 
best-known household brands in the world to small businesses 
and startups. We also count national laboratories and other 
nonprofits within our family. Looking around at the 
subcommittee, I could see we are well represented here.
    The industry currently employs approximately 10,000 direct 
workers in the United States through manufacturing, 
maintenance, engineering, and supply chain support, and 
thousands more in indirect jobs.
    We often refer to the fuel cell technology as the all-the-
above technology, meaning it applies to stationary and 
distributed power generation, backup power for 
telecommunications, material handling, and transportation, 
including passenger vehicles, buses, and soon trains and heavy 
vehicles. We utilize all the above fuels because we can drive 
hydrogen from 100 percent domestic resources, including natural 
gas, bio and landfill gas, to renewables such as solar and 
wind.
    Our industry, with the help of the Department of Energy, 
has made incredible strides in developing this transformational 
clean energy technology. Passenger cars are now being sold and 
leased in California. Stationary power is being used by some of 
the leading utilities and companies from around the world. Fuel 
cell forklifts are taking the place of old battery types in the 
largest distribution centers in North America. However, even 
with all this progress, there is still a great deal left to 
accomplish in making this technology more competitive in the 
marketplace. And that is why I am here to speak to you today.
    For fiscal year 2018, our organization is asking that the 
committee positively consider our request for $101 million in 
funding for hydrogen and fuel cell activities managed by the 
Office of Energy Efficiency and Renewable Energy, and $50 
million for solid oxide fuel research and development managed 
by the Office of Fossil Energy.
    We know that this is an era of tight budgets. That is why 
our request for fiscal year 2018 EERE budget is identical to 
the appropriated level of this year, and our Office of Fossil 
Energy Funding request is identical to what we requested for 
2017. The members of FCHEA truly appreciate the consistent 
level of bipartisan support given to these programs by this 
committee, Congress, and past administrations.
    If we were to be asked how money for EER would be best put 
to work at the Department of Energy, I would provide you with 
the following response. It is the industry's opinion that the 
bulk of appropriated monies should focus on three main areas: 
hydrogen research and development, market transformation, and 
stationary and storage applications.
    For hydrogen research and development, we ask for funds to 
further enhance hydrogen metering devices, for retail fueling 
stations, improve hydrogen compressors, and reduce the costs of 
storage and transport.
    In addition, the department should identify competitive 
opportunities to help develop robust, affordable hydrogen 
infrastructure components. This would encourage entrance to the 
markets, drive down costs, and speed transition. As a package, 
all these proposed ideas will help in the development of a 
reliable and cost-effective infrastructure. The department 
should also continue modest proof of concept demonstrations. 
These activities have proven successful for material handling 
equipment at warehouses and show significant progress for air 
and sea ports.
    Market transformation funding enables fuel cell and vehicle 
companies to overcome cost-prohibitive steps, that has the best 
chance to perform well against environmentally problematic 
incumbent technology. Within the stationary generation 
application sector, we are encouraged by the committee's 
recognition of the role that fuel cells and hydrogen can play 
in energy storage. Excess power can be utilized to generate 
hydrogen for future electricity generation, transportation 
fuel, and for use in the natural gas pipeline.
    Finally, with regard to EERE, we continue to call for the 
committee to encourage the Secretary of Energy to work with the 
Secretary of Transportation on coordinating efforts to deploy 
hydrogen fueling infrastructure, particularly as part of a 
major investment in U.S. infrastructure.
    Concerning the Solid Oxide Fuel Cell Program managed by the 
Office of Fossil Energy, our request for $50 million would 
continue essential R&D in support of the development of large-
scale, highly-efficient ultra clean stationary power generation 
fuel cell systems. This program is the only one of its kind 
globally, providing the U.S. with a unique competitive 
advantage over foreign competitors. Solid oxide fuel cells 
utilize domestic fuels that include classified coal, natural 
gas, bio gas, hydrogen, and biodiesel.
    Completion of this work will result in ultra-efficient 
stationary power systems for the distributed as well as central 
power applications. Success continues in reaching performance 
milestones for durability and cost. This essential R&D must 
continue in order to reach the requirements for successful 
introducing of solid oxide fuel cell technology.
    Modern-day fuel cells are the result of American ingenuity, 
which played a key role in our quest in landing a man on the 
moon. We believe that this transformational, clean technology 
will play a role in addressing many of our energy and 
transportation challenges. If we make the right decisions 
today, we will ensure that future high-quality jobs will be 
created here while at the same time improving our economy and 
environment, bolstering our national security, and making us 
energy independent. We look forward to working with you and the 
committee staff as the process continues.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr.  Simpson. Thank you, Morry.
    Mr.  Markowitz. Thank you.
    Mr.  Simpson. And we look forward to working with you. Ms. 
Callahan.
                              ----------                              


                                            Wednesday, May 3, 2017.

                        ALLIANCE TO SAVE ENERGY


                                WITNESS

KATERI CALLAHAN, PRESIDENT, ALLIANCE TO SAVE ENERGY
    Ms.  Callahan. Hi. Thank you very much. I really appreciate 
the opportunity to testify before you today, Mr. Chairman and 
Ranking Member Kaptur. And I want to lay out and highlight the 
critical and cost-effective, energy-effective energy efficiency 
programs being carried out at the Office of Energy Efficiency 
and Renewable Energy.
    I want to start, like so many others have, in saying thank 
you to you and the other members of the committee for your 
longstanding support of Federal energy efficiency programs. We 
were really encouraged by the Omnibus Bill, which includes 
robust funding for these programs. And to say thank you, I am 
going to try to buy you back a minute or two of the time that 
you are running over today.
    My name is Kateri Callahan, and I serve as the president of 
the Alliance to Save Energy. We are a bipartisan, nonprofit 
organization with the mission of advancing national policies 
that make our economy more energy productive, and that results 
in creation of jobs, reduction of energy costs for consumers 
and businesses, increased global competitiveness, and, of 
course, reduction in the harmful emissions associated with 
energy production.
    The Alliance enjoys the leadership of 13 members of 
Congress who serve in an honorary capacity on our Board of 
Directors. We also enjoy the support of over 120 companies and 
institutions that help us in our advocacy, education, 
communications, and market transformation work. We are 
celebrating our 40th anniversary this year, and over those past 
four decades, we witnessed a remarkable decoupling in the 
growth in energy demand in this country from the growth in our 
economy.
    Today, we are twice as energy productive as we were in the 
late 1970s. What does that mean? That means we are getting two 
times--twice--as much GDP for each unit of energy that we 
consume, so we are much more energy productive. And what did 
that do? In the creation of this real evolution or transition 
in our energy use, we have created an enormous and a domestic-
based energy efficiency industry.
    You have heard a lot of the other witnesses today talk 
about the 2.2 million jobs that have been created. I brought 
along a visual to just kind of emphasize and highlight this for 
you. You can see that it is 2.2 of the 3 million clean energy 
jobs. But the bigger story is, it is a third of the jobs in the 
overall energy sector in the U.S. You can also see that the 
majority of these jobs are in the construction and the 
manufacturing sectors, so these are largely nonexportable and 
good-paying jobs.
    One thing that others have not pointed out is that it is a 
rapidly growing industry. We realized 6 percent growth between 
2015 and 2016 in this industry, and we are expecting another 9 
percent growth just this year. And these jobs can be found all 
across the United States. It is detailed in my testimony. But, 
for example, in your district, Mr. Simpson, there are over 900 
energy efficiency jobs. And, Ms. Kaptur, in your district in 
Ohio, there are 4,200 energy efficiency jobs.
    Ms.  Kaptur. And I think that is a low number.
    Ms.  Callahan. And I would agree with you, but we always 
err on the side of being cautious and conservative. In total 
for the committee, there are 46,000 jobs that are represented 
just in the districts of the committee members. It is 
impossible to understate the role of Federal policies and 
investment, from building energy codes, to appliance and 
equipment and efficiency standards, to public and private 
partnerships in this remarkable evolution, to an economy that 
is doing much more with less in terms of energy consumption.
    For this reason, we are requesting funding at levels at 
least equivalent to those you included in the Omnibus, and in a 
few instances have suggested slight increases to keep programs. 
As detailed in my testimony, the energy efficiency programs at 
DOE are paying out huge returns to consumers and businesses on 
the modest taxpayer investments. There are just three quick 
examples that I want to call to your attention.
    First is the State Energy Program, or SEP, that is 
currently funded at $50 million. We join with the others in 
requesting a $20 million increase to this program, which is 
delivering direct energy savings of $7 for every $1 of Federal 
support. The second is the Weatherization Assistance Program. 
And you have heard chapter and verse on that. We join with the 
others in requesting a modest increase of $5 million to the 
$230 million level for a program that has a cost-benefit ratio 
of 4 to 1.
    One thing that has not been talked a lot about today, that 
I have heard, is the Building Technology Office. That is where 
we house the Appliance and Equipment Standards Program, which 
is saving consumers, through the standards that we put in 
place, $500 a year on their energy bill, and also houses the 
Building Energy Codes Program. New homes that are built to 
codes certified by DOE through that program can expect a net 
savings in as little as 1 to 2 years.
    Again, these are just examples of the programs that are 
detailed. All of them have that kind of cost-effective, 
impactful benefit to our economy, so we urge you to continue to 
provide robust funding in support of these programs. We believe 
the return on investment to our economy and also to our energy 
security and our environment is simply too large to pass up. 
Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    Mr.  Simpson. Thank you. I appreciate your being here 
today.
    Ms.  Callahan. Thank you.
    Mr.  Simpson. Dub Taylor.
                              ----------                              


                                            Wednesday, May 3, 2017.

                 TEXAS STATE ENERGY CONSERVATION OFFICE


                                WITNESS

WILLIAM ``DUB'' TAYLOR, DIRECTOR, TEXAS STATE ENERGY CONSERVATION 
    OFFICE
    Mr.  Taylor. Thank you, sir. My name is William ``Dub'' 
Taylor and I serve as the State Energy Office director from 
Texas. It is an honor to appear before the subcommittee today 
on behalf of the National Association of State Energy 
Officials, or NASEO. NASEO represents the governor-designated 
energy officials from every State in U.S. territory.
    It is a forum for us to share good ideas on all of the 
above energy solutions and to cooperate regionally and 
nationally. I want to thank Chairman Simpson, Ranking Member 
Kaptur, and the subcommittee for your support of $50 million 
for the State Energy Program, or SEP, and $225 million for the 
Weatherization Assistance Program, and the fiscal year 2017 
House bill last spring and as part of this week's budget deal.
    First and foremost, I am here today asking the subcommittee 
for support of $70 million for SEP in fiscal year 2018. In 
addition to seeking $50 million in base SEP formula funds, we 
think that additional targeted funding to enhance Federal 
energy cooperation in energy emergency preparedness and 
response, including physical and cybersecurity of the energy 
infrastructure, should be provided.
    Energy emergency preparedness is a necessity and is a 
highly interdependent Federal, State, private function, 
covering electricity, natural gas, petroleum, and other fuels. 
In the most recent year in which we have data, nearly 50 
percent of the cyber attacks in the United States were on 
energy infrastructure, with significant activity in the 
petroleum sector, much of that in my own State.
    Second, we strongly disagree with the administration's 
proposals to eliminate SEP and Weatherization on the basis that 
it may interfere with State policymaking. I can tell you, the 
States know SEP as the only daily administered program which 
embodies cooperative Federalism and affords governors control 
of allocating funds within very broad guidelines, as intended 
by the Congress, all without unnecessary Federal Government 
interference in State policies.
    In fact, governor support for SEP and Weatherization is 
extraordinary. This year, the National Governors Association 
called out SEP and Weatherization as top funding priorities in 
the energy area, urging the Trump administration to ``continue 
and expand the Weatherization Assistance Program and State 
Energy Program.''
    Moreover, the Southern States Energy Board, led by 
Governors Hutchinson of Arkansas and Adkins of Kentucky, the 
Governors' Wind & Solar Energy Coalition led by Governors 
Raimondo of Rhode Island and Brownback of Kansas, and the 
Western Interstate Energy Board, led by the energy directors, 
my counterparts, Governors Herbert of Utah and Sandoval of 
Nevada, all call for continued and expanding funding of SEP.
    SEP is a strong Federal-State partnership program and it 
requires matching State funds. According to two Oak Ridge 
National Laboratory studies, one just referred to by Ms. 
Callahan, SEP provides taxpayers with exceptional value. Oak 
Ridge found that each dollar of SEP funds used by States 
leverages $10.71 of State and private funds and realizes $7.22 
in energy cost savings for citizens and businesses.
    In Texas, like most States, we are focused on the role of 
energy and economic development. Diverse energy resources and 
low energy prices provide Texas with an advantage, and we want 
to keep it that way. As an example, in Texas we leverage 
$293,000 in SEP funds to support clean energy technology 
startup companies, which have attracted $7 million in 
investments, created 86 jobs, and resulted in $7.9 million in 
economic impact.
    We have allocated SEP funding to the Texas Industries of 
the Future Program, which has had great success in supporting 
chemical manufacturers and refiners, to decrease the energy and 
water intensity of their Texas operations. And we utilized SEP 
funds to support local building energy code adoption and 
compliance by training homebuilders, contractors, and code 
officials across the State. Each of these successes and others 
are possible using the flexible SEP formula funds, which give 
our States and other States the ability to allocate funding to 
meet our top energy priorities and opportunities.
    In Texas, SEP funds are also used to conduct energy and 
water assessments for public sector, taxpayer-supported 
facilities across the State. Projects identified can then be 
implemented under the State-funded LoneSTAR Revolving Loan 
Program, which offers low-cost financing to K-12 schools, local 
governments, and State agencies. This program has awarded 
almost 300 loans totaling $375 million for projects that have 
saved borrowers $523 million in utility costs, an average of 
18.5 savings annually.
    Finally, we would prefer that all SEP funds come to the 
States through the base formula account rather than the small 
competitive program or technical assistance which DOE has opted 
to undertake at its discretion over the past several years. We 
look forward to working with the subcommittee, with the 
Congress, and the new administration in advancing our energy 
policies and the good work of the States and private sector.
    Thank you and I am happy to take any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr.  Simpson. I appreciate you being here today. We look 
forward to working with you. Robert.
                              ----------                             


                                            Wednesday, May 3, 2017.

                            HANNON ARMSTRONG


                                WITNESS

ROBERT JOHNSON, VICE PRESIDENT, HANNON ARMSTRONG
    Mr.  Johnson. Good afternoon, and thank you for having me 
here. In the interest of time, I will try to be brief.
    We are a leading venture in the sustainable infrastructure 
and energy business and we are urging your support in funding 
of the Federal Energy Management Program, specifically FEMP. It 
is an important program that oversees and facilitates the 
implementation of energy savings performance contracts, or 
ESPCs as they are known, as well as utility energy services 
contracts, UESCs as they are known; these activities all of 
which are currently contemplated in the 2018 Energy and Water 
Development Appropriations Bill.
    To give you a little background on who Hannon Armstrong is, 
we are a 36-year-old company, New York Stock Exchange listed, 
and ticker symbol HSAI. We invest in energy infrastructure to 
the extent that it is energy efficiency wind and solar 
projects. To give you an idea, we have approximately 23,000 
acres of land that we own underneath wind and solar projects, 
some of which is here with some of the members of this 
committee, Mr. Fortenberry as well as Mr. Calvert. In each of 
those cases, we own approximately 7 megawatts of power that is 
being generated in a distributed manner in each of their 
locations. I, unfortunately, cannot say the same right now for 
the two jurisdictions that we have in attendance today, but I 
am sure that we will over time.
    Ms.  Katpur. Excuse me, sir, you have to deal with the 
birders in Ohio. Yeah, yeah.
    Mr.  Johnson. I apologize. Specifically, I want to talk a 
little bit about ESPCs and UESCs. These critical contracts, 
they enable the Federal agencies to procure energy services and 
projects without relying solely on appropriated funds and they 
come at no added cost to the government. ESPCs and UESCs are 
tools that help agencies and installations replace, operate, 
and maintain aging energy using equipment. They reduce energy 
and intensity, as Kateri had mentioned before, saving taxpayer 
dollars, creating jobs, and in many cases improving the mission 
readiness of the Federal agencies. These innovative contracts 
require that each of the ESCOs that underpin the contracts 
perform annual assurance of the financial savings that are 
realized through these contracts.
    ESPCs and UESCs also have resulted in thousands of jobs 
created. So we have talked about jobs today in a variety of 
contexts. In this context, it is in the Federal ESPC and UESC 
world where the Federal Performance Contracting Coalition, FPC, 
in particular, has estimated that approximately for every $10 
million of investment made in ESPCs and UESCs there are 95 
high-paying jobs available here in the U.S. These jobs work in 
three areas. One is manufacturing, so manufacturing the 
equipment that is put in; two is the installers through 
subcontractors and the like; and three are the ESCOs, or the 
Energy Services Companies, that do the work as a prime 
contractor to the government.
    FEMP in particular is authorized to track agency progress 
on particularly section 432 of the Energy Independence and 
Security Act of 2007. In this capacity, they facilitate report 
findings of implemented projects and report annual building 
benchmarking metrics. In addition, FEMP is authorized by 
statute to appropriate procedures and methods for use by 
Federal agencies with these ESPCs, in particular on 42 U.S.C. 
8287.
    In addition, FEMP's most important effort is the 
coordinated and defined program management of ESPCs for the 
Federal agencies. FEMP staff helps agencies use ESPCs in 
several ways, advising the agencies on scoping and procurement 
activities, helping agencies select third party energy services 
companies, which I mentioned before, finalizing contract terms 
and project approval, and monitoring the project implementation 
and performance of these contracts over the long period of 
time, which can be up to 25 years in many cases.
    FEMP is the program manager for this critical ESPC 
contracting tool used by Federal agencies to implement ESPCs. 
That is the Department of Energy ESPC, what is called an 
indefinite delivery, indefinite quantity, IDIQ, contract. This 
was recently, the third version of this was recently announced 
last week by the Department of Energy where there are 21 new 
contractors now awarded that contract under the DOE ESPC IDIQ. 
This new contract is an essential tool for Federal agencies and 
installations on the military side to continue achieving 
greater savings for the taxpayers and obviously promote the 
additional job creation that we have just mentioned.
    In closing, we strongly urge that the $28 million in 
funding for FEMP that has been proposed in the 2018 budget be 
approved so FEMP can continue its vital work, in particular on 
the ESPCs front with Federal agencies. We thank you for 
providing this opportunity and look forward to any questions 
and comments you may have.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Mr.  Simpson. Thank you, Robert, we appreciate you being 
here today and we will take into consideration your testimony 
when we put together our budget.
    Mr.  Johnson. And I will report back on any projects we 
have in your jurisdiction.
    Mr.  Simpson. Thank you. Bill.
                              ----------                              


                                            Wednesday, May 3, 2017.

                MID-WEST ELECTRIC CONSUMERS ASSOCIATION


                                WITNESS

WILLIAM K. DRUMMOND, EXECUTIVE DIRECTOR, MID-WEST ELECTRIC CONSUMERS 
    ASSOCIATION
    Mr.  Drummond. Good afternoon, Mr. Chairman, Ranking Member 
Kaptur. My name is Bill Drummond. I am the executive director 
of Mid-West Electric Consumers Association. Mid-West represents 
about 300 not-for-profit utilities that purchase power from the 
Federal hydroelectric facilities on the Missouri River and its 
tributaries under the Pick-Sloan Missouri Basin Program. The 
projects are operated by the U.S. Army Corps of Engineers and 
the Bureau of Reclamation and the power is sold by Western Area 
Power Administration or WAPA. This cost-based, renewable, non-
carbon emitting power is an essential component of my members' 
power supply.
    Mid-West member utilities purchase almost 3,000 megawatts 
of installed capacity and the associated energy under long-term 
contracts, some of which extend beyond 2050. In exchange for 
these long-term commitments to purchase WAPA power, Mid-West 
members pay rates that recover the capital costs of the Federal 
investment plus interest in the hydropower generation and 
transmission facilities. Hydropower's share of the joint costs 
including the dams and the spillways and other project purposes 
costs that are assigned by Congress to hydropower 
beneficiaries.
    WAPA's rates also recover the annual operation and 
maintenance costs of the hydropower facilities. WAPA's and the 
other three power marketing administrations cost-based rates 
are not subsidized by the United States Treasury or the 
taxpayer. Section 5 of the Flood Control Act of 1944 requires 
that the power marketing administrations' market Federal power 
at cost-based rates. Prior administrations have recommended 
raising the power marketing administration rates to market-
based rather than the present cost-based system. Congress has 
consistently reaffirmed the use of cost-based rates for the 
power marketing administrations.
    There have also been proposals to privatize the PMAs by 
selling them to the highest bidder. Mid-West urges you to 
reject any proposed sale of the power marketing administrations 
or the imposition of market-based rates. These ill-advised 
proposals would have a devastating impact on the fragile rural 
economy of the Upper Great Plains.
    Second, the members of Mid-West want to thank the 
subcommittee for the proposal to reduce WAPA's net zero 
appropriation, also known as offsetting discretionary spending 
in the Omnibus Spending Bill for fiscal year 2017. That 
proposal is a reduction of $37 million from the fiscal year 
2016 levels. We support a continuation of that reduction into 
2018 and beyond to address a double budgeting issue with the 
Parker-Davis Intertie Projects. So unlike a lot of other folks, 
we are actually here requesting a reduction and appreciate the 
subcommittee's support for that.
    Mr.  Simpson. We will mark that down.
    Mr.  Drummond. Finally, Mid-West has a good working 
relationship with WAPA and its sister Federal agencies, the 
Corps, and the Bureau of Reclamation regarding the flow of 
current and rejected financial information. While Mid-West 
members still have healthy disagreements with some of WAPA's 
and the Corps' and Reclamation's spending proposals, we have 
been able to work together to obtain the data we need to be 
able to provide informed comments. We respect the efforts of 
the employees and the leadership of these agencies in managing 
these Federal assets under complicated circumstances.
    So in conclusion, Mid-West members strongly support the 
Western Area Power Administration and will oppose any efforts 
to sell it or the other power marketing administrations or to 
change to market-based rates. We support a $35 million 
reduction in WAPA's net zero appropriation request for fiscal 
year 2017 and appreciate the subcommittee's support of the 
fiscal year 2017 Omnibus Spending Proposal that calls for a $37 
million reduction. And finally, we appreciate the working 
relationship that we have with WAPA, the Corps and the Bureau 
of Reclamation.
    So thank you for the opportunity to testify this afternoon 
and I look forward to any questions you may have.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr.  Simpson. Thank you.
    Ms.  Kaptur. Mr. Chairman, I do have a question of this 
witness. For the record, thank you so much for testifying. I am 
trying to still secure in my own mind the different rates that 
consumers, businesses, industries pay across the country for 
kilowatt hour, for usage, depending on the type of energy 
system that they are subject to. I am wondering sir, if you 
could provide the per kilowatt cost on average to your 
residential consumers, your industrial consumers, and then if 
there are specials in the rural areas, I would like to know 
what those are, and I want to compare those to my region of the 
county, which has a very different energy umbrella than your 
own.
    Mr.  Drummond. Certainly.
    Ms.  Kaptur. That would be very valuable to me.
    Mr.  Drummond. No, I would be happy to provide that. I do 
not have it with me right today. I can tell you that for most 
of my members, the cost of power that they get from their--not 
only the Western Area Power Administration, but also their 
other power suppliers amounts on average to about half of their 
total cost of doing business. The rest of the cost of doing 
business includes distribution systems, the back office that is 
necessary to provide bills, the power management systems, et 
cetera. So that is roughly how the wholesale supply versus the 
other costs of doing business work out. But I can get you our 
average cost of supplying that power. I would be happy to do 
that.
    Ms.  Kaptur. Thank you so much.
    Mr.  Drummond. Yes, ma'am.
    Mr.  Simpson. Thank you. Jorge.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     

                                            Wednesday, May 3, 2017.

          GRAND CANYON STATE ELECTRIC COOPERATIVE ASSOCIATION

                                WITNESS

JORGE S. CANACA, DIRECTOR OF FEDERAL RELATIONS AND REGULATORY AFFAIRS, 
    GRAND CANYON STATE ELECTRIC COOPERATIVE ASSOCIATION
    Mr.  Canaca. Mr. Chairman and Ranking Member and 
subcommittee members, thank you for holding this hearing and 
providing the opportunity for public testimony. My name is 
Jorge Canaca. I am the director of Federal relations and 
regulatory affairs for the Grand Canyon State Electric 
Cooperative Association. We are a regional service organization 
representing the interests of electric cooperative utilities 
and their customers and submit the following testimony which 
will focus on the Western Area Power Administration's budget 
practices, the need for budget transparency and the need for 
customer involvement.
    We respectfully request the subcommittee provide adequate 
funding for Western to meet its primary statutory obligations 
to market, sell, and transmit preference power. However, due to 
potential agency-wide customer impact and the inappropriate 
nature of double budgeting practices, we recommend that 
Western's net zero request be reduced in the fiscal year 2018 
budget by 35 million and by equivalent amounts in future fiscal 
years until Western corrects the situation through budget 
formulation.
    We further ask the subcommittee to cap the use of net zero 
authority to ensure that it is not duplicative of funding the 
Desert Southwest Region Office already receives through 
prepayment authority. The Grand Canyon Electric Cooperative 
Association is a member organization consisting of six electric 
distribution and generation transmission cooperatives who 
collectively service approximately 500,000 rural residents 
across Arizona. Our member cooperatives are customer-owned, 
not-for-profit utilities and on average one-third of our 
members live at or below the Federal poverty level.
    Now, for 75 years, electric cooperatives have been proud to 
keep the lights on by providing safe, reliable, and affordable 
electricity and America's 838 not-for-profit electric 
distribution cooperatives provide service to 42 million people 
in 47 States, and collectively, their service territories cover 
75 percent of the U.S. land mass.
    Now, under the Reclamation Project Act and Flood Control 
Act, as Bill mentioned earlier, Western is required to market 
preference power at the lowest possible rates to customers 
consistent with sound business practices. Electric cooperatives 
were some of the first purchasers of Federal hydropower 
delivered to homes, farms, ranches, and rural businesses.
    Currently, Western relies on congressional appropriations 
and funds generated directly by customer-owned utilities that 
are power contractors to maintain its capital program mission. 
From a budget scoring perspective, Western is considered budget 
neutral and not a draw on the Treasury. This is only possible 
because preference power customers reimburse the cost of 
Western's capital investment through rates and are thus 
ultimately responsible for repayment of the Federal investment. 
Now, to that end, we support continued funding for Western to 
meet its statutory mission. We believe Western is a valued 
partner. But recently, however, we have witnessed Western's 
financial practices come under scrutiny.
    A 2015 GAO report identified concerns with management and 
size of unobligated balances held by Western and recommended 
that Western implement a strategy and take action to reduce 
these balances. Now, while we applaud Western for addressing a 
self-created financial mismanagement issue, and returning 
hundreds of millions of dollars to the Treasury, the electric 
cooperative customers believe the accrual of unobligated 
balances was a direct result of net zero budget authority 
granted to Western in 2010. So that is the double budgeting 
issue.
    Now, therefore, we also ask the subcommittee to rescind $70 
million in unobligated balances accrued through the use of 
prepayment authority and the net zero appropriations. According 
to its own estimates, Western returned 328 million to the 
Treasury Reclamation Fund in fiscal year 2016 and a total of 
894 in the previous 5 years. Yet, during that same period, our 
electric rates increased by 32 percent. These increases in both 
power rates and unobligated balances occurred during a period 
when the government was operating under continuing resolutions.
    And in conclusion, I would just like to add that Western 
has pursued expanded budget authority while systematic funding 
problems surfaced. With respect to some of Western's major 
projects, customers did not have timely, meaningful 
participation in Western's 10-year planning and Federal budget 
development. And most importantly, much of Western's financial 
processes and decision-making schedules are not transparent to 
the customer. By working together, Congress, Western, and 
preference power customers can address the multiple goals and 
challenges of Federal hydropower resource and maximize the 
benefit of the system for all.
    Now, let me conclude my testimony by thanking the members 
of the subcommittee for their support and special thanks to 
Arizona Congressman Paul Gosar for his continued leadership in 
the House on this important issue to Arizona's electric rate 
payers.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr.  Simpson. All right, thank you for being here today and 
for your testimony, and as you can tell, I have a habit of 
hammering people's names, and I apologize for that.
    Mr.  Canaca. It is perfectly fine, sir.
    Ms.  Kaptur. Mr. Chairman, thank you. I would like to also 
ask this witness if you could provide for the record, follow-up 
on page 4 of your testimony, you say your rate payers paid 
electric rates for cooperative customers increased by an 
average of 6.5 percent each year. Could you provide an updated 
summary for our committee of the per kilowatt cost of energy 
for your customers in the residential and industrial and rural 
consumer arenas? Can you do that?
    Mr.  Canaca. Absolutely. I would be happy to.
    Ms.  Kaptur. Thank you.
    Mr.  Simpson. Thank you. Robert Lynch.
                              ----------                              

                                            Wednesday, May 3, 2017.

         IRRIGATION AND ELECTRICAL DISTRICTS' ASSOCIATION OF AZ


                                WITNESS

ROBERT S. LYNCH, COUNSEL TO THE IRRIGATION AND ELECTRICAL DISTRICTS' 
    ASSOCIATION OF AZ, ROBERT S. LYNCH & ASSOCIATES
    Mr.  Lynch. I am Bob Lynch and I am an attorney in Phoenix, 
Arizona. Let me first talk to you about the net zero concept. 
When it was originally authorized, it was authorized for Pick-
Sloan, Bill Drummond's group that he represents is the majority 
of their customers. And we went along with it, but it was not 
supposed to apply in the Colorado River Basin. We did not need 
it, we did not want it. And just our way of explaining it to 
you is, well, I have an 8-year-old granddaughter. She is smart, 
she is good looking, she is talented. But if I took her 
shopping, would I give her my credit card? No.
    Well, in our view, the way this worked out in the Desert 
Southwest Region, WAPA has a net zero credit card, except we do 
not get to see the shopping list. All we see is what they 
bought when they hand us the bill. And we are trying to work to 
change that. We established a preference customer committee 
with the co-ops and the MUNIs to try to have a dialogue with 
Western, WAPA, to see if we can straighten this out. But for 
now, we are out of luck. What we found out just recently, 
within the last couple of weeks, is that last spring, the 
Desert Southwest Office started converting all of their 
advanced funding that we had been paying for, including O&M, to 
net zero. And so they were taking, you know, our existing rate 
and paying and we were paying, and we were paying in, and 
paying the O&M and they were converting it to this net zero 
appropriation, which accounts for part of the double budgeting 
issue that you have heard about.
    We think we can fix it, but it is going to require their 
cooperation. And if we do not get the cooperation, I would 
respectfully request the opportunity to come back here and tell 
you all about it and tell you what I think ought to happen to 
them because it is happening to us now and it needs fixing.
    On the transparency issue, WAPA is very transparent about 
what they have done to us. They are just not very transparent 
about what they are going to do to us next. And we have got to 
try to fix that, also. And if we do not get it fixed, we will 
be back again asking for your help. And one of the things that 
has come up in all of this is consolidation. WAPA has 
consolidated a lot of functions in their headquarters. In 2010, 
they had 260 FTEs; starting in fiscal year 2018, they will have 
390. Not all those folks live in Denver. Some of them are in 
Sacramento and Loveland and Phoenix and every other place while 
the problem is they do not talk to us. If you are somebody in 
Sacramento doing something for the whole agency, why do you 
care what people in Phoenix think? And to the best of our 
knowledge, they are not being asked to talk to us. So to us, 
consolidation has turned out to be the enemy of cooperation. 
And we do not know exactly how to fix that, to tell you the 
truth.
    A couple of things happened on Monday that sort of changed 
my testimony. Number one, in the explanatory statement for the 
Consolidated Appropriation Bill, on page 41, there is a comment 
about termination provisions in contracts and you are telling 
Western, give us a report in 60 days. Well, I lived it, 
starting in the 70's, just in case you would like to hear the 
rest of the story, I would be happy to supply it to you.
    The other thing is that there is a $34 million 
authorization for 2017 to reduce unobligated balances, but it 
says ``may.'' Now, in the Clinton administration, a colleague 
of mine who was solicitor of the Department of the Interior 
wrote to Bruce Babbitt and said, if it is in the bill, you have 
got to obey it; if it is in the committee report, you do not. 
So I do not know what ``may'' means or what you think ``may'' 
means in that explanatory statement, but I would caution you to 
keep an eye on this because if they do not reduce it, then that 
35 million we are all asking for could be 69 or 70 and we would 
be happy to have it. And to the best of my knowledge, it would 
not bother Western at all in terms of their budget.
    So thank you for the opportunity to be here today and talk 
to you about these important subjects, because they do affect 
the pocketbooks of an awful lot of folk.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Mr.  Simpson. Thank you. I appreciate your testimony. And 
``may'' means they may or they may not. And ``shall'' means 
they shall. And the history is, that if it is in bill language, 
they do have to follow it. In report language, it is strongly 
suggested that they follow it because next year they are going 
to have to be answerable for it. So that is kind of where it 
ranks in everything. But we thank you for being here and for 
your testimony. Thank you, sir.
    Nicki.
                              ----------                              

                                            Wednesday, May 3, 2017.

                SOUTHWESTERN POWER RESOURCES ASSOCIATION


                                WITNESS

NICKI FULLER, EXECUTIVE DIRECTOR, SOUTHWESTERN POWER RESOURCES 
    ASSOCIATION
    Ms.  Fuller. Thank you, sir. And I believe I am the last 
person to talk about the PMAs, so you will only have to hear 
about this one more time.
    Mr.  Simpson. Okay.
    Ms.  Fuller. Mr. Chairman and members of the subcommittee. 
My name is Nicki Fuller and I am the executive director of the 
Southwestern Power Resources Association.
    I come before you today as a bit of a unicorn. I am a 
grateful constituent, a happy customer, and we have a Federal 
program that works and pay its own way, without any cost to the 
taxpayer.
    In addition, I am proud of the hard work we have done in my 
region to protect the Federal infrastructure, to ensure we have 
a program that is successful and sustainable.
    SPRA is a non-for-profit organization of rural electric 
cooperatives and public power systems in Arkansas, Kansas, 
Louisiana, Missouri, Oklahoma, and Texas, that are customers of 
the Southwestern Power Administration, which is part of the 
Department of Energy. Southwestern markets hydroelectric power 
generated at 24 multipurpose dams in the region. SPRA members 
serve over 8.2 million end users in this region.
    Unlike most Federal programs, the PMAs like Southwestern 
pay their own way.
    Every Federal dollar spent on Federal hydropower program is 
repaid through the rates charged to the customers. This 
includes all costs of generating and marketing the 
hydroelectric energy and capacity incurred by both the Corps 
and the PMA, plus interest on capital costs.
    Southwestern receives a diminishing amount of 
appropriations every year in Congress in the amount of about 
$11 million, or 7 percent of their total operating budget.
    These appropriations plus all other expenses for 
Southwestern and for the Corps' cost for hydropower and a 
percentage of joint use expenses are included in the rates the 
customers pay. The taxpayers do not subsidize or pay for any 
activity of any PMA, including Southwestern.
    As you will likely note from the testimony of other PMA 
customer groups across the country today, each PMA is very 
different. Cooperation between Southwestern and its customers 
is a primary mission of SPRA. Quarterly, Southwestern updates 
my board on all issues of importance and asks for input. This 
transparency is the key to our long and successful relationship 
as business partners. The established practice of frequent 
communication has allowed these issues to be addressed in a 
manner which is fair to all parties.
    Today, I will discuss two issues which are very important 
to SPRA and its members. They are, one, the need for increased 
financial flexibility of Southwestern and, two, customer 
funding of Federal infrastructure.
    One, the system of Southwestern is very dependent upon rain 
and does not have the capacity to withstand a long-term 
drought. Regardless of the water conditions, Southwestern has a 
contractual obligation to my members to deliver the power it 
guarantees. For this reason, during a drought Southwestern must 
purchase power and these costs are passed through the power 
rates to the customers. SPRA has asked Southwestern if there is 
a way to pay for these purchases incrementally in advance to 
reduce rate spikes.
    To achieve this incremental collection, Southwestern would 
need an account in the U.S. Treasury with the authority to hold 
funds across fiscal years with the ability to access it when 
needed. Unfortunately, this financial flexibility that is 
commonsense business practice has not been able to pass the 
legislative hurdles necessary for use. Financial flexibility 
tools such as the one mentioned above are key to the continued 
success of Southwestern. As energy and capacity markets become 
more evolved, Southwestern must have the ability to act 
consistent with sound business principles as it is statutorily 
obligated to do.
    Mr.  Simpson. May I ask you, is there legislation to do 
what you are suggesting here that has been introduced in 
Congress?
    Ms.  Fuller. There was last session and it scored. We are 
not sure why it scored. It is just a savings account in the 
Treasury. So it was not able to pass because of that reason.
    Mr.  Simpson. Okay.
    Ms.  Kaptur. Introduce the legislation, please?
    Ms.  Fuller. Sure. It was in the Senate and it was Cassidy 
and McCaskill from Missouri and Louisiana.
    Ms.  Kaptur. Okay.
    Ms.  Fuller. Thank you.
    The financial flexibility not only makes good business 
sense, it is highly desired by us, the customers, to pay the 
rates.
    My second point, customer-funding. With all the discussion 
of public-private partnerships, or P3, I want to inform the 
subcommittee about a long successful P3 program in our region. 
Beginning in the 1990s, Federal power customers began noticing 
increased outages of Corps hydropower plants which was causing 
the PMAs to have to purchase expensive replacement power.
    Even though there was an increase in outages due to 
maintenance issues, SPRA saw significantly decreased 
appropriations for maintenance of this infrastructure. With 
this in mind, SPRA in partnership with the Corps in 
Southwestern, put together the trust MOA.
    Under this agreement, the customers meet with the Corps and 
Southwestern to determine the funding needs for the following 
fiscal year. This cooperative process allows the customers, the 
ones that pay the expenses, to have input on how their money is 
spent and it allows the Corps to have a predictable revenue 
stream to sustain this Federal infrastructure.
    We have committed to the Corps that we will fund through 
the trust MOA about $2.4 billion for hydropower infrastructure 
over the next 30 years to complete rehabilitation of all 24 
Corps hydropower plants marketed by Southwestern. Through this 
process, we are able to keep local control and oversight, 
sustain Federal infrastructure, and ensure the longevity and 
future of the Federal hydropower program.
    In conclusion, I come to you today in the rare and enviable 
position of a constituent and customer that is happy. Unlike 
other Federal programs, this program costs the taxpayers 
absolutely nothing, yet benefits millions of citizens while 
investing in Federal infrastructure assets. These dams provide 
so many benefits to my region, including navigation, flood 
control, water supply, environmental programs, and recreation. 
Without the Federal hydropower customers paying the bills, more 
of these costs of these joint activities would be borne on the 
taxpayer.
    Mr. Chairman, this concludes my testimony. Thank you for 
allowing me to come here today to discuss this important issue.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr.  Simpson. Thank you, Nicki. We appreciate it.
    Ms.  Fuller. Thank you.
    Ms.  Kaptur. Mr. Chairman, I just wanted to ask----
    Ms.  Fuller. Sure.
    Ms.  Kaptur [continuing]. Ms. Fuller, if she could also 
submit for the record the per kilowatt hour cost to your 
consumers, residential/industrial.
    Ms.  Fuller. Absolutely, I would be happy to.
    Ms.  Kaptur. For the record.
    Ms.  Fuller. Yes.
    Ms.  Kaptur. Thank you.
    Ms.  Fuller. Thank you very much.
    Mr.  Simpson. Sheri.
                              ----------                              

                                            Wednesday, May 3, 2017.

    OFFICE OF TECHNOLOGY & INNOVATION, COMMONWEALTH OF PENNSYLVANIA


                                WITNESS

SHERI COLLINS, DEPUTY SECRETARY OF THE OFFICE OF TECHNOLOGY & 
    INNOVATION, COMMONWEALTH OF PENNSYLVANIA
    Ms.  Collins. Good afternoon. Chairman Simpson, thank you, 
members of this committee, for allowing me to speak before you 
today and to offer my comments on the important role of the 
Appalachian Regional Commission plays in supporting the 420 
counties across our 13 States. The ARC works tirelessly 
alongside our local development districts, nonprofit 
organizations and the States to bring our respective ARC 
regions into socioeconomic parity with the rest of this great 
country.
    In my capacity, I have the distinct pleasure of serving as 
Governor Tom Wolf's State alternate to the Appalachian Regional 
Commission. For the first time since 1991, Pennsylvania's 
governor is serving as the State's co-chair for the ARC 
program, and we could not be more excited and proud to have our 
governor represent the ARC regions. Governor Wolf sends his 
regards to you, Chairman Simpson, and to members of the 
committee, and appreciates your interest in this program.
    I have been a Commonwealth employee for 30 years; the last 
12 at the Pennsylvania Department of Community and Economic 
Development. As deputy secretary for the Office of Technology 
and Innovation, my primary focus has always been on supporting 
Pennsylvania's innovators and entrepreneurs and the programs 
that support them, including the world-renowned Ben Franklin 
Technology Partners.
    In 2015, I was given the opportunity to serve as the 
governor's State-alternate to the ARC program. It was not until 
I started to traverse the Commonwealth, visiting completed 
projects and conducting site visits on those projects to be 
submitted for approval that I fully understood and appreciated 
the ARC program and the impact that this Federal funding has on 
the citizens of Appalachia.
    Oftentimes, I think that those of us who sit near to or 
under the Capitol dome oftentimes fail to appreciate the world 
around us. We get so focused on what is right in front of us, 
that we lose sight of areas like Appalachia and we fail to 
recognize that not everyone in this great Nation has the same 
opportunities afforded to them as maybe you or I do.
    I do myself not hail from Appalachia, but I have become a 
huge supporter of the ARC program. And have seen up close and 
very personal the impact this funding has had on our businesses 
and our citizens alike.
    On a recent visit to the Scranton School for the Deaf and 
Hard of Hearing Children, I was able to see firsthand the 
impact ARC funds are having on our most valuable assets, our 
children. This specialized school, located in Scranton, 
Pennsylvania, is a nonprofit, tuition-free school that serves 
children from birth to eighth grade. The school's mission is to 
prepare each deaf and hard-of-hearing student for all aspects 
of life throughout continuum of high quality individualized 
educational and extracurricular programs and is an active 
partner in resource for the community. The school is committed 
to ensuring that each and every student is capable of achieving 
his or her maximum potential.
    ARC funds in the amount of $25,000, along with a $25,000 
match from the Margaret Briggs Foundation, were used to 
purchase smart panels, specialized lighting, computers, a 
drone, and editing software that allows deaf and hard-of-
hearing children to improve their skills using technology, 
expressive communication skills using American sign language, 
sign-supported English, and spoken English. This technology 
also allows the students to virtually interact with the student 
body at the Western Pennsylvania School for the Deaf as well as 
a small subset of deaf and hard-of-hearing students from other 
countries, including Sri Lanka and Ireland. This type of 
virtual connectivity allows the students to learn in a fun and 
interactive way and to see that there are children all around 
the globe who are deaf and hard-of-hearing just like them.
    Another example of how ARC funds has impacted the residents 
of Appalachia is located in Sullivan County, Pennsylvania. The 
Sullivan County Dental Clinic provides services to low-income 
patients. A 2010 assessment found that 33 percent of local 
adults had claimed that they had never had their teeth cleaned 
while regional pediatric oral surgeon characterized the area as 
the epicenter of tooth decay in Pennsylvania.
    Chairman Simpson, as a second-generation dentist, you 
surely can appreciate the importance of good oral hygiene and 
the need for accessible and affordable dental care. An ARC 
grant in the amount of $150,000 coupled with the mandatory 
matching funds will support the expansion and renovation of the 
Sullivan County Dental Clinic. This designated health 
professional shortage area will be renovated to allow low-
income patients access to critical dental services in a private 
and spacious environment as to the current overly crowded and 
open one that they have now. The modifications to the dental 
clinic will help to lower the barriers to dental care, 
improving health conditions for patients and the community.
    And lastly, I would like to share with you a project out of 
Congressman Fleischmann's State, Tennessee. In 2014, in 
partnership with my State counterpart office, the Tennessee 
Department of Economic and Community Development, ARC invested 
$300,000 to the Appalachian Service Project in Johnson City, 
Tennessee to help build homes for low-income homeowners living 
in some of the State's most economically distressed areas. This 
project included veterans and their families. In the first 2 
years of the project, 16 homes were completed, several of which 
were specifically for veterans. In many cases, these homes 
replaced substandard, unsafe, and inefficient housing units.
    In addition to financing the builds, ARC dollars helped 
local partners provide additional supportive services, such as 
financial counseling, reduced cost childcare and job training. 
As President Walter Crouch of the ASP said, when we talk about 
the veterans housing issue, a lot of people think we are 
talking about vets who may be living under bridges and that 
sort of thing, but what they do not realize is many vets and 
their families live in substandard housing or mobile units that 
need a lot of repair. Without support from the ARC, I think it 
goes without saying that these projects would not have come to 
fruition.
    As I close, I would ask every member of the subcommittee to 
take a long hard look at the work of the ARC and its supporting 
partners, such as our Local Development Districts. The work 
that the ARC has done since 1965 has transformed communities 
into vibrant epicenters, pardon me, and has enriched the lives 
of our brothers and sisters in ways that you may not imagine. 
Between October 2015 and January 2017, the ARC has invested 
$175.5 million in a total of 662 projects. The ARC funds have 
been matched by more than $257.4 million and will attract an 
additional $443.3 million in leveraged private investments in 
Appalachia, creating 23,670 jobs and educating over 49,000 
students and workers in the region. While the 13 States that 
embody Appalachia have made great progress, there is still 
plenty of work to do to advance the region. Your continued 
financial support of this program is critical and necessary for 
the citizens and businesses of Appalachia. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr.  Simpson. Thank you. Sandy.
                              ----------                              

                                            Wednesday, May 3, 2017.

                 OFFICE OF KENTUCKY GOVERNOR MATT BEVIN


                                WITNESS

SANDY DUNAHOO, COMMISSIONER FOR THE DEPARTMENT FOR LOCAL GOVERNMENT, 
    OFFICE OF KENTUCKY GOVERNOR MATT BEVIN
    Ms.  Dunahoo. Good afternoon, Mr. Chairman and members of 
the committee. It is a pleasure to be here today. I am 
commissioner for the Department for Local Government in the 
Governor's Office in the Commonwealth of Kentucky. I 
respectfully come before your committee today with over 30 
years of government public service and private consulting in 
the Appalachian region. I have been involved in hundreds of 
millions of dollars of projects created and developed for the 
sole purpose of improving the standard and substandard living 
conditions of the people of Appalachia. Today, I am here to 
share with you a personal story on a personal level regarding 
the work of the Appalachian Regional Commission and the impact 
that it has had.
    My father was born in Owsley County, Kentucky, at the turn 
of the century and he was one of 12 brothers and sisters. They 
lived in a four-room house. They sustained their family by farm 
products. They worked in the fields, they raised pigs, they 
grew crops, and the family lived by selling these products to 
friends and neighbors. There were no opportunities for them to 
earn a wage because there were very few jobs available. 
Educational opportunities were very difficult. No one in his 
family attained an education higher than the eighth grade. So 
eventually, they left Kentucky; they left their home. They went 
to places like Connersville, Indiana; Dighton, Ohio; 
Indianapolis; different communities north to seek jobs, seek 
employment. So eventually, 10 of his siblings left Kentucky. As 
they left to seek their fortune, they never forgot home and 
they always had a yearning to come back. But again, it was so 
difficult; there were no opportunities and they just could not 
do that. But they prospered and they did well, and they were 
hardworking and they were commonsense people, and they attained 
amazingly high levels of wealth just through their hard work, 
commitment, and dedication. Fine folks.
    Today, I manage the family property, the same property 
where my father was born and his siblings grew up. And it is a 
different world today for me and for my young son, and the 
reason for that is the Appalachian Regional Commission. There 
are opportunities available to us today that my family would 
have never dreamed about years ago. We have access to county-
wide broadband internet; we have clean water, running water in 
our home, city water; we have access to city sewer--it is a few 
miles away, but it is possible to get it there; and the 
children in the community now have opportunities that were 
never available to them before. Some have become lawyers, 
doctors, pharmacists; they move on to levels of higher 
education; they have computers in the school, all because of 
the Appalachian Regional Commission.
    While this sounds wonderful--and it is; it is an incredible 
transformation from where we were when my father lived in 
Kentucky--we are far from being finished with this work. The 
work of the Appalachian Regional Commission still remains. At 
the beginning of the ARC, we had 214 distressed counties in the 
commission. Today, we have 84. Thirty-eight of the 84 are still 
in Kentucky. We are in the heart of Appalachia and we have the 
most distressed counties in the region.
    So what we are doing in our State is taking an aggressive 
effort to try to rectify this situation. We are doing 
everything we can to steward and marshal our resources wisely 
so that we can look toward funding the needs that we have 
within our State. We are looking at the mirror and we are 
taking a hard look at ourselves, and we are determining what is 
our future path going to be, and how are we going to get there, 
and how are going to raise our counties up from the distressed 
status, and we are making progress.
    We are cutting red tape, we are reducing the burden on 
small businesses, we are incentivizing economic development, 
and we are having--beginning to realize growth in the very same 
areas that have been struck by poverty for years. We are, 
again, asking the tough questions, making the tough decisions. 
Sometimes they are not so popular, but we are on the right path 
and we are beginning to realize results in an area that has 
been chronically distressed for years.
    Many people misunderstand the people of Appalachia, the 
strength, the resiliency, the ability to sustain, the ability 
to live with little, but they also misunderstand the value in 
people such as these. We have an incredible work ethic. Our 
people truly are only asking for an opportunity to succeed. So 
my story to you today is, while we have made great strides with 
the Appalachian Regional Commission since the early 1960s, the 
work is far from done, but we are working toward a path that 
someday we hope we can move the rest of these 84 counties to 
sustainability as we have the counties that have been able to 
attain before.
    We would like to thank each of you for your support of the 
ARC in the past and we would like to thank publicly Congressman 
Rogers for his support of the ARC, particularly since most of 
these counties are in his region. And most of all, I would like 
to thank you for listening to our story in Kentucky today and 
hope that we can trust you to help us move forward. Thank you.
    Mr.  Simpson. Thank you, Sandy, and before if you guys 
would stick around for just a minute, I want to get in the 
testimony of Amy from the Delta Regional Commission and then we 
can ask some questions so go ahead Amy.
                              ----------                              --
--------

                                            Wednesday, May 3, 2017.

                ARKANSAS ECONOMIC DEVELOPMENT COMISSION


                                WITNESS

AMY FECHER, EXECUTIVE VICE PRESIDENT OF OPERATIONS, ARKANSAS ECONOMIC 
    DEVELOPMENT COMISSION
    Ms.  Fecher. Thank you, Mr. Chairman and ranking member. My 
name is Amy Fecher and I represent the State of Arkansas and 
Governor Asa Hutchinson as his Designee to the Delta Regional 
Authority Board of Governors. I am here today to provide my 
testimony emphasizing the importance of the Delta Regional 
Authority and the continued need for investments that it 
provides in the Delta region.
    The Delta Regional Authority is an independent federal 
agency created in Congress in 2000 that serves 252 parishes and 
counties in an eight state region. DRA operates as a federal 
state partnership and works with the governors to improve 
economic outcomes and enhance the quality of life for the 
regions 10 million residents. DRA makes strategic investments 
into basic public infrastructure, transportation 
infrastructure, work force training and education and business 
development with an emphasis on the entrepreneurship to advance 
economic and community development in the region. The lower 
Mississippi River region though rich in natural and human 
resources lags behind the rest of the U.S. in economic growth 
and prosperity.
    In FY 2016, 234 of the 252 counties and parishes within the 
region were deemed economically distressed. 21 percent of the 
region lives in poverty and only 20 percent of the Delta's 
population has a bachelor's degree or higher putting our 
regions workers at a disadvantage completely with the rest of 
the nation. I believe DRA can serve as a valuable tool to carry 
out the goals of President Trump and Congress to strengthen our 
nation's infrastructure and economy.
    DRA receives the majority of its appropriations from this 
subcommittee. Since FY 2002 DRA has invested approximately $163 
million into basic public infrastructure and transportation 
improvements, workforce training and education as well as 
business development projects. These investments have helped 
leverage 3.5 billion in other public and private funds.
    As an independent agency operating as a federal state 
partnership, DRA works closely with each of the eight governors 
and their designees to invest in economic and community 
development projects supporting the needs of their respective 
states. DRA aligns investments with each state's economic 
development goals and per Congressional mandate DRA must invest 
50 percent of its appropriation into basic public 
infrastructure and transportation infrastructure as well as 75 
percent of our allotment in economically distressed areas. The 
infrastructure projects include water and sewer improvements, 
road infrastructure and small inland port maintenance and 
expansion.
    One example in my home state in Helena, Arkansas where DRA 
wrong with public and private partners repaired a damaged, 
closed rail line servicing the Helena Harbor. As of this week 
this port is open again and servicing 40 cars per day. This 
investment immediately saved jobs and has since seen expansion 
from the private sector. One CEO made the statement the rail 
was the critical factor in us locating in Helena, Arkansas.
    Much of DRA's foot print is comprised primarily of small, 
rural communities. Often Delta stakeholders voice their 
concerns regarding the difficulty of navigating federal 
resources from DRA's larger counterparts and do not have the 
capacity to develop and fund projects on their own. DRA 
addressees these concerns by investing in and supporting our 
most rural communities. From 2010 through 2016 59 percent of 
DRA's funds were invested into communities with a population of 
10,000 or less.
    One of the benefits of DRA is its ability to move quickly 
to assist the needs of the Delta communities and the private 
industry. With a rolling application timeline DRA has helped 
Arkansas as well as other Delta states successfully close deals 
that create jobs and grow our states economies. DRA's 
flexibility to help us ensure necessary public safety in the 
aftermath and recovery of natural disasters. Recently DRA made 
an emergency investment last month in Higginson, Arkansas. A 
small rural community of 600 people was hit by a tornado and 
suffered major damage to their sewer plant. DRA provided 
$23,000 to assist with the restoration for these facilities. 
Lastly I would like to emphasize the importance of the Delta 
Leadership Institute. This unique program which I had the honor 
to graduate from in 2013 is training the types of community 
leaders that are running our region's communities often as a 
part-time job with very few resources. DLI is growing the 
knowledge, skill set and dynamic network of leaders that our 
communities and region need to compete in the U.S. as well as 
globally.
    I can personally attest that going through this program has 
helped me in my role at the Arkansas Economic Development 
Commission. I hope the information I have provided today speaks 
to the overwhelming value of the DRA investments throughout the 
Delta region. DRA's primary goal is to help bring economic 
prosperity to one of the most distressed areas in the country 
and it is a successful model of public-private partnerships.
    Thank you for the opportunity to provide this testimony and 
I urge you to continue funding DRA so that it can continue to 
make strategic investments in infrastructure, businesses, and 
families in the Delta region. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr.  Simpson. Thank you for being here. If you guys would 
like to jump up to the table again, if you could because I am 
sure we will have a question. And go ahead and stay there. Pull 
up another chair because I do want to talk about these for just 
a second, if you could.
    And I do not want you to take this as a criticism or 
anything else. I know what you do is important work. In this 
bill, I guess in the Omnibus that we are going to be voting on 
in just a few minutes, or at least the rule for it, there is 
also the Denali Regional Commission, $15 million; $25 million 
for the Delta Regional Commission; 152 million for the 
Appalachian Regional Commission or Association, whatever it is.
    And I understand both the need and why we are doing this or 
why it has been started. And I know why--you do not have to be 
a brain surgeon to figure out why they have been going on. 
Hobson tried to get rid of these for a number of years when I 
was first on this committee when he was the chairman of the 
committee.
    All of the circumstances you just described exist 
throughout this country. You go to Great Lakes and the loss of 
the manufacturing jobs up there. Go to Detroit and look at the 
unemployment. Look at the problems that exist there. You go to 
the Intermountain West, those problems exist there.
    And I am not suggesting that we eliminate these things. 
What I am suggesting is that somehow there needs to be some 
equity across this country. There is no Intermountain Regional 
Commission. There is no Great Lakes Regional Commission. There 
is no Heartland of America Regional Commission. And all of the 
problems that you describe do exist throughout the country.
    When you talk about a dental clinic, I can take you to the 
need for dentistry throughout Idaho. Have you ever been on an 
Indian Reservation? Ethnic population with the highest rate of 
cavities around and no access, in many cases, to dentists. 
These things exist everywhere. Why should we fund these and 
nothing else?
    Anybody care to----
    Ms.  Dunahoo. I would love to answer and I know time is of 
the essence, so we could certainly provide a written statement 
with further information. But I can give you a little bit of 
information and let you know that I have been in my position 
for a year and a half now. And coming new into my position I 
asked many of those same questions even though I had utilized 
the program for years, particularly in Kentucky when we look at 
the dollar amount of the investment that has gone into the 
Appalachian region and why have we not seen more benefit than 
we have?
    And then the next question became are we truly lower than 
the rest of the Nation? So I began looking at income levels, 
per capita income. And we are indeed below the rest of the 
Nation in our 38 stressed counties that I mentioned earlier.
    We have had a downturn in the economy, but in our office we 
also manage Coal Severance and the Coal Program. And I can tell 
you in the year that coal was the greatest in severance dollars 
received by the Commonwealth of Kentucky, we received $313 
million in severance dollars, that our counties were still the 
poorest in the Nation. So that is a systematic problem. And the 
loss of one industry, while it was traumatic, very traumatic to 
our people, we cannot even hope to be as good as we were in the 
good old days because we were still the poorest in the Nation.
    So when we have a situation such as that and then we 
immediately begin to wean the program, the effects are 
devastating. So what we need is to have some time to work 
through, as I said in my statement, to look in the mirror, 
figure out what we can do, find ways to move forward to develop 
our region. We have had great success in the last year and a 
half. We still obviously have a way to go and that is what we 
need to be able to do.
    Mr.  Simpson. Well, and I appreciate that. I mean, as I 
said, I am not trying to criticize anything. I am also 
cognizant of the fact that I have been around for a while and I 
have seen how government programs work. And when you talk about 
ending the need for a program, that is a fantasy. That never 
ends. It goes on and it will go on and you will find new needs 
for it. It is just human nature. It is what we do. It is what I 
do in Idaho, you know.
    But I find it kind of fascinating how we kind of select 
areas and decide that we are going to--and it is because of the 
congressmen at the time or the senators at the time that 
establish this. I mean, I have got to tell you, in all honesty, 
the reason that Chairman Hobson used to try to get rid of them 
because he wanted to get rid of the Denali Commission and 
Senator Stevens was chairman of the full Appropriations in the 
Senate and he just wanted to kind of stick him in the side.
    He did not want to get rid of it, but that was--but, you 
know, I came across last year within the Department of Energy 
where at energy sites across the country they can charge what 
are called PILT payments, payment in lieu of taxes, for the 
energy sites. And it is voluntary between the local energy 
department and that site. And in some areas, communities are 
making pretty good money on PILT payments and in others they 
are not even being paid. And I told them this year we are 
either going to do it uniformly or we are not going to do it at 
all because it needs to be fairer.
    And that is kind of what I am looking at here. How do you 
address those same needs that you have and the rest of the 
country, and maybe it is through something like this. Maybe it 
is through something like this nationally, I do not know. But 
it is a discussion that we all ought to have because I will 
tell you that these programs are in danger, I think. In 
reducing times, budgets being reduced in the future, I can see 
the pressure to unfund these programs, essentially take the 
savings out of that. And so we better have a justification for 
them. And you better be able to make that justification to 
Marcy's constituents and to my constituents and the rest of 
this Congress.
    That is really all I----
    Ms.  Kaptur. Thank you, Mr. Chairman. Our chairman is 
someone that one can work with on every issue, but I hear what 
he is saying. And I want to thank you, also, for your 
compelling testimony.
    And as women, I would say, also, you are dealing with some 
of the most intractable issues in terms of economic change. I 
was very impressed, Ms. Collins, with some numbers you provided 
for the region. Appalachia, I mean, just think about this, 
since 2000 has lost, counting manufacturing jobs and coal jobs, 
over 655,000 jobs. Six hundred and fifty-five thousand jobs. 
That is a neutron bomb over a region.
    And I will tell you, we have a struggle here, and the 
chairman puts his finger on it, you know, for regional equity 
and so forth with community adjustment when these massive job 
losses occur. I complained about--I am from northern Ohio, but 
we have Appalachia in southern Ohio, and just to walk through 
some of those communities and to see what they are enduring, 
most people in this Capitol will never get there.
    I just saw the movie ``Hacksaw Ridge'', and I think Desmond 
Doss, he came from Lynchburg, Virginia. And though that is not 
directly in, you know, the states in which you live, I thought 
that is the spirit you were talking about. America really does 
not understand that sometimes.
    And so we do not have a flexible system to target. We do 
not have any program really that deals with this kind of 
economic transformation. I saw where a solar company is going 
to be investing now in I do not know if it is Kentucky or West 
Virginia, I read, for coal adjustment and moving from a coal 
community to a major solar investment. I thought, yeah, okay.
    But we saw them up in auto and steel country. As I sit here 
and listen to you, one of my communities is undergoing hundreds 
and hundreds and hundreds of job terminations because of dumped 
Korean steel and Chinese steel, and we cannot stop it. And it 
is not that the workers there did not try their mightiest, but 
we cannot get the government of the United States to respond 
fast enough to what is occurring there. You know, there will be 
a 2- or 3-year trade proceeding and it will eventually find 
that, yes, in fact, these people were hurt. But by then, they 
are devastated, their communities are devastated, and we do not 
have quickly flexible response mechanisms for economic 
readjustment in many of these places.
    So I guess I would say, Mr. Chairman, in answer to your 
plea, maybe they are representing some of the first ways 
America tried to deal with economic adjustment, but we do not 
have a very good solution.
    Mr.  Simpson. Well, as I said, Marcy, and I agree with your 
comments, it is a tough--and we are voting right now, by the 
way.
    Ms.  Kaptur. Are we? Oh.
    Mr.  Simpson. But it is a difficult issue because I will 
tell you that the lost coal mining jobs in Appalachia region is 
no different than the lost timber jobs in Idaho, and they have 
gone down to where, in my district, we do not have any sawmills 
left. Hell, I am from Idaho, you know. In the other district 
there is not very many sawmills left and there used to be 
sawmills throughout the towns. That was their economic 
development was a sawmill. So the same thing happens in places 
and we have got to find a better way to do it than competing 
against one another.
    But let me tell you, I do appreciate what you do. It is 
necessary and we will continue to work with you, but we need to 
have a broader discussion on how to deal with this.
    So thank you all for being here and thank you for 
testifying today.
    Ms.  Dunahoo. Thank you.
    Mr.  Simpson. You bet.
    Ms.  Dunahoo. Thank you both.
    Mr.  Simpson. The hearing is closed.

                                           Wednesday, May 24, 2017.

   UNITED STATES ARMY CORPS OF ENGINEERS (CIVIL WORKS) AND BUREAU OF 
                              RECLAMATION

                               WITNESSES

DOUG LAMONT, SENIOR OFFICIAL PERFORMING THE DUTIES OF THE ASSISTANT 
    SECRETARY OF THE ARMY (CIVIL WORKS)
LIEUTENANT GENERAL TODD SEMONITE, COMMANDING GENERAL AND CHIEF OF 
    ENGINEERS
SCOTT J. CAMERON, ACTING ASSISTANT SECRETARY FOR WATER AND SCIENCE, 
    DEPARTMENT OF THE INTERIOR
ALAN MIKKELSEN, ACTING COMMISSIONER, BUREAU OF RECLAMATION
    Mr. Simpson. Good morning. This is our first hearing since 
the release of the fiscal year 2018 budget request. Although we 
just received the President's budget yesterday, we begin our 
oversight hearings today.
    As we do every year, we will work to understand what is 
contained within this proposal, and ensure that the fiscal year 
2018 Energy and Water Appropriation Bill provides responsible 
funding for the programs under our jurisdiction. We are here 
today to look at the fiscal year 2018 budget request for the 
Civil Works Program for the U.S. Army Corps of Engineers and 
the Bureau of Reclamation.
    I would like to welcome our witnesses, Doug Lamont, senior 
official performing the duties of the Assistant Secretary of 
the Army for Civil Works; Lieutenant General Todd Semonite, the 
Commanding General and Chief of Engineers; Scott Cameron, the 
Acting Assistant Secretary for Water and Science of the 
Department of Interior; and Alan Mikkelsen, the Acting 
Commissioner for the Bureau of Reclamation.
    The Bureau of Reclamation and Corps' Civil Works Programs 
include a wide variety of water resources and power activities 
essential to the public safety, economic, and environmental 
goals of our Nation. This committee works hard each year to 
build an appropriations bill that provides strong support for 
these programs, and that strikes a good balance across mission 
areas.
    The omnibus included $1.3 billion for the Bureau of 
Reclamation and provided more than $6 billion to the Corps. 
Funding within the Corps met the new Harbor Maintenance Trust 
Fund's targets established under WRDA, and made full use of the 
estimated annual revenue of the Inland Waterway Trust Fund. 
Congress clearly recognizes the importance of both of these 
programs.
    While I was disappointed to see that the budget request has 
proposed to cut the Corps' funding, the good news is that this 
is the better Corps number than we saw during the last several 
years of the Obama administration. I am hopeful that this is an 
indication that this administration recognizes the importance 
of this infrastructure work.
    I look forward to hearing from each of you on this budget 
request and learning more about the priorities included in this 
proposal, and how you plan to address the various challenges 
facing your agencies. Again, I would like to welcome our 
witnesses to the subcommittee. I would ask all of you to please 
ensure that the hearing record, questions for the record, and 
any supporting information requested by the subcommittee are 
delivered in final form to us no later than 4 weeks from the 
time you receive them.
    Members who have additional questions for the record will 
have until the close of business Friday to provide them to the 
subcommittee office.
    With that, I'll turn to Mr. Aguilar for an opening 
statement, if he has one.
    Mr. Aguilar. Thank you, Mr. Chairman. I want to thank the 
witnesses for appearing today. Unfortunately, Ms. Kaptur had 
another obligation. I am happy to be here, looking forward to 
the exchange that we are going to have on these important, 
vital programs, and we will do our best to use the process of 
questions for the record as well for those members who are not 
attending. Thank you so much.
    Mr. Simpson. And let me just say that this is--you are 
going to see members coming in and out today because there are 
several hearings going on in various committees. In fact, I 
have got to step out to ask the Secretary of Education a couple 
of questions when that hearing starts over there for a few 
minutes. So, you will see members coming and going to a variety 
of hearings.
    Mr. Lamont, I understand you are first.
    Mr. Lamont. Good morning, sir. My name is Douglas Lamont. I 
am the senior official performing the duties of the Assistant 
Secretary of the Army for Civil Works. I must say that this has 
been an extraordinary year and I want to apologize to the Chair 
and to the committee for last-minute details on release of the 
President's budget and also on the work plan.
    We will work with the committee. We will work with Chairman 
Simpson here to ensure that General Semonite and I provide you 
the information that you require.
    I want to thank you for the opportunity to present the 
President's budget for Fiscal Year 2018. The Fiscal Year 18's 
Civil Works budget reflects the Administration's priority 
through targeted investments that will reduce the risk of flood 
impacts to communities, facilitate waterborne transportation, 
restore aquatic ecosystems, and support American jobs.
    The budget emphasizes maintaining the water resources 
infrastructure that the Corps owns and manages, and on finding 
innovative ways to rehab it and hand it over to others, or 
retire it. Here are some funding highlights.
    The 2018 Civil Works budget provides $5.002 billion in 
gross discretionary appropriations for the Army Civil Works 
Program, focusing on investments that will yield high economic 
and environmental returns in order to address significant risk 
to public safety. The budget focuses on funding our three major 
mission areas and allocates 42 percent to commercial 
navigation, 20 percent to flood and storm damage reduction 
projects, and 7 percent to aquatic ecosystem restoration.
    Other sound investments include allocating $247 million to 
hydropower, $118 million to clean up sites contaminated during 
the early years of the Nation's nuclear weapons program, and 
$200 million for the Corps' regulatory activities.
    The budget does not propose any new starts, choosing to 
focus instead on advancing ongoing work and maintaining our 
existing infrastructure. It funds 26 feasibility studies to 
completion, and funds one construction project to completion. 
The budget funds inland waterway capital investments of $175 
million for the ongoing work at Olmsted Locks and Dam of which 
$26 million will be derived from the Inland Waterways Trust 
Fund.
    The budget also includes $299 million, including $34 
million for the dam safety remaining item, for the overall dam 
safety program.
    This funding will enable the Corps to evaluate and 
implement effective risk reduction strategies and measures at 
dams where needed. The budget prioritizes funding to operate 
and maintain water resources infrastructure by providing $3.1 
billion in the Operations and Maintenance account, and $142 
million for operation and maintenance in the Mississippi River 
and Tributaries account.
    Funding for maintaining commercial navigation, flood and 
storm damage reduction, and hydropower projects are informed by 
assessments of a risk-based nature on project condition and 
consequences of failure. The budget includes $765 million for 
operation maintenance of inland navigation projects and $654 
million for operation maintenance of flood risk management 
projects, excluding remaining items.
    These funding levels will enable a continued reduction of 
unscheduled lock closure due to preventable mechanical 
breakdowns and reduce risk at flood risk management projects. 
The budget provides $965 million from the Harbor Maintenance 
Trust Fund to maintain coastal channels and related work, which 
is the highest amount ever budgeted.
    The budget supports a Corps program that has a diverse set 
of tools and approaches to working with local communities, 
whether that means funding projects with our cost-sharing 
partners or providing planning assistance and technical 
assistance to help our communities make better informed 
decisions. Other funding Corps efforts include mitigation of 
impacts to fish on the Columbia River Basin, and priority work 
in the Upper Mississippi River and Missouri Rivers.
    I look forward to working with the committee to advance the 
Corps' Army Civil Works Program. Thank you, sir.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Mr. Simpson. Thank you. Lieutenant General.
    General Semonite. Chairman Simpson, Ranking Member Kaptur, 
and distinguished members of the subcommittee, I am Lieutenant 
General Todd Semonite, Commanding General of the Corps of 
Engineers and 54th Chief of Engineers. I am honored to be here 
today accompanied by Mr. Lamont to provide testimony on the 
President's fiscal year 2018 budget for the Civil Works Program 
for the United States Army Corps of Engineers.
    I have been in command of the Corps for just over a year, 
and I continue to be amazed by the breadth and complexity of 
the Civil Works Program, as well as the expertise and 
dedication of the professionals that work in our organization. 
While this is my first time appearing before this subcommittee, 
I have had the opportunity to work with a number of you 
individually, and I look forward to continuing to build our 
relationship during my tenure as Chief of Engineers.
    It is my belief that the credibility of the Corps is 
measured by our ability to deliver results that are on time, on 
budget, and of exceptional quality. To do this and to maintain 
our status as a world-class organization now and into the 
future we are focusing on three fundamentals we call strengthen 
our foundation, deliver the program, and achieve our vision.
    I want to give you some highlights of my fundamentals.
    First, as with any structure, our foundation must be our 
strength, the bedrock upon which our present rests and our 
future is built. For the Corps, this means having the 
discipline to accomplish routine tasks to a high standard. It 
means demonstrating that we are reliable and competent 
partners, assisting in shared efforts to be responsible 
stewards of the Nation's water resources.
    We are committed to transform our processes, invest in the 
technical competency of our most valued asset, and that is our 
people, and to be collaborative and transparent. Our strength 
is validated by earning trust in all we do, by demonstrating 
technical expertise, competence, and professionalism across our 
organization.
    We earn our credibility, our reputation, and our value by 
delivering the program, our second big fundamental. This is our 
lifeblood. This is our passion. This is our mission and this is 
our number one priority. In all that we do we strive to ensure 
that cost, timelines, and expected quality are understood 
upfront and successfully accomplished in the end.
    And finally, in order to achieve our vision, we endeavor to 
anticipate the conditions, challenges, and opportunities in an 
uncertain future by taking prudent, logical, and decisive steps 
today to prepare. We do this by implementing strategic 
transformation within the Corps, continually pursuing four 
goals outlined within our campaign plan, and an aim point of 
2025.
    Our first campaign goal is to continue to work across the 
globe with a presence in more than 100 countries supporting 
national security and the combatant commanders in civil works, 
military missions, and water resource research and development 
expertise.
    We are proud to serve this great Nation and our fellow 
citizens, and we are proud of the work the Corps does to be 
able to support America's foreign policy.
    Our second major goal is to continue to work at making the 
Corps more efficient and effective while delivering integrated 
water resource solutions for national missions and to address 
infrastructure challenges. This involves modernizing the 
project planning process, enhancing budget development for a 
more holistic outcome, and making better risk-informed 
investment decisions, as well as improving delivery 
methodology.
    Our third major goal is to continue to be proactive in 
reducing disaster risk and responding to disasters under the 
national response and recovery support framework, as well as 
within our authorities for flood risk management. I am very 
proud of our team for the work we do with FEMA and our fellow 
partners, as well as with State and local agencies in this 
area.
    And our fourth and final goal is preparing for tomorrow, 
which focuses on our people and ensuring we have a pipeline of 
the best engineering and technical expertise, as well as a 
strong workforce development and talent management program. We 
continue to tailor development programs to employ aspirations, 
to retain talent, and insulate culture that embraces a career 
of service.
    In closing, I would offer that our excellence demands 
commitment of every Corps employee. As Chief of Engineers I am 
striving to develop what General Shinseki, former Army Chief of 
Staff, called irreversible momentum towards being a world-class 
organization.
    World class means that the Corps must continue to be able 
to engineer solutions for the Nation's toughest challenge. That 
is our vision. You have my commitment that the teammates of the 
Corps have a passion to achieve that vision. Thank you for 
allowing me the time to be able to address the committee today.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Simpson. Thank you. Mr. Cameron.
    Mr. Cameron. Thank you, Mr. Chairman, members of the 
subcommittee. I am pleased to discuss with you today the 
President's budget request, the Bureau of Reclamation, and the 
Central Utah Project Completion Act. My name is Scott Cameron. 
I'm the Acting Assistant Secretary of the Interior for Water 
and Science.
    Secretary Zinke appreciates the subcommittee's ongoing 
support of our programs. The overall Department of the 
Interior's 2018 budget request is $11.7 billion, which 
emphasizes Interior's crucial role in promoting economic growth 
across America while also protecting the Nation's natural 
resources and cultural heritage, furthering the America First 
national energy goals, providing scientific information for 
responsibly managing our resources and energy development, and 
honoring our trust responsibility to Native American Tribes.
    The Department's diverse mission affects the lives of all 
Americans. For example, in 2016, Interior's programs were 
associated with an estimated $250 billion in economic output, 
and supported 1.6 million jobs and activities that included 
outdoor recreation and tourism, energy development, grazing, 
and timber harvesting.
    The Bureau of Reclamation's activities, including 
recreation, contribute over $48.1 billion in economic activity 
and support over 388,000 jobs each year. The Department, 
primarily through the Bureau of Reclamation, works with States, 
Tribes, local governments, and nongovernmental organizations to 
pursue a sustainable water supply for the West by providing 
Federal leadership and assistance on the efficient use of 
water.
    The 2018 budget continues these efforts to address the 
challenges of water availability. Interior's $1.1 billion 
budget request for Reclamation invests in our water and power 
infrastructure, facilitating the delivery of water to 31 
million people in the West.
    In addition, our programs focus on the protection and 
restoration of aquatic and riparian environments influenced by 
our facilities and operations. It is critical that Reclamation 
continues to invest in ecosystem restoration if we are to 
continue to supply water and power reliably.
    This budget also continues to strengthen our Tribal Nations 
by implementing Indian water rights settlements. We are 
proposing that Reclamation invest $151 million in Fiscal Year 
2018 toward fulfillment of this Indian trust responsibility.
    These activities include projects and actions to implement 
Indian water rights settlements, provide technical assistance 
to Tribes, and for ecosystem restoration.
    Interior's budget furthers our commitment to developing 
domestic energy resources in order to make America stronger and 
boost the Nation's economy. Hydropower is a renewable and 
reliable resource providing clean energy to the Western United 
States. It is the Nation's largest renewable energy resource, 
and the Bureau of Reclamation is the second largest producer of 
hydropower in the United States, second only to my colleagues 
to my right.
    We support the President's effort to create a leaner, more 
efficient government, and the Bureau of Reclamation will be 
actively involved in bringing forward the most promising ideas 
to improve government effectiveness and efficiency, and to spur 
economic growth.
    For example, Reclamation is developing a legislative 
proposal to facilitate the transfer of title of certain 
Reclamation projects and facilities when such transfers are 
beneficial to all parties. While Reclamation has engaged in 
efforts related to title transfer in the past on a case-by-case 
basis, this broader initiative will go further to facilitate 
greater local control of water infrastructure to allow local 
water managers to make their own decisions to improve water 
management at the local level while allowing Reclamation to 
focus management efforts on larger projects with a greater 
Federal nexus.
    As part of this effort, Reclamation will engage with water 
users to identify projects and facilities that may be good 
candidates for such a transfer.
    Finally, Interior's budget request includes the Central 
Utah Project Completion Act Office, which falls under the 
direct jurisdiction of the Assistant Secretary for Water and 
Science at the direction of Congress a number of years ago. The 
2018 budget for this office is $9 million.
    Of this amount, $4.8 million will be available for planning 
and construction activities administered by the Central Utah 
Water Conservancy District, continuing our partnership and the 
ongoing construction of the Utah Lake System's facilities.
    In addition, about $900,000 will be transferred to the Utah 
Reclamation, Mitigation, and Conservation account for use by 
the Utah Reclamation, Mitigation, and Conservation Commission. 
The 2018 budget also includes Interior's required program 
oversight activities and Endangered Species Recovery Program 
implementation through the Department's CUPCA Office.
    The Central Utah Project provides 62,000 acre feet of water 
for irrigation of over 30,000 acres, and 100,000 acre feet for 
municipal and industrial purposes. This water will help address 
the water demands of the growing population in the Wasatch 
Front, one of the fastest growing areas in the Nation.
    Thank you, again, for the opportunity to explain the 
President's budget request of the Bureau of Reclamation. I 
would be pleased to answer any questions the subcommittee might 
have at the appropriate time.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Mikkelsen. Thank you, Mr. Chairman, ranking members, 
and members of the subcommittee for the opportunity to discuss 
with you the President's budget for the Bureau of Reclamation. 
I am Acting Commissioner Alan Mikkelsen. Reclamation's Fiscal 
Year 2018 budget allocates funds to projects and programs based 
on objective, performance-based criteria. This allows us to 
most effectively administer Reclamation's responsibilities for 
our water and power infrastructure in the West. By doing so, 
the Bureau has become a leader in efforts to improve Western 
water management, confront growing imbalances in water supply 
and demand, and address past environmental harms.
    Our budget continues to emphasize the following principles. 
First, shared responsibility through collaborative partnerships 
with non-federal partners. Second, merit-based funding through 
the awarding of grants and contracts based on published 
criteria. The selection of awards is guided by high-quality, 
evidence-based research and performance measures. And third, 
the importance of increased storage capacity. The Bureau 
recognizes the important goal of increasing and improving 
storage where it is both feasible and where there is 
significant stakeholder support.
    Let me take a moment to provide you with an understanding 
of some of the exciting projects that we have under way. In our 
Great Plains Region, home to Representatives Fortenberry and 
Granger, we continue collaborating with our stakeholders to 
manage, develop, and protect water resources throughout the 
region, including the development of several rural water 
systems. Reclamation is also coordinating with numerous local 
entities to improve drought resiliency.
    In the Upper Colorado Region, we request funding for two 
Indian water rights settlement projects: the Navajo-Gallup 
Water Supply Project and the Aamodt Litigation Settlement. 
These settlements provide permanent water supplies by building 
and improving water systems for sustainable municipal, 
industrial, and domestic water supplies in these communities. 
Of course the Upper Colorado is the home of Glen Canyon Dam and 
beautiful Lake Powell.
    The Lower Colorado Region encompasses the Lower Colorado 
River Basin and is home to the Hoover Dam and includes the 
districts of Representatives Calvert, Roybal-Allard, and Mr. 
Aguilar. Given the ongoing drought in the Southwest, the 
priority focus here is the annual delivery of 7\1/2\ million 
acre feet of water to California, Arizona, and Nevada, with 
another 1.5 million acre feet to Mexico.
    Nearly 80 percent of this region's budget is either paid 
for directly by our partners or through the sale of hydropower 
generation. In addition to struggling with the worst drought in 
more than 100 years, the region is also looking at additional 
ways to assist California with their implementation of other 
important water irrigation and conservation initiatives.
    The Mid-Pacific Region has suffered from its own unique set 
of drought-related problems. Recent precipitation has 
alleviated some of the emergency water supply issues, but one 
good year, I want to emphasize, will not solve all problems 
related to a multiyear drought. Additionally, recent heavy 
rains have caused flooding concerns and have highlighted the 
importance of maintaining Reclamation's infrastructure and 
continuing feasibility studies for additional storage. The 
region works with a diverse group of stakeholders to implement 
water management solutions with a goal of balancing human and 
environmental needs for water.
    Finally there is the Pacific Northwest Region, home to 
Grand Coulee Dam, one of the largest hydropower facilities in 
the world. In addition to yourself, Mr. Chairman, this region 
is represented by Representatives Herrera Beutler and Mr. 
Newhouse. Our focus here for the coming year will be on the 
Boise River Feasibility Study. That research is designed to 
increase storage opportunities at the Anderson Ranch, Arrow 
Rock, and Lucky Peak Dams. It will guide us as we continue 
construction of the Cle Elum fish passage as part of the larger 
Yakima integrated plan. We will continue with the design and 
implementation activities at the Lewiston Orchards Water 
Exchange.
    And finally, we will implement multiple biological opinion 
actions as part of the Columbia and Snake River salmon recovery 
programs operating under the Federal Columbia River power 
system.
    2018 promises to be another exciting year for Reclamation. 
I again thank the committee and am prepared to answer any 
questions you may have about the Bureau's Fiscal Year 2018 
budget request. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Simpson. Thank you all for your testimony and, again, 
thank you for being here today. Just to get a bit of 
housekeeping out of the way, first, Mr. Lamont, can you tell 
the committee when we can expect to receive the fiscal year 
2018 budget justification materials, including the J sheets?
    Mr. Lamont. Yes, Mr. Chairman. We are working diligently to 
get those to you as soon as possible. I regret that we are in a 
position that we have not been able to get them to you. We are 
working diligently with the Corps and with my staff and 
obviously with the Administration to get these cleared and get 
them to you as soon as possible. You have my commitment to do 
that.
    Mr. Simpson. Any idea what length of time we are looking 
at?
    Mr. Lamont. We are hoping, if you will allow us, to provide 
you the first batch next week.
    Mr. Simpson. Okay, thank you. For both the Corps and the 
Bureau, the Trump administration as well as the former Obama 
administration has promoted alternative financing as a tool for 
infrastructure development. This committee has been supportive 
of exploring this option but has also made it clear that 
Federal policies should be fair and equitable. We should not 
operate a system whereby a wealthy non-Federal sponsor receives 
a disproportionate share of Federal assistance.
    For all four of you, do you agree that we should avoid 
policies that allow non-Federal sponsors to buy their way to 
the front of the Federal funding line and how have your 
agencies been taking these equity concerns into consideration 
as you explore alternative financing options? Go ahead.
    Mr. Lamont. Mr. Chairman, I will take that first. Clearly, 
with constrained Federal resources we are looking at every 
opportunity to partner in a cost-shared environment not only 
with our studies but obviously with our construction program. 
There is no preferential treatment to the project sponsors that 
may have resources that others may not have. We want to make 
sure that we are looking clearly at the need for the project 
and that we can defend it in addition to economics, but also 
from a public safety and health standpoint.
    General Semonite. Mr. Chairman, I will just add that the 
fiscal year 2017 appropriations bill specifically says that we 
need policy in this area. We are a big advocate of P3s; we 
think there is a lot of merit here. On the other hand, we would 
like to be able to make sure that we understand what those 
rules are and how do we do this in the right way to avoid 
exactly what you are asking. So right now we are working with 
Mr. Lamont's office, to continue to be able to figure out how 
can we put some policy in effect. That language was very 
specific. Other than Fargo Moorhead, we are basically on a hold 
right now until that policy is done and we would like to work 
throughout the Administration and with your staff to continue 
to figure out what should that policy look like.
    Mr. Simpson. Appreciate that.
    Mr. Cameron. Mr. Chairman, fundamentally, it is the 
technical and economic viability of a project they need to 
control, so we look at those aspects certainly first and 
foremost. We are also, much like the Corps, promoting public-
private partnerships (P3). In fact, on May 9 in Denver, we held 
a daylong session with an overflow crowd of I think more than 
200 individuals from a wide variety of sectors, who are 
interested in having conversations with us about public-private 
partnerships and, you know, we look forward to leveraging 
everyone's dollars to move forward on good projects for the 
country.
    Mr. Mikkelsen. And as part of the P3 conference that we 
held in Denver, in conversations with people on sidebars, we 
also came to the understanding and realization that we have 
some folks out there, like you are talking about, that have 
access to private financing. And we would like to actually 
promote those opportunities for those particular people as much 
as possible so it actually frees money up for those people who 
may not have those same income streams or those opportunities 
for financing.
    Mr. Simpson. Thank you. And I agree with you, General. We 
need to develop a policy in this area because otherwise, while 
I am very supportive of P3s and attracting private funding to 
some of these opportunities and for infrastructure projects and 
stuff like that, if the people that have those resources 
available move to the front of the line, it would be 
devastating I think across the country and a bad policy. So we 
need to sit down and figure out how we are going to do this and 
how we are going to include that, those opportunities.
    For the Corps, over the past several years the committee 
has worked to increase funding for the Corps to supplement 
inadequate budget requests. Congressional intent has been for 
the agency to use these funds for additional work in the year 
provided on a broad array of projects, not to forward fund 
fiscal--figure fiscal year needs of a limited number of 
projects. Do you expect to make any allocations of the fiscal 
year 2017 funds that will not be obligated by the end of this 
year?
    Mr. Lamont. Mr. Chairman, we have been putting together the 
work plan. We are looking at what we could obligate and what we 
could do for the remainder of the fiscal year. There is the 
possibility there could be funds that could slip into the next 
fiscal year, but that was not our intent, to focus on 
prefunding, if you will, for '18.
    Mr. Simpson. But you were going to try to use those funds 
in this fiscal year to the extent you can?
    Mr. Lamont. Yes, sir.
    Mr. Simpson. Okay. As you are all well aware, invasive 
species can cause significant economic and environmental 
damage. In the Western United States, the spread of quagga and 
zebra mussels are of particular concern. Can you please discuss 
the ongoing efforts at each agency to address the concerns and 
prevent the spread of these invasive species?
    Mr. Cameron. I will start off from the Interior 
Department's perspective. Secretary Zinke is very personally 
aware, given his own experience in Montana, of the risk of 
invasive species, both aquatic such as zebra and quagga mussels 
while also forest insect pests and in rangelands weeds as well.
    We, early in the Administration, heard from Governor Otter 
in Idaho expressing his great concern about the Columbia River 
Basin potentially being infected by zebra and quagga mussels. 
We have been working very closely with the Western Governors 
Association and those Pacific Northwest governors' offices to 
cooperate with the Corps, with our sister Federal agencies, and 
with the State governments in an effort to keep zebra and 
quagga mussels out of the Columbia River Basin.
    Regional estimates are that it would represent about a 
half-a-billion-dollar annual hit to the Pacific Northwest 
economy, on par with the damage that they have done in the 
Great Lakes where zebra and quagga mussels fully infest the 
region. The Secretary is one of the three co-chairs of the 
National Invasive Species Council along with the Secretary of 
Agriculture and the Secretary of Commerce.
    We actually plan on having the first meeting in a decade of 
the National Invasive Species Council in conjunction with the 
Western Governors Association meeting in Whitefish, Montana, on 
June 28, to talk about regional efforts in collaboration. More 
specifically, the Bureau of Reclamation's budget includes a 
four-and-a-half-million-dollar increase to try to protect the 
Columbia River Basin, realizing that some of the best ways to 
do that are to keep the mussels from moving north out of Lake 
Mead or Lake Powell or Lake Havasu, for instance.
    So the Department's budget as a whole exceeds $100 million 
for invasive species. We recognize that it is a significant 
ecological issue. More than 40 percent of our endangered 
species are endangered because some invasive has done something 
to them, for instance.
    So I appreciate the question, Mr. Simpson, and look forward 
to working with you and all members of the subcommittee to 
address this significant national problem.
    General Semonite. Chairman Simpson, really the accolades 
here go to the Department of Interior and the States for the 
great work we have done. We are just in support and this is 
mainly a program for watercraft inspection. Last year we had 
$3.75 million in it. This year there is $5 million to be able 
to make sure that we have water inspection stations in the 
States of Idaho, Montana, Washington, Wyoming, and Oregon. 
Those stations are up and running. The first one turned on in 
February. They came on from March to May, and this is the 
ability to be able to get down and check the boats and be able 
to make sure that we are doing every single thing preventative 
we can so we do not have a problem down the road. We do not see 
any problems. We are very, very strong supporters of that 
program.
    Mr. Simpson. We do have, those are inspection stations, but 
we do have the wash stations installed and so forth at Lake 
Mead and----
    General Semonite. Yes, sir.
    Mr. Simpson. Okay. Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman. General, you talked 
in your testimony about modernization and I wanted to shift a 
little bit to some local permitting. Any modification, as you 
know, to facilities constructed by the Corps requires a 408 
permit. The county I live in, San Bernardino County, currently 
has thirty 408 permits submitted to the Corps. The vast 
majority of these are related to projects from cities and 
developers such as storm drain connections, bridge widening, 
utility lines. That has taken serval months for these permits.
    What type of thought can the Corps give to streamlining the 
process and making it a little bit more simpler for something 
like a storm drain connection that was planned in the design of 
the facility?
    General Semonite. Representative Aguilar, great question. 
We are committed to try to figure out how we can continue to 
push delegations down to be able to streamline this more. The 
challenge you have if you push everything down to the lowest 
level, there is some chance that you might have people making 
different decisions and we could be accused of not necessarily 
being consistent. If you retain everything at the highest 
level, then obviously everything is going to take an awful long 
time. So where is the sweet spot of how much you delegate down?
    Right now we have five major issues we look at in 408s. We 
have already delegated three of those back down to either 
Division Commanders or District Commanders, and our staff is 
committed to continue to figure out where else can we continue 
to delegate. We also have a special focus now on how long does 
it take to do some of those 408s. Some, as you might imagine, 
might have national precedent, so those are the ones we have to 
keep at Headquarters, but you have my commitment to continue to 
look across the board on how we can empower, delegate, and set 
up our subordinates to be able to work this faster, not just in 
408s, but the entire regulatory program. Our regulations and 
our permitting are taking too long and we have got to figure 
out how to continue to be able to support the taxpayers of 
getting those decisions earlier.
    Mr. Aguilar. When it comes to 404 permits for you or Mr. 
Lamont, has the Corps looked at exempting maintenance work on 
constructed facilities that are maintained by local agencies 
needing 404s as identified as necessary during Corps inspection 
process?
    General Semonite. Sir, I do not know the exact answer to 
that, but I would love to get with you and figure out exactly 
where that applies and then come back and have my team lay out 
the 404 process. The 404s are other ones we are looking at 
continuing to try to expedite, but I am not sure exactly the 
cause of your question and I want to make sure I get you a good 
answer.
    Mr. Aguilar. We can put some more detail and submit it to 
you as well.
    General Semonite. Sounds great, sir.
    Mr. Aguilar. For everyone. Many of the Western States have 
experienced extreme swings in precipitation recently from 
severe droughts in the past few years to above average rainfall 
and snowpack. How does this extreme shift in precipitation 
affect Corps and Reclamation projects and how have your 
agencies responded to these circumstances and the funding 
implications based on that weather?
    Mr. Cameron. I will take the first shot at that. So there 
is great deal of regional variability. As you know, Mr. 
Aguilar, California got a lot of rain this winter. 
Unfortunately, most of that rain went into the Pacific Ocean. 
So one of the things that we are talking with the State of 
California very aggressively about is exploring opportunities 
for new storage, so that if we are lucky enough in future years 
to have a wet, rainy winter, we can store more of that water so 
that it is available for California cities and California's 
farmers during the summer.
    In the Colorado Basin, we had a good snowy winter in the 
northern part of the basin. However, we still have drought 
conditions in the Colorado and we are working very closely with 
all the Colorado Basin States on a drought contingency plan, 
realizing that we cannot assume that next winter will be as 
snowy in the Rockies as this winter. And it is really important 
for all the States and the Federal Government to coordinate and 
move ahead aggressively, domestically and with Mexico, on the 
drought contingency plan.
    General Semonite. And, sir, let me follow up on Mr. 
Cameron's answer. Really three things we are looking at: 
extreme rainfall, sea level rise, and prolonged droughts. What 
that is really causing, is for us to be able to go back and 
look at what are the historic trends. What are we doing to look 
at our predictive models that are out there and how do we 
utilize policy tools to be able to make sure that we can 
continue to be informed to put operational solutions in?
    We have the ability to be able to do short- or long-term 
deviations as to how to operate these big systems. We have what 
is called a Water Control Manual for basically any big river 
system. We have, you know, very, very deliberate processes for 
how much water do you let in and out. But exactly what Mr. 
Cameron said, we must be adaptive to a degree to figure out how 
can we optimize the ability to be able to take care of water 
that we do have and continue to be flexible. And if we are so 
locked into a bureaucracy that says do not change because it is 
too hard to do that, we must continue to be able to make sure 
we are responsive based on the needs of the climate conditions.
    Mr. Aguilar. And, Mr. Chairman, if I could, one year of or 
a good winter of rain and snow does not necessarily alleviate 
all of our concerns following some of the worst drought that we 
have seen in about 160 years. As of mid-May, Lake Mead was 136 
feet below full pool and is just under 40 percent full and over 
the last 10 years its averaged 1,100 feet elevation and it is 
20 feet below that right now. That is only 5 feet above our 
trigger point where we have to start taking actions on our 
drought contingency plan.
    Lake Powell is also suffering. It rests at just under 3,600 
feet which is 108 feet below full pool. So we are not, we are 
definitely not, out of the drought cycle or situation, 
particularly in the Colorado River.
    Mr. Aguilar. Thank you. Thank you, Mr. Chairman.
    Mr. Fleischmann. Thank you, sir. Wish to thank each and 
every one of the panelists today for your testimony. And 
General Semonite, I thank you so much for your vocal support 
for critical projects like the Chickamauga Lock, which is in 
district, and for visiting with me personally and for your 
commitment. As a matter of fact, I believe you have actually 
visited the Chick Lock, so I thank you for stepping up in a 
very short period of time of this prioritization.
    If I may, sir, Chickamauga Lock is a very important 
project. It is an integral component of the inland waterways 
system and it would keep 150,000 trucks off of our roads, keep 
the cost of shipping of goods low for the many businesses that 
rely on it, and it is, of course, a very environmentally sound 
and safe inland waterway transport system that it would 
support. While I am excited about the ongoing work, I think we 
have received funds I believe over the past 3 years and I have 
actually witnessed the progress at new Chick Lock, I am 
concerned that the fiscal '18 budget does not include full 
funding for the inland waterway trust fund and the funding 
would be limited to the Olmsted project in Ohio. That means the 
Chick Lock is not currently slated to receive the critical 
funding needed to build on the current momentum. Please explain 
if you will, sir, the reasoning behind the amount allocated for 
these projects, sir.
    Mr. Lamont. Mr. Fleischmann, I will be happy to take that 
question.
    Mr. Fleischmann. Yes, sir.
    Mr. Lamont. I had the opportunity back in late February to 
actually visit Chickamauga Lock myself. And I understand, as a 
professional engineer, the situation there, basically a concern 
with the aging in infrastructure; I think that typifies it 
around the Nation.
    To be frank with you, sir, in formulating the President's 
budget, what we were looking at is the high-performing broad 
projects, which basically comes down to the benefit-cost ratio 
being 2.5-to-1 or greater at a 7 percent discount rate. And 
that has been the criterion within this Administration and 
prior Administrations.
    And I would say that it is not only the economics, but I 
alluded to this earlier with Chairman Simpson, we would need to 
look at, with each individual case, the condition of the 
infrastructure and whether there is imminent danger or failure, 
for example.
    So, that is the one message I want to deliver, is that it 
is not based purely on economics, but we would also look, I am 
talking globally of our infrastructure in the Corps of 
Engineers, if there is any imminent failure, we want to make 
sure that we are funded to do the proper rehab.
    Mr. Fleischmann. Yes, sir. And I am sure you are aware the 
existing lock is an older, antiquated New Deal structure, and 
it has had some failures. Actually the Corps has done a very 
good job in maintaining that. It is like a sick patient. So, I 
look forward to working with the Corps towards getting a new 
Chick Lock completed hopefully by 2022 or 2023, and we look 
forward to working together with you.
    Mr. Lamont. Yes, sir. I witnessed the deflections with the 
miter gate and I saw the post-tensioning 10 feet apart, and 
that is pretty significant. I agree with you.
    Mr. Fleischmann. Yes, sir. Yes, sir. One follow-up 
question. I believe one of the reasons it is important that we 
return to regular order is to provide certainty for critical 
infrastructure projects, such as the Chickamauga Lock. My 
question, and either one of the gentlemen can answer this, will 
the Corps be able to release the funds in time for fiscal '17, 
so that projects like Chick will be able to provide funds 
before the contract runs out?
    Mr. Lamont. Yes, sir.
    Mr. Fleischmann. Thank you. I appreciate that. At this time 
I would like to recognize, Mr. Joyce, the gentleman from Ohio, 
5 minutes.
    Mr. Joyce. Thank you, Mr. Chairman. Mr. Lamont and General 
Semonite, thank you for being here. I have a few questions 
pertaining to the dredging issue in Northeast Ohio. By way of 
background, the maintenance of the Cleveland Harbor, which 
includes the Cuyahoga River shipping channel, is vital to 
Ohio's and Cleveland's economy and many thousands of good-
paying jobs. As is the case at other ports on the Great Lakes, 
dredged sediment in Cleveland has been placed upland for 
reasons of sediment quality.
    That has been the practice for decades. More recent 
developments include the enactment of the State of Ohio law, 
which prohibits the placement of dredge material in Lake Erie, 
effective in 2020. The State's findings that the dredged 
sediment does not meet State water quality standards and would 
harm the fishing industry by raising PCB levels in fish, the 
judgment opinion and order of the U.S. District Court judge in 
favor of the State's position with respect to fiscal year 2015 
dredging, successful efforts by the port to maintain confined 
disposal facility capacity, and the enactment of Section 1189 
in WRDA 2016, pertaining to the Federal standard.
    Given all of this, I feel strongly that the Army Corps 
should work with principal stakeholders to craft a long-term 
solution for upland placement and sediment reuse whenever 
possible.
    First of all, the fiscal year 2017 funding level for the 
Cleveland Harbor is 5.85 million. I see the recently released 
Civil Works budget calls for 6.2 million for operation and 
maintenance of the Cleveland Harbor. Is that sufficient funding 
to dredge the Cleveland shipping channel and complete the 
upland placement of the dredged material this year?
    General Semonite. Sir, first of all, I agree with you, we 
definitely need a long-term solution. We cannot continue to be 
able to work this way and let the courts make these decisions. 
We must be able to bring all the people together to figure out 
what is in the best interest of both the State and the Federal 
standard.
    As you know, there is a decision out there. The Corps has 
not finalized a decision as to what we are going to do with 
respect to the judge's decision in May. We are still working 
with the Department of Justice as to what exactly our position 
is going to be. Once we determine that, then we will have to 
figure out what the bill is that will be incurred, and then how 
are we going to be able to care of that bill?
    Right now in the '17 budget and the '18 budget we have not 
budgeted money for the judge's decision. We will have to go 
back in and figure out what happens based on how the Department 
of Justice and the Corps' litigation continues to play out.
    I have been on the ground, I have a General Officer now 
down there working every couple weeks with the district, to get 
with the port to be able to make sure we can figure out what is 
in the best interest of the Federal Government and the State 
government in order to meet those requirements and to be able 
to continue to be able to work this out.
    The challenge we could have is that if, in fact, we have a 
higher standard, that is going to cost more money. Right now 
the normal way we dispose of dredged material in the Cleveland 
Harbor costs $9 a cubic foot. If we were to go to an upland 
placement across the board, the cost is $21. So it is more than 
twice the amount. We are trying to make sure that we are doing 
what the Federal regulations require, and so, therefore, do not 
impose additional costs back on the taxpayers. We are committed 
to continue to work with you and your team, so to be able to 
find a consensus here.
    Mr. Joyce. I appreciate that, but the court order was 
fairly clear, was it not?
    General Semonite. Sir, and again, this is where we have to 
figure out what we are going to do with respect to the court 
order. We have not made that decision yet.
    Mr. Joyce. Again, the court order was fairly clear. Was it 
not, General?
    General Semonite. It was with specific respect to Cleveland 
Harbor for the fiscal 2015 dredging year.
    Mr. Joyce. Okay.
    General Semonite. It only was a very, very targeted 
decision.
    Mr. Joyce. I appreciate that, because it was a limited 
issue at that time that the court had to consider.
    Second, I recall that when dredging finally got started 
last December, only a portion was completed before the weather 
and equipment brought a halt to the dredging, which finally 
resumed earlier this spring. What is the timeline for 
completing the dredging of the Cleveland shipping channel this 
year?
    General Semonite. Congressman, I can get back to you with 
specific details, but my staff has told me that we will meet 
the December dredging timelines, and we should be able to make 
the standard that we have communicated to the port that we will 
continue to come through and have that dredging done by 
December.
    Mr. Joyce. Finally, the most recent surveying by the Corps 
reveals that significantly more sediment will need to be 
dredged from the river than was anticipated last year. How does 
the Corps plan to manage the increased load in terms of 
funding, the actual mechanical dredging process, as well as the 
CDF storage site?
    General Semonite. As far as additional funding, if it is 
the same standard, we will be able to accommodate that in our 
budget. The challenge will occur if, in fact, there is a higher 
standard where everything will have to be placed upland. And so 
I really want to come and work with you to be able to tell you 
exactly what our numbers are. I have no interest in holding 
anything back. We will lay this out to you so you know exactly 
where we are.
    And a lot of it goes back to the standard that we are 
applying, which is an EPA and Corps of Engineers Federal 
standard as to where things should be placed. And that is what 
we utilize.
    Mr. Joyce. Well, I appreciate that. And somewhere in the 
city right now is the CEO of ArcelorMittal, and they cannot be 
held hostage because they cannot get the ships down to the----
    General Semonite. Sir, that is never the intent. We are 
certainly not going to hold that up.
    Mr. Joyce. I appreciate that, and I am not saying you are, 
but, while there is a feud between governmental agencies, they 
still have, people working and steel to be produced, which is 
very important activity for the United States.
    General Semonite. Congressman, the dredging will happen. 
The question is, where does that dredge material go? That is 
the only issue. So the people that are using that channel are 
certainly not going to be held hostage. We will commit to 
ensure that we are dredging on our timelines, unless there is 
some natural reason why we cannot dredge.
    Mr. Joyce. Great.
    General Semonite. We owe that to you, and the shipping 
industry has to have some predictability. It is certainly not 
our intention to cause any kind of confusion that would not 
allow that predictability.
    Mr. Joyce. I am not saying you are trying to cause any 
confusion, I am just trying to clear this up, because 
governmental agencies should not be the cause of any of these 
problems.
    General Semonite. Yes, sir.
    Mr. Joyce. We need to have everybody work in concert. That 
is why we have the GLRI, which under Chairman Calvert's 
authority does so well at making all of the agencies work 
together.
    I see I am out of time, Mr. Chairman. I apologize.
    Mr. Fleischmann. Thank you. The gentleman yields back. I 
recognize Ms. Herrera Beutler for 5 minutes.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. All right, 
this is more specifically for you, General, with regard to 
biological opinion. Recent district court decisions have 
significant implications for the Columbia River Federal Power 
System, affecting my district and actually Mr. Newhouse's and 
others here.
    Could you, please, discuss briefly the status of the court 
ordered buy-up for the Columbia River Federal Power System, and 
what are the funding implications of this court order?
    I also have a follow up about NEPA and additional spill to 
get in here. If you would like I could give them now, and you 
could hit it all at once.
    General Semonite. No, if you want to give me your second 
question first, then I will answer the other one.
    Ms. Herrera Beutler. The District court order directed a 
comprehensive environmental review of the operations related to 
the system. The court and reclamation, along with BPA, are co-
leads on this environmental impact statement process. Can you 
please describe the current status of the effort, the expected 
schedule for major milestones, as well as funding requirements 
for each agency?
    General Semonite. We just closed the comment period. All 
three agencies are working very, very well together. We 
received over 400,000 comments, so what we are continuing to 
work through that judge's order to be able to make sure that we 
are transparent and we are taking all those pieces back in.
    I do not have the exact date here, and I will find it in a 
minute. I think we are right on schedule; it was going to be 
the end of June of '17, to be able to continue to get a 
preliminary investigation, and then I think it is December 17 
for the final investigation. I will double check and make sure 
I get you exactly the update of that status.
    Ms. Herrera Beutler. And let us see, spill, additional 
spill. The court recently ruled on a motion for injunctive 
relief ordering the agencies to work with the plaintiffs to 
develop a plan to implement increased spill in 2018. Can you 
please provide an update on activities to date? Are there 
concerns, and what is being done and what can be done to 
alleviate this issue? And do you know what funding will be 
necessary to implement these efforts?
    General Semonite. And Congresswoman, I am not aware of that 
one, so I am going to have to get back with you on exactly the 
details of that specific issue.
    Ms. Herrera Beutler. Well, I mean, it is pretty--the 
injunctive relief motion was somewhat recent, but it is pretty 
critical for talking about spring 2018. So, yes, I would love 
to have an update on that.
    I mean, we spill a lot as a region. Ratepayers pay a lot to 
protect those wild runs, but we also expect to rely on that 
power, and protecting that access and that resource is very 
important to the folks and me, in the region. I still have a 
couple minutes, so I am going to move on.
    Earlier this year, and this is for you, General--you are 
really important to our way of life as you have noticed; we pay 
a lot of attention to you all--the District Court ordered to 
develop a process and a schedule for sharing information on 
planned capital projects at the four Lower Snake River Dams, in 
case plaintiffs wanted to file to stop these projects while the 
NEPA review of operations of the power system is ongoing.
    Mr. Lamont, this could go for either of you. Has the Corps 
developed this process, and has the court approved it? If so, 
please briefly describe what would be required of the Corps.
    Mr. Lamont. Congresswoman, as General Semonite has 
indicated, I do not want to misspeak on this one. What we would 
like to do is work with your staff and understand the concern a 
little better, and we will get back to your staff immediately.
    General Semonite. We are definitely very aware of the 
decisions. The Lower Four Snake Dams: we are tracking exactly 
what we need to do to be able to lay out what the future 
conditions of those dams could be. But as to the spill and some 
of the other issues, I would much rather come and give you 
exactly where we are on this and lay this out to you and your 
staff in great detail.
    Ms. Herrera Beutler. I would appreciate that, in part 
because we have seen this movie before with regard to requiring 
basically more of an effort to look at the dams and whether 
they should be there. And getting this right and being on top 
of this, each of these questions, these are all going to be 
used. So, I want to make sure that you are following this very 
closely, and I would expect a detailed update on this.
    And I am out of time. So, with that, I thank you, Mr. 
Chairman. I yield back.
    Mr. Fleischmann. Thank you. The gentlelady yields back. At 
this time I would like to recognize Chairman Calvert for 5 
minutes.
    Mr. Calvert. Thank you, Mr. Chairman. There was an incident 
in 1993 and caused about $22 million in damage to Old Town 
Temecula in my district. Today, those damages would be much 
greater. We are in construction with the Corps on a project 
which will provide 100-year flood protection with the cities of 
Murrieta and Temecula.
    Please understand that these populations have quadrupled 
since the project feasibility study where significant numbers 
of homeowners, businesses, infrastructure which remain 
vulnerable to flooding, and we need to address this as soon as 
possible. To continue construction and keep this project on 
schedule we need $2 million in fiscal year 2017 continuing 
construction funds to complete the second reach of phase 2 
project, and to complete the LRR.
    Mr. Lamont, General, can you comment to me what you will 
include in this fiscal year 2017 funding in your work plan? And 
we will send the reprogramming request forward as quickly as 
possible to keep the Murrieta Creek Project on schedule.
    General Semonite. Congressman, we are very aware of this 
project and the importance of this. We have spent over $20.4 
million on this, and agree that the last $2 million are very 
important. Right now it is our recommendation that that is 
funded in the fiscal year 2017 work plan to be able to take 
care of that $2 million.
    And there is also that $400,000 to be able to continue to 
be able to reevaluate the benefit-cost ratio. Obviously Reach 4 
is the one that is hard to do here, so that is where we are 
going to study to see if maybe the economics could make it 
happen. I have to be honest with you, though, that is probably 
a stretch on the benefit-cost ratio.
    Mr. Calvert. I have been working on this since I have been 
in Congress, 25 years, and I would like to get it done in my 
lifetime. This is an important project to the region. I think 
once the LRR is complete, it will prove up that this is a 
viable project and the cost-benefit ratio is there. Thank you 
for your answer, and I appreciate you working with me to get at 
least this reach complete.
    I also have a Reclamation issue. As you are aware 
Reclamation has reinitiated consultation with CVP and SWP, 
smelt and salmon biologic opinions, for operations for those 
projects. As you know, the recently enacted WIN act requires 
that Reclamation ensure that any project contractor that 
desires will be included in the reconsult as described in 
section 4004.
    Have any of the contractors made such a request and 
Reclamation provide assurance that any requesting contractor 
will be included as an applicant?
    Mr. Cameron. Mr. Calvert, we have had conversations with a 
number of the contractors. We are aware of the provision that 
you just described. We are, in fact, planning a meeting in the 
next week or two with interested contractors, to hear from them 
exactly how they would like to participate in these processes 
going forward.
    We definitely plan to engage with them much more heavily, 
and much more substantively than they have had an opportunity 
in the past under the previous legal environment.
    Mr. Calvert. Now, we have been waiting in California for a 
long time to increase our water supply and build more storage, 
which was referenced just a while ago. Can you update me on the 
status of the storage feasibility studies, since we started 
those 20-some years ago, and when will we be finally done with 
them?
    Mr. Cameron. As you know, Mr. Calvert, there are several in 
queue. The feasibility report on raising Shasta was actually 
delivered to Congress. We are actively exploring cost share 
partners for the Shasta Project that would cost roughly $1.3 
billion, so we would not plan on taking it all out on Mr. 
Simpson's budget. So we are looking for some cost-sharing 
partners there.
    Probably one of the most promising opportunities is the 
Sites Reservoir, which is north of the delta, as you know. For 
both the Sites and also the Temperance Flat opportunity on the 
San Joaquin, there are active consortia of water users in 
California who are pursuing potential funding through the State 
water bond that was recently passed. And we are working very 
closely with those project proponents. Our goal is to make sure 
they have the information they need when they need it so they 
can apply for and hopefully secure State water bond funding for 
those two projects.
    We are also looking at the Los Vaqueros expansion project. 
That one is on a somewhat slower track and we are also 
exploring some changes in the San Luis Reservoir, a number of 
issues there, both water quality and potential water storage 
enhancement. It looks like from the State's perspective, Sites 
and Temperance Flat would appear to be the highest priorities, 
so we are trying to be responsive to the priorities as defined 
by the water users in California.
    Mr. Calvert. Right. Thank you. Just one quick question. 
This is on Oroville Dam and the issue of safety of dams in 
general. In February, as you know, Oroville Dam almost 
crumbled, which would have been a disaster certainly in 
Northern California. And we are lucky that the dam did not give 
way.
    In light of this can you and the Corps and the Bureau talk 
very quickly about dam safety programs? What assurances can you 
offer that facilities that are owned and operated by both 
Reclamation and the Corps are safe? I mean, obviously, nobody 
saw this on Oroville Dam a year ago. And this, this could have 
been a complete disaster. General?
    General Semonite. Sir, I will give you an update. I did 
testify in the Senate a couple of months ago on dam safety and 
I got very, very up to speed on our dams. We have 715 dams. I 
feel very confident that we will be able to continue to address 
the ones that are the highest risk. We rank our dams one 
through five. We have a very few that are in the worst category 
and we are fully funding those to continue to get those dams 
repaired. We have a few more, maybe 10 or 12, that are actually 
DSAC Level 2 dams. We continue to be able to rank those high up 
in our budget.
    Right now, I think that the main thing is as you talked 
about safety. It really goes back to the risk out there, and 
how do we continue to manage that risk, be able to make sure we 
are either putting more engineering solutions there, or to be 
able to advise people where that risk is. And a lot of that 
goes with how do you operate that dam and how much water do you 
hold?
    We are committed. We have over 1,500 people that are dam 
certified safety experts. While Oroville is not a Corps of 
Engineers dam, we are deeply involved in order to advise and 
also to learn what could we take from Oroville to make sure we 
are looking at our dams to be able to take the lessons learned. 
We are working on a dam in Mosul, Iraq, right now, to try to 
continue to figure out how to fix dams.
    Mr. Mikkelsen. Thank you, Mr. Chairman. Very briefly, 
Reclamation has probably one of the most state-of-the-art 
facilities for safety of dams work in the world. The Dam Safety 
Program continues to be one of our highest priorities. We 
inspect all of our dams, we conduct safety evaluation of 
existing dams, and then our safety of dams (SOD) program makes 
sure that those priorities are implemented on a regular basis. 
We have got about I think, without looking, we have got about 
$90 million in the budget this year for our Safety of Dams 
program. And the very first question I asked when I arrived in 
town was does Reclamation have any Orovilles? And I was assured 
that we absolutely do not.
    Mr. Calvert. Thank you.
    Mr. Fleischmann. Thank you, Mr. Chairman. At this time, I 
would like to recognize the gentleman from New York, Mr. 
Serrano, for 5 minutes.
    Mr. Serrano. Thank you, Mr. Chairman. I am sorry I was 
late. I was at another hearing, which is the story of our 
lives.
    Gentlemen, I wanted to remind you and thank you on behalf 
of my constituents for the great work you have done on the 
Bronx River. I usually do not use these hearings to talk about 
my district, but rather in general about our country and how it 
affects my district. But it is really incredible, 15, 20 years 
ago, when you started helping us clean that river up, we found 
things in there that I cannot mention in public, many illegal 
things and even a Jeep. And now a beaver has returned and a 
second beaver returned. I do not know why, but they named the 
beaver Jose. And so you can figure out for yourself.
    But I understand that the war continues and it has just 
become an area that you did not believe you could have inside a 
city. I mean, with running ways and places on the side, it is 
just wonderful. Anything new in the budget that speaks to the 
Bronx River and what the timeline is?
    General Semonite. I do not have any new information, but we 
will certainly come and lay this out for you. I am not prepared 
to talk about the Bronx River today.
    Mr. Serrano. Okay.
    General Semonite. I am not aware of any other budget 
updates.
    Mr. Serrano. I saw something, but I did not want to tell 
you I saw it.
    Mr. Mikkelsen. Sir, I echo General Semonite's situation 
here. I am not aware of that either, but I will work with the 
Chief of Engineers to make sure we are working with your staff.
    Mr. Serrano. Okay.
    General Semonite. I will tell you, though, sir, when I was 
a Division Commander at Fort Hamilton back in '06 to '09, we 
found the first beaver and you and I were here about 7 or 8 
years ago, talking about that beaver. So it goes back to the 
potential. There are a lot of opportunities to be able to 
continue to make these river systems better across the board, 
not just for water quality, but for recreation and for economic 
development.
    Mr. Serrano. Absolutely, and to our colleagues, the whole 
story of the beaver, which one of our colleagues knows about, 
is that a beaver--New York City was a beaver pelt colony in its 
beginnings, and a beaver had not returned to New York in 200 
years until these folks and the community and the folks cleaned 
up the river. And so it became a major story, National 
Geographic, the whole thing.
    And so they now find a second beaver, right. So they tell 
me to name the beaver. Now, I do not want to be a wise guy and 
name the beaver, so I tell them, no, why don't you name the 
beaver to the Bronx Zoo? They put it on the Internet. You know 
what they named the beaver? Justin Beaver. Yeah. And I lost all 
my publicity very quickly.
    General Semonite. Congressman Serrano, there is money in 
the budget for maintenance. It is not an awful lot, but I will 
have my staff come lay out to your staff exactly what, not only 
this year, but long term, how we see the Bronx River, and we 
will give you a full update.
    Mr. Serrano. Thank you so much. I do not know if you are 
familiar with the Cano Martin Pena in Puerto Rico, my other 
congressional district. And I wanted to congratulate you and 
the local folks, ENLACE, for the strong efforts in dredging the 
Cano, which is just a big issue, a monumental issue on the 
island. When do you expect this project to be completed and 
what are you asking for to complete it, if you are?
    Mr. Lamont. Mr. Congressman, preconstruction engineering 
and design has been initiated and it is continuing. There are 
no funds in the President's budget for any preconstruction 
engineering and design right now nationwide. What we are doing 
is focusing on completing our 16 feasibility studies where 
there have been funds appropriated over the last 2 fiscal 
years, and we are focusing also on the continuing construction 
and completions of our projects. I will work with you sir, on 
looking at Cano Martin Pena as far as any additional needs, and 
the potential for any reprogramming that might be needed to 
move this project along. I understand your concerns and the 
situation down there.
    Mr. Serrano. If I heard you correctly, you said there is no 
new money for these kinds of projects in the President's 
budget, but you have an opportunity to complete the ones you 
started already? Is that what you are alluding to?
    Mr. Lamont. The emphasis is on the prior appropriations 
that have been made in trying to complete or continue PED 
nationwide on the projects that would hopefully compete for new 
start construction consideration in the next budget cycle.
    Mr. Serrano. All right, thank you. Thank you, Mr. Chairman.
    Mr. Fleischmann. Thank you, sir. At this time, I would like 
to recognize the ranking member of this subcommittee, Ms. 
Kaptur.
    Ms. Kaptur. Thank you very much, Mr. Chairman, and I 
apologize for being late for this distinguished panel. I had to 
testify this morning at the Department of Commerce on a very 
daunting situation that faces our steel industry and it affects 
thousands of workers in my State, so I had to be there.
    I read your testimony, gentlemen. Thank you so much for 
your service to our country and the great work you do. Each of 
us can point to successes in our own particular States and 
regions that you and the Corps have been a part of, so we value 
your work.
    I also hope you will be a major player as the President 
proposes a new infrastructure bill, whatever that is. And I do 
not agree with Mr. Mulvaney's decision to cut your budget by $1 
billion-plus and I am hoping that some of that can be changed 
as a result of our action and work on the infrastructure bill. 
It is one of the greatest job creators we could have in this 
country.
    I wanted to, also, General Semonite, you talked just 
briefly referencing a dam in Mosul. I wanted to ask you, would 
it be a lot of work or could you provide me some information 
about how the Corps links to other countries around the world 
in civil works projects. Just a brief summary, for example, I 
am particularly interested in places that are tender, such as 
Ukraine, and whether or not there have been any Civil Works 
agreements, either working with other parts of the military 
like our State partnership programs. Do you ever link to Guard 
Civil Works units that are doing work in those places? I do not 
really understand that set of relationships and I would really 
like to. Is that a hard thing to produce?
    General Semonite. Not at all, ma'am. We do this all the 
time. We are in 110 countries. We work for obviously the 
ambassadors out there, for Department of State. We work for our 
combatant commanders, the four-star generals that are actually 
out there that are warfighters. They give us security 
cooperation requirements, then we go back out. The Civil Works 
team may go and do a climate change seminar in China. Right 
now, we are working in Vietnam to be able to help Vietnam to 
work in the Mekong Delta, because we know how to do it from 
Mississippi River.
    There is money that is actually given to us in the budget, 
called ``234'' money, a very small amount, but it allows us to 
be able to take some of the things we have learned in this 
country with Civil Works and to be able to use that in the 
interest of diplomatic relations with other countries. We will 
lay this out. We do this every month on a regular, normal 
rhythm for the rest of our combatant commanders. We are very 
proud of what we do in other areas.
    Ms. Kaptur. I am very, very interested in this, 
particularly as concerns Ukraine, Lebanon, and Jordan. And so 
you may not be doing anything there, but if you are, I would 
like to know what it is and enhance my own understanding. So I 
thank you very much for mentioning that this morning. I want to 
associate myself with the questioning and the concerns of 
Congressman Joyce. Both of us share the Lake Erie coastline in 
one way or another and the issues of dredging. We have talked 
about this in many of our private meetings with you. But I 
really hope that we as a country can come to a place where we 
look at the beneficial reuse of sediments, whether they are 
those dredged through your good works or coming at us through 
various municipal treatment plants, be it water or sewage. The 
world is starved for organics. We in the Lake Erie region have 
the largest dredging budget singly because of the topography 
and the fact God gave me the largest watershed in the entire 
Great Lakes. So we have challenges.
    But I keep looking at this and thinking of a private 
company like Scott's, for example, on steroids to deal with the 
volumes that we are talking about. And with modern technology, 
isn't that possible for us to find a market solution to these 
vast amounts of material?
    So this is the 21st century. Over at EPA, they have this 
under the Resource Conservation and Recovery Act, RCRA, they 
have the authority to try to work on beneficial reuse. Those 
titles have not been exercised, zero, in several decades. So I 
am just one of the members out there looking at this amazing 
resource between Erie, Pennsylvania, as you may know, and 
Kalamazoo, Michigan, in that big smile. It is the largest 
landscape industry in the United States of America and they 
need material all the time. And I am just thinking there has 
got to be a market solution here that benefits many players. 
And I appreciate what you have been doing with Cleveland Harbor 
and trying to crawl our way to some other way of behaving. I do 
not know if you have a comment on this, but in the area of 
beneficial reuse, it is really strikingly important in a region 
like ours.
    Mr. Lamont. Representative Kaptur, when I met you about a 
month ago, we talked about this very subject. I agree with you, 
this is a wasted resource. It is an opportunity, depending on 
the quality of the resource, for beneficial reuse. If it is a 
polluted sediment, that might be another consideration.
    But up and down our coasts, we have heard from a number of 
project sponsors asking while you are dredging your harbors, is 
there the opportunity to put sand on the beach if it is of 
suitable quality? Now, that is not exactly your issue, but in 
your district, and certainly the sediment relative to the 
landscaping industry, there is a potential opportunity, I 
agree.
    We have looked into our existing authorities, if there is 
an opportunity, for example, hypothetically, the dredgers would 
want to partner with the landscape industry or nursery industry 
and then partner with the State and the State could partner 
with the Corps of Engineers to maybe have a win-win situation 
here.
    General Semonite. And just to add on to that, ma'am, WRDA 
2016 directed us to do 10 pilots in this area. We are very 
excited about those pilots. We have gotten letters in from 
different States and we are going to make a decision by the end 
of '17. We are going to have a series of webinars to discuss 
the criteria, how are we going to decide what the pilots will 
be. We are going to be very, very open and transparent. But 
these are great opportunities to do exactly what we are doing. 
I am violently agreeing with you because we must figure out how 
we can use that material beneficially to save all of us money.
    We are doing a pilot right now in Toledo that is working 
very well. We want to be able to figure out how we can save 
taxpayers money and maybe even get public interest in this so 
we can then empty some of these areas that are full of dredge 
material over the years.
    Ms. Kaptur. Thank you for your aggressive leadership on 
this, General. We truly, if there is some way I can help, 
please let us know, and I know Mr. Joyce would feel that same 
way. Am I out of time?
    Mr. Fleischmann. I would be glad to let you ask another 
question, sure.
    Ms. Kaptur. Thank you very much, Mr. Chairman. You know, I 
am going to go to the Asian carp and we do not want this 
critter in our Great Lakes, $7 billion fishery. And when we 
last met, Mr. Lamont and I, thank you for meeting with us, you 
indicated you are waiting for a new Assistant Secretary for 
Civil Works to be confirmed before releasing the report. Is 
that still your position today and to your knowledge, has 
anybody been nominated yet?
    Mr. Lamont. No, ma'am, unfortunately, no one has been 
nominated to date. I continue to check with our White House 
liaison on this matter every week, every Monday, in fact, and I 
am hopeful that we are able to release the report. I share your 
concerns about the economic and environmental consequences of 
the Asian carp migrating up into the Great Lakes system.
    Ms. Kaptur. Do you actually need that Assistant Secretary 
to be in place in order to release the report?
    Mr. Lamont. What I am trying to do is to work that so that 
is not the case, so that we are not in a delay situation, which 
we have been, unfortunately.
    Ms. Kaptur. And my understanding is correct, the report is 
complete?
    Mr. Lamont. The report--it is a draft report, ma'am, which 
would still need to go out for public review. And I want to 
work with our counterparts and the White House to make sure 
that we get that opportunity to get the report released.
    Mr. Joyce. Will the gentlelady yield?
    Ms. Kaptur. I would be pleased to yield to the gentlemen.
    Mr. Joyce. Can you elaborate on this or any other Army 
Corps efforts that you may have underway to prevent the further 
spread of the Asian carp?
    Mr. Lamont. We have met with the folks who have asked that 
this report be put on hold. We have expressed our concerns 
relative to the ability to get all sides of the story out 
there. What I mean by that is to get a draft report out on the 
streets so that the folks who are in favor of, for example, a 
modification to the Brandon Road Lock, would be able to comment 
on it, and the opposing interests would also be able to do 
that. I think we have made inroads, they understand that 
shareholder input and stakeholder input, if you will, is 
critical to the ability to complete this report. I agree with 
you. I am trying to do everything I can to convince the 
Administration that this needs to be done.
    Mr. Joyce. Thank you, I yield back.
    Ms. Kaptur. I just wanted to say that at one point you 
stated the release of the Brandon Road Report has been deferred 
pending further coordination and, in a way, you tried to answer 
Mr. Joyce there. What is the coordination? You say a draft 
report. What has to happen in order to release it? If it were 
not so vital to the entire Great Lakes, I would not be 
pressing, but it is.
    Mr. Lamont. No, I understand fully your concern. I share 
that concern, and I want to do everything I can, and hopefully 
I am not dancing around this. I am trying to do everything I 
can to convince the Administration to release the draft report, 
to elicit all stakeholder input on this, so that we can come to 
a potential solution that would serve everyone's interest. That 
is critical.
    Ms. Kaptur. All right. And I would just state for the 
record to the members that may not be aware of this. In the 
President's budget submission, he has eliminated the Great 
Lakes Restoration Initiative, and that is where the money is 
coming from to date, and it is not the right place to fish out 
the carp south of Chicago--move them 30 miles south just for 
the moment--but we do not have a regular funding source without 
a biological control to keep these things out. So, one of my 
questions is, either directly now or in an answer back to us, 
assuming that we cannot fix the Great Lakes Restoration 
Initiative--I hope we can--what area of your budget could we 
plus up in order to move those fish back down the Mississippi? 
We have to.
    Mr. Serrano. Will they kill the beaver? I will take them.
    Ms. Kaptur. I was going to ask, can you send us some 
beavers? I do not know.
    Mr. Serrano. I am saying, if they kill the beaver, I won't 
take it, but I will take them if they do not kill the beaver.
    Mr. Lamont. Representative Kaptur, we do have enough funds 
to complete the draft report to get to a final feasibility 
report. That is one critical step. We might be able to work 
with you and your staff on looking at our Operations and 
Maintenance account on possible opportunities there.
    Ms. Kaptur. All right.
    Mr. Lamont. General Semonite and I would be happy to meet 
with you on that.
    Ms. Kaptur. Thank you. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you Mr. Chairman. My questions will 
be directed to you, General Semonte. I am sorry, Semonite.
    Mr. Fortenberry. I am sure you have been challenged quite a 
bit on the 408 permitting process. In Nebraska, we have a very 
unique situation in which we have municipal authorities called 
the Natural Resource Districts, which are taxing authorities, 
which are held accountable by elected officials who run for the 
Board of the NRDs, in which we call it. There are various 
regions of the State. They do an outstanding job of flood 
control, meeting the demands for recreational projects as well 
as environmental restoration. A number of their projects enjoy 
extraordinary high numbers in terms of the benefit-to-cost 
ratio. You have supplemented their efforts on a number of 
occasions.
    There is a debate, of course, about the 408 permitting 
process as going beyond the original intention of the law in 
interfering, potentially, with the expedited issuance of 
initiation of new projects. That is one concern.
    Second is, is there consideration in which you can enter 
into joint financing agreements so that projects that are 
already evaluated by our municipal taxing authorities, 
governance structures, that are shovel-ready and ready to go, 
could be entered into with a supplement from the Federal 
Government and jointly shared by, again, the local taxing 
authorities so that we can expeditiously move shovel-ready 
study versus waiting for piles of money to be set aside and the 
huge opportunity cost that results from a slow progress on 
important projects?
    General Semonite. Congressman, we are very concerned about 
the speed of which we are doing permits, whether it is a 408 or 
all of the rest of the permits that we do under NEPA and 404. 
We have committed to be able to delegate some of these 
decisions. That allows the local commanders, the Colonels out 
there on the ground, to be able to make some of these 
decisions. There are about five different types. We have 
already delegated three of those down to the field, and our 
staff is looking at how we can continue to empower the team on 
the ground. The other thing is there are authorizations to be 
able to allow us to take monies; and what I probably need do, 
because it is a complicated area, is to ask my regulatory staff 
to come meet with your staff and look at the specific boards 
you are talking about and what can we do when it comes to 
funding. I do not want to get ahead of the P3 discussion here, 
because it is really not P3, but if there are some ways we can 
expedite it, anything that we can do to speed up the process, 
we are committed to do that.
    Mr. Fortenberry. Well, two things. In the 408 permitting 
process, there is a debate about whether you have taken 
authorities beyond where they were originally intended, which, 
again takes away authority from local initiatives.
    General Semonite. True.
    Mr. Fortenberry. Second is the aggressive partnering, and 
perhaps a new innovative way that would allow, again, municipal 
structures like we have uniquely in Nebraska that are dedicated 
to the similar mission. So these are held accountable to the 
public through elected officials and, again, they have their 
own taxing authority in which if there could be joint 
financing, we are ready to go and go quickly, that would meet 
the same objectives as the Corp of Engineers has.
    General Semonite. And sir, we want to work with you on 
this. We just have to make sure we have figured out what our 
authorities are, what can we do, and if we can find better ways 
of doing things for the right reason, we are all in.
    Mr. Fortenberry. So, are you indicating a shift of culture 
in the Corps in this regard? Are you looking at specific 
changes in the regulatory atmosphere, or all of the above?
    General Semonite. I think talking, personally, very 
holistically--I have been in the Army 37 years; I have been in 
the Corps 12 years. Over time, we have moved to where an awful 
lot of things come to Washington, D.C., for decisions. And so, 
in my 4 years, on my watch, wherever I can continue to make 
those decisions at the right level, that people are informed, 
they have the capacity, they have the authority to be able to 
do that, whatever I can do on my watch to streamline, we want 
to be able to do that.
    Mr. Fortenberry. Well, again, I am talking about governance 
authorities that have the same mission, or similar parallel 
missions that you do, that are ready to go, and, obviously, 
this affects us the most, so we are going to try to do it 
right.
    General Semonite. And sir, it is just a very complicated 
area. I do not want to get in front of anything we are doing 
for EPA or anything on which the Committee has given us other 
guidance. I just want to make sure we research this and figure 
out how can we find a common path ahead.
    Mr. Fortenberry. Okay, can we then see your staff within 
the next month or so?
    General Semonite. Yes, sir, the next couple of weeks, 2 
weeks.
    Mr. Fortenberry. Thank you, General. Thank you, Mr. 
Chairman.
    Mr. Simpson. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. My initial 
question is of Assistant Secretary Lamont and Lieutenant 
General Semonite because I am kind of at a loss here. Because 
it appears that funding for other ecosystem restoration work by 
the Corps in South Florida, including the Everglades Ecosystem, 
you know, the non-CERP South Florida ecosystem restoration 
funding has been cut by nearly $30 million. Are we really not 
funding non-CERP projects under the Corps construction account 
at all or is it that the Corps is supposed to perform all the 
construction work on non-CERP projects with only the $1 million 
allocated by this budget?
    Mr. Lamont. Ma'am, if I could get some clarification? You 
say, ``non-CERP,'' could you give me an example?
    Ms. Wasserman Schultz. Like the C-111 South Dade project 
which helps to prevent groundwater from seeping out of the 
Everglades National Park. I mean, that is an example of a non-
CERP project.
    Mr. Lamont. There is not a concerted effort to slow down 
the Everglades work and related work in that area. What we are 
trying to do is to continue an orderly process. And I know you 
may be looking at the top line number, for example.
    Ms. Wasserman Schultz. Yes. But here is why, Mr. Lamont, 
because non-CERP projects in fiscal year 2017 were funded at 
$30.5 million, and that still was not enough. How is the Corps 
going to continue to work on these vital projects with $1 
million? I mean, really? We are never going to finish 
restoration of the Everglades if----
    Mr. Lamont. My understanding is these non-CERP projects are 
anticipated to complete with prior year funds. That has been 
the emphasis. I do not want to give you the impression that we 
are trying----
    Ms. Wasserman Schultz. Are you suggesting----
    Mr. Lamont [continuing]. To slow things down.
    Ms. Wasserman Schultz [continuing]. There are enough prior 
year's funds? There were not in fiscal year 2017.
    Mr. Lamont. Ma'am?
    Ms. Wasserman Schultz. There are enough prior year funds to 
complete non-CERP projects?
    Mr. Lamont. Yes.
    Ms. Wasserman Schultz. Well, not so far.
    Mr. Lamont. If you need additional information, I will work 
with you on that.
    Ms. Wasserman Schultz. If you could show me, that would be 
wonderful.
    Mr. Lamont. Okay.
    Ms. Wasserman Schultz. And then I have a question for both 
of you about Port Everglades. Because you are zeroing out new 
starts, and we need construction funding for these projects 
across the country, the proposed budget requests a steep 
decrease in overall Corps construction funding.
    For example, Port Everglades, in my district, requires 
widening and deepening. We are authorized in the water bill. It 
is critical to our region that the Port Everglades Channel is 
widened and deepened. We have to go from planning, and design, 
and engineering to the construction. How many new starts does 
the Corps need to address all navigation construction projects 
that should be started in fiscal year 2018, including Port 
Everglades? And, also, how much construction funding would be 
required to appropriately address all of these projects in 
fiscal year 2018?
    Mr. Lamont. Let me try to address first your concern on 
Port Everglades. As with all Civil Works projects, they need to 
compete, and the competition is based on a benefit-cost ratio 
at a 7 percent discount rate. No matter what Administration, 
that is the criteria we must deal with.
    My understanding is on Port Everglades that preconstruction 
engineering and design is fully funded in the work plan for 
$2.8 million. We are trying to keep this project moving along. 
It has already been authorized. I worked personally on 
defending the Chief's report on this project in my former 
position, so I know exactly what you are saying. I have been to 
Port Everglades. I have seen the amazing amount of traffic 
through that small port.
    Ms. Wasserman Schultz. And if you recall, we were 
significantly delayed by an error in the formula that the Corps 
made themselves. And so, we are already behind the eight ball, 
significantly behind where we should be, where construction 
funding should be in the pipeline already because we should 
have made the last water bill.
    Mr. Lamont. Yes, ma'am.
    Ms. Wasserman Schultz. And it was because of the Corps' 
error that we did not.
    Mr. Lamont. Along with, unfortunately, all the mitigation 
requirements that the project----
    Ms. Wasserman Schultz. Yes.
    Mr. Lamont [continuing]. Drew out through our coordination 
process. I agree with you.
    Ms. Wasserman Schultz. And lastly, you mentioned in your 
statement, Lieutenant General Semonite, that the budget gives 
priority to coastal ports with high levels of commercial 
traffic. Again, Port Everglades is one of the top 10 busiest 
ports in the United States, but the budget allocates only 
$420,000 in Corps' Operations And Maintenance. What criteria 
was used in crafting the amounts allocated in this budget? 
Because I can tell you right now, $420,000 is sorely 
insufficient for the operation and maintenance of such a vital 
port like Port Everglades. Either one of you can answer.
    General Semonite. Congresswoman, there is a large backlog 
in O&M. It is over $2 billion right now, so it is just that we 
cannot do all the things we need to do across all the ports. 
And if there is anybody that is a fan of both the coastal ports 
and the inner waterways when it comes back to the imports and 
the exports and the economic value of this country, it is me. I 
have been involved in a lot of them. This is when we must keep 
pushing to try to get all the right funds we need to get to 
these projects.
    Ms. Wasserman Schultz. Would you gentlemen mind, as I wrap 
up, Mr. Chairman, coming in and giving me a more granular 
briefing?
    General Semonite. Not at all, ma'am, that would be great.
    Ms. Wasserman Schultz. Thank you so much. I yield back.
    Mr. Simpson. Mr. Lamont and General, can you please discuss 
the status of the Columbia River Treaty? I know you got a new 
line item in this budget, $9.5 million for Columbia River 
Treaty, 2024 implementation. Where are we on that?
    General Semonite. Sir, I will give you more details, but 
our staff, Major General Spellmon up in the Northwestern 
Division, is working this to be able to continue, to be able to 
stay on track, to be able to get the plan in place.
    Right now, we are looking at some challenges with the 
storage and what is in the old plan with prepaid storage and 
what is going to happen with new storage. We are concerned 
about how that is going to work, and we have got to be able to 
make sure that we can set the conditions in the next couple of 
years so that we do not lose any equities with the United 
States as we continue to renegotiate this with Canada. But, I 
will certainly come in and lay this out or have the Division 
Commander do that as well.
    Mr. Simpson. Okay.
    General Semonite. It is ongoing. We have the best team 
working it up in the Northwestern Division to be able to ensure 
we are protecting the equities that we have had in some of the 
prior treaties.
    Mr. Simpson. I would appreciate an update on where we are 
on the Columbia Treaty negotiations. But the $9.5 million is 
just to do the work necessary? Continuing to negotiate this 
treaty and being involved in it and so forth?
    General Semonite. That is my understanding.
    Mr. Simpson. And what we have done in the past has just 
come out of the Army Corps budget, and this time we have line 
itemed it out?
    General Semonite. Yes, Mr. Chairman. Because there is so 
much extra effort that is really required. We have a lot of 
people working this, so I think that is where there is a 
delineation now to be able to make sure that we have dedicated 
funding so we do not end up somehow getting that effort cut.
    Mr. Simpson. Okay.
    Mr. Cameron. If I could, Mr. Chairman. The Department of 
the Interior is coordinating with the Corps and the State 
Department as well, because we clearly have interest in this 
issue.
    Mr. Simpson. Yes. Mr. Mikkelsen, you mentioned in your 
testimony that the flooding that is going on currently in 
Western States, if it is not a drought, it is a flood. It seems 
like nothing in between. And as you know, we had a record 
amount of snow in a lot of the Pacific Northwest and, 
unfortunately, the melting pattern has been rather rapid.
    What is the Bureau and what is the Army Corps doing about 
the flooding that is going on, particularly in Idaho and other 
Western States? As you know, we have had washouts of roads and 
everything else. It is a mess up there right now.
    Mr. Mikkelsen. Mr. Chairman, Reclamation has been 
monitoring reservoir elevations, reservoir levels in 
conjunction with releases ever since we started with runoff 
this spring. And to the maximum extent possible, given the 
limitations of the system and the existing snowpack, we have 
probably minimized flooding to the tune of hundreds of millions 
of dollars at this point.
    For instance, just in Idaho, on the Boise River we are 
running about 9,700 cubic feet per second (CFS) through 
downtown Boise. That is about as much as we can run, but we 
have been running that for a long time to just make sure that 
we do not have to have any surge events happening.
    Mr. Simpson. Good.
    General Semonite. Mr. Chairman, very, very similar. A lot 
of it is, pre-storm, pre-event, how we can continue to be able 
to draw down to the right level.
    Our teams are out on the ground working very, very closely 
with local and State authorities. If there is damage out there, 
then we can utilize our FCCE money that has been appropriated. 
We are able to ensure that we are able to repair some of those 
damages if that is the case.
    I think the main thing also is being very transparent, and 
we have a lot of systems that we can put on the web, so 
everybody can see where we see the water going, and continue to 
try to be advised of what is out there.
    Mr. Simpson. Thank you. Who is next? What order are we in? 
We are going to start the second round. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. General Semonite, I 
might ask your help in the following way. I know that General 
Toy is going to be doing hearings throughout the Great Lakes, 
and I would like to use this opportunity to see if you might be 
able to help me.
    The dates we have been given are dates that it is 
impossible for a member to be there because we are voting, and 
I would very much like to gather all of the mayors from my long 
district along the lake to meet with him and deal with some of 
the significant issues we face on our watershed.
    So if you could just take--maybe you could help make that 
happen if there is some way to reschedule or add another day or 
something. There is really a lot of pent-up desire to meet with 
the general. So perhaps you could take that message back for 
me?
    General Semonite. We will definitely take it on, ma'am. 
Whatever we can do if it is General Toy, or if we need to have 
other people there. If you want me to fly in, it is no problem. 
We would love to be able to meet with the stakeholders.
    Ms. Kaptur. Thank you very much. I have a couple of other 
questions, if I could here. Do you, General Semonite, do you 
have any relationships on the Great Lakes related to energy 
production?
    General Semonite. So I probably need to get back with you 
on the details. There are a lot of areas where we might have a 
dam where we have a lock, let's say, and we allow a private 
vendor go in and put a small hydro in one of those. A good 
example, on Lake Erie, I know we have one of those.
    That way we are able to save the taxpayers money because we 
take some of the electricity that that vendor uses, and we run 
our piece, and we do not have to pay O&M to some other power 
vendor. And therefore, he is able to do O&M for the lock and 
dam. This is something that is probably 20 or 30 years old.
    But there are probably a lot more of those that are out 
there, but wherever we have been able to find ways of bringing 
in private entities, we have certainly done that. Of course, we 
do the same thing for recreation. I know your question is 
really on energy, but if you want I will have General Toy to 
lay out the information for the whole Great Lakes region and 
figure out where are we, and then if you think we should be 
doing something more than we are doing within our authorities, 
I am more than willing to look at those opportunities.
    Ms. Kaptur. All right. Well, you know, we call our 
committee Energy and Water, and I am very jealous, really, of 
other parts of the country when I see what is going on and some 
of the challenges we face. But with new energy technologies and 
so forth I do not know how the Corps really thinks about that, 
and I would be very benefited by a briefing on that and 
examples from our region, and perhaps a few examples from 
others.
    They are very different systems, but with some of the 
technologies and facilities that you manage it might be very 
interesting to look at the energy piece, even though albeit it 
very small, in the Great Lakes. But nonetheless, it would be 
interesting to see your history there.
    General Semonite. This goes back to a question the Chairman 
asked earlier about P3, and I do not know if everybody was 
here, but we need to have policy on this. We have a lot of 
people that walk in, private companies, and say we would like 
to be able to tack something on the back side of your dam 
because we are able to make money on the use of the water.
    Well, that is great, but, on the other hand, I need to make 
sure that the interests of the Federal Government are taken 
care of as well. So there cannot be any free lunch. We must be 
able to figure out how to share that risk. And if there is a 
way, without damaging the capabilities of the project, that we 
can continue to be able to get some degree of private funding 
if that would then bring down the O&M budget.
    We are looking at a lot of these things now. It does go 
back to the fact that we must have some good policy on exactly 
how do we take the P3 piece and work that, even at a much 
smaller level.
    Ms. Kaptur. All right. Do you have any relationships with 
the Saint Lawrence Seaway Development Corporation either 
related to the lock operations or energy production?
    General Semonite. I know that our Commanders have 
relationships. I think they are actually on the Commission, so 
they continue to look at water flow, ecosystem restoration, 
both our Buffalo district, as well as General Toy and his role 
there as the Lakes and Rivers Division Commander.
    I am not sure of the formality of exactly what that gives 
them with respect to authorities, but I know that we have a 
very close relationship with the Commission.
    Ms. Kaptur. All right. I would be very interested in a 
briefing perhaps with our Great Lakes members to hear a little 
bit more about what that is, how that works.
    General Semonite. Yes, and maybe the best thing we can do 
is if there is ever a time where you have either the Governors 
together, or the stakeholders together that we fly in with a 
team and lay out what we are doing in ecosystem. What we are 
doing on energy.
    We are systems people. We want to look at everything 
because it all works together, and whatever we do for 
navigation has impacts back to the ecosystem. The more that we 
can talk about all the variables that are in these systems, 
then everybody does not take a parochial viewpoint as to the 
one thing that they care about.
    They must understand there must be plusses and minuses 
across the entire system.
    Ms. Kaptur. All right. My final question relates to the Soo 
Lock and we wrote a letter to the Corps expressing our concerns 
about how you were conducting the economic reevaluation of the 
Soo Lock. Could you comment on the methodology that is being 
used in the reevaluation, and if that reevaluation will be 
finished within the 2-year time schedule?
    General Semonite. It will be done within the time period. 
We are working funding issues right now. We want to make sure 
that it gets the money it continues to need to be able to 
finish. There is just a small amount of money there.
    As far as the exact methodology, it includes consideration 
of a conveyer system consistent with approaches taken on other 
navigation lock projects throughout the Corps. We are looking 
at least cost, technically feasible alternatives. Again, this 
is another thing that is a relatively complex brief, but if you 
want to, we can certainly schedule some opportunity to lay out 
exactly what that methodology is.
    And, again, we want to be informed. If there is something 
that we should be doing that we are not, we want to make sure 
that we are listening to the bright ideas of where, other 
people need us to go. I think we have been very transparent, 
but that is a relatively regional area, and I just do not have 
the expertise at this level to answer your question.
    Ms. Kaptur. All right. I know that Congressman Joyce and I 
co-chair the Great Lakes task force, and Congressman Huizenga 
is the representative from the House on the International Joint 
Commission now, and all of us have a deep interest in the Soo 
Lock and its future.
    General Semonite. I will get you a factsheet right away. I 
have my factsheets here that I can walk you through. It is 
relatively detailed, so we can give you something in a couple 
days, and then if you think you want a lot more, we will come 
and walk through exactly where we are going to go on this.
    Ms. Kaptur. All right. Thank you. Thank you very much. 
Thank you, gentlemen.
    Ms. Simpson. Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman. It is my 
understanding that the Army Corps has played a role 
historically in past Department of Homeland Security-related 
border infrastructure projects along the Southern border of the 
United States assisting with technical expertise, testing 
oversight, and contracting out certain assignments. Could you 
give us a run through of those past efforts, what you 
anticipate your role will be in fiscal year 2018?
    General Semonite. Congressman, you are right. We have 
worked very closely with the Customs and Border Patrol not only 
in the United States, but where they have gone to other 
countries and tried to help. We have built border stations in 
the country of Georgia, for instance.
    What we have done recently is mainly repair work on what we 
call ``the fence.'' There were some smaller portions, both 
personnel fences and vehicle fences, that were put in by us 
back in 2006. Some of those need maintenance or need additional 
work. Some of those were not completed in their entirety.
    Right now we are working for the Customs and Border Patrol 
to go back into existing areas and mainly replace or finish the 
type of construction that was done back in 2006 to 2009. Again, 
we work for Customs and Border Patrol.
    I do have seven large laboratories that are very good when 
it comes to hydraulics, when it comes to things like tunnel 
detection, when it comes to geospatial information. We have 
been asked by Customs and Border to partner and to be able to 
use the technology in those laboratories as they look at what 
the options are on a future construction of the potential wall. 
So right now we are offering our services to Customs and Border 
mainly in a design and technical advice type realm.
    Mr. Aguilar. What do you anticipate for fiscal year 2018 
that support to Customs and Border Patrol being?
    General Semonite. I think right now they have asked us to 
do about $11 million in '17. I do not have the '18 number. I am 
sure that is in the budget. I just did not pull that for this 
hearing. We can certainly tell you that, but it is strictly a 
reimbursable basis.
    The money would go to Customs and Border, and then they 
would contract us to do----
    Mr. Aguilar. You are a contractor for services?
    General Semonite. Yes, sir.
    Mr. Aguilar. In providing that, if you are asked to flex up 
or directed to provide additional support it would come through 
that same similar type of line item, through CBP, appropriated 
and authorized through CBP, and then you would then contract 
that piece out? Whether it is the labs or whether it is, you 
know, physical construction for the repair portions?
    General Semonite. Correct. If it is done in-house, we do 
not contract it. We would task our guys and then reimburse 
them. But what you are saying is correct. We would then acquire 
those services either with an independent contractor or with 
our own in-house staff.
    Mr. Aguilar. Okay. Well, I think that we will probably dig 
a little bit deeper on this discussion and ask you additional 
questions as we move forward.
    General Semonite. And, Congressman, as we move forward we 
would provide whatever you want. I would just ask that when we 
do that, that we continue to be able to have the Customs and 
Border team there. We are very committed to be able to work 
underneath their direction and not to get out ahead of them.
    Mr. Aguilar. Sure. I appreciate it. Thanks, General. 
Thanks, Mr. Chairman.
    Mr. Simpson. Thank you. And I thank all of you for being 
here today and for your testimony. As the ranking member said, 
this is the Energy and Water Committee, and obviously water is 
a very important aspect of the bill that we put together. And 
we have over the years been very cognizant, I think, as a 
Committee and really as a Congress on a bipartisan basis of 
sometimes the insufficiency of the request from either the 
Obama administration or from this administration and stuff.
    And, you know, we have got a WRDA target that is about $375 
million or something like that, a million above what the 
request was for, and this Committee has worked very hard to 
make sure that we give adequate funding to the important work 
that you do. And it is not because you all have sterling 
personalities, although you do. It is because of the important 
work you do and the recognition by members of Congress on both 
sides of the aisle that infrastructure is very important. So we 
want to work with you to try to devise a budget that is best 
for the Nation and the work that you do.
    So I thank you all for being here today and we look forward 
to working with you.
    Hearing is adjourned.
    [Questions and answers submitted for the record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

                                            Tuesday, June 20, 2017.

                          DEPARTMENT OF ENERGY

                                WITNESS

HON. RICK PERRY, SECRETARY, DEPARTMENT OF ENERGY
    Mr. Simpson. The hearing will come to order.
    It is my great pleasure to welcome Secretary Perry to this 
first meeting with the Energy and Water Subcommittee.
    Secretary Perry, congratulations on your selection as the 
14th Secretary of Energy, and thank you for your continued 
service to our country.
    We have a lot to discuss today, so I will keep my remarks 
rather brief.
    This budget request reflects the importance of the 
Department of Energy's national security responsibilities. The 
budget request proposes a strong increase, $994 million, for 
the nuclear weapons activities, and we need to ensure the 
effective nuclear deterrence now and for our future. This 
program and other defense activities for this bill are and will 
remain a high priority for this committee.
    I am also pleased that this budget request proposes 
appropriate funding for Yucca Mountain. The previous 
administration made the costly, and I believe wrong, decision 
to abandon the Yucca licensing application, changing courses on 
this program, and ignoring the law.
    The President's budget proposal proposes a $3.5 billion 
decrease for energy programs, reflecting the Administrations's 
decisions to focus resources on early stage research and 
development. That is a substantial reduction, a reduction this 
committee must carefully review in order to understand the 
impacts to the important programs and activities within this 
bill.
    Like the President, we want to eliminate waste and 
duplication, and ensure the best use of each and every taxpayer 
dollar. This hearing is an important part of our oversight 
process.
    I appreciate you being here today and hope that we can work 
together to move forward on a budget that will ensure our 
energy independence and keep consumer prices affordable.
    Please ensure that the hearing record, questions for the 
record, and any supporting information requested by the 
subcommittee are delivered in final form to us no later than 4 
weeks from the time that you receive them. Members who have 
additional questions for the record will have until close of 
business on Thursday to provide them to the subcommittee's 
office.
    With that, I will turn to my ranking member, Ms. Kaptur, 
for her opening statement.
    Ms. Kaptur. Thank you, Mr. Chairman.
    I don't know if I can be as brief, but I want to welcome 
the new Secretary, someone who has experience as an 
appropriator himself, and also a Governor, former Governor, 
from a very important energy State. You have a lot of 
experience and we need it all.
    Thank you, Mr. Chairman, for yielding the time, and 
Secretary Perry for joining us today in your very first hearing 
before this committee, which you will come to like. 
Congratulations on your confirmation.
    The budget request for the Department of Energy, while 
providing healthy increases of 9 percent to defense accounts, 
unfortunately slashes the nondefense energy accounts by more 
than one-third, of which science is cut by 17 percent.
    To speak to the energy and science accounts for a moment, 
initial estimates are that this budget request, if enacted, 
would result in the loss of approximately 7,000 highly skilled 
technical experts in job positions at the Department's world 
class National Labs. This is a big worry, this is a big class 
worry.
    Given that the labs have a multiplier effect on jobs in 
their communities, somewhere in the range of two to three, the 
total job loss would be in the range of 14,000 to 21,000 jobs. 
In addition, initial estimates are that the reductions to just 
the energy efficiency and renewable energy and science 
accounts, the sector inventing our future and of diversified 
energy production in this country, will result in some $2 
billion less in Federal support to universities and other 
research institutions essential to nurturing America's future 
scientific expertise. This is another world class worry.
    The United States remains, despite recent efforts to reduce 
funding, a leader in innovation. But this budget, I fear, cedes 
that leadership to China and nations in the energy and basic 
science sectors. China has already monetized the solar panel 
industry, and I could talk to you for hours about that, 
appropriating American innovation and cornering the market in 
manufacturing for the industry with a lot of intellectual 
property theft going on at the basis of that. While this budget 
proposes to cut funding for clean energy, China is prepared to 
spend $360 billion by 2020 on clean energy, while creating 13 
million jobs and dislocating millions more of ours. This is 
anything but an America First policy.
    This budget request also moves the Department's focus to 
early stage research, terminating all later stage research, 
which frankly I can't understand, along with any deployment-
related activities. While we have struggled with the 
appropriate split between early and late stage R&D, along with 
which deployment activities to support, my fear is that this 
approach will result in a cornucopia of good ideas residing at 
the labs in a form still insufficiently mature for private 
industry to take over. We must have attention to this segment 
of the budget. We have been, for years, talking about what we 
can do to accelerate the development of technology originating 
in our labs; this budget would be a step back.
    Let me end with this: Turning to the Office of Energy 
Efficiency and Renewable Energy, I would like to read from a 
letter written to our subcommittee, which I would like to 
associate myself with. The letter is right here. It says: We 
are the entire group of Senate confirmed Republican and 
Democratic Assistant Secretaries of Energy who led the DOE 
Office of Energy Efficiency and Renewable Energy between 1989 
and 2017. We are particularly concerned about the 
administration's recent proposal to cut the EERE budget by 69 
percent from fiscal year 2017 enacted levels.
    While we have not always agreed on the relative emphasis of 
various elements of the EERE budget, we are unified that cuts 
of this magnitude in the proposed fiscal year 2018 budget will 
do serious harm to this office's critical work and America's 
energy future. EERE supported research development and 
demonstration and energy efficiency, transportation, renewable 
energy, clean energy, manufacturing, and electric grid 
modernization are critical to encouraging U.S. innovation, 
creating good paying jobs, cutting pollution, and ensuring 
American global competitiveness.
    Other important EERE programs with similar benefits focus 
on setting efficiency standards for appliances and equipment, 
helping States deliver energy efficiency improvements, leading 
the Federal Government's efforts to reduce its own $23 billion 
of annual energy bills, and cutting energy use in low-income 
homes.
    Mr. Chairman, I would ask permission to enter the entirety 
of this letter into the record.
    And with that, I will close my remarks.
    Mr. Simpson. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Ms. Kaptur. Thank you once again, Mr. Secretary, for being 
here with us today, and we look forward to your testimony.
    Thank you, Mr. Chairman, for the time.
    Mr. Simpson. Thank you. We are also glad to have the 
chairman of the full committee and the ranking member of the 
full committee with us today.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Mr. Secretary, good afternoon. Mr. 
Chairman, thank you for the time. I also welcome Secretary 
Perry to the Appropriations Committee. We look forward to your 
testimony in hearing your frank and candid views on many 
issues.
    Today's hearing is an important part of the oversight 
duties of the committee. After all, the power of the purse lies 
in this building. It is the constitutional duty of Congress to 
make spending decisions on behalf of the people we represent.
    As you referenced in your testimony, Mr. Secretary, you 
must annually certify to the President the American nuclear 
weapons stockpile remains safe, secure, and reliable. I think 
there is no more important responsibility. I think you know 
that.
    These are nuclear systems that are part of our national 
defense, and they are essential to meeting our commitments to 
our allies and showing resolve to our adversaries. The 
committee has always provided vigorous support to the nuclear 
weapons stockpile. I am pleased to see that the administration 
recognized that with this budget request. And may I also say 
that I am a strong believer in nuclear power as being one of 
the solutions to our vast energy needs, and the fact that you 
recognize that yourself I do hope is true.
    Your proposal of the Department also takes great strides to 
deliver our exascale computing system. This is an area where 
the United States has been losing ground to China and others. I 
agree with you, we must take back American primacy in computing 
science. The United States has correctly invested heavily in 
scientific research. This work has produced dramatic scientific 
breakthroughs and innovation, and in the process, created high 
quality jobs for Americans. We know you have a lot of difficult 
decisions to make.
    I do have some concerns about cuts to the fusion program 
and to certain aspects of nuclear energy. As you may know, the 
committee has repeatedly endorsed moving forward in the area of 
fusion energy. The proposed decreases, which are pretty 
dramatic, will inevitably delay some of the progress we are 
making in this exciting field, including in my home State of 
New Jersey, at the Princeton Plasma Physics Labs.
    I look forward to hearing more about these proposed cuts, 
and like the Chairman and other members, it should come as no 
surprise, we are very supportive of the work we need to do at 
Yucca Mountain. It's huge, billions of dollars of investments 
there. We need to get it open and use it as a proper depository 
for the future.
    Again, thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman and Ranking Member 
Kaptur, for holding this hearing. And I would like to join my 
colleagues in welcoming you, Secretary Kerry, before--Perry, 
Secretary Perry, before the committee.
    The Department of Energy has a critical role in America's 
national security and its economic prosperity. Its focus on 
research, development, deployment of clean energy, and 
efficient technologies makes the Department a leader in 
scientific innovation, job creation, and the battle against 
climate change.
    The President's fiscal year 2018 budget requests $28 
billion in discretionary spending, a reduction of $2.6 billion 
from the fiscal year 2017 enacted level. On its surface, this 
funding level may not sound as drastic as the cuts proposed for 
other agencies, but increases 11.2 percent the National Nuclear 
Security Administration, 9.3 percent for atomic energy defense 
activities, which means the energy and science programs would 
be decimated with a 30 percent cut.
    While you no longer propose to eliminate the Department of 
Energy, your budget request would do grievous harm to American 
families by abandoning scientific innovation and ignoring the 
pressing threat of climate change. Carbon emissions are 
creating holes in our ozone layer and contributed to changing 
and often dangerous weather patterns around the world. Climate 
change has manifested as catastrophic events that threaten our 
national security and the livelihoods of American families.
    We are at a pivotal moment in world history, as there is 
still time to protect our planet from the disastrous impacts of 
climate change. Yet your budget proposes to reduce energy 
efficiency and renewable energy by a staggering $1.43 billion, 
or 69.3 percent.
    In addition, the National Academies of Sciences, 
Engineering, and Medicine just released a study finding that 
ARPA-E has successfully advanced American innovation, and yet 
your budget would terminate the program. These two offices 
contribute to important scientific research, reduce our 
dependence on foreign oil, and create 21st century clean energy 
jobs.
    There are more than 678,000 jobs in renewable energy in 
this country, and that number could be much higher if the 
Department of Energy continues to invest in energy research. 
Unfortunately, your budget is filled with false choices and by 
reducing investments in clean energy jobs. Just another broken 
promise by the Trump administration.
    The Department of Energy should be looking forward, paving 
the way to create new, clean, renewable energy technologies, to 
create American jobs, foster American energy and dependence, 
not cede the innovation frontier to other nations, with China 
leading the charge to undermine American leadership.
    I do hope Congress will work together. My friends on both 
sides of the aisle, I hope, will reject the Trump 
administration's misguided budget proposal in favor of a 
spending bill that works for all Americans.
    Thank you, Mr. Chairman.
    Mr. Simpson. Thank you.
    Again, Mr. Secretary, thank you for being here today. We 
welcome you. And let me say on a personal note, thank you for 
getting out. I know you have been active in the first few 
months in getting out and seeing the sites and the laboratories 
and what the DOE does. And thanks for coming to Idaho and Oak 
Ridge and other places. It is very nice to have a very active 
Secretary that is going to get out and investigate what this 
incredible Department does.
    So the time is yours.
    Secretary Perry. Mr. Chairman, thank you very much, and to 
all the Members. Ranking Member Kaptur, Mrs. Lowey, thank you 
for your remarks. And it is--I was just sitting here thinking 
as you all were speaking that this is the first time I have 
ever been on this side of the table, so I think I may like this 
side better.
    With that said, let me just share with you what an honor it 
is for me to be sitting here on this side to discuss President 
Trump's fiscal year 2018 budget request. I hope you know what a 
great privilege it is for me to serve this country one more 
time as the 14th Energy Secretary. And as you rightfully point 
out, I was a former legislative appropriator and a Governor, 
and I am very respectful of the budget writing process. I know 
the importance of the work that you are undertaking.
    And, Mrs. Lowey, again, I look forward to working with you 
and the members of this committee and the rest of our friends 
here on the Hill to finalize a budget that we can all be proud 
of and that serves the taxpayers well.
    In my three and a half months as Secretary of Energy, I 
have seen the firsthand impact of the Department's leadership, 
both domestically and internationally. I have traveled around 
the country to many of the National Labs, some based in your 
districts, and met with the brilliant minds that are driving 
their missions. And I look forward to visiting every one of 
them.
    These labs are truly national treasures. They are the 
future of innovation in this country. I have been in awe at the 
diverse scope of the Department's mission, this consequential 
work that we are charged with overtaking, overseeing. And I 
have also traveled oversees representing the United States both 
in Rome at the G7 and China a couple of weeks ago for the clean 
energy mission innovation ministerials.
    I had the opportunity to visit Japan on that trip to China 
and met with their leaders and their stakeholders about the 
future of our energy partnership. And on a pretty somber note, 
I toured the site of the Fukushima disaster and recognized what 
a monumental task they have before them.
    Interesting in my trip, and coincidently I guess you could 
say, that trip to China began on the day that President Trump 
announced that he would officially withdraw the United States 
from the Paris Agreement. I delivered his message to the world 
that, even though the United States was no longer a part of the 
Paris Agreement, we are still the leader in clean energy 
technology and we are committed to that mission.
    The Department of Energy does many things, many things 
well. And America has been remind--I should say it has remained 
on the forefront of technology for over 40 years because of the 
amazing men and women that work both at our headquarters and at 
these National Labs and men and women who are stationed with 
the Department of Energy overseas. They wake up every day 
knowing that they will make a real difference in people's 
lives.
    I told them on my first day that the greatest job I ever 
had was being the Governor of Texas. But after working here, I 
have come to realize that being the Secretary of Energy is now 
officially the coolest job I ever had. Under my leadership, our 
experts at DOE are going to continue to work for the benefit of 
every American and our allies alike.
    As Secretary of Energy, I am also a member of the National 
Security Council, and this council obviously is supported by 
the DOE and its mission to keep our Nation safe. President 
Trump's fiscal year 2018 budget request for the Department of 
Energy provides $28 billion to advance our key missions and 
focuses on important investments, including ensuring the safety 
and effectiveness of our nuclear weapons arsenal, protecting 
our energy infrastructure from cyber attacks and other threats, 
achieving exascale. That is so important, focusing the amazing 
network of our National Laboratories on early stage research 
and development.
    And my goals are straightforward: Advance our Nation's 
critical energy and scientific R&D missions, strengthen our 
nuclear security, fulfill our environmental management 
commitments.
    Mr. Chairman, I have just painted a rather rosy picture, a 
bright picture. And while there is a lot of good news to 
report, there are other hard conversations that we need to 
have. As you are well aware, there are approximately 120 sites 
in 39 States that are storing spent nuclear fuel or high-level 
waste. Every member on that dais has waste in your State. We 
have a moral and national security obligation to come up with a 
long-term solution, finding the safest repositories available.
    Listen, I understand this is a politically sensitive topic 
for some, but we can no longer kick the can down the road. As a 
former legislative appropriator, as an agency head, as the 
Governor, I understand following the rule of law is important. 
I have been instructed to move forward towards that goal. The 
President's budget requests $120.7 million to resume licensing 
activities for the Yucca Mountain nuclear waste repository and 
to initiate a robust interim storage program.
    Now, in addition to that challenge, Congress has spent $5 
billion, taxpayer dollars on the MOX project that is way over 
budget with no end in sight. The Army Corps of Engineers 
estimated a cost of $17.2 billion and a completion date of 
2048. The money appropriated for this project is money that 
could be used towards other priorities, like national security 
or cleanup at other sites. There is a better, there is a 
cheaper, there is a proven way to dispose of plutonium. In 
fact, we are already doing it.
    I look forward to having an ongoing dialogue with many of 
you about these tough but important issues in the days and the 
months to come. This budget proposal makes some difficult 
choices, but it is paramount that we execute our fiduciary 
responsibility to the American taxpayer.
    The President's proposal prioritizes the core mission of 
the Department by consolidating duplications within our agency 
in order to respect the American taxpayer. He deserves credit 
for beginning this discussion about how we most wisely spend 
our scarce Federal resources.
    As for me, this isn't my first rodeo. During my 14 years as 
Governor, I managed some tight budget circumstances. And I will 
suggest successfully, Alison, and I will do the same as the 
Secretary of Energy. Faced with limited resources, Texas became 
a shining example of energy growth, economic growth, higher 
educational standards, and important improvements to our 
environment. And we did it by all working together, Democrats, 
Republicans, folks that didn't want to be associated with 
either political party for that matter, but they loved their 
State. And just like you in this room, we love this country and 
we will find the solutions together, because we will set clear 
goals. We will manage the best and the brightest to achieve 
those goals and we will spend those scarce resources wisely.
    So with your help, I believe we can attain many positive 
outcomes at the Department of Energy on behalf of the American 
people.
    I thank you again for the opportunity to be in front of 
you, and I will attempt to answer your questions as well as I 
can.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Mr. Simpson. Thank you, Mr. Secretary.
    My first question was going to be to ask you about your 
vision for the Department of Energy, but I think you pretty 
much described that in your opening statement.
    Secretary Perry. Thank you.
    Mr. Simpson. So I will forego that question and get into 
some specifics. I was glad to see that you put money into, as I 
said in my opening statement, into Yucca Mountain. That is 
something that this committee has put money into for the last 
several years, and it always gets dropped in conference between 
the confrontation, I guess is the best word, between the House 
and the Senate on this issue. I noticed you also put money in 
for interim storage.
    First of all, despite the current law, the previous 
administration shut down the activities at Yucca Mountain. And 
can you briefly discuss your plans to move forward with Yucca 
and what you can do now to get things going while we await the 
additional funds from Congress? And tied with that is, what do 
you plan to do on interim storage when the current law and the 
thing that keeps us from moving there--and you mentioned how 
you always want to follow the law--but the law says licensing 
conditions for interim storage. Any license issued by the 
commission for a monitored or achievable storage facility under 
this section shall provide that, one, construction of such 
facility may not begin until the commission has issued a 
license for the construction of the repository under section 
115(d), on and on----
    Secretary Perry. Yes, sir.
    Mr. Simpson [continuing]. At Yucca Mountain.
    Secretary Perry. Yes, sir. Thank you. I am not sure there 
is an issue that is any more politically sensitive. I mean, you 
all have been dealing with this for years. But I think it is 
important for us to step back and look at the kind of the 
global aspect of--and I think it is so important for the 
Members of Congress to be substantially a part of this 
solution, because it is your citizens that have the most to 
lose if we continue to leave this waste in your districts. And 
in sites that are--Mr. Aguilar and I were just talking, over in 
the Inland Empire you are right next to a nuclear facility.
    When I was at Fukushima and we were talking about both the 
construction and the geology, if you will, the geography as 
well, and having those spent fuel rods in those cooling ponds 
in a region of the world that is inside that ring of fire, as 
they call it, and the potential to have a geologic event, and 
we could have a repeat of what happened at Fukushima to some 
degree. I mean, we have a moral obligation, as I said in my 
remarks, to remove this from as many of these sites as we can 
and put it in the safest repository.
    I went to Yucca. The first trip I took as the Secretary was 
to go to Nevada, to see that facility, to talk to the men and 
women that have been working on it for, in some cases, decades, 
and recognize that that is the proper place for long-term 
storage.
    So for us to do our duty, to follow the law, to put a plan 
into place, I think it is very important, Mr. Chairman. And the 
funding of NRC is important, because their licensing process, 
you know--from my perspective, this is a--this is a dual track. 
We need to be doing what we are doing, stand up the office, 
move towards having an orderly transition back to following the 
law, while the NRC is following their licensing. You can kind 
of help me on this one, but their funding is not in our----
    Ms. Doone. Correct.
    Secretary Perry. They have their own funding, and so they 
will be over here asking you for that.
    Mr. Simpson. Yeah.
    Secretary Perry. But anyway.
    Mr. Simpson. Let me ask you, is there anything you can do? 
I would like to believe this budget will become the law of the 
land by October 1. I am not sure that is the reality, and we 
may end up in CRs and all sorts of things like that. We hope 
not, it is not our goal. Is there anything we can do between 
now and when this 2018 budget becomes law to help stand up the 
office and start moving forward on Yucca?
    Secretary Perry. We have some funds available to do that. 
And I am comfortable that that is our goal, to stand the office 
up, to clearly send the message that, that is the direction.
    You asked another question, Mr. Chairman, if I can briefly, 
you asked, rather, about interim storage. And I happen to be 
one of those that think that you can do and we should do both 
interim storage as we are working towards standing Yucca 
Mountain back up and getting it operational and following the 
law.
    The interim side of this, again, and I know we are going to 
talk about MOX later, but WIPP in New Mexico, a waste control 
specialist in the western side of Texas; those are both 
places--and I happen to think out at the Nevada test site--and 
again, I am not wanting to, stir something up here just for the 
sake of stirring something up, but if we are truly looking for 
the proper places to interimly store some waste, that test site 
has the potential to do that as well.
    And so there are a number of ways to deal with this. And I 
think it is so important to have the discussion with the 
Members of Congress so that they can share with their 
constituents why this is so important, that we move as much of 
this waste, whether it is transuranic waste or whether it is 
high-level waste, out of their districts to appropriate either 
interim, or in the case of Yucca Mountain, permanent storage 
sites.
    Mr. Simpson. I appreciate that. And I happen to be one that 
agrees with both interim and Yucca Mountain, that we need both 
of them. If we opened Yucca Mountain tomorrow, it would be 
filled if we put everything in there.
    Secretary Perry. Yes, sir.
    Mr. Simpson. So we have got to have interim storage. It 
would require to move forward with constructing an interim 
storage facility to changing the law. So we need to be working 
on that. So I know the Senate, Lamar and some others in the 
Senate, are working on some language. But anyway, we will work 
with you on that.
    Members, I am going to try to keep the questions to the 5-
minute rule, especially through the first round, because we do 
have many members here today.
    So, Marcy.
    Ms. Kaptur. Thank you.
    Mr. Secretary, I come from the industrial heartland, Ohio. 
Ohio, Pennsylvania, Michigan, Indiana carried for the 
President. And so my question really concerns the proposed cuts 
in advanced manufacturing, which bite very hard in our region.
    In my district alone, I represent the Ford EcoBoost engine 
manufacturing facility at Brook Park; the largest truck 
facility for Ford at Avon. This is their heavy truck facility, 
the 750s and so forth; General Motors premier transmissions 
facility globally at Toledo; the entire--the largest Fiat-
Chrysler manufacturing platform at Toledo for the Wrangler and 
Cherokee and so forth; and of course, major steel industries 
like ArcelorMittal, Republic, and U.S. Steel, which are 
undergoing enormous pressure because of dumping.
    I wanted to be direct--we can all get acquainted here. And 
obviously, you are from Texas, I am from Ohio. But your 
budget--the President's budget makes a 68 percent cut to this 
advanced manufacturing office at DOE. And I would really ask 
you, as we move forward with this budget, to work with us on 
this. Because when I spoke to one of the CEOs, and I am not 
going to tell you which one, for all North American operation, 
I said, what can I do to help you bring jobs back to this 
region? And his answer was, energy, energy. Find me a way to 
cut my costs in energy by one-third. By one-third.
    So we need--this is a tiny office compared to some of the 
other ones. But I just wanted to ask you where should I direct 
industries in my district if the energy audits and other 
support services that DOE currently offers, which are not 
sufficient, where are we supposed to send them?
    Secretary Perry. Ms. Kaptur, thank you. If there is one 
thing I have been a proponent of, and that is creating jobs and 
how to do it in States, and we--while I was a Governor, we were 
able to lure manufacturing jobs to the State of Texas, Toyota. 
As a matter of fact, every Toyota pickup truck--you know, there 
are lots of good brands of pickup trucks to drive. I am not 
picking them out. I mean, they were just a company that we were 
able to recruit and come to the State of Texas.
    And so I live and breathe competition every day. So I 
completely and totally respect what you have just said. With 
that, I would like to remind people that I am very--I am fairly 
versed in the budgeting process, and I know how this works. 
Again, it is the first time I have sat on this side of the 
table, but I know that the flexibility that you all can give to 
an agency head will be very, very helpful.
    So being able to prioritize where we focus our efforts, 
where we--being able to reduce duplication, being able to find 
places to save dollars, at the same time being able to deliver 
the product that the citizens want. Your constituents, I think 
they want to be able to know that there is an agency that, 
number one, is going to be responsive to their request, if it 
happens to be with energy efficiency or if it happens to be 
with--you know, is there a better way to deliver to your truck 
manufacturers some technology, innovation, partnerships? That 
is what we are going to be working on. Is it going to be in the 
structure that the previous administration or the previous 
administration from before them?
    Ms. Kaptur. Mr. Secretary, we invite you to the automotive 
heartland.
    Secretary Perry. Yes, ma'am, I will be there.
    Ms. Kaptur. We will have the CEOs all there.
    Secretary Perry. I want you to know--
    Ms. Kaptur. My time is running out, and I have to get in my 
second question, but I appreciate your openness.
    Secretary Perry. Yes, ma'am.
    Ms. Kaptur. I appreciate your openness and your support of 
private sector manufacturing.
    My second question, you know, you come from down the 
southwest. It was just 122 degrees in Arizona. And up where I 
live, we are up against the Canadian border. And as a 
representative from what is called the cold weather State, I am 
especially fond of the weatherization program which your budget 
zeros out. Here is another area where I think you need our 
help. And that particular program has weatherized over 7 
million homes and saved an average of $283 a year, which 
doesn't sound like a lot of money in Washington to the average 
consumer, but in my area, that is big savings. And the Mulvaney 
budget completely eliminates this program.
    So we hope that, as we move forward, that we will be able 
to resume the activities that we believe are very important for 
home weatherization in these older parts of the United States 
that are leaking energy. And we know that with good 
conservation we can save 40 percent of the energy we use, so it 
makes sense. I am sure as Governor you managed those programs.
    Secretary Perry. Ms. Kaptur, I--that is a statutory 
program. And the funding for weatherization has been cleared 
through our review process, and the 2017 budget and those are 
going forward.
    Ms. Kaptur. Thank you.
    Secretary Perry. And these are words that are going to make 
their way through the regular financial assistance system to 
get to the States. But I will assure you that I will work with 
you. We will come. And again, you are going to hear me say this 
a number of times here today, but I know--this is the first 
step in a long process. And I was a Governor long enough to 
know that Governor's budgets don't always come back to you the 
way that they start. And I think that is probably a fair 
statement.
    Ms. Kaptur. Thank you. Thank you very much, Mr. Secretary.
    Secretary Perry. Yes, ma'am.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    I heard--the Secretary mention Toyota. Obviously, I have 
fond memories of Toyota. They used to be in California.
    Secretary Perry. It is doing really well, by the way.
    Mr. Calvert. Yeah, I know.
    On the topic of Interim storage. I used to represent San 
Clemente, CA. Darrell Issa represents the area now. He has a 
bill on interim storage, H.R. 474. Obviously, this is a concern 
in California that he has mentioned to you. A concern to me and 
all Californians is getting that material out of California 
into a safe interim storage facility. At the same time, the 
Chairman mentioned we are going to do what we can in congress 
to resolve the Yucca Mountain licensing issue that has been 
festering here for a number of years.
    If you put together a program for--for interim storage as 
called for in your Budget request, I hope there are some 
facilities that are on the top of the priority list. I think 
California would be right up there, because of as you 
mentioned, the ring of fire and the earthquake zone. San 
Clemente is right there; Camp Pendleton is right there in the 
middle of that region. So I hope you would take a look at the 
possibility that some sites would receive priority for interim 
storage.
    Secretary Perry. Well, obviously, Mr. Calvert, we would 
rely upon a lot of the expertise there at the DOE from the 
standpoint of, you know, which is going to move first. And 
obviously, I would suggest you all may have a bit of a say in 
that as well. I know that Senator Feinstein has the same 
concerns that you do, and a supporter of moving that waste with 
the greatest expedition that we can.
    So again, you know, how you prioritize which of those you 
would move first, I will try to work with the experts on that. 
But I think what is more important is that we agree that it has 
to be moved first. I mean, I think that is----
    The other issue is hydrogen fuel cells. Secretary, a number 
of States have imposed zero emission vehicle standards on the 
industry. And as you may know, the fuel cell vehicle technology 
option is there. The State of California has been pushing that 
pretty hard. They are very bullish on hydrogen. Currently the 
technology is such that hydrogen fuel cell refueling areas, 
which could refuel about the same time as conventional gasoline 
engines, are feasible.
    Your budget has cut more than 50 percent for fuel cell 
activities, even though your Department has been pushing for 
fuel cell technology in the past. How do you feel about 
hydrogen as a potential fuel? And will your Department be 
working with industry to ensure a successful rollout of the 
hydrogen industry?
    Secretary Perry. Yes, sir. Mr. Calvert, I am--and the 
message that will come out of DOE is we are pretty much all of 
the above. Hydrogen being one of the all off the aboves. And I 
think working with our National Labs, working with our 
universities, working with the private sector--I am a big 
public-private partnership proponent, supporter. My 14 years as 
being the Governor, one of the reasons we were successful is 
that we, you know--inside that State, we removed the regulatory 
burdens. We tried to put tax structures into place. We worked 
towards having that skilled workforce so that those private-
public partnerships could flourish.
    And you will see us pushing a lot of our innovation, 
hydrogen fuel cells being one of those, to the private sector 
to try to commercialize those technologies. We think that is--
Ms. Kaptur asked the question earlier--or she didn't ask the 
question, she made the statement earlier about the reductions 
in late--in our late modeling of our projects. And the fact is 
that is where those need to be pushed out to the private 
sector.
    The early stage basic research, that is our core 
responsibility. That is what the DOE was set up for back in the 
late 1970s to do and going forward, and we will continue to. 
You know, I think we do need to have a conversation about late 
stage development and what is the appropriate amount of dollars 
that we spend. How do we coordinate that? How do we find the 
private sector partners to come in and then commercialize that 
and make it work? I would suggest we are probably--I mean, 
again, without having the experts here whispering in my ear 
that here is exactly where we are, my instinct is that hydrogen 
fuel cell technology is getting close to that point to being 
able to push it out to the private sector, to see if it is 
going to be able to stand on its own from the standpoint of a 
commercialized technology. If it does, it is another 
opportunity for us to create jobs. It is another opportunity 
for us to show the world our commitment to the environment. It 
is another opportunity for America to lead on this climate 
issue.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman. And thank you again, 
Mr. Secretary.
    I just want to say I appreciate your comments regarding 
interim storage sites, because as we know, Yucca Mountain is so 
controversial. And even if it is built, it is still a year away 
from being functional. And in my district, we have the Indian 
Point Energy Center, which is scheduled to cease operations in 
2021. And as I am sure you know, without a central repository 
or interim storage sites for the waste, the spent fuel rods are 
stored in dry casts onsite at decommissioned plants. And this 
is key because we are all talking about creating jobs and 
economic development. And these sites just cannot be 
redeveloped into productive properties because of the storage 
there.
    Secretary Perry. Yes, ma'am.
    Mrs. Lowey. So I just want to mention that I appreciate 
that. You are supportive, and I hope we can move forward.
    I wanted to ask you a question about our Nation's electric 
grid, because you and I know it must be upgraded to address 
reliability and security issues. And given the fact that the 
grid is arguably the most complex and critical infrastructure 
in our Nation, upgrading it will be a monumental challenge.
    How would your budget request address this issue? Have we 
anything to show for our recent efforts? What are the most 
pressing issues we should be addressing? And what kind of 
public-private partnership is the Department involved in to 
accelerate efforts for the grid of the 21st century? I must 
say, as you know, I am a New Yorker, and I often think about, 
oh my, what would happen if this grid goes down? So I 
appreciate your response.
    Secretary Perry. Mrs. Lowey, I think you are very prescient 
in having this issue at your forefront. And you are absolutely 
correct, the chaotic event, if we were to lose one or two of 
our grids in the northeastern part of the United States and a 
massive amount of people without electricity, without the 
ability to communicate, without our hospitals being able to 
operate, I mean, the stunning impact that it could have on our 
country, I am not sure that most Americans really understand 
the potential.
    And one of the core responsibilities at the Department of 
Energy, by an executive order that was signed by President 
Trump, with the Department of Homeland Security, being able to 
have a cybersecurity study to make sure that this country is as 
protected as it can be from individuals who would do harm to 
our citizens through compromising our electrical grid.
    There is--at this particular point in time, I want to 
bifurcate just a bit and talk about, there is a grid study 
going on now at the DOE to look at all of our ability to 
deliver electricity in a sound and a thoughtful and a stable 
way. And that is ongoing. We should be having that available at 
the end of the month. And that is a question about do we have 
the base load, or all of our different forms? Where does 
nuclear come into this? Where does our renewables play? What 
role does carbon capture, utilization, sequestration of coal 
plants have to play in the base load? And then are we going to 
be able to have a secure electrical grid, not just in the case 
of protecting it against nation states or bad actors out there 
that are digitally trying to penetrate into that. We have seen 
what happened to Saudi Arabia with Aramco. We saw what happened 
to Ukraine as there were some bad actors that attacked their 
power.
    And so DOE is comitted to that. When I was at Los Alamos, 
when I was at Oak Ridge and INL, you have a test grid at the 
chairman's lab. There is a lab, Mrs. Lowey, that is in place, 
that is an operational grid, where we literally can come in and 
break things and know how to patch them up or to keep those 
types of attacks from occurring.
    With that said, I have concerns--that is a priority, Mrs. 
Kaptur. I mean, grid security is a priority of the Department 
of Energy. It is one of the reasons that we have asked--well, 
that I will ask at the appropriate time on the funding side to 
make sure that that part of our responsibility is appropriately 
funded and making it as efficient and as effective as we can. 
Because you are absolutely correct, if we don't get that right, 
it can be devastating for our citizens.
    Mrs. Lowey. Thank you, Secretary Perry.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    Secretary Perry. Thank you, sir.
    Mr. Fleischmann. And thank you very much for stepping up 
and assuming this wonderful position as Secretary to the 
Department of Energy. And I thank you for all of your past 
service and current service, sir.
    As part of my representation of the people in the third 
district of Tennessee, I represent the great City of Oak Ridge. 
It is the birthplace of the Manhattan Project. We have Oak 
Ridge National Lab, Y-12 National Security Complex. We are 
building the uranium processing facility. We have a large EM 
mission. Literally, the city of Oak Ridge touches the 
Department of Energy in many ways.
    I also want to thank you for your visit. We had a great 
visit, and I appreciate you addressing all of the different 
issues we have there.
    If I may, sir, I have a few questions. Several years ago, 
the Department of Energy consolidated the management of the Y-
12 plant in Oak Ridge with Pantex in your great State of Texas. 
From what I understand, that effort is now reaping benefits 
through efficient execution of the mission for the Nation and 
has saved several hundred millions of dollars. It took a lot of 
foresight on the part of DOE to conceive of this contract. And 
while it has not always been easy, we are clearly seeing the 
benefits that we were promised.
    Do you envision those cost savings continued? Are you 
pleased with what you are seeing on the efficient delivery of 
the mission at Pantex and Y-12, sir?
    Secretary Perry. Yes, sir. There is a number of examples. 
All too often, we talk about the challenges that we face. We 
talk about, you know--we discuss or spend enough money in a 
particular line item and what have you. There--as I have become 
more and more familiar with the DOE's history and with their 
budgeting process, there are multiple examples of where we have 
been successful in what either you all or together we have come 
up with ways to be more efficient.
    I will take a little bit of a detour here, but the 
nonproliferation side. I mean, we are now--I think there are 40 
countries in Eastern Europe that no longer have highly enriched 
uranium because of the work that DOE has done, and so we are 
able to reduce the spending there. So there are a lot of 
successes. That is not to say we don't have these challenges, 
as you all are very good about pointing out. But the point is 
this is one of those, thank you for pointing out a success 
that, you know, all too often, government doesn't get patted on 
the back and say well done.
    Mr. Fleischmann. Thank you, sir.
    The uranium processing facility is a one-of-a-kind project 
that you recently visited at the Y-12 Security Complex. 
According to NNSA reports, it is close to the next phase. 
During the construction, UPF will require a sharp funding 
increase. Is the Department still prepared to build UPF at $6.5 
billion by 2025? If so, how do you plan to handle the top 
funding years, sir?
    Secretary Perry. Yes, sir. The NNSA remains committed to 
completing the UPF and ceasing the EU programmatic operations 
in that old building 9212 by, I think, no later than 2025, and 
at a cost of $6.5 billion. The commitment is contingent on 
predictable and stable appropriations, as requested in the 
budget. So it is--you don't hear this very often, but it 
appears on budget and on time.
    Mr. Fleischmann. Yes, sir. Thank you.
    Mr. Secretary, I am concerned that vital DOE missions to 
support the national security and economic security of our 
country are targeted for deep cuts or elimination in the budget 
proposal. It is important to note that national security and 
economic security often overlap in today's world. Few program 
examples that are funded through EERE and could not be 
duplicated by the private sector are dark net research project 
to protect utility customers and especially the electric grid 
from cyber attacks; the manufacturing demonstration facility, 
which you saw firsthand recently, that is helping U.S. 
manufacturers solve difficult problems and, as a result, 
flourish and add more jobs; the critical materials hub 
targeting the scarcity of rare metals that could pose at risk 
to technology.
    How does the Department plan to support critical projects 
within programs that are targeted for cuts, sir?
    Secretary Perry. Again, Mr. Fleischmann, this is a straight 
down the middle of the plate, this is about prioritization. 
This is about picking and choosing those projects out there and 
making sure that they are funded. And again, we may have a 
healthy discussion about your priorities versus my priorities 
versus, you know, President Trump's priorities.
    From my perspective, this is right down the line of which--
the way we get back to our core responsibilities at the 
Department of Energy. We fund those core responsibilities. We 
may not get every program that you and the members of the 
committee want to be funded at the level you want to be funded. 
But I am comfortable that with the right leadership, that we 
have a budget in totality that we can address the needs of this 
country, that we continue to be cutting edge technology.
    You know, we haven't even talked about exascale computing 
yet. I know it will come up here in part of the conversation, 
but there is a great example; we are probably going to ask you 
for more resources there.
    Today, we just found out, the United States is not number 
one in super computing. As matter of fact, we are not even 
number two. We are not even third. The Swiss passed us up 
today.
    Ms. Kaptur, I am not happy about the Swiss passing us up. 
That is like--well, I won't even get into a State to State. I 
will just get into trouble if I do that comparison.
    But the point is our future and our ability to be able to 
be competitive in the economic field, as well as the national 
security field, deals with this innovation. And our funding 
those innovations, our funding of those projects is important, 
but doing it in a way that is responsible and efficient.
    Mr. Fleischmann. Thank you, Mr. Secretary. I appreciate 
your responses.
    Mr. Chairman, I yield back.
    Mr. Simpson. Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman.
    Thank you, Ranking Member.
    Congratulations and thank you for being here, Mr. 
Secretary.
    I appreciate you mentioning California. I am going to keep 
my first question specific to NNSA. I won't talk to you about 
California and our GDP growth of 2.9 percent last year versus 
Texas at 0.4----
    Secretary Perry. I am not Governor anymore.
    Mr. Aguilar. I am not going to quiz you on those, or in 
2015 when it was 3 to 1.5 percent.
    I will ask you, following up with what Mr. Fleischmann 
talked about with NNSA--and I know Ranking Member Kaptur 
mentioned it too--the budget that was submitted shows a 
significant increase in fiscal year 2018. There are significant 
reductions in other parts of DOE's budget, including the 
science accounts that were highlighted. But my question here 
is: Many of the labs that are funded through the science 
accounts also support the nuclear mission. Will this shift in 
funding out of science and into weapons activities undermine 
the nuclear enterprise and nonproliferation goals in the long 
run?
    Secretary Perry. The short answer is no. But you need to 
hear more than just no. And the point is that, again, I ask you 
humbly to allow me to show you I know how to manage. And I am 
not asking that just in the dark. I mean, I have got a 14-year 
record of being able to manage a rather large entity. And it 
wasn't all blue skies and smooth sailing. We had massive 
turndowns in the early 2000s in my home State of Texas. We had, 
I mean, a huge, 15, 20 percent, budget shortfall in totality. 
And so knowing how to move those parts of the puzzle around--
that is not to say that everything is going to be whole cloth. 
But it is to say that I am going to work with you, sir, to find 
the resources to consolidate, to be able to show you that we 
are working in really good faith to meet the requirements, to 
meet the desires of the Members of this Congress--or this 
committee and of Congress and the general public and to be 
responsive to the taxpayers. So I am comfortable we can do this 
in a way that does meet our nonproliferation requirements, that 
does meet this lifetime extension program effort that we need 
from our national security standpoint and to continue to have 
the innovation and technology that can drive our economy.
    Mr. Aguilar. Thank you, sir.
    My second question: You talked about, in your response to 
Mrs. Lowey, about cyber attacks and with respect to the grid 
and outages seen in Ukraine, you highlighted, in 2015. In 
recent days, we have seen reports of hackers reportedly aligned 
with the Russian Government developing cyber weapons, dubbed 
Crash Override and Industroyer, which could potentially disrupt 
the U.S. grid. Our modern, internet-based, internet-connected 
economy depends on a stable, efficient electrical grid for its 
productivity. With growing reports of cyber intrusions, many 
likely sponsored by foreign governments seeking ways to damage 
the ability of our grid to function, why has the DOE chosen to 
reduce funding for the cybersecurity and energy delivery 
systems, that line item, by 32 percent from previously enacted 
levels of 2016 and 2017? How would this affect the DOE's 
ongoing cybersecurity efforts in the energy sector?
    And before you answer, you mentioned current labs and 
exercises being done throughout the country. Those labs and 
those exercises are being done based on fiscal year 2016 and 
fiscal year 2017 investments. Why shouldn't we make similar 
investments in fiscal year 2018 if this is a priority?
    Secretary Perry. Yes, sir.
    Number one, it is a priority. And the President's executive 
order clearly made it a priority. Here is what I would ask you 
and the committee members to keep in mind, that just because 
there is a line item that says--and has a particular name in it 
and a particular direction, that we somehow or another are just 
going to back away from that effort. We are not. When I sit 
here before you and commit to you that we are going to put into 
place the resources in both the dollars and the staff that is 
required to make America as secure from a cyber attack 
standpoint as we can, that is what we will do. Does that mean 
we are going to have to, move dollars around in a budget and 
prioritize? Yes. That is exactly what it means.
    And, again, I know that this budget is the first step in 
the process. But I shared in my opening remarks that the life 
extension programs over at NNSA with our weapons system, that 
exascale computing, that cybersecurity, those are three of--not 
all of, but three of--the most important responsibilities that 
the Department of Energy has. And we are going to work with the 
private sector. We have got three of our labs that are part of 
what is called CyberCorps. And they are working on the 
cybersecurity issue now. We are in the process of talking to 
private sector entities that have deep tentacles into the cyber 
world. So my hope is that we are going to be able to leverage 
some private sector funding with our funding to find the 
solutions to these challenges on cybersecurity that confront 
us.
    Mr. Aguilar. A lot of questions and more follow up, but I 
am out of time. Thank you so much. I appreciate it, Secretary.
    Mr. Simpson. Thank you.
    Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chair.
    Mr. Secretary, it is a pleasure to have you with us. I have 
a couple of questions. I am going to attempt to get through 
them and then throw it open to you--
    Secretary Perry. Yes, ma'am.
    Ms. Herrera Beutler [continuing]. And request your 
comments, if that is possible. And they are a little divergent, 
but I want to get them all in.
    The first one is regarding Hanford and the nuclear site. My 
district is downstream of Hanford. So, for me and my 
constituents, the cleanup effort is vital to protecting the 
Columbia River and southwest Washington communities from the 
millions of gallons of nuclear waste currently stored in 
underground tanks at Hanford. And, as you know, last month, 
thousands of Hanford workers had to take cover after a Cold 
War-era tunnel used to store contaminated, radioactive 
materials collapsed, which led to mass evacuations and serious 
concerns about contamination. Thankfully, no radiation was 
detected. But this kind of scare highlights how important it is 
that we get this work done.
    And I would like to underscore this is a Federal Government 
responsibility. We talk a lot about taxpayer dollars. It does 
cost money to get this taken care of. But this wasn't something 
this community did on its own. This was a Federal Government's 
wartime effort. So it is our responsibility to take care of 
this and take care of it well.
    I know that you have received an invitation to come out to 
Hanford. I am sure my colleague will reiterate that. We invite 
you to come. It is important. And I wanted to just ask for your 
commitment to maximize the Federal Government's role in 
cleaning up this site in a safe, effective manner. And let me 
move on really quickly, and then we can come back.
    The Bonneville Power Administration. The proposed budget 
calls for divesting the transmission assets of Bonneville Power 
Administration. And I will tell you I love how the President is 
focusing on infrastructure and getting America working again. 
It is music to my ears. This is an area where I believe--that I 
would submit for your consideration that BPA is self-financed 
and has made in excess of $32 billion in payments to the 
Treasury by selling power. And a quick $4.9 billion sounds like 
a lot. But that credit from the divestiture of those assets I 
think would be a poor tradeoff. Much of my district is rural 
and sparsely populated, but they receive reliable power because 
of the Bonneville Power Administration infrastructure. And the 
ratepayers of our region are the ones that pay for that. And so 
I wanted to ask if you had taken a position on BPA's 
divestiture of the transition assets.
    And, finally, there are reductions--and I agree with you, 
Mr. Secretary, every area of this budget should be combed, this 
budget and across the Federal Government, because we should be 
finding waste or inefficiencies. And I applaud the President 
for looking at that. One area where I want to submit for your 
reconsideration would be with regard to hydropower. You know, 
there are reductions in the budget for the Department's water 
power program. And in southwest Washington producing clean, 
reliable, efficient hydropower has been a staple of our energy 
supply since the early 1940's. And to cut the Federal 
investment in hydropower is concerning for our region, in part 
because it is such a good--I mean, to replace the Bonneville 
Power Administration, what they generate would take about 16 
coal-fired plants. And here we have this amazing renewable 
energy source. And on a global scale, China plans to invest 
$360 billion in renewable power generation by 2020, including 
$73 billion for hydropower alone. I just feel like they are 
gobbling up assets in this area, and they want to eat our lunch 
and pop the sack. And we need to take this back, especially 
when we are talking about a renewable, load-bearing source of 
energy.
    So that is a lot to throw at you. But I wanted to get all 
three of those in because they are so important to my neck of 
the woods. And I thank you for your time.
    Secretary Perry. Yes, ma'am.
    Let me address the first one, and that is Hanford. This is 
one of those classic examples of the Federal Government working 
with the State government working with the local government. I 
mean, the agreement that has been signed there, particularly 
working with Governor Inslee, and going forward, not only do I 
look forward to coming out to your district to tour Richland 
and the Hanford site and to get a really good, hands-on look, I 
have been briefed relatively extensively about the project out 
there, about the progress that is being made. You know, I hope 
to be out there before the summer is up. But then in 
September--I think it is in September, this fall, at least, you 
know, you are going to celebrate a pretty big milestone in the 
above-grade demolition of the old plutonium finishing plant. 
That is going to be completed out there. So, you know, 
retrieving and packaging that highly radioactive sludge that is 
stored in the basin along the river on the central plateau, for 
instance, I mean, they are making some good progress. I mean, 
none of us like to have to deal with when, you know, Murphy and 
Murphy's law comes into place and something happens and you 
have to deal with it, that kind of came out of left field, with 
the tunnel collapsing. But, again, I think we got to see the 
real professional response, and no one was--you know, there was 
no individual harmed by that activity. So our continued focus 
on the cleanup, which is the Federal Government's 
responsibility, obviously coordinating with the local State 
government and doing it in a way that is appropriate, that 
remediation is going to take some time. But this country is 
committed to it. We will continue to do that.
    The second thing you asked about, which was the power 
agencies, I will be brief on this one. That is an interesting 
idea that has been discussed many times before, and I look 
forward to the continuing discussion and debate. So you make 
some very strong arguments about what they are doing, how they 
function.
    And just on hydro in general, just let me say, we will work 
with you, and the agency will be very open to your ideas and 
your directives relative to--I agree with you that we need to 
be looking at all-of-the-above energy approach and not taking 
anything--you know, unless it is just a straight-up economic 
issue, if it just won't work, it won't work--but not for any 
political reasons do we need to be removing any sources of 
energy. We are going to need them all to be competitive.
    And there are good points you make about the Chinese and 
what they are doing and what they appear to be committed to. So 
we have got our challenges out there. And I think taking a 
source of energy, particularly good, clean, low-emission, no-
emission energy, off of the playing field is not wise for a lot 
of reasons.
    Ms. Herrera Beutler. Thank you.
    With that, I yield back.
    Mr. Simpson. Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Secretary Perry, welcome to the Appropriations 
Subcommittee. My colleague from her district downstream 
mentioned Hanford. And I am proud to say that my congressional 
district is home to Hanford as well as the Pacific Northwest 
National Laboratory, as well as many other companies that work 
very closely with the Department of Energy.
    We only have a few minutes here, but I want to make sure 
and just reiterate that you are cordially invited to come and 
visit. It sounds like you have plans to do so this fall 
perhaps. As a followup to my earlier invitation, just let me 
say I will work with you in your schedule to make that happen 
and look forward to doing that.
    A couple of things I wanted to touch on, and there are 
several more that we will submit for the record as well. As you 
know, there are approximately 56 million gallons of waste held 
in temporary underground storage tanks at Hanford, and adequate 
funding is certainly going to be needed to continue to design 
and construct the waste treatment plant. The request provides 
$8 million for WTP commissioning, although additional funding 
will also be needed as commissioning and startup begins.
    What do you envision WT's funding needs will be, 
particularly over the next 5 years, in order to meet the court-
mandated timeline for its full operation by 2026?
    Secretary Perry. Mr. Newhouse, my instinct here, is that 
looking 5 years down the road--or, for that matter, looking 9 
years down the road--is always a tricky thing in this business. 
But I would suggest to you that the funding levels that we see 
currently are most likely the minimum that would be required to 
reach the goals that they are looking for.
    Mr. Newhouse. I certainly appreciate your underscoring the 
Federal Government's legal and moral obligation here, and then 
that answer helps as well.
    As I said, also, the Pacific Northwest National Laboratory 
is in my district, and I am very proud to be able to say that. 
It is a powerhouse of innovation in addressing pressing 
national challenges. So, as you can understand, I am very 
concerned about the impact of the President's proposed budget 
as it relates to the PNNL. If enacted, the budget cuts of 
approximately $200 million, let me just tell you what that 
means in human terms: That would be a loss of about 1,000 jobs.
    So let me just ask, as you talked about earlier in your 
opening comments, what is your vision for ensuring the 
Department's strong, vibrant science and energy programs, and 
with those cuts, how does the administration plan to maintain 
our position as a world leader in scientific research?
    Secretary Perry. Yes, sir. Mr. Newhouse, as I said in my 
opening remarks, the commitment to science, to innovation, to 
technology, that is a major priority, obviously, and will 
continue to be. I might just add that I made mention of three 
laboratories that we are working on that that will be tasked--
already are tasked, but will be prioritized as we go forward on 
the issue of cybersecurity. PNNL is one of those.
    So your concern about your constituents, your concern about 
the observation that there could be massive loss at a lab, I 
don't necessarily agree with that reflection. And the reason I 
don't agree with that reflection is because it doesn't take 
into account our being able to manage, our being able to use 
year-end expended balances. It doesn't take into account--I 
think it is a very cold look, if you will, and I don't want to 
belabor that word. But I think it is just a very sterile look 
at: Here is what the budget says, here is going to be the 
result.
    You know, my intention--you know, there is not any of these 
labs that are going to be shut down, obviously. These labs are 
going to be continuing to be the future of this country from 
the standpoint of innovation and technology. I am comfortable 
that we will manage these labs in a way that continues to keep 
the employment levels at the level to deliver the innovation 
and the technology that this country is going to need. So I 
fully respect your concern and, rightfully so, as an elected 
citizen to represent your constituents. But I hope I can give 
you some good comfort that, from a management standpoint, we 
are going to do everything we can to make sure that we keep our 
labs functioning at the level of which I think the American 
citizens need and deserve.
    Mr. Newhouse. I appreciate that commitment on your part and 
look forward to working with you----
    Secretary Perry. Yes, sir.
    Mr. Newhouse [continuing]. To make sure those don't equal 
the drastic numbers of loss of human resource.
    Secretary Perry. Yes, sir.
    Mr. Newhouse. So I appreciate that.
    Secretary Perry. Yes, sir.
    Mr. Newhouse. Thank you, again, for being here, and look 
forward to your visit in September.
    With that, Mr. Chairman, I yield back.
    Mr. Simpson. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman.
    Good afternoon, Secretary Perry.
    Secretary Perry. Yes, sir.
    Mr. Joyce. Just before, you brought up the study you 
initiated in April to explore the critical issues central to 
protecting the long-term reliability of the electric grid. I 
understand the study will examine the evolution of wholesale 
electricity markets, adequate compensation for onsite fuel 
supply, and other factors that contribute to grid resiliency, 
and the effect of the continued regulatory burdens on base load 
power plants.
    I think the more we know here, the better. So I am glad to 
hear your Department is conducting this study. The safety and 
security of our communities depend on the resiliency of the 
electric grid. As you said in your April memo about this new 
study, we must provide American families and business with an 
electric power system that is technologically advanced, 
resilient, reliable, and second to none.
    In my district, the Perry Nuclear Plant has played a 
critical role in the economy of eastern Lake County for 
decades. The 1,284-megawatt power plant employs more than 700 
workers and, in 2016 alone, contributed $14 million in State 
and local taxes to support local schools, police and fire 
departments, and other vital public services. The Perry plant 
is one of the largest plants of its type in the U.S. and 
produces enough electricity to power more than 1 million homes 
daily.
    Mr. Secretary, what potential problems or challenges would 
our Nation face should our base load power plants, particularly 
our nuclear plants, be shut down?
    Secretary Perry. Mr. Joyce, not just our nuclear plants, 
but I think any plants that are able to run that base load, we 
need to give appropriate oversight and concern about from the 
standpoint of keeping them operating.
    And I think it is 122 degrees somewhere in Arizona today. I 
know, yesterday, it was 117 degrees in Las Vegas. We may get a 
test this summer from the standpoint of our reliability. I hope 
that is not the case. I hope we don't see, brownouts in your 
home State, Mr. Calvert, or, for that matter, in my home State. 
But it is the preparation that we do today. It is the--not 
picking winners and losers from a political standpoint, but 
looking at, how do we make America's energy reliable, 
affordable, and sustainable? We know that requires a base load 
capability that can run 24/7.
    You know, and with that said, we are all of the above. You 
know, nobody expanded wind energy more than we did in the State 
of Texas while I was Governor. We became the number one wind-
energy-producing State in the Nation. As a matter of fact, we 
produce more wind than all but five other countries. So I 
understand about having that diverse portfolio.
    But base load, if we are going to continue to reach out to 
companies and say--yesterday, I was with Secretary Ross, and we 
had a foreign direct investment conference. And we are talking 
to individuals from around the globe about coming to the United 
States and investing in our country and all the different 
opportunities that were there. If we cannot guarantee them that 
when they build a $1.8 billion facility here, that the power is 
not going to be available 24/7, then we are not going to be 
successful in that. So, not only is this about, as Mr. 
Fleischmann said, our national security, it is also about our 
economic security--and not shying away from and not trying to 
pick winners and losers. Just let the facts fall where they 
may, that if you are in the coal side of things, you are in the 
natural gas side of things, if you are in the nuclear side of 
things, you are in the hydro side of things, you are in the 
wind side of things, you are in the solar, or whatever other 
renewable that we would be looking at, we are going to need all 
of these. But it is really important, from my perspective, that 
we don't shy away from and talk about how important base load 
and that guaranteed base load is if we are going to be 
successful economically in this country.
    Mr. Joyce. And for what it is worth, Mr. Secretary, as Ms. 
Kaptur pointed out, we live in sort of a cold area of the 
country up there in Cleveland where we get the snow that comes 
down through Canada. And so, while we now require the air 
conditioning that you point out, we will also require a lot of 
heat. We have been darn close to brownouts because of the 
shutting down of the coal plants. And the ability to produce 
energy and have a grid that can maintain it and hold all that 
is produced from wind and the other ways we got it is very 
critical, as you well know, to the United States. So I applaud 
your efforts in taking this challenge forward.
    I have exceeded my time, and so I can't yield any back to 
you, Mr. Chairman. Thank you.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Secretary, good afternoon. Thanks for appearing before 
us. I am sorry I didn't have the benefit of your earlier 
testimony. I got here as quickly as I could.
    I understand, though, that you made some very firm comments 
about MOX. I have a number of items here. I would like to go 
through them----
    Mr. Perry. Yes, sir.
    Mr. Fortenberry [continuing]. And perhaps you could respond 
one at a time.
    I applaud that. And this is not meant to be an indictment 
of anybody's past judgment as to how we were going to deal with 
spent fuel and in agreement with the Russians. But, 
nonetheless, year after year, we have sat on this committee and 
committed millions of dollars each year to something called 
cold storage. Well, that is a cold decision. It is not getting 
us anywhere. It is a waste of money where there are significant 
other priorities. And, as you said, some sort of orderly 
process to wind this down, perhaps some appropriate transfer of 
the facility to another use, in fairness to the people of that 
State, is absolutely necessary.
    Now, there is an issue in trying to secure the proper 
location in New Mexico. There is a residue of some type of 
complicated commitment to the Russians. That is a dynamic here 
that I would suggest perhaps we can go into another time. That 
is one consideration.
    The second, though, is related to the last comment. Is 
there any remnant of scientific cooperation between the 
Department and the Russians continuing? This is a legacy 
program that goes back to Nunn-Lugar, where the opportunity 
presented itself to try to secure dangerous loose nuclear 
materials. It is a proxy, potentially, for other--if it is even 
possible--reestablishment of some working relationship with 
that country. That is difficult to say in this moment. I get 
that. It is my understanding this is all but dead. I would like 
to hear if there is any remnant of cooperation going.
    Third, the International Atomic Energy Agency, its mission 
is developing in a very important, critical way. It is moving 
from just standard for nuclear security to a verification 
mission, which I think is absolutely essential. Now, like the 
Iran agreement or not--I didn't vote for it. Many people voted 
for it. Some voted against it. Many of us voted against it. 
Nonetheless, they are playing a critical role right now in 
assuring verification. And if we could ever break the impasse 
with North Korea, I would anticipate the IAEA would play a 
critical role as well. I think a continuing emphasis in 
investment in that important multilateral institution is not 
only in our own national security interests, it is in the 
absolute interest of international stability. If we are going 
to try to be a leader in nonproliferation, I think this is a 
gateway to doing so.
    I will stop there. And I have a few others, if we have 
time.
    Secretary Perry. Let me just quickly address the issue of 
MOX. And in my opening remarks, I made comments about that it 
is--and, again, I am like you. I have been here for coming on 5 
months, and previous decisions, previous Congresses, previous 
Secretaries of Energy, I don't want to cast any aspersion on 
them at all. I have got a job to do. And we have analyzed this. 
And I cannot in good faith say that going forward with that 
program is wise in a number of ways, the least of which is not 
from a financial standpoint and from the fiduciary 
responsibility that we have.
    Dilute and dispose is a process that is proven, and it is 
substantially cheaper. Again, you know, I have had pretty 
lengthy conversations with Senator Graham, and will continue 
to, and the delegation from South Carolina. There are some, you 
know, possible legacy programs where the people of South 
Carolina won't feel like that, you know, here you have--you 
know: Thank you, Federal Government. You have strung us along 
here for these many years, and you are going to jerk this out 
from under us.
    But the more important part of this is that we do have a 
process that works. I think WIPP has already taken five of 
those deliveries. And so you asked if we have had any 
conversation with the Russians. And they announced in, I think, 
October of last year and then they reiterated in May of this 
year that they were suspending the PMDA and based on a number 
of strategic issues unrelated to the disposition of plutonium. 
But they basically have--from my perspective, they walked away 
from the deal. And so any useful discussions at this particular 
point in time, I think, are----
    Mr. Fortenberry. It is over.
    Secretary Perry [continuing]. Useful--excuse me, useless.
    Mr. Fortenberry. There is no conversation going on?
    Secretary Perry. That is correct. And the----
    Mr. Fortenberry. IAEA.
    Secretary Perry. Oh. Well, I can tell you I agree with your 
comments. I think that, you know, a relationship with them, 
continual engagement with the IAEA, for a lot of different 
issues, not the least of which is JCPOA, and----
    Mr. Fortenberry. If I could make one suggestion, Mr. 
Secretary, even though the door with the Russians is locked, 
and, again, in this climate, and this--or it is shut, let me 
put it that way.
    Secretary Perry. I think that is a better descriptive term. 
It is just--it may not be. There may be a crack. Who knows.
    Mr. Fortenberry. Yeah. Because once we get through the 
current political turmoil and tensions, again, the cooperation, 
potentially, on loose nuclear materials, and the whole 
architecture of nonproliferation is going to depend, obviously, 
on other key international players, including the Chinese. And 
residues of cooperation on spent material can serve, I think, 
as a proxy to potentially rebuilding relationships in addition 
to being important in and of itself.
    Secretary Perry. Yes, sir. And I am not sure you were in 
when I made a statement about one of the successes that we have 
had at the DOE is in our nonproliferation. I think there is 
some--is it 30 countries? Forty. There are 40 countries that 
have had that highly enriched uranium removed. And so we have 
got some good stories to tell out there about the 
nonproliferation side of what we have been conducting.
    Mr. Fortenberry. Hopefully we will continue to project 
significant leadership in this area. There is a Nuclear 
Security Working Group here in Congress, just for your 
information. We look forward to----
    Secretary Perry. Yes, sir.
    Mr. Fortenberry [continuing]. Potential dialogue with you 
on creative policies that continue to show leadership in this 
area.
    Secretary Perry. Consider it done.
    Mr. Fortenberry. Thank you.
    Mr. Simpson. Thank you, Mr. Fortenberry.
    And thank you for bringing up MOX. I knew you probably 
would. Now let me tell you the other side of the story.
    The past administration has proposed shutting down MOX and 
going to dilute and dispose. We have asked for the last couple 
of years for the Department to give us a rebaselining of MOX. 
They failed to do so. So we have a hard time comparing what the 
costs are. And I can tell you that when they did the cost 
estimates--this is a statement more than it is a question.
    Secretary Perry. Yes, sir.
    Mr. Simpson. When they did the cost estimates and they said 
dilute and dispose is going to cost X much versus something 
else, I can tell you that is not an accurate comparison, 
because there is a lot of things that they left out of the cost 
of dilute and dispose, such as transportation, such as keeping 
WIPP open and the long-term storage at WIPP, and so forth. My 
concern has been--and I am not advocating for MOX. I am not 
advocating for dilute and dispose. I want to do things in the 
most economical way possible.
    One, we do have a treaty with Russia. Russia did not walk 
away from the treaty. They asked to go to a fast reactor rather 
than the MOX facility in Russia, and we agreed. If we are going 
to walk away from the treaty with Russia, then let's declare it 
and just walk away from it. But let's not try to go around it. 
We have got to do one of the two. We have got to talk to the 
Russians at some point in time.
    Secondly, have we got the okay of the State of South 
Carolina?
    Thirdly, do we know that it can go into WIPP? While they 
have put small quantities of the same type of material in WIPP 
so far, that was authorized at the beginning. I don't know that 
all of the material that MOX is supposed to take care of can 
fit in WIPP without additional land withdrawals. If so, have we 
talked to the State of New Mexico? Are they okay with this? How 
about the two Senators from New Mexico? Are they okay? The one 
thing I do not want to have happen, as has happened so often 
with agreements with the Department of Energy and when they 
have moved down these paths, because these are long-term 
things, that 10 years from now, the chairman of this committee 
will be sitting here going: Well, we shut down MOX, and we got 
racquetball courts there, and they are real pretty--because 
that is how we can repurpose that building, make beautiful 
racquetball courts; I don't know what else you would do with 
it--but we shut down MOX. The State of New Mexico is holding us 
hostage. The State of South Carolina is fining us. And the 
State of New Mexico says: Well, we will do a land withdrawal, 
and we will go along with that okay, but we want every road in 
New Mexico paved.
    I don't want to be held hostage to that. And before we walk 
away from something that we are in the middle of, we ought to 
have the plan to move forward and be sure that we can do it. 
Otherwise, we will be sitting here in 10 years with our fingers 
in the air wondering what the heck we are doing and where we 
are going to go next. It is not that I am opposed to dilute and 
dispose. But I think you have got to have an honest cost 
comparison. And I do believe that you have to do an honest--I 
talked to some people at the MOX facility: 70 percent complete. 
Talked to some DOE people: 10 percent complete.
    Now, wait a minute, somebody is wrong here.
    Secretary Perry. Yes, sir.
    Mr. Simpson. So we need an honest assessment of what this 
is going to be. And I think to--we talk about cost overruns. I 
mean, I look at this budget. Frankly, and we are asking for--
what is it? Let me see if I can pull it up real quick.
    Oh, it is in your phone.
    Yeah. Last year, we required you to, when you do your 
budget, to give us a 5-year budget plan for NNSA. I suspect 
that will be coming. Last year, the 5-year budget plan that 
puts out what the budget request is going to be for the next 5 
years, 1 year later, this year, is $225 million above what it 
was last year. Cost overrun, I guess you could call it that. I 
don't know. But we will be looking forward for a cost estimate 
for the 5 year for the NNSA, in the near future, when you 
provide that to the committee.
    The second thing I would like to talk about for just a 
second is nuclear energy in general. I do have some concerns 
with the budget because it is going to be difficult to be 
supportive of the license renewals that are going to be 
necessary for the current reactor fleet while also providing 
support for the next generation of nuclear reactors under the 
current budget. You talked about the need for the base load, 
and nuclear energy is obviously one of the things that provides 
an environmentally friendly, no-hydrocarbon-emission base load 
that is absolutely essential, I think, for the future.
    What is your strategy for ensuring that our research 
infrastructure provides adequate support for our current 
nuclear technologies while also enhancing the technological 
advances for the future reactor fleet? And along that same 
line, I was glad to see you put $10 million in here for 
developing the technical capabilities that would be needed for 
developing a fast reactor. I really think we need a fast 
reactor in this country. If we had a fast reactor, we wouldn't 
be talking about dilute and dispose or MOX.
    Secretary Perry. Yes, sir.
    Mr. Simpson. You know? So, anyway.
    Secretary Perry. I think your focus on nuclear energy from 
the standpoint of small modular reactors may be the next gen, 
if you will, the next generation, that can take us to where--I 
am not sure--well, yes, I am. I am sure you cannot go forward 
with these massive, big nuclear energy power plants that cost, 
you know, $6-plus billion. That is not feasible. We see the 
problems that we have with it now.
    I think for America to be stable in the nuclear, civil 
nuclear side of things--and the civil nuclear side of things 
goes to our ability to have our national security both--not 
only in the form of a steady form of energy, but also the 
technology that is driven in the civil nuclear side is also--
will be driving our weapons technology, as well, and vice 
versa. And, I mean, one of my great concerns about what is 
happening and Westinghouse and the challenges that we have 
there, knowing that the Chinese and the Russians are more than 
happy to step in, around the world, and take on the mantle of, 
``We will build your nuclear plants for you,'' because, you 
know, America doesn't have the ability to do that. You know, 
two plants down in the southern part of the United States, they 
couldn't finish those. So, you know: Trust us; we will be there 
for you.
    That is a really bad message, and it is a really bad advent 
if that is where we end up. And my goal is that is not where we 
end up, that we, obviously, find the solutions for the 
Westinghouse issue in the short term and the long term, and we 
transition in this country to small modular reactors. That is 
being developed out in your part of the world. And, you know, 
we got--and, again, we are at the point, I think, Ms. Kaptur, 
when we talk about--we have been investing in NS on the basic 
research side, and Mr. Gates and NuScale, they are at the point 
of being able to move this to the commercialization side of it. 
And I think if we are successful and we continue to support the 
small modular reactor, that it can be a game changer in the 
nuclear side of things and bring America back to a preeminent 
role as leaders in the technology and innovation and nuclear 
energy.
    Mr. Simpson. Thank you, Mr. Secretary.
    And I didn't mean to sound so vehement on MOX. I am just 
saying that there is always--everybody always looks at it as 
just a cost issue----
    Secretary Perry. Yes sir.
    Mr. Simpson [continuing]. And there is more to it.
    Secretary Perry. I don't disagree.
    Mr. Simpson. And every year in conference between the House 
and the Senate, this becomes an issue between us. And I have 
always said: Hey, I am willing to go there, but you got to 
answer these questions for me, and you got to show me that you 
got an agreement with the State of New Mexico, and you got to 
show me that South Carolina is going to be okay with this. And 
you got to show me that you at least talked to the Russians; if 
not talked to them, then decided that we are going to walk 
away.
    Secretary Perry. I don't want to get in trouble.
    Mr. Simpson. One of those two. I know what you mean. So I 
appreciate that.
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your time today. I was glad to 
hear you talk about the issue of civil nuclear power 
production. I come from a State where this is a big issue. 
Congressman Joyce and I understand it well. And I really 
believe that the sort of current solution, which is let these 
sick fish fall on the States, isn't working. And someone has to 
think about the defense industrial base of this country and the 
component supply chain relative to that. And I would hope, as 
you think about this sector--and I have encouraged the industry 
to think about some of the workouts that we have had in other 
troubled sectors, including the automotive sector. I am 
concerned about what I see happening out there, and I don't 
really see a workable solution yet. And I am concerned about 
it, and I represent a region heavily impacted by it. It 
provides opportunity. But I don't see the leadership that I 
think is necessary to really help us to stabilize this 
industry.
    Maybe I am wrong. Maybe I just haven't talked to the right 
people. But I have talked to a lot of people. So I think your 
leadership might be vital.
    In terms of the discussions up here on base load power, we 
agree that investments in energy storage are critical. In terms 
of the study that will evaluate future technologies, such as 
distributed--will distributed energy and storage be a part of 
that study for the base load power work that is being done?
    Secretary Perry. Yes. I mean, the short answer is yes and, 
this goes back to what we happen to think, and I have for some 
time, well before I took this current position I am in, that 
storage is kind of the Holy Grail. And if we figure out how to 
store energy, at that particular point in time, it gives us 
such a broad, but, again, we don't yet, and there is still 
research going on. There is still Jell-O being thrown at the 
wall, so to speak. But, you know, we support that.
    Ms. Kaptur. Thank you. I may be the only member of this 
panel that is concerned about the Strategic Petroleum Reserve. 
But I do want to make a comment about it. And I don't want us 
to be a country that is penny-wise and pound-foolish. We have 
been at war 16 years now, and one of my objectives in serving 
on this subcommittee is to make sure that we aren't just 100 
percent energy independent here at home, but 125 percent. Okay? 
So that is my goal.
    The Strategic Petroleum Reserve has played a role. We know 
that every time gasoline goes over $4 a gallon in this country, 
we go into deep recession; my part of America gets really 
walloped hard. And so I become very uncomfortable with 
proposals to sell off the majority of crude oil. A, we are at 
war. B, we have real enemies. And we can't anticipate what will 
happen in the future. So I just wanted to say that I have a 
concern about this particular proposal in your budget. You are 
on the National Security Council. You can raise a lot of 
questions there. But I am very uncomfortable with this. So I 
just wanted to express that opinion. You don't have to answer 
any questions.
    I think it is a mistake. And it is certainly a mistake to 
sell it at low prices. But when you are at war, I think that 
you can't anticipate what is going to happen out there.
    Secretary Perry. Ms. Kaptur, not as much to answer, I am 
very familiar with that facility because part of it is in Texas 
and part of it is in Louisiana. There are four of them and I 
think the idea of being able to consolidate down to two rather 
than four, there is some sensibilities about that because of 
the cost to upkeep.
    But here is another--this is coming back to you and the 
committee more as a question about what do you all think about. 
If we consider pipelines to be a form of storage, if you will, 
if there is crude oil in a pipeline, then I consider that to be 
again, this is not apples and oranges but if your point is we 
need to have this access to our crude that we have control of. 
The world has changed in the last 10 years, and America's 
ability to go retrieve these molecules, these hydrocarbon 
molecules, from places that we never thought we could get them 
prior to 10 years ago because of hydraulic fracturing and 
directional drilling. And so, and, again, I think the Dakota 
Access pipeline, full, is like 5 million barrels. If we are 
building more pipelines in this country so that we have better 
transportation and we have connectivity and we have the ability 
to deliver product to different places and economic development 
comes because of that and what have you, then maybe that does 
soften a little bit your concern about, you know, reducing some 
of the supply.
    I am not asking, you know, for an answer here. I am just 
saying, should we think about that as an opportunity? My role 
is to look at ways that we can consolidate that we can save 
some money. This may be one of them. Just a statement.
    Ms. Kaptur. Thank you.
    Secretary Perry. Yes, ma'am.
    Ms. Kaptur. Thank you very much. I think we need more 
review on that one. And I appreciate your openness.
    Let me ask the Department, in terms of how you will respond 
to congressional inquiries as Secretary, is there a policy that 
you have been given or guidance that would prohibit you or 
delay responses if, for instance, I were to send a letter over 
to the Department of Energy, versus our chairman, someone who 
is on a subcommittee or a full committee? So is there any 
guidance that has been given that you must adhere to that we 
might not be aware of?
    Secretary Perry. My history as a chief executive, being the 
Governor of the State of Texas, is when a member of the 
legislature asked me for something, I got it to them on a 
timely basis. I have no reason to think that, quite frankly, 
any reason, if you send a letter asking for information to the 
Department of Energy, and you didn't get a response, I hope 
what you will do is call me first, and then we will go find out 
who didn't write you back in a timely way.
    Ms. Kaptur. Okay. But there is no policy or guidance 
prohibiting or delaying responses to Democratic Members of 
Congress?
    Secretary Perry. You know, I used to be a Democrat.
    Ms. Kaptur. We will invite you back at the right moment.
    Secretary Perry. I was going to tell you: There is still 
time for you, ma'am.
    In all seriousness, not at all. If you find that the agency 
is not responsive, seriously, a phone call to me is all that 
will be required.
    Ms. Kaptur. Thank you.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    You mentioned the small module reactors. As a Nation, we 
have spent a considerable amount of resources into research on 
fusion. I know that the results from that have been less than 
spectacular. But, as you know, you were in France recently, we 
have a Project ITER, international thermonuclear reactor, that 
we have put a lot of resources into--and along with a number of 
other nations. I just bring this up hoping at some point in the 
future we can resolve this issue of fusion--which, you know, 
from President Eisenhower on, we have been looking to resolve.
    On the issue of computer capability. I would assume, and I 
would hope, that the Department of Energy works closely with 
NSA and the Department of Defense on what they are doing to 
develop computer technologies and I hope there are no 
redundancies in research that is being conducted as far as that 
is concerned.
    Secretary Perry. Mr. Calvert, I wanted to turn over here 
because I want to give you some numbers that I think are really 
important about exascale. And you are absolutely correct. And 
it is not just about, you know, wanting to wear the crown of 
having the fastest computer with the most capacity. What our 
national labs and the partnerships that we see out there, and I 
will give you one example of something that I would suggest 
every one of you is supportive of, and that is our veterans. 
The national labs are partnering with private sector and with 
other agencies of government, because of this massive computing 
capability that we have and our ability to keep up, whether it 
is on the NNSA side with our weapons, or the VA who came to us 
last year, well before I got there. My support of veterans is 
known. When I found out that we had the potential here--it is 
called the Million Veteran Project. We are asking 1 million 
veterans to give blood and volunteer their medical records so 
that we can do DNA testing. VA is running that program using 
DOE computing capability so that we are going to be able to 
tell a million veterans: Such as a young female military 
veteran, who has a DNA marker for breast cancer or for cervical 
cancer, or a young man who has the potential in his DNA marker 
for prostate cancer and how they could prepare for that. I 
mean, this is really life-changing and a quantum leap forward 
from a medical standpoint, from my perspective. And DOE's 
computing capability is a quality of life issue for our 
citizens. And then you take it over into the scientific side, 
there is this issue of fusion that you talked about. And, you 
know, again, that is kind of a Holy Grail on the side of 
energy, as well that we have been pursuing for a long time. But 
our supercomputing capability may be what allows us to crack 
that. And so our investment in that is really important. We are 
requesting $508 million. That is $249 million over fiscal year 
2017 to accelerate the delivery of an exascale computer by 
2021. That is going to Argonne. And then by 2022, there is a 
second machine going to Oak Ridge. And it is totally different 
architecture. I mean, that is kind of the fascinating thing, is 
so you have got exascale, which is going to Oregon; then you 
got the next gen, which is going to Oak Ridge. That will, 
again, put the United States in its rightful place, from my 
perspective, as being the most technically advanced 
supercomputing Nation on the globe.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Fleischmann--or, Mr. Aguilar. Sorry.
    Mr. Aguilar. No problem. No problem. Happens all the time, 
Mr. Chairman.
    Mr. Simpson. You are so far down there.
    Mr. Aguilar. It is like a 5-9 caucus he and I occupy. Don't 
worry. Yeah.
    Voice. You guys look alike, right?
    Mr. Aguilar. I appreciate it.
    Thank you, Mr. Secretary.
    I wanted to get specific on something I saw in an appendix 
to NNSA. A recently released GAO report raised some concern 
about cost estimates associated with our nuclear modernization 
programs and said they might be understated. I will use the B61 
life extension program, B61-12, as an example. One cost 
estimate produced by NNSA Office of Cost Estimating and Program 
Evaluation points out that it could cost $2.6 billion more than 
previous estimates to complete this program. But the original 
baseline from NNSA's fiscal year 2017 Stockpile Stewardship and 
Management Program Plan was just released in March of 2016.
    So here is my question: The discrepancy between these, in 
such a small window of time, do you feel that program cost 
estimates provided by the Office of Cost Estimating and Program 
Evaluation show that it is improving the program and it needs 
to change or expand? As a followup, what are some of the 
implications to the variety that we see in the cost estimating?
    Secretary Perry. Mr. Aguilar, let me get back with you on 
that----
    Mr. Aguilar. Sure. We can put something into the record and 
ask----
    Secretary Perry. I want to give you an answer, but I can't 
because I am not privy to the discrepancies there.
    Mr. Aguilar. Sure. And we will put it into the record----
    Secretary Perry. Yes, sir, please.
    Mr. Aguilar [continuing]. And ask your staff to get back to 
us.
    Sticking with nonproliferation, the fiscal year 2018 budget 
shows a reduction in these programs, as we have highlighted. 
Will these reductions continue in future budgets? The chairman 
alluded to a multiyear outlook that the agency will provide. 
Does this say anything about U.S. policy towards nuclear 
nonproliferation? And is NNSA--do you feel this sets us down 
the right path?
    Secretary Perry. Here is one of the things, and I mentioned 
this earlier, that because of our successes that we had with 
some of the nonproliferation programs and I think the backing 
out of those, and what I am talking about are 40 countries and 
the eastern European countries that have had successful 
reductions of that highly enriched, and materials removed from 
them, that there is some reductions in the nonproliferation 
budget because we have been successful.
    Now with that said, I am not telling you that going forward 
we are going to continue to have reductions. What I will tell 
you is that the agency is as committed to nonproliferation as 
its ever been. We will manage the dollars and we will manage 
the programs and, obviously, working with the Members in 
Congress, in a way that is acceptable to you and to our 
partners in this.
    Mr. Aguilar. I appreciate it. Thank you.
    Continue down to the electrical grid that we have discussed 
about. As we have talked, the electric power system is vital 
and efficient to our economy and the capabilities of our 
system. The smart grid improvements are widely considered 
essential. DOE has changed the smart grid research and 
development program to the resilient distributions system 
program and decreased its budget by 71 percent, compared to 
fiscal year 2016, enacted, and 80 percent from fiscal year 
2017, enacted.
    Given those considerations, can you talk about the 
rationale for the proposed reduction under this category, the 
smart grid category?
    Secretary Perry. Yes, sir. Obviously, managing the agency, 
and again, I go back to I hope that the committee will have 
some flexibility when it comes to being able to move dollars 
around line item to line item. I am a big supporter of smart 
grid. We did some major projects in the State of Texas.
    You know, I think one of the things that we do need to do 
is, not necessarily from just a straight up funding standpoint, 
but best practices go back to the States and have the Governors 
and the legislators aware of the programs that are out there to 
be able to let them manage their grids in particularly smart 
meters and those types of technologies that we can get out into 
their hands.
    So to answer your question about are we going to be able to 
address the smart grid, you know, the smart meters, the 
different innovations and technologies, I feel comfortable that 
we will. And again, this being the first step in this budgetary 
process, I feel comfortable.
    Mr. Aguilar. I appreciate your answer. And this is the 
second time you have mentioned, you know, the flexibility. And 
I want to let you know and convey that I trust your management 
ability, but I do feel, you know, there are rules within the 
committee, and that is between the ranking member and the 
chairman and your agency, on how money gets moved around based 
on those priorities.
    Secretary Perry. Yes, sir.
    Mr. Aguilar. That is why we take this budget process so 
seriously.
    Secretary Perry. Yes, sir.
    Mr. Aguilar. That is why we dig in and we want to get this 
right, because we want to give the guidance to your agency so 
you don't have to come and ask for movement. But that is your 
prerogative and we trust that leadership. So thank you so much. 
I appreciate the time.
    Secretary Perry. I look forward to working with you, sir.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to thank you for a very 
positive, insightful, and thoughtful hearing today. And my 
colleagues on both sides of the aisle, I think we did an 
outstanding job. And we have touched on the depths and the 
breadth of all the different things that the Department of 
Energy touches, so I want to thank everybody for that.
    An important issue I promoted, Mr. Secretary, for years is 
a closer working relationship to alleviate some of the 
Department of Energy's unintended consequences on local 
communities, especially sites that are close to population 
areas. Land transfers, aging infrastructure, like the Oak Ridge 
water plant, and environmental challenges require a closer 
partnership between DOE and its host communities. I would like 
to see the Department do more.
    Mr. Secretary, will you and your staff work with me to 
encourage innovative solutions and more effective partnerships 
between the Department offices under you and our local 
community, sir?
    Secretary Perry. Yes, sir. And, you know, having visited 
with Oak Ridge and both spent the night there and driven 
through the community and recognizing how it is not unlike what 
I think I am going to see when I go to Richland. These are 
communities that are symbiotic. The city of Oak Ridge and the 
Y-12 facility, the uranium processing facility, exist because 
of each other. And I think having a respect, both ways, is 
really important. And you have my commitment that not only am I 
going to be open to your suggestions, but the Mayor of Oak 
Ridge, the Governor of Tennessee, and the Congressman that 
represent that area, to manage the challenges, but to also 
recognize the extraordinary potential that is there for those 
communities as well as to coordinate with them and not be 
making decisions unilaterally. There is a great opportunity and 
I am very open to let's talk.
    Mr. Fleischmann. Mr. Secretary, thank you so much. And it 
is mutual. You will find that not only from me, from our 
Senators, and also from our local communities and elected 
leaders. Thank you, sir.
    Mr. Chairman, I will yield back.
    Mr. Simpson. Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate the extra time here so we can 
really drill down into some deep parts of the Department's 
responsibilities.
    I wanted to talk a little bit about the building 
technologies office, which as you probably know, has saved many 
Americans, over time, billions in energy costs. It certainly 
has been able to bring together a collaboration between, in my 
State, the University of Washington, WSU, as well as the 
Pacific Northwest National Laboratory in helping connect 
campuses to test energy savings technologies.
    So could you talk a little bit and explain how these 
programs are going to be able to continue under the current 
budget proposal in order to see the benefits in both private 
and public sectors?
    Secretary Perry. Yes, sir. And I will be pretty brief and 
straight to the point here. You know, these funding opportunity 
announcements that will continue to come out of the agency and 
working with the local universities, and the private sector, 
you know, are we going to have a reduction of the total number 
of dollars? Yes. But I think that is where it gets down to us 
working together and prioritizing what are the real core 
missions of the Department of Energy, and are these projects, 
you know, worthy to go forward?
    And I did that, Mr. Newhouse. As the Governor of Texas, we 
had a number of programs, both with emerging technology, in 
particular, where we had basically a private sector review 
board that looked at the projects, made the decisions about, 
you know, whether or not they should go forward and did they 
meet the standards that we put in place. I know we have a group 
not unlike that. I may want to fine tune it. I may want to, you 
know, ask for the input of the committee here as we go forward 
as we do that. But we will continue to be looking.
    I think the core mission of the Department of Energy is to 
promote innovation and technology. I understand the NNSA's role 
and what they have to do, but those National Labs, and working 
in concert with our universities and the private sector out 
there, they have the potential to continue to really make a 
difference in people's lives. Does that mean we are going to 
get every one of these projects right? Does it mean that every 
one of these is going to, you know, commercialize into some 
great next big thing? No. But I think it is our responsibility 
and I think it is our duty to continue to look for the ways to 
promote innovation, technology. And, you know, that is my 
philosophy.
    I am historically used to doing it and, you know, not every 
project is going to get funded. I understand that. And I look 
forward to folks coming forward with their best ideas and their 
best ideas about how to fund these projects, and then we will 
collectively make a decision about what direction we will go.
    Mr. Newhouse. I appreciate that.
    I also had one question too on payments in lieu of taxes, 
the PILT program that has been in place for many decades. I 
believe it is significantly reduced or even eliminated at least 
four counties surrounding Hanford reservation. Could you talk 
about your philosophy there and perhaps the rationale behind 
that?
    Secretary Perry. Well, since I didn't completely write all 
of this budget, sir, I will, in that particular area, if you 
will allow me the flexibility one more time to get back to you 
and give you an appropriate answer, rather than just taking a 
wing at it here.
    Mr. Newhouse. Okay. We will have a lot of time to talk when 
we are touring the Hanford site.
    Secretary Perry. Yes, sir. That we will. Yes, sir.
    Mr. Newhouse. All right. Thank you, Mr. Secretary.
    Mr. Chairman.
    Mr. Simpson. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman.
    Mr. Secretary, I am troubled that the United States no 
longer has any capacity to enrich uranium, and the current plan 
is not to restore this capacity for 21 years. Do you agree that 
uranium enrichment is vital for our national security, and that 
restoring enrichment capacity in the near term is in the 
national interest?
    Secretary Perry. As a general rule, yes, sir, I do. I think 
that, from a national security standpoint, that having the 
ability to do that is in our national security interest.
    With that said, I think we have a fairly robust stockpile 
at this particular point in time. But if we are to go forward 
with these life extension programs and, for that matter, on the 
civil nuclear side, we are going to have to have a conversation 
here in the Halls of Congress about when and if and how that 
does go forward.
    Mr. Joyce. Well, if, in fact, you were going to have that 
conversation, there are certainly some fellow Buckeyes in 
southern Ohio, from the Piketon plant, who would love to have 
that conversation with you, as well as Ms. Kaptur and Mr. Ryan, 
who are also on appropriations.
    Secretary Perry. Yes, sir.
    Mr. Joyce. Thank you. I yield my time back.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Secretary, I just want to turn very briefly back to 
MOX. What I don't want to see--please, I am just lowering your 
temperature--what I don't want to see is what the chairman 
alluded to, another conference committee this year that says, 
oh, well, we just couldn't make a decision and let's put 
another $300 million more into it, when we have got all kinds 
of other places to park that kind of money for important 
national values and objectives.
    So to the chairman's point, we don't want to waste money; 
the projection of the project is very tenuous. Yet the deeper 
answers just seem to be allusive, will New Mexico take it. Is 
there a dormant agreement with the Russians which will be 
complicated by this? Is the fast reactor a more medium-termed 
decision that could unwind some of the complexities of this?
    Why don't we just make a commitment quickly to get some 
answers to these things so we have a true cost comparison 
versus treading water, throwing more hundreds of millions of 
dollars at it, with an ever increasingly remote possibility 
this thing will ever get built. I think that is just the best 
thing to do.
    Secretary Perry. Yes, sir. And to direct answer that, that 
is what we are attempting to do. I mean, we are----
    Mr. Fortenberry. Okay. We have got about 90 days.
    Secretary Perry. Right, I understand that. And I have had 
multiple meetings. I have been on the job now since the 2nd day 
of March. And MOX is--I know more about MOX than I ever thought 
I would and ever wanted to know, to tell you the truth.
    Mr. Fortenberry. Well, I feel the same way. I am just going 
down line items, what is this?
    Secretary Perry. That is beside the point. You are 
absolutely correct that we as a country need to get the 
answers. We need to know how much this is going to cost with 
some amount of certainty.
    And, Mr. Chairman, you are right. I mean, it is stunning 
the difference in the numbers that you can get. You know, the 
Corps of Engineers has their estimates. And, you know, I want 
to sit down with the contractor, and you know, Senator Graham 
shares with us this is what the contractor has said that they 
can get this done for. And then we have letters that basically 
do not agree with that. So--
    Mr. Fortenberry. Well, you can imagine our frustration----
    Secretary Perry. Yes, sir. We need to get some people in a 
room and figure this out.
    Mr. Fortenberry. Okay. The second point. Back to 
nonproliferation. We have also had this conversation last year. 
This is a hallmark, I think, of smart, prudent public policy to 
have an accent mark on the--again, an architecture for 
nonproliferation. If one of these things goes off in the world, 
it doesn't matter the healthcare debate, it doesn't matter the 
budget. Just one. And the purpose of a nuclear weapon is to 
prevent nuclear war. And so yet nuclear weapons are back. 
China's increasing, Russia's increasing, we know the situation 
in North Korea. And other areas of the world, actually, over 
the last 25 years, thankfully, have pulled back from the 
precipes, leaving us with spent nuclear material, leaving us 
with dangerous material out there. And a number of these 
programs have been very successful in pulling that back, which 
again is related to mitigating a terrorist threat. But it all 
gets combined, I think, into creating a culture in which this 
is a decided priority, and we project that on the international 
stage.
    So in that regard, please, let us think creatively with 
you. I completely agree with the last administration's emphasis 
on nuclear security summits. I think those were successful. 
They began to get more and more multilateral buy-in to the 
issue of securing material, but it also creates, again, the 
gateway of the raising of consciousness internationally as to 
just how dangerous of a situation we are entering into with 
international stability and more and more weaponization and the 
technology readily coming out of the bottle.
    Secretary Perry. Yes, sir.
    Mr. Fortenberry. So if there is one thing that you can do 
as Secretary to pull us back from this precipes, we will do 
whatever we can to creatively think with you. I think that is 
the most valuable thing we could do together.
    Secretary Perry. Yes, sir. Consider us being a partner.
    Mr. Fortenberry. Thank you, sir.
    Mr. Simpson. Thank you.
    That was a good idea. If you have a MOX summit, I will be 
there, because we have been debating this for so long and we 
need to make some final decisions. But I would point out that 
we don't save $340 million by not funding MOX. There is still 
$270 million in there for cold storage, so--and put it in cold 
standby or whatever. So it is a perplexing problem. And Mr. 
Alexander, Chairman Alexander and I have spent a lot of time 
debating and arguing and so forth. I understand where he is 
coming from, he understands where I am coming from, but we need 
to make some decisions.
    Secretary Perry. Yes, sir.
    Mr. Simpson. We need to make some decisions on that. We 
need to make some decisions on a few other things that are 
perplexing within the complex.
    And I want to tell you that we when you decide to go to 
Hanford, I would be happy to go with you. That is a great place 
to go. I know a great restaurant. We can have some good times. 
You know, everybody--when we think about Hanford, we always 
think about the cleanup, and it is huge cleanup issues up 
there. But we forget about PNNL. PNNL is a great laboratory. It 
does some great work. So I was glad to see that Mr. Newhouse 
brought that up.
    But thank you for being here today. We look forward to 
working with you as we go through and address some of our 
concerns and some of your concerns within this budget, that we 
will get a budget that you can work with and do the job that 
you have been hired to do. We appreciate it. Thank you.
    Secretary Perry. Thank you, Mr. Chairman. Thank you, 
members.
    Mr. Simpson. The meeting is adjourned.
    [Questions and answers submitted for the record follow:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    
    
   
    
   
</pre></body></html>
